No. _______________
In The

Supreme Court of the United States
___________

HARRIS COUNTY HOSPITAL DISTRICT,
Petitioner,
v.
PUBLIC UTILITY COMMISSION OF TEXAS AND
SOUTHWESTERN BELL TELEPHONE COMPANY D/B/A
AT&T TEXAS,
Respondents.
___________

On Petition for a Writ of Certiorari to the Court
of Appeals of Texas, Third District
___________

PETITION FOR WRIT OF CERTIORARI
___________

THOMAS R. BRAY
Counsel of Record
1318 Glourie Drive
Houston, Texas 77055
(713) 827-1760
tom@brayandassociates.com
LAURA BECKMAN HEDGE
Assistant County Attorney
1019 Congress, 15th Floor
Houston, Texas 77002
(713) 274-5137
Laura.Hedge@cao.hctx.net
June 8, 2021

Counsel for Petitioner

i
QUESTIONS PRESENTED FOR REVIEW
Since Matsushita Elec. Industrial Co. v. Epstein,
516 U.S. 367 (1996), federal circuits, and state courts,
have been split on the scope of a collateral review of
class action judgments. The question presented is:
Whether, or in what circumstances, the scope of the
collateral review of an alleged absent class member’s
collateral attack on a class action judgment, comports
with the Due Process Clause.
Whether, or in what circumstances, a cy pres award
of class action proceeds, which provides no direct
benefit or relief to class members, comports with the
Due Process Clause.
Whether, or in what circumstances, a “fail-safe”
definition for a settlement class, which is conditioned
on the paramount liability question, comports with the
Due Process Clause.

ii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
The parties to the proceeding in the court whose
judgment is sought to be reviewed are Harris County
Hospital District; Public Utility Commission of Texas;
Southwestern Bell Telephone Company d/b/a AT&T
Texas.
Pursuant to Rule 29.6 of the Rules of this Court,
Petitioner Harris County Hospital District is a
governmental entity, therefore, no corporate
disclosure statement is required.
RELATED PROCEEDINGS
A.

Direct Case

This case arises from the following court proceedings:
● Harris County Hospital District v. Southwestern
Bell Telephone Company d/b/a AT&T Texas,
Cause No. 2010-28461, in the 333rd Judicial
District Court of Harris County, Texas. Order
sustaining plea to the jurisdiction in part and
abating remainder of claims entered February
1, 2011.
● Harris County Hospital District v. Public Utility
Commission of Texas; Southwestern Bell
Telephone Company d/b/a AT&T Texas,
Intervenor, Cause No. D-1-GN-15-005808, in the
250th Judicial District Court of Travis County,
Texas. Final order entered October 30, 2017.
● Appellant, Harris County Hospital District //
Cross-Appellants, Public Utility Commission of
Texas and Southwestern Bell Telephone
Company d/b/a AT&T Texas v. Appellees,

iii
Public Utility Commission of Texas and
Southwestern Bell Telephone Company d/b/a
AT&T Texas // Cross-Appellee, Harris County
Hospital District, Case No. 03-17-00811-CV, in
the Court of Appeals for the Third District of
Texas. Opinion and judgment entered May 3,
2019. Reported at Harris Cty. Hosp. v. Public
Utility Com’n, 577 S.W.3d 370 (Tex. App. –
Austin, May 3, 2019, petition denied).
● Petitioners, Harris County Hospital District v.
Respondents, Public Utility Commission of
Texas; Southwestern Bell Telephone Company
d/b/a AT&T Texas, Intervenor, Case No. 190709, in the Supreme Court of Texas. Order
denying petition entered November 13, 2020,
and order denying motion for rehearing entered
January 22, 2021.
B.

Collateral Case

The Direct Case involves a holding by the above Court
of Appeals that the judgment entered in Jose Mireles
and Patricia Genuchi v. Southwestern Bell Telephone
Company is a res judicata bar to Petitioner’s claims.
Since AT&T’s res judicata defense arises from the
Mireles proceeding, and Petitioner’s collateral attack
responds to AT&T’s res judicata defense, Petitioner
has additionally listed this court proceeding and direct
appeals therefrom below:
● Jose Mireles and Patricia Genuchi v.
Southwestern Bell Telephone Company, Cause
No. 98-07-3003-E, in the 357th Judicial District
Court of Cameron County, Texas. Order and
final judgment nunc pro tunc entered May 22,
2000.

iv
● Appellants, Michael Northrup and Homer Max
Wiesen v. Appellees, Southwestern Bell
Telephone Company, Jose Mireles and Patricia
Genuchi, Zavaletta and Livesay, and Lynn
Stodghill Melsheimer & Tillotson, Case No. 1300-00377-CV, in the Court of Appeals for the
Thirteenth District of Texas. Opinion entered
February 21, 2002. Reported at Northrup v. Sw.
Bell Tel. Co., 72 S.W.3d 16, (Tex. App. - Corpus
Christi 2002, pet. denied improvidently
granted) and Northrup v. Sw. Bell Tel. Co., 72
S.W.3d 1 (Tex. App. - Corpus Christi 2001, no
pet.)
● Petitioners, Michael Northrup and Homer Max
Wiesen v. Respondents, Southwestern Bell
Telephone Company, Jose Mireles and Patricia
Genuchi, Zavaletta and Livesay, and Lynn
Stodghill Melsheimer & Tillotson, Case No. 190709, in the Supreme Court of Texas. Order
denying petition as improvidently granted
entered January 30, 2004.
There are no other “directly related” court
proceedings within the meaning of this Court’s Rule
14.1(b)(iii).

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW ................ i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT ................................................... ii
RELATED PROCEEDINGS........................................ ii
A.

Direct Case ................................................... ii

B.

Collateral Case ...........................................iii

TABLE OF CONTENTS.............................................. v
TABLE OF AUTHORITIES ...................................... xii
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS AND ORDERS BELOW .......................... 1
JURISDICTIONAL STATEMENT ............................. 1
CONSTITUTIONAL PROVISION INVOLVED ......... 2
STATEMENT OF THE CASE..................................... 2
A.

Background .................................................. 2

B.

HCHD Filed Suit Against AT&T for
Reimbursement of Unauthorized
“Municipal Charges” .................................... 3

C.

HCHD Subsequently Brought its
“Municipal Charge” Claim to the
Agency Having Exclusive Original
Jurisdiction .................................................. 5
1. The Administrative Law Judge
Denied AT&T’s Res Judicata
Defense, and Set the Case for Trial
on the Merits ........................................... 7

vi
2. The Commission Reversed the ALJ,
and Ordered HCHD’s Claim Barred
by Res Judicata ....................................... 8
D.

On Appeal, the District Court
Reversed the Commission’s Order ............ 10

E.

The Opinion and Judgment of the
Court of Appeals Reversed the
District Court ............................................. 11
1. The Court’s Review of HCHD’s
First Issue: Lack of Subject Matter
Jurisdiction ........................................... 11
2. The Court’s Review of HCHD’s
Second Issue: HCHD’s Legal
Representation ..................................... 15
3. Constitutional Due Process was
Discussed by the Court of Appeals,
But Not Applied.................................... 15

F.

HCHD Appealed to the Texas
Supreme Court, Which Denied
Discretionary Review ................................ 17

REASONS FOR GRANTING THE PETITION ........ 18
I.

Governmental
Entities
have
Substantial Interests That Compete
with The Interests of Individuals and
Non-Governmental Entities ..................... 18

II.

Governmental Entities Have a Right
to Due Process............................................ 21

III. Circuits are Split on the Scope of the
Standard of Collateral Review of an
Absent Class Member’s Collateral
Attack on a Class Action Judgment .......... 26

vii
IV. Cy Pres Settlements That Provide No
Direct Benefit to Class Members Are a
Denial of Adequate Representation
and Denial of Due Process......................... 34
V.

Binding an Absent Class Member to
Fail-Safe Class Definition for a
Settlement Class Is a Denial of Due
Process........................................................ 35

CONCLUSION .......................................................... 38
APPENDIX
(A) Harris Cty. Hosp. v. Public Utility Com’n,
577 S.W.3d 370 (Tex. App. – Austin, May 3,
2019, petition denied) ....................................... 1a
(B) Harris County Hospital District v. Public
Utility
Commission
of
Texas
and
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Judgment (Texas Court
of Appeal, Third District, May 3, 2019) .......... 24a
(C) Harris County Hospital District v. Public
Utility
Commission
of
Texas
and
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Denial of Motion for
Rehearing (Tex., January 22, 2021) and
Denial of Petition for Review (Tex.,
November 13, 2020) ......................................... 26a
(D) Harris County Hospital District v. Public
Utility
Commission
of
Texas
and
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Final Order (250th
Judicial Dist. Ct., Travis County, Texas,
October 30, 2017) ............................................. 28a

viii
(E) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Order (Public Utility
Commission of Texas, October 8, 2015) ......... 30a
(F) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, SOAH Order No. 28
(State Office of Administrative Hearings,
April 13, 2015) ................................................ 38a
(G) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Order on Interim
Appeal (Public Utility Commission of Texas,
April 9, 2015) .................................................. 40a
(H) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Transcript of Open
Meeting (Public Utility Commission of
Texas, March 26, 2015) .................................. 44a
(I) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, SOAH Order No. 24
(State Office of Administrative Hearings,
January 15, 2015) ........................................... 52a
(J) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Transcript of
Prehearing Conference [EXCERPT] (State
Office of Administrative Hearings, October
31, 2012) .......................................................... 57a
(K) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Order Sustaining Plea

ix
to the Jurisdiction in Part and Abating
Remainder of Claims (333 Judicial Dist. Ct.,
February 1, 2011) ........................................... 60a
(L) Jose Mireles v. Southwestern Bell Telephone
Company, Order and Final Judgment Nunc
Pro Tunc (357th Dist. Ct., May 22, 2000) ........ 62a
(M) Jose Mireles v. Southwestern Bell Telephone
Company, Findings of Fact and Conclusions
Of Law (357th Judicial Dist. Ct., June 27,
2000) ................................................................. 70a
(N) Harris County Hospital District v. Public
Utility
Commission
of
Texas
and
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Harris County Hospital
District’s Motion for Rehearing from Denial
of Petition for Review (Texas Court of
Appeal, Third District, May 3, 2019) .............. 78a
(O) Harris County Hospital District v. Public
Utility
Commission
of
Texas
and
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Harris County Hospital
District’s Brief of Appellant/Cross-Appellee
(Texas Court of Appeal, Third District, May
3, 2019) ............................................................. 97a
(P) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Harris County Hospital
District’s Response to SOAH Order No. 28
(State Office of Administrative Hearings,
April 13, 2015) .............................................. 154a
(Q) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Affidavit of L. Sara

x
Thomas (Public Utility Commission of
Texas, December 22, 2014) ........................... 216a
(R) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Harris County Hospital
District’s Formal Complaint (Public Utility
Commission of Texas, March 16, 2012) ....... 217a
(S) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Defendant’s Plea to the
Jurisdiction and Motion to Dismiss
Plaintiff’s Original Petition (333 Judicial
Dist. Ct., June 24, 2010) ............................... 241a
(T) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Defendant’s Original
Answer (333 Judicial Dist. Ct., June 4, 2010)
........................................................................ 256a
(U) Harris County Hospital District v.
Southwestern Bell Telephone Company
d/b/a AT&T Texas, Plaintiff’s Original
Petition (333 Judicial Dist. Ct., May 6, 2010)
........................................................................ 261a
(V) Jose Mireles v. Southwestern Bell Telephone
Company,
Class
Action
Settlement
th
Agreement (357 Dist. Ct., December 16,
1999) ............................................................... 286a
(W) Jose Mireles v. Southwestern Bell Telephone
Company, Notice of Class Action, Proposed
Settlement, and Hearing (Exhibit C to Class
Action Settlement Agreement) (357th Dist.
Ct., December 16, 1999) ................................ 314a

xi
(X) Jose Mireles v. Southwestern Bell Telephone
Company, Plaintiff’s Original Petition and
Jury Demand (357th Dist. Ct., July 30, 1998)
........................................................................ 329a

xii
TABLE OF AUTHORITIES
CASES
Amchem Products, Inc. v. Windsor, 521 U.S. 591
(1997) .......................................................... 14, 27, 32
Autobahn Imports, L.P. v. Jaguar Land Rover N.
Am., L.L.C, 730 Fed. Appx. 184 (5th Cir. 2018) .... 24
Bell v. Moores, 832 S.W.2d 749 (Tex. App. Houston
[14th Dist.] 1992, writ denied)............................... 24
Berger v. Compaq Computer Corp., 257 F.3d 475 (5th
Cir. 2001) ................................................................ 29
Bland Indep. Sch. Dist. v. Blue, 34 S.W.3d 547 (Tex.
2000) ....................................................................... 37
Browning v. Prostok, 165 S.W.3d 336 (Tex. 2005).... 23
Clint Indep. Sch. Dist. v. Marquez, 487 S.W.3d 538
(Tex. 2016) .............................................................. 24
Employees Retirement System of Texas v. Duenez, 288
S.W.3d 905 (Tex. 2009) .......................................... 23
Entex v. City of Pearland, 990 S.W.2d 904 (Tex. App.
– Houston [14th Dist.] 1999, no pet.)........................ 7
Epstein v. MCA, Inc., 179 F.3d 641 (9th Cir. 1999) .. 16,
27
Gonzales v. Cassidy, 474 F.2d 67 (5th Cir. 1973)16, 32
Gooch v. Life Investors Ins. Co. of America, 672 F.3d
402 (6th Cir. 2012)................................................... 33
Guynes v. Galveston County, 861 S.W.2d 861 (Tex.
1993) ....................................................................... 20
Hansberry v. Lee, 311 U.S. 32 (1940) ........................ 31
Hanson v Denckla, 357 US 235 (1958) ...................... 21

xiii
Harris County Hospital District v. The Public Utility
Commission of Texas, 2012 WL 2989228 (Tex. App.Austin 2012, no pet.) ................................................ 3
Hesse v. Sprint Corp., 598 F.3d 581 (9th Cir. 2010) .. 30
Igal v. Brightstar Info. Tech. Group, Inc., 250 S.W.3d
78 (Tex. 2008) ......................................................... 23
In re Nexium Antitrust Litig., 777 F.3d 9 (1st
Cir.2015) ........................................................... 35, 36
In re Rodriguez, 695 F.3d 360 (5th Cir.2012) ........... 36
In re Sw. Bell Tel. Co., 235 S.W.3d 619 (Tex. 2007) ... 4
In re Target Corp. Customer Data Security Brach
Litigation, 847 F.3d 608 (8th Cir. 2017) ................. 31
Irrigation Dist. v. Shields Bros., Inc., 514 S.W.3d 746
(Tex. 2017) .............................................................. 23
Juris v. Inamed Corp., 685 F.3d 1294 (11th Cir. 2012)
................................................................................ 32
Kalb v. Feuerstein, 308 U.S. 433 (1940) .................... 22
Kremer v. Chem. Constr. Corp., 456 U.S. 461 (1982) 22
Liu v. SEC, 591 U.S. ___, 140 S.Ct. 1936 (2020) ...... 35
Logan v. Zimmerman Brush Co., 455 U.S. 422 (1982)
................................................................................ 21
Marek v. Lane, 571 U.S. 1003 (2013) ........................ 35
Matsushita Elec. Industrial Co. v. Epstein, 516 U.S.
367 (1996) ............................................. 18, 21, 22, 26
Mayhew v. Town of Sunnyvale, 964 S.W.2d 922 (Tex.
1998) ....................................................................... 22
Messner v. Northshore Univ. HealthSystem, 669 F.3d
802 (7th Cir.2012) .................................................. 36

xiv
Meyers v. JDC/Firethorne, Ltd., 548 S.W.3d 477 (Tex.
2018) ....................................................................... 37
Mullane v. Central Hanover Bank & Trust Co., 339
U.S. 306 (1950) ....................................................... 21
Mullins v. Direct Digital, LLC, 795 F.3d 654 (7th Cir.
2015, cert. denied) .................................................. 36
Nevada v. United States, 463 U.S. 110 (1983) .......... 31
Northrup v. Sw. Bell Tel. Co., 72 S.W.3d 16 (Tex.
App. - Corpus Christi 2002, pet. denied
improvidently granted) ............................................ 6
Oncor Elec. Delivery Co. v. Chaparral Energy, LLC,
546 S.W.3d 133 (Tex. 2018) ................................... 24
Ortiz v. Fibreboard Corp., 527 U.S. 815 (1999) .. 29, 32
Phillips Petroleum Co. v. Shutts, 472 U.S. 797 (1985)
................................................................................ 31
PNS Stores, Inc., 379 S.W.3d 267 (Tex. 2012) .......... 23
Randleman v. Fidelity Nat'l Title Ins. Co., 646 F.3d
347 (6th Cir.2011) .................................................. 36
Richardson v. Wells Fargo Bank, N.A., 839 F. 3d 442
(5th Cir. 2016) ......................................................... 32
Southwestern Bell Tel. Co. v. Public Util. Comm'n,
735 S.W.2d 663 (Tex. App.-Austin 1987, no writ)... 3
State v. Holland, 221 S.W.3d 639 (Tex.2007) ........... 24
Stephenson v. Dow Chemical Co., 273 F.3d 249 (2d
Cir. 2001) .......................................................... 27, 28
Subaru of America, Inc. v. David McDavid Nissan,
Inc., 84 S.W.3d 212 (Tex. 2002) ............................. 24
Sw. Refining Co. v. Bernal, 22 S.W.3d 425 (Tex. 2000)
................................................................................ 14

xv
Tex. Gen. Indem. Co. v. Tex. Workers’ Compensation
Comm ‘n, 36 S.W.3d 635 (Tex. App. -Austin 2000,
no pet.) .................................................................... 22
TJFA, L.P. v. Texas Comm'n on Envtl. Quality, 368
S.W.3d 727 (Tex. App.—Austin 2012, pet. denied)
................................................................................ 24
Trans Union, LLC v. Sergio L. Ramirez, U.S.
Supreme Court Docket No. 20-297, argued March
30, 2021................................................................... 37
Wolfert v. Transamerica Home First, 439 F.3d 165
(2nd Cir. 2006, cert. denied 549 U.S. 882 (2006)) 31,
32
Worcester v. Worcester Consolidated Street Ry. Co.,
196 U.S. 539 (1905) ................................................ 21
Young v. Nationwide Mut. Ins. Co., 693 F.3d 532 (6th
Cir. 2012) ................................................................ 35
CONSTITUTIONS, STATUTES AND RULES
U.S. Const. amend. XIV, § 1 ........................ 2, 9, 21, 31
U.S.C. § 1257(a) ........................................................... 1
Tex. Civ. Prac. & Rem. Code § 16.061 ...................... 20
Tex. Const., art IX, § 4 ............................................... 30
Tex. Const., art. IX ...................................................... 2
Tex. Const., art. V, § 8 ................................... 12, 23, 25
Tex. Gov’t Code § 2001.174 ....................................... 22
Tex. Gov’t Code § 2254.101-109 ................................ 19
Tex. Gov’t Code § 41.009 ........................................... 19
Tex. Gov't Code § 22.004(a) ....................................... 14
Tex. Health & Safety Code § 281 Subchapter A......... 2

xvi
Tex. Health & Safety Code § 281.002 ....................... 30
Tex. Health & Safety Code § 281.056 ............... 7, 9, 19
Tex. R. Civ. P. 815 ..................................................... 14
Tex. Util. Code § 17.157............................................... 4
Tex. Util. Code § 52.002................................... 4, 10, 25
Tex. Util. Code § 52.251............................................... 3
Tex. Util. Code § 53.002............................................... 3
Tex. Util. Code § 53.003............................................... 3
Tex. Util. Code § 53.004(a) .......................................... 3
Tex. Util. Code §§ 11.001-66.016................................. 3
OTHER AUTHORITIES
7B C. Wright, A. Miller, & M. Kane, Federal Practice
and Procedure § 1789, p. 245 (2d ed. 1986) ........... 21
Eli Savit, States Empowering Plaintiff Cities, 52 U.
MICH. J.L. REFORM 581, 587 (2019) .................. 18
Frank Burt, Brian P. Perryman, and Thaddeus H.
Ewald, Collateral Attacks on Class Resolutions,
FLORIDA BAR JOURNAL Vol. 91, No. 7, Pg. 22
(July/August 2017) ................................................... 2
Patrick Woolley, Collateral Attack and the Role of
Adequate Representation in Class Suits for Money
Damages, 58 U. KAN. L. REV. 916 (2010) ................. 2
Principles of the Law of Aggregate Litigation
(American Law Institute 2010) § 3.14(a)(1)-(2) .... 34
Restatement (Second) of Judgments § 11 ................. 22
Restatement (Second) of Judgments § 12, comment a
................................................................................ 25

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Harris County Hospital District
respectfully submits this Petition for a Writ of
Certiorari to review the judgment of the Court of
Appeals for the Third District of Texas (the “Court of
Appeals”).
OPINIONS AND ORDERS BELOW
The Texas Supreme Court’s orders refusing
discretionary review are unreported. App., infra, at
26a-27a. The opinion of the Court of Appeals is
reported at 577 S.W.3d 370. App. 1a-23a. The
judgment of the Court of Appeals is unreported. App.
24a-25a. The judgment entered by the 250th District
Court of Travis County, Texas is unreported. App.
28a-29a.
The final Order of the Public Utility
Commission of Texas is unreported. App. 30a-37a.
Other relevant orders and hearing transcripts from
the Public Utility Commission of Texas and Texas
State Office of Administrative Hearings are
unreported. App. 38a-59a. The order of the 333rd
Judicial District Court of Harris County, Texas is
unreported. App. 60a-61a.
JURISDICTION
The opinion and judgment of the Court of Appeals
was filed on May 3, 2019. The Texas Supreme Court
denied a timely petition for discretionary review on
November 13, 2020 and denied a timely motion for
rehearing on January 22, 2021. The jurisdiction of this
Court is invoked under 28 U.S.C. § 1257(a). This
petition is timely filed under this Court’s Order dated
March 19, 2020 extending the deadline to file any
petition for a writ of certiorari to 150 days.

2
CONSTITUTIONAL PROVISION INVOLVED
The Due Process Clause of the Fourteenth
Amendment to the United States Constitution
provides, in pertinent part: “* * * nor shall any State
deprive any person of life, liberty, or property, without
due process of law * * *.” U.S. Const. amend. XIV, § 1
STATEMENT OF THE CASE
This petition presents an ideal vehicle for the Court
to address due process in a collateral review of an
absent class member’s attack on a class action
judgment. Until the Court decides “the extent to
which absent class members can collaterally attack
class judgments, this issue will remain a troubling and
unsettled aspect of class action law.” 1
A. Background
Harris County Hospital District (“HCHD”) is a
political subdivision of the State of Texas organized as
a hospital district in Harris County, Texas. HCHD
was created under Texas Health & Safety Code § 281
Subchapter A and pursuant to Article IX of the Texas
Constitution.
Southwestern Bell Telephone Company d/b/a
AT&T Texas (“AT&T”) is a public utility providing
telecommunication services to customers throughout
the State of Texas and elsewhere. AT&T has been
regulated by the Public Utility Commission of Texas
(“PUC”) since the PUC’s creation pursuant to the
Frank Burt, Brian P. Perryman, and Thaddeus H. Ewald,
Collateral Attacks on Class Resolutions, FLORIDA BAR
JOURNAL Vol. 91, No. 7, Pg. 22 at 29 (July/August 2017); see also
Patrick Woolley, Collateral Attack and the Role of Adequate
Representation in Class Suits for Money Damages, 58 U. KAN. L.
REV. 916 (2010).
1

3
Texas Public Utilities Regulatory Act (“PURA”) in
1975 (codified at Texas Utilities Code §§ 11.00166.016).
Texas courts have long held that PURA grants the
PUC exclusive jurisdiction over the rates that
telecommunications companies charge to their
consumers. See, e.g., Southwestern Bell Tel. Co. v.
Public Util. Comm’n, 735 S.W.2d 663, 668 (Tex. App.Austin 1987, no writ). See Texas Utilities Code §
52.002.
PURA prohibits AT&T from charging, demanding,
or
receiving compensation that is unjust,
unreasonable, or other than prescribed by applicable
tariff. PURA §§ 52.251, 53.002, 53.003, and 53.004(a).
B.

HCHD Filed Suit Against AT&T for
Reimbursement
of
Unauthorized
“Municipal Charges”

HCHD sued AT&T in the 333rd Judicial District
Court of Harris County, Texas on May 6, 2010, for
collecting amounts described on HCHD’s phone bills as
“municipal charges,” 2 which HCHD alleged were not
authorized by any tariff and therefore violated PURA.
HCHD sought a refund of these overbillings. 3 App.
261a-285a.
HCHD’s suit also sought additional
damages for gross negligence, fraud and violation of
the Texas Deceptive Trade Practices Act, based on the
unauthorized collection of municipal charges. Id.
2 “Municipal charges” are sometimes referred to as “municipal
fees.”

PUC rules require overbilling refunds to be for the “entire period
of the overbilling.” See Harris County Hospital District v. The
Public Utility Commission of Texas, 2012 WL 2989228 (Tex. App.Austin 2012, no pet.) (ordering AT&T to pay 13 years of
overcharges from 1995 to 2008).

3

4
AT&T’s answer included, inter alia, the affirmative
defenses that the court “lacks subject matter
jurisdiction over HCHD’s claims because the Public
Utility Commission of Texas (“PUC”) has exclusive
original jurisdiction over exactly the type of fee dispute
that HCHD asserts in this lawsuit.” (Citing TEX.
UTIL. CODE §§ 17.157, 52.002; and In re Sw. Bell Tel.
Co., 235 S.W.3d 619, 625-26 (Tex. 2007)). AT&T also
alleged that “HCHD’s claims and causes of action, if
any, arise solely from the tariff.” [Emphasis added.]
App. 256a-260a. 4
AT&T filed a plea to the jurisdiction, which
included the following sworn statements:
This sort of fee dispute falls squarely within
the PUC’s broad authority and exclusive
jurisdiction.
***
This case is materially identical to [In re Sw.
Bell Tel. Co.] only the specific type of charge
that was allegedly improper is different.
***
The distinction in the type of charge is
irrelevant to the jurisdictional issue because
franchise or municipal fees are encompassed
in PURA’s broad definition of “rate.”
***
… this Court should dismiss HCHD’s claims
for lack of subject matter jurisdiction based
upon the PUC’s exclusive original jurisdiction.
4 In re Sw. Bell Tel. Co. (“we conclude that the PUC has exclusive
jurisdiction over the core claims.”)

5
[Emphasis added.] App. 241a-255a.
The court sustained AT&T’s plea to the jurisdiction
in part, and abated the remaining claims:
IT IS THEREFORE ORDERED that
Defendant’s Plea to the Jurisdiction is granted
with regard to any claim that seeks
reimbursement of municipal charges under
tariff. The Plea is denied as to those claims for
additional
damages
based
on
Gross
Negligence, Fraud and/or the Texas Deceptive
Trade Practices Act.
IT IS FURTHER ORDERED that such claims
for additional damages based on Gross
Negligence, Fraud and/or the Texas Deceptive
Trade Practices Act are abated until such time
as all Plaintiff’s claims falling within the
exclusive jurisdiction of the Public Utility
Commission are fully and finally resolved.
[Emphasis added.] App. 60a-61a. This case remains
abated.
C.

HCHD
Subsequently
Brought
its
“Municipal Charge” Claim to the Agency
Having Exclusive Original Jurisdiction

Based on the decision of the 333rd District Court,
HCHD filed a complaint with the PUC seeking the
recovery of unauthorized municipal charges. 5 App.
218a-240a.
HCHD’s complaint was assigned to an
administrative law judge (“ALJ”) at the Texas State
Office of Administrative Hearings (“SOAH”).
5 The parties do not dispute that the PUC has exclusive original
jurisdiction over this municipal charge claim.

6
AT&T answered with a res judicata defense
alleging HCHD’s claims are barred by a judgment
entered on May 22, 2000 which approved a class action
settlement in the 357th Judicial District Court of
Cameron County, Texas (the “Mireles judgment”)
(hereinafter referred to as “Mireles”). 6 AT&T alleged
that HCHD was a member of the Mireles settlement
class and that its claims were released and barred by
the Mireles judgment.
At the prehearing conference, the ALJ stated that
he would not hear HCHD’s claim that the Mireles
judgment was void for lack of subject matter
jurisdiction, stating “the Court of Appeals … or a
higher court” would have to make that decision. App.
57a-59a.
During discovery, it became clear that HCHD (and
likely other institutional customers) were overcharged
well into the six figures (or more). 7 App. 104a-105a.

6 See Mireles Order and Final Judgment Nunc Pro Tunc. App.
62a-69a. See also Mireles Findings of Fact and Conclusions of
Law, App. 70a-77a; and Mireles Class Action Settlement
Agreement, App. 286a-313a.
7 This amount was far more than the “nominal” “small” amounts
described in the Mireles settlement Notice. App. 317a, 318a. See
also Northrup v. Sw. Bell Tel. Co., 72 S.W.3d 16, 21 (Tex. App. Corpus Christi 2002, pet. denied improvidently granted) (“very
small-i.e., around one dollar.”). This discovery also refutes the
Mireles Notice statement that “it would be extraordinarily
difficult, if not impossible, to identify the specific amounts that
individual class members might recover …” App. 317a.

7
1. The Administrative Law Judge Denied
AT&T’s Res Judicata Defense, and Set
the Case for Trial on the Merits
AT&T subsequently filed a motion for summary
decision on its res judicata defense. HCHD countered
that:
(i) the PUC had exclusive original jurisdiction
over the Mireles municipal charge tariff claims,
therefore, the Mireles court lacked subject matter
jurisdiction rendering the Mireles judgment void
and non-binding on HCHD;
(ii) class counsel could not represent HCHD,
therefore, HCHD was not a member of the Mireles
class, because Texas Health & Safety Code §
281.056(b) requires legal representation by the
Harris County Attorney and board approval for any
outside counsel, neither of which occurred with
Mireles; and
(iii) the Mireles class definition was conditioned
on the paramount liability question, which was
never determined.
The ALJ denied AT&T’s motion based on Texas
Health & Safety Code § 281.056, citing Dallas Cty. v.
MERSCORP, Inc., No. 3:11-cv-02733-O, 2012 WL
6208385 (N.D. Tex. 2012) (holding that statutes that
restrict governmental legal representation force
governmental entities to “opt-in” to class actions; and
opt-in classes are impermissible under Rule 23); and
Entex v. City of Pearland, 990 S.W.2d 904, 913 (Tex.
App. – Houston [14th Dist.] 1999, no pet.) (“… opt-in
notification … is not available in Texas.”). App 52a56a.

8
2. The Commission Reversed the ALJ, and
Ordered HCHD’s Claim Barred by Res
Judicata
AT&T appealed
Commission.

the

ALJ’s

decision

to

the

During the open meeting, the Commissioners
stated they were granting AT&T’s appeal and motion
for expediency, so the courts could decide the
jurisdiction and res judicata issues. 8 App. 44a-51a.
However, the Commissioners stated it was “clear” they
had jurisdiction over the “underlying” “substantive”
issue and case. Id. at 46a-47a.
After the meeting, the Commissioners entered an
Order on Interim Appeal stating:
Commission finds that under the doctrine of
res judicata all of the claims asserted by the
Hospital District in this proceeding are barred
by the final judgment approving class action
settlement in the Mireles v. SWBT case.
App. 40a-43a. The ALJ then entered an order
pursuant to the Commission’s finding. App. 38a-39a.
In response, HCHD raised the following due
process issues:
In this response, HCHD will show that it
would be a denial of constitutional due process
and contrary to applicable statutes, rules, and
case authority if HCHD’s complaint is
dismissed based on the Commission’s finding

8 “[I]f we say the Hospital District is barred by res judicata here,
they will appeal it. It will go to court. So I'm ready for some
finality here on this issue.” Id. at 45.

9
in its Order on Interim Appeal, including, but
not limited to, the following laws:
a) The due process clause of the Fourteenth
Amendment to the Constitution of the United
States of America;
***
i) The doctrine of res
controlling case authority;

judicata,

and

j) Health & Safety Code § 281.056; and
k) TRCP 42 and controlling case authority.
***
Thus, the only conclusion that can be drawn is
that the Commissioners’ res judicata finding is
not supported by substantial evidence, and is
arbitrary, capricious, and/or an abuse of
discretion, which has denied HCHD due
process.
See App. 154a-215a at 155a-156a; see also 170a-174a,
192a-194a, and 212a-213a.
The PUC’s final Order was entered on October 8,
2015, dismissing HCHD’s complaint. App. 30a-37a.
The PUC’s findings and conclusions relied only on the
Mireles court’s judgment, findings, and conclusions, to
conclude that HCHD was a member of the Mireles
class. Id. at 35a, ¶ II.4.
The PUC did not make any findings or conclusions
about whether the Mireles court had subject matter
jurisdiction, or whether the PUC had exclusive
original jurisdiction over the Mireles claims. App. 30a37a.

10
However, the PUC did conclude that the
“Commission has jurisdiction over this matter
pursuant to §§ 14.001, 52.002, 53.001, and 64.157 of
the Public Utility Regulatory Act, Tex. Util. Code.
Ann. §§ 11.001-66.016 (West 2007 & Supp. 2014).”
[Emphasis added.] Id. at 35a, ¶ II.1. 9
D.

On Appeal, the District Court Reversed
the Commission’s Order

HCHD appealed the PUC’s final Order to the 250th
Judicial District Court of Travis County, Texas.
After briefing, the District Court reversed the PUC
decision, concluding:
As a matter of law, pursuant to Section
281.056, Texas Health & Safety Code, HCHD
must be represented by the county attorney
unless its board opts to retain outside counsel.
No such counsel represented HCHD in the
Mireles lawsuit. As a legislatively-created
governmental entity HCHD cannot be part of
or bound by a class action lawsuit unless it
takes such action to participate in the lawsuit.
Consequently, as a matter of law, HCHD’s
claims were not resolved by the Mireles
lawsuit nor resolved by its final judgment.
App. 28a-29a. The court did not rule on HCHD’s claim
that the Mireles court lacked subject matter
jurisdiction rendering the Mireles judgment void and
non-binding on HCHD.

9 Section 52.002 gives the PUC “exclusive original jurisdiction”
over rates.

11
E.

The Opinion and Judgment of the Court
of Appeals Reversed the District Court

The parties appealed to the Court of Appeals. The
issues presented by HCHD were:
1. Whether the Mireles class action
settlement judgment is void for lack of subject
matter jurisdiction because the issues there,
as those in this case, encompass a matter
committed to the PUC’ s exclusive jurisdiction:
whether AT&T illegally collected municipal
fees from its customers including HCHD?
2. Whether constitutional and statutory
requirements for the legal representation of
governmental entities in litigation prohibits a
class-action judgment from binding that
governmental entity when those requirements
were not met?
App. 97a-153a at 98a.
Amicus briefs were filed by the Texas Association
of Business and Texas Civil Justice League, Inc.
On May 3, 2019, the Court of Appeals issued its
Opinion and Judgment reversing the District Court
and affirming the PUC’s dismissal order finding res
judicata. App. 1a-23a.
1. The Court’s Review of HCHD’s First
Issue:
Lack
of
Subject
Matter
Jurisdiction
The first conclusion that the court made in its
discussion of the issues was that HCHD was “a party”

12
to the Mireles litigation. 10
The court began by describing several factors,
which the court concluded were support for the modern
trend towards giving finality of a judgment greater
weight than the validity of the judgment, citing
Restatement
(Second)
of
Judgments
(the
“Restatement”) § 12 (Am. Law. Inst. 1982). 11 App.
10a-11a. The court stated that perhaps its most
important factor was that HCHD was a “party to [the
Mireles] litigation.” Id. The court then concluded that
as a party, HCHD had “ample opportunity to litigate
its jurisdictional challenge” and “adequate notice.”
App. 11a, 19a.
To support its conclusion that HCHD was a party,
the court examined the Mireles class definition: 12
The Mirales Class is defined in relevant part
as “all persons and entities who currently
reside in the State of Texas who subscribe, or
formerly subscribed, to telephone service
provided by [Southwestern Bell] and pay, or
paid, to [Southwestern Bell] a municipal fee . .
. .” None of the parties characterizes this
language as ambiguous, and the Hospital
District does not deny it is an entity who
10 However, HCHD was not a named party, and never objected,
opted out, or made any appearance in Mireles; and it is disputed
whether HCHD was even an unnamed absent class member.
11 The court listed several factors, but these factors were either
incorrect, misleading, or flawed. For example, the court described
the Mireles court’s “general jurisdiction” as a factor; but the court
omitted the exception to general jurisdiction when an
administrative body, e.g., the PUC, has exclusive or original
jurisdiction over the case. See Tex. Const., art. V, § 8.
12 The Court of Appeals misspelled “Mireles” throughout its
Opinion.

13
subscribed to telephone service from
Southwestern Bell and paid the municipal fees
during the disputed period. Southwestern
Bell’s records confirm as much. Thus, the
Hospital District is a member of the Mirales
Class.
[Emphasis added.] Id. at 13a-14a. But the court failed
to analyze this omitted this part of the class definition,
which is also relevant:
… imposed pursuant to a municipal ordinance,
other than an ordinance based upon a
percentage of gross receipts, and collected
pursuant to tariff or statute.” [Emphasis
added.]
See Id. at 3a; see also Mireles judgment, App. 65a-66a.
This omitted language was the paramount liability
question in Mireles, i.e., whether A&T’s collection of
municipal fees were “pursuant to tariff or statute.” See
Mireles petition, App. 329a-344a.
This liability
question has never been tried or decided by any
tribunal or court. 13
The court never made a de novo review of whether
the Mireles claims were within the PUC’s exclusive
original jurisdiction, even though evidence, i.e., the
Mireles original petition, was in the record and
referenced in HCHD’s brief. Id.; App. 103a. The
Mireles petition describes the core claim as whether
AT&T had a PUC-approved tariff that allowed AT&T
13 During oral argument before the Court of Appeals, a Justice
asked PUC’s counsel if the permissibility of municipal fees had
ever been adjudicated, to which PUC’s counsel responded: “I don’t
believe that a court has passed on that precise legal question …”
See
audio,
at
8:30-9:30,
https://www.txcourts.gov/media/1443649/03-17-00811-cv.mp3

14
to collect municipal charges, 14 HCHD contends this
claim put the case squarely within the PUC’s exclusive
original jurisdiction.
Instead, the court concluded that because HCHD
was a member of the class, HCHD was “bound” by the
terms of the Mireles settlement and judgment, thus,
its claims are “released” and “barred.” See, e.g., App.
12a-13a.
The court also viewed HCHD’s failure to deny that
it received the Notice of Mireles settlement (the
“Notice”) as imposing a duty on HCHD to raise its
jurisdictional challenge at the time of the Notice in the
Mireles case. 15 App. 12a. But there is no evidence that
HCHD, its board, or the Harris County Attorney,
actually received the Notice, or knew about the Notice
or settlement at the time of Mireles; nor is there
evidence that they considered that a class action rule
might trump Texas Health & Safety Code §
281.056(b). 16

14 See petition at App. 328a, ¶ 2, 338a, ¶ 21 et seq. During oral
argument, a Justice asked PUC’s counsel whether an allegation
of improper billing would be a PUC or district court matter; PUC’s
counsel responded that it would be “at least subject to the
primary jurisdiction of the PUC …” Id. at 29:00-30:15.

See Notice, App. 314a-328a. The Notice was mailed “in
telephone bills of SWBT customers,” and published in various
newspapers. See App. 291a at Notice. Any such mailed notice
would have been sent to the accounts payable department of
HCHD – not to HCHD’s board or the Harris County Attorney.
15

16 Class action rules cannot “enlarge or diminish any substantive
rights or obligations of any parties to any civil litigation to
litigation,” including those of governmental entities. See Sw.
Refining Co. v. Bernal, 22 S.W.3d 425, 437 (Tex. 2000) (quoting
Tex. Gov’t Code § 22.004(a) and Tex. R. Civ. P. 815). See also
Amchem Products, Inc. v. Windsor, 521 U.S. 591, 612-13 (1997).

15
2. The Court’s Review of HCHD’s Second
Issue: HCHD’s Legal Representation
As part of the court’s analysis of HCHD’s second
issue, the court relied on Merriam Webster and
Random House dictionaries for the definition of
“represent,” to conclude that the Harris County
Attorney “need not necessarily appear in court or file
pleadings to comply with the representation directive”
under Texas Health & Safety Code § 281.056. App.
18a. But the court never explained how Mireles class
counsel could represent HCHD without the approval
of HCHD’s board as required by Texas Health & Safety
Code § 281.056(b). Indeed, HCHD’s uncontroverted
affidavit states that the HCHD board did not authorize
or approve any participation by HCHD in Mireles, nor
did the Harris County Attorney or any attorney in the
Harris County Attorney’s office represent HCHD in
Mireles. App. 216a-217a.
Instead, the court used the definitions, and
incorrect statements of HCHD’s positions and
contentions, to rubber-stamp the findings and
conclusion of the Mireles court, without providing a de
novo review that addressed HCHD’s issue of
inadequate representation.
3. Constitutional
Due
Process
was
Discussed by the Court of Appeals, But
Not Applied
In its Opinion, the court cited Texas cases for the
following principles:
Absent class members’ due-process right to
adequate representation is protected by the
adoption of appropriate procedures by the
certifying court and by appeal . . .

16
Due process does not require collateral secondguessing of those determinations and that
review.
App. 11a-12a. These Texas cases cited Epstein v.
MCA, Inc., 179 F.3d 641, 648 (9th Cir. 1999), a divided
decision. Federal circuits are split on this issue – as
alleged by HCHD in its opening brief:
Indeed, inadequacy of class counsel in
representing certain members can raise res
judicata defenses in subsequent proceedings.
Gonzales v. Cassidy, 474 F.2d 67, 75-76 (5th
Cir. 1973) (“The judgment in a class action will
bind only those members of the class whose
interests have been adequately represented by
existing parties to the litigation.”) (citation
omitted)[29]
HCHD recognizes that Gonzales has
been criticized in other opinions
including in cases cited by AT&T. See
Juris v. Inamed Corp., 685 F.3d 1294,
1313-14 (11th Cir. 2012); Kortebein v.
Am. Mut. Life. Ins. Co., 49 S.W.3d 79, 87
n.6 (Tex. App. - Austin 2001, pet. denied).
Gonzales concerned a unique procedural
history which warranted refusing the
application of res judicata. Similarly, the
specific (and longstanding) statute
limiting who may “represent” a county
hospital district warrants the refusal of
the application of res judicata here
because, by law, the class representation
was inadequate.

[29]

App. 140a-141a. HCHD also alleged that the Mireles
court lacked subject matter jurisdiction, which also

17
supports a collateral attack in decisions by other
circuits.
Despite HCHD having raised inadequacy of
representation and lack of subject matter jurisdiction
as issues, the Court of Appeals failed to review these
issues de novo. Instead, the court relied solely on the
Mireles court’s judgment, findings, and conclusions,
and the PUC’s findings and conclusions which also
relied solely on the Mireles court. See App. 1a-23a, 30a37a. See also App. 62a-77a.
F.

HCHD Appealed to the Texas Supreme
Court, Which Denied Discretionary
Review

HCHD filed a petition for review with the Texas
Supreme Court, seeking a review of the Court of
Appeals decision. Without granting the petition, the
Texas Supreme Court required full briefing, which all
parties filed.
Amicus letters were also filed by Harris, Travis and
Liberty counties in support of a review by the court.
See App. 90a-91a.
The Texas Supreme Court denied HCHD’s petition
for review. App. 26a-27a.
HCHD filed a Motion for Rehearing. App. 78a-96a.
The Motion for Rehearing raised due process as
follows:
Relying on the Mireles judgment’s rote
recitation of jurisdiction is self-fulfilling. It is
harmful error because it ignores the
jurisdictional facts and relies on the very
judgment that is the subject of the review,
which insulates itself from collateral attacks
even though the pleaded facts show that court

18
lacked subject matter jurisdiction. Such a
methodology will lead to fraud and abuse in
cases where settlement can release larger
claims, and does not satisfy due process or
serve the ends of justice.
[Emphasis added.] The Texas Supreme Court denied
HCHD’s Motion for Rehearing, after which this
petition was timely filed. App. 26a-27a.
REASONS FOR GRANTING THE PETITION
This case presents the Court with an ideal vehicle
for resolving the split among circuits concerning (i) the
standard for reviewing a collateral attack on a class
action judgment by an absent class member, following
the Court’s decision in Matsushita Elec. Industrial Co.
v. Epstein, 516 U.S. 367 (1996) ; (ii) cy pres settlements
that provide no direct benefit to the class; and (iii) “failsafe” class definitions that depend upon a
determination of the ultimate liability issue.
I.

Governmental Entities have Substantial
Interests That Compete with The
Interests of Individuals and NonGovernmental Entities

Lawsuits initiated by state and local governmental
entities “are now a prominent feature of the American
legal landscape.” Eli Savit, States Empowering
Plaintiff Cities, 52 U. MICH. J.L. REFORM 581, 587
(2019).
When pursuing civil causes of actions, state
governmental entities have various restrictions and
limitations imposed by state constitutions and
statutes. These laws and protections illustrate the
substantial interests of governmental entities that
compete with the interests of individuals and non-

19
governmental
entities
representatives.

who

serve

as

class

The
statute
governing
HCHD’s
legal
representation at the time of Mireles was Tex. Health
& Safety Code § 281.056:
(a) The board may sue and be sued.
(b) The county attorney, district attorney,
or criminal district attorney, as appropriate,
with the duty to represent the county in civil
matters shall represent the district in all
legal matters.
(c) The board may employ additional legal
counsel when the board determines that
additional counsel is advisable.
(d) The district shall contribute sufficient
funds to the general fund of the county for the
account of the budget of the county attorney,
district attorney, or criminal district attorney,
as appropriate, to pay all additional salaries
and expenses incurred by that officer in
performing the duties required by the district.
Tex. Act of May 18, 1989, 71st Leg., R.S. ch. 678 § 1,
1989 Tex. Gen. Stat. 2230, 2545 (H.B. 2136). In Harris
County, Texas, the county attorney has this duty to
represent HCHD.
In Texas, district and county attorneys have other
duties the purpose of which is to collect or safeguard
public funds to preserve and protect the public
interest. See, e.g., Texas Government Code § 41.009.
Other Texas laws limit representation by
governmental entities and protect government
property. For example, Texas Government Code §
2254.101-109 sets out specific requirements for state

20
governmental entities to enter into contingent fee
contracts for legal services. Counties and their
political subdivisions are subject to these regulations.
Texas county commissioners courts also retain “the
implied power to control litigation and choose its legal
remedies.” Guynes v. Galveston County, 861 S.W.2d
861, 863-64 (Tex. 1993) (citations omitted) [Emphasis
added.]
These types of limitations prevent Texas counties
from being class members under Federal Rule 23. See
MERSCORP, supra, (citing Ackal v. Centennial
Beauregard Cellular L.L.C., 700 F.3d 212 (5th Cir.
2012)).
Texas laws also protect liabilities, obligations and
indebtedness owed to governmental entities. For
example, Article III, Section 55 of the Texas
Constitution:
The Legislature shall have no power to release
or extinguish, or to authorize the releasing or
extinguishing, in whole or in part, the
indebtedness, liability or obligation of any
corporation or individual, to this State or to
any county or defined subdivision thereof, or
other municipal corporation therein, except
delinquent taxes which have been due for a
period of at least ten years.
There is also no limitation on the time within which
the state of Texas, counties, and political subdivisions,
e.g., HCHD, must file suit on most causes of action.
Texas Civil Practice & Remedies § 16.061.
Individuals and non-governmental entities have no
similar rights, restrictions, and protections.

21
HCHD and other governmental entities also have
substantially larger claims than the “nominal” and
“small” amounts described in Mireles. See C., supra.
These differences demonstrate the substantial
interests of HCHD and other governmental entities
that were competing with the nominal interests of the
Mireles class representatives – who were willing to
accept a cy pres settlement that provided no direct
benefit to the class. These differences show that the
Mireles plaintiffs were not similarly situated with
HCHD and other governmental entities.
II.

Governmental Entities Have a Right to
Due Process

A cause of action owned by a governmental entity
is a “species of property protected by the Fourteenth
Amendment’s Due Process Clause.” Worcester v.
Worcester Consolidated Street Ry. Co., 196 U.S. 539
(1905); Logan v. Zimmerman Brush Co., 455 U.S. 422,
428 (1982) (quoting Mullane v. Central Hanover Bank
& Trust Co., 339 U.S. 306, 313 (1950)).
The limitations inherent in the requirements of due
process extend to judicial as well as political branches
of government, so that a judgment may not be
rendered in violation of those constitutional
limitations and guarantees. See Hanson v Denckla,
357 US 235 (1958).
“A court conducting an action cannot predetermine
the res judicata effect of the judgment; that effect can
be tested only in a subsequent action.” Matsushita
Elec. Industrial Co. v. Epstein, 516 U.S. at 396
(Ginsburg, J., concurring in part and dissenting in
part) (citing 7B C. Wright, A. Miller, & M. Kane,
Federal Practice and Procedure § 1789, p. 245 (2d ed.
1986). “A State may not grant preclusive effect in its

22
own courts to a constitutionally infirm judgment.”
Kremer v. Chem. Constr. Corp., 456 U.S. 461, 482
(1982).
An act of a state court that exceeds its authority is
void and subject to collateral attack.
Kalb v.
Feuerstein, 308 U.S. 433 (1940). “Final judgments …
remain vulnerable to collateral attack for failure to
satisfy the adequate representation requirement.”
Matsushita, 516 U.S. at 396 (Ginsburg, J.). Justice
Thomas, dissenting in Matsushita, stated his view
that there is nothing in Matsushita “that relieves us of
our responsibility to examine the merits of the due
process argument fully and fairly.”
Texas law required that the Court of Appeals review
the issues de novo. The PUC and AT&T do not dispute
this. App. 112a. Whether an agency has exclusive
jurisdiction over an issue is a question of law and thus
reviewed de novo. Subaru of America, Inc. v. David
McDavid Nissan, Inc., 84 S.W.3d 212, 221 (Tex. 2002).
Res judicata is a question of law reviewed de novo.
Whether a trial court has subject-matter jurisdiction is
a question of law subject to de novo review. See
Mayhew v. Town of Sunnyvale, 964 S.W.2d 922, 928
(Tex. 1998). The interpretation of statutes and
procedural rules are likewise legal issues subject to de
novo review. Tex. Gen. Indem. Co. v. Tex. Workers’
Compensation Comm ‘n, 36 S.W.3d 635, 639 (Tex. App.
-Austin 2000, no pet.).
Under Texas law, and the Restatement, res
judicata does not apply when the first tribunal lacked
subject matter jurisdiction. See Restatement § 11 (“A
judgment may be properly rendered against a party
only if the court has the authority to adjudicate the
type of controversy involved in the action.”); Irrigation

23
Dist. v. Shields Bros., Inc., 514 S.W.3d 746, 750 (Tex.
2017); Citizens Ins. Co. of America v. Daccach, 217
S.W.3d 430, 452-453 (Tex. 2007) ; Igal v. Brightstar
Info. Tech. Group, Inc., 250 S.W.3d 78, 82 (Tex. 2008)
(“Res judicata does not apply when the initial tribunal
lacks subject matter jurisdiction over the claim.
Consequently, we must first address whether [the
agency] had subject matter jurisdiction over [the
party’s] claim”). A judgment is void if “the court
rendering judgment had no jurisdiction of the parties
or property, no jurisdiction of the subject matter, no
jurisdiction to enter the particular judgment, or no
capacity to act.” PNS Stores, Inc., 379 S.W.3d 267, 272
(Tex. 2012). Void judgments may be collaterally
attacked. Browning v. Prostok, 165 S.W.3d 336, 346
(Tex. 2005).
When an agency has exclusive jurisdiction of a
dispute, the courts have no jurisdiction until
administrative procedures are exhausted. Employees
Retirement System of Texas v. Duenez, 288 S.W.3d 905,
908-909 (Tex. 2009).
Pursuant to Article V, Section 8 of the Texas
Constitution, a Texas district court has no jurisdiction
“in cases where exclusive, appellate, or original
jurisdiction may be conferred by this Constitution or
other law on some other court, tribunal, or
administrative body.” [Emphasis added.]
Therefore, Texas law required that the Mireles
plaintiffs and HCHD first bring their municipal charge
claim through the PUC. 17 See Oncor Elec. Delivery Co.
17 “Claims” are analyzed not by causes of action like breach of
contract, negligence, or fraud, but by the theory of the case as
plead. Id. The nature of the claims, not the nomenclature,
controls no matter what type of claim the plaintiff brings. Clint

24
v. Chaparral Energy, LLC, 546 S.W.3d 133, 145 (Tex.
2018); Subaru of America, Inc. v. David McDavid
Nissan, Inc., 84 S.W.3d at 221. But this did not happen
with Mireles.
Texas law also required that the Court of Appeals
first review the Mireles pleadings and determine
whether the PUC had exclusive original jurisdiction
over the claims. This also did not occur. The Mireles
Plaintiff’s Original Petition 18 is the pleading that must
be reviewed to determine whether the PUC had
exclusive original jurisdiction over the claims and
whether the Mireles court lacked subject matter
jurisdiction. TJFA, L.P. v. Texas Comm’n on Envtl.
Quality, 368 S.W.3d 727, 733 (Tex. App.—Austin 2012,
pet. denied) (stating that subject-matter jurisdiction
determined when suit filed), citing State v. Holland,
221 S.W.3d 639, 642 (Tex.2007) (explaining that when
plea challenges jurisdiction of court, court reviews
petition to determine whether facts pleaded
“demonstrate that jurisdiction exists”); Bell v. Moores,
832 S.W.2d 749, 753-754 (Tex. App. Houston [14th
Dist.] 1992, writ denied) (“[a] trial court determines its
jurisdiction at the time a suit is filed. At that time, the
court either has jurisdiction or it does not. Jurisdiction
cannot subsequently be acquired while the suit is
pending.”)
HCHD had a due process right to a de novo review
by the Court of Appeals, which it did not receive
because the court began by reviewing the Mireles
judgment, findings, and conclusions as if they were
Indep. Sch. Dist. v. Marquez, 487 S.W.3d 538, 547 (Tex. 2016);
Autobahn Imports, L.P. v. Jaguar Land Rover N. Am., L.L.C, 730
Fed. Appx. 184, 190 (5th Cir. 2018).
18

App. 329a-344a.

25
valid, and concluding that HCHD was a party to the
Mireles litigation. The court should have first reviewed
the Mireles pleadings and determined whether the
Mireles court had subject matter jurisdiction and the
power to binds HCHD; and if the court determined
that it did, then it should have determined whether
HCHD was adequately represented in Mireles. But the
court did neither.
Instead, the Court of Appeals misapplied
Restatement § 12. More specifically, § 12 states in
relevant part:
When a court has rendered a judgment in a
contested action, the judgment precludes the
parties from litigating the question of the
court’s subject matter jurisdiction in
subsequent litigation except if:
(1) The subject matter of the action was so
plainly beyond the court’s jurisdiction that its
entertaining the action was a manifest abuse
of authority; or
(2) Allowing the judgment to stand would
substantially infringe the authority of
another
tribunal
or
agency
of
government; or * * *
[Emphasis added.]
The Court of Appeals never
discussed, much less applied, the above exceptions,
even though Tex. Util. Code § 52.002 plainly grants the
PUC “exclusive original jurisdiction” over this matter,
and Tex. Const., art. V, § 8 plainly excludes matters
for which an “administrative body” has “exclusive” or
“original” jurisdiction.
Comment a of Restatement § 12 provides further
support for HCHD’s position that the court misapplied
§ 12:

26
The principle of finality has its strongest
justification where the parties have had full
opportunity to litigate a controversy,
especially if they have actually contested both
the tribunal’s jurisdiction and issues
concerning the merits.
HCHD never had a “full opportunity to litigate” this
controversy, and jurisdiction and the merits were
never “actually contested” in Mireles. But the Court of
Appeals never looked beyond the Mireles court’s
judgment, findings, and conclusions.
The Court of Appeals’ decision will provide
opportunistic plaintiffs and defendants with a
roadmap and precedent for entering into settlements
that release substantial claims of government entities
and claims within the exclusive jurisdiction of state
agencies. The potential losses to governmental entities
could be massive. Government claims totaling billions
could be extinguished without any approval or
involvement from the affected government entities,
their official government attorneys (e.g., attorneys
general, county and district attorneys), or
administrative agencies.
By granting this petition, the Court will be able to
address these important collateral review and due
process issues.
III.

Circuits are Split on the Scope of the
Standard of Collateral Review of an
Absent Class Member’s Collateral Attack
on a Class Action Judgment

Since the Court’s decision in Matsushita, circuits
have been split on the scope of the standard of review
of an absent class member’s collateral attack on a class
action judgment.
Collateral Attacks on Class

27
Resolutions, at 29. The seminal case for limiting the
scope of class member’s ability to collaterally attack a
judgment is Epstein v. MCA, Inc., 179 F. 3d 641. See
Id. at 23. Since Epstein, courts have issued diverging
opinions on whether finality in class judgments
trumps allowing class members the latitude to
collaterally attack judgments. Id.
Epstein found that Matsushita implicitly prescribes
a limited, procedure-only review – that each member
had the opportunity to raise the purported defect
during the litigation. Id. at 26. Epstein also found that
due process rights to adequate representation and
adequate notice are protected initially by the
certifying court, not by “collateral second-guessing of
those determinations.” Id.
But in Stephenson v. Dow Chemical Co., 273 F.3d
249, 259 (2d Cir. 2001), the Second Circuit allowed a
collateral attack on a 1984 class action settlement and
subsequent final judgment, by two class members who
learned of their alleged injuries only after the 1984
settlement fund had expired in 1994. (Citing Amchem
and Ortiz v. Fibreboard Corp., 527 U.S. 815 (1999)).
The court concluded that “[b]ecause these plaintiffs
were inadequately represented in the prior litigation,
they were not proper parties and cannot be bound by
the settlement.” Stephenson, 273 F.3d at 261. The
court stated that “neither the district court nor this
Court has determined the adequacy of representation
with respect to these plaintiffs whose injuries did not
arise until after the settlement expired.” Id. at n. 6.
The Stephensen court concluded that the plaintiffs’
collateral attack is proper even under Ninth Circuit’s
standard in Epstein. Id.

28
As in Stephenson, HCHD’s substantial claim was
discovered nearly ten years after the class action
settlement; 19 and there were never any settlement
funds for HCHD. 20 Additionally, no court or tribunal
has ever determined the adequacy of the Mireles
representation with respect to HCHD and similar
governmental entities. Indeed, the introduction to the
class definition in the Notice mailed to the putative
Mireles class members, plainly states that the parties
agreed “to the conditional certification of a class of
individuals …” App. 319a at III.A. [Emphasis added.]
Except for the Settlement Class definition, the only
other description in the Notice about the Settlement
Class was that it is “exceptionally large (it is estimated
at more than six million members),” 21 and their claims
are “nominal” and “small.” 22 App. 317a-318a. There
was nothing in the Mireles judgment, Settlement
Agreement, or Notice that expressly stated that
governmental entities were included, or excluded,
from the Settlement Class. Clearly, the Mireles
representatives did not contemplate representing
governmental entities with substantial six-figure
claims. 23
19 App. 223a-224a at ¶¶ 12, 13; App. 263a at ¶¶ 6, 7 (“HCHD
recently learned …”).

HCHD learned that its claim was in the hundreds of thousands
of dollars when conducting discovery during the administrative
proceeding.

20

The Court of Appeals’ Opinion incorrectly described the
settlement as “resolving tens of thousands of claims …”

21

22

See also note 7, supra (“around one dollar”).

23 HCHD found AT&T databases through discovery in its own
administrative proceeding, sufficient to determine the amount of
HCHD’s six figure damage claim. Mireles class representatives
failed to conduct similar discovery.

29
The Mireles representatives never adjudicated the
issue of whether the Mireles court had subject matter
jurisdiction even though the core claims in their
petition established the PUC’s exclusive original
jurisdiction over the claims. 24 See Southwestern Bell
Tel. Co. v. Public Util. Comm’n, 735 S.W.2d at 668;
Tex. Util. Code § 52.002; In re Sw. Bell Tel. Co., 235
S.W.3d at 625-26. Moreover, the Mireles Notice
contains a description of the lawsuit that supports a
conclusion that the PUC had exclusive original
jurisdiction. 25
In Mireles, there were no findings or evidence that
the class representatives took an active role in and
controlled the litigation to protect the interests of
absentee governmental entities, e.g., HCHD, or that
they understood any of the legal relationships, rights,
obligations, and transactions of these governmental
entities. See Berger v. Compaq Computer Corp., 257
F.3d 475, 482-483 (5th Cir. 2001).
In Mireles, there was no division into subclasses
that would include governmental entities, with
separate representation to eliminate conflicting
interests. See Ortiz, 527 U.S. at 856.
Neither did AT&T seek to adjudicate this issue – for the obvious
reason that it was seeking to settle a dispute involving six million
customers and hundreds of millions of dollars, for a mere $10
million in service credits payable to a Texas agency.
24

See Notice, at App. 316a. (“The lawsuit alleges that SWBT
should have filed a new or amended tariff with the Public Utility
Commission in order to obtain approval to pass through all of the
municipal fees to its customers. SWBT has not filed such a new
or amended tariff addressing municipal fees. The lawsuit
contends that while SWBT can make class members (possibly
such as you) pay portions of any municipal fees assessed, it cannot
make customers pay the entire Municipal Fee, unless SWBT filed
an appropriate tariff amendment.”)

25

30
The substantial interests of HCHD conflict with
the interests of the Mireles Plaintiffs. County-wide
hospital districts, including HCHD, “assume full
responsibility” for providing “medical aid and hospital
care to indigent and needy persons residing in the
district,” with the power to “issue bonds,” and “levy a
tax” on “all taxable property within such district.” See
Article IX, Section 4 of the Texas Constitution, and
Tex. Health & Safety Code § 281.002. Funds lost to
class action settlements, like Mireles, are funds that
could have been used for medical aid and hospital care;
this loss of funds potentially results in more taxes and
bonds.
In Mireles, there were no explicit finding that the
Mireles plaintiffs or class counsel were adequate
representatives for governmental entities and their
substantial interests, making it a proper subject for
this collateral attack. See Hesse v. Sprint Corp., 598
F.3d 581, 588 (9th Cir. 2010). The only findings made
by the Mireles court about adequacy of representation
were the findings that the named class representatives
“ably performed their representative roles, did not
receive any favorable treatment under the Settlement
Agreement, had no conflicts with the other members
of the Settlement Class, and they fairly and
adequately represented and protected the rights and
interests of the Settlement Class.” App. 70a-77a at ¶
5. There were no findings or reference to evidence
showing that a rigorous analysis was conducted on
adequacy of representation of the class – much less
governmental entities. Therefore, the Mireles court’s
findings and conclusions concerning the Mireles
plaintiffs’ adequacy of representation were mere
“conclusions, not reasons, and on their own they do not
constitute a ‘rigorous analysis’ of whether certification

31
is proper.” See In re Target Corp. Customer Data
Security Brach Litigation, 847 F.3d 608, 612 (8th Cir.
2017).
Lack of adequate representation is a denial of due
process. Hansberry v. Lee, 311 U.S. 32 (1940). In
Hansberry, the Court stated that absent class
members are not afforded the protection which due
process requires when the class representative’s
substantial interests are not necessarily or even
probably the same as those whom they are deemed to
represent. Hansberry decided not only that due
process requires fair representation of absent parties
(ultimately called “adequate” representation), but also
that an absent party denied such representation could
collaterally attack the class action judgment. Wolfert
v. Transamerica Home First, 439 F.3d 165, 170-172
(2nd Cir. 2006, cert. denied 549 U.S. 882 (2006)).
“The Due Process Clause of course requires that the
named plaintiff [in a class action] at all times
adequately represent the interests of the absent class
members.” Phillips Petroleum Co. v. Shutts, 472 U.S.
797, 812 (1985); accord Nevada v. United States, 463
U.S. 110, 135 n. 15 (1983) (citing Hansberry for the
proposition that absent class members could not be
bound where the class representatives “had interests
that impermissibly conflicted with those of persons
represented”).
“The ultimate test of whether an adequacy-ofrepresentation ruling by a class action court precludes
a collateral attack turns on whether fundamental
fairness was lacking.” Wolfert 439 F.3d. at 172. In the
class action context, if the class action court ruled only
in general terms that representation was adequate,
without any adversarial consideration of the claim

32
now advanced that there were substantial rights
beyond those afforded, it would be manifestly unfair
and a denial of due process to preclude a collateral
attack. Id. Such is the case here.
In Mireles, there was no adversarial consideration
of the substantial interests of HCHD and other
government entities, and the obligation to protect and
pursue their claims.
The adequacy-of-representation determination
turns on whether the interests of the class were
“compatible” with those of the party attempting to
attack the class action judgment collaterally. Id. at
173. The cy pres settlement in Mireles demonstrates
incompatibility.
There was also no “type of adequate structural
protection” in Mireles, such as subclasses as suggested
by Juris v. Inamed Corp., 685 F.3d 1294, 1323 (11th
Cir. 2012) (citing Amchem and Ortiz).
The Fifth Circuit has employed a “two-prong
inquiry in examining adequate representation on a
collateral attack: ‘(1) Did the trial court in the first suit
correctly determine, initially, that the representative
would adequately represent the class? and (2) Does it
appear, after the termination of the suit, that the class
representative adequately protected the interest of the
class?’” Richardson v. Wells Fargo Bank, N.A., 839 F.
3d 442, 454 (5th Cir. 2016) (citing Gonzales, 474 F.2d
at 72). “Regarding the second inquiry, the ‘primary
criterion for determining whether the class
representative has adequately represented his class
for purpose of res judicata is whether the
representative, through qualified counsel, vigorously
and tenaciously protected the interests of the class.’”
Id. Under this inquiry, a “court must view the

33
representative’s conduct of the entire litigation with
this criterion as its guidepost.” Gonzales, 474 F.2d at
75. Neither the PUC nor the Court of Appeals
reviewed the Mireles representative’s conduct with
this criterion as its guidepost. Indeed, the Mireles
court found that “the essential facts were not hotly
contested;” which when considering the cy pres nature
of the Mireles settlement, shows a lack of vigor and
tenacity. [Emphasis added.] Id. at ¶ 14.
HCHD’s discovery during the administrative
proceeding revealed that HCHD’s claim is in the
hundreds of thousands of dollars. This shows that the
Mireles plaintiffs failed the second prong of the
Gonzales inquiry, because they entered into a cy pres
settlement that provided no direct benefit to HCHD
even though it was identifiable and substantial.
In Gooch v. Life Investors Ins. Co. of America, 672
F.3d 402, 421 (6th Cir. 2012), the Sixth Circuit rejected
the Third Circuit’s decision in In re Diet Drugs
(Phentermine / Fenfluramine / Dexfenfluramine)
Prods. Liab. Litig., 431 F.3d 141 (3d Cir.2005), stating
that “the holding in that case was limited to
circumstances in which ‘the adequacy of the
representation of th[e absent] class member’ was
‘litigate[d] and determine[d].’ Id. at 146. The passing
rubber-stamp reference in the opinion of the Arkansas
circuit court – and the silence by the Arkansas
Supreme Court – hardly meets this standard.” Gooch,
672 F.3d at 421-422. Similarly, the rubber-stamp by
the Court of Appeals and silence by the Texas Supreme
Court fails to meet this standard for due process.
Although there is a split among circuits, the
majority view is reflected in Principles of the Law of
Aggregate Litigation (American Law Institute 2010) §

34
3.14(a)(1)-(2); but there are exceptions when a
challenge to a class action settlement is “before the
same or a different court on the ground that the
settlement court lacked personal or subject-matter
jurisdiction, failed to make the necessary findings of
adequate representation, or failed to afford class
members reasonable notice and an opportunity to be
heard as required by applicable law.” [Emphasis
added.] Id. HCHD’s challenge satisfies two of these
exceptions, because the record shows that Mireles
court lacked subject matter jurisdiction and failed to
make
the
necessary
findings
of
adequate
representation.
The splits among the federal circuits, the clear
disregard for due process by the Court of Appeals, the
harm to HCHD and other governmental entities, and
the precedent for other class actions to deny absent
class members due process, makes this the right case
for the Court to take up these issues.
IV.

Cy Pres Settlements That Provide No
Direct Benefit to Class Members Are a
Denial of Adequate Representation and
Denial of Due Process

The Mireles cy pres settlement and judgment
provided no direct benefit or relief to class members,
and it is now known that claims of governmental
entities are well into the six figures and can be
determined from AT&T’s own databases found during
HCHD’s administrative proceeding. App. 104a-105a.
This Court “has not previously addressed” the
propriety of cy pres relief, but the Chief Justice has
recognized that it is “a growing feature of class action
settlements” that raises “fundamental concerns.”

35
Marek v. Lane, 571 US. 1003, 1006 (2013) (Roberts,
C.J., respecting denial of certiorari).
In Frank v. Gaos, Justice Thomas (dissenting)
indicated his disapproval for cy pres settlements that
have no benefit to the class – strongly suggesting that
the interests of the class were not adequately
represented.
In Liu v. SEC, 591 U.S. ___, 140 S.Ct. 1936 (2020),
the Court expressed its concern that equitable relief of
disgorgement “must do more than simply benefit the
public at large.” This concern might also be extended
to cy pres settlements.
Under these facts, HCHD contends there was
inadequate representation and a denial of due process.
By granting this petition, the Court will be able to
address the inequities and any constitutional
inadequacies of cy pres settlements.
V.

Binding an Absent Class Member to FailSafe Class Definition for a Settlement
Class Is a Denial of Due Process

The class definition in Mireles is a type of fail-safe
class, which cannot be defined until the case is
resolved on its merits.” See Young v. Nationwide Mut.
Ins. Co., 693 F.3d 532, 538 (6th Cir. 2012); In re Nexium
Antitrust Litig., 777 F.3d 9, 22 (1st Cir.2015). This
issue was first raised by HCHD in its Response to
AT&T’s Motion for Summary Decision. 26
26 “In Mireles, the class definition rested on the paramount
liability questions.” (citing Daccach); “AT&T has failed to
establish that HCHD was a member of the Mireles class as a
matter of law, because in order to conclusively make that
determination … AT&T would have to prove that … that the
municipal charges billed HCHD were ‘collected pursuant to a
tariff or statute.’”

36
Such a class is generally prohibited. Id.; Messner
v. Northshore Univ. HealthSystem, 669 F.3d 802, 825
(7th Cir.2012); Randleman v. Fidelity Nat’l Title Ins.
Co., 646 F.3d 347, 352 (6th Cir.2011); but see In re
Rodriguez, 695 F.3d 360, 369–70 (5th Cir.2012)
(affirming fail-safe class certification).
In In re Rodriguez, the Fifth Circuit decided that
“because the class is similarly linked by a common
complaint, the fact that the class is defined with
reference to an ultimate issue of causation does not
prevent certification.” Id. at 370.
The Mireles settlement class is defined using the
ultimate liability issue, i.e., whether the collection of
municipal charges was “pursuant to tariff or statute.”
See E.1., supra; see also App. 65a-66a. Since Mireles is
defined in terms of success on the merits, the Mireles
class cannot be defined until there is a determination
of whether AT&T’s municipal fees were “collected
pursuant to tariff or statute.” Since the only “common
complaint” linking the class is the claim that
municipal charges were unauthorized by tariff, which
is indisputably within the exclusive jurisdiction of the
PUC, the Mireles class cannot be determined by the
Mireles court.
Only the PUC can make this
determination.
But in Mullins v. Direct Digital, LLC, 795 F.3d 654,
660 (7th Cir. 2015, cert. denied) the Seventh Circuit
held that “[d]efining the class in terms of success on
the merits is a problem because ‘a class member either
wins or, by virtue of losing, is defined out of the class
and is therefore not bound by the judgment.’” (citing
Messner).
Under the Mireles class definition, if HCHD wins
on its claim that municipal fees were collected without

37
a PUC-approved tariff or statute, then HCHD could
not be a member of the Mireles class because the class
definition is conditioned on municipal fees being
“collected pursuant to tariff or statute.” But if HCHD
loses on this issue, HCHD would have no injury
because the collection would be “pursuant to tariff or
statute;” thus, HCHD would have no standing to bring
any claim on this issue in court and the court would
have no subject-matter jurisdiction to hear any such
claim. See Bland Indep. Sch. Dist. v. Blue, 34 S.W.3d
547, 553–54 (Tex. 2000) (“Standing is a prerequisite to
subject-matter jurisdiction, and subject-matter
jurisdiction is essential to a court’s power to decide a
case.”); see also Meyers v. JDC/Firethorne, Ltd., 548
S.W.3d 477, 484-85 (Tex. 2018) (“A plaintiff must
allege personal injury fairly traceable to the
defendant's allegedly unlawful conduct and likely to be
redressed by the requested relief.” … “[W]e may look
to federal standing requirements for guidance.”)
(Citing Heckman, 369 S.W.3d at 154 (quoting Allen v.
Wright, 468 U.S. 737, 751, 104 S.Ct. 3315, 82 L.Ed.2d
556 (1984), abrogated by Lexmark Int'l v. Static
Control Components, Inc., 572 U.S. 118, 134 S.Ct.
1377, 188 L.Ed.2d 392 (2014)). 27 Consequently, HCHD
is incapable of being a member of the Mireles class as
defined.
If this petition is granted, the Court can address
the split between the circuits and whether fail-safe
class definitions comport with due process.

In Trans Union, LLC v. Sergio L. Ramirez, U.S. Supreme Court
Docket No. 20-297, argued March 30, 2021, the Court is
considering whether a damages class can include class members
who suffered no actual injury.
27

38
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
THOMAS R. BRAY
Counsel of Record
1318 Glourie Drive
Houston, Texas 77055
(713) 827-1760
tom@brayandassociates.com
LAURA BECKMAN HEDGE
Assistant County Attorney
1019 Congress, 15th Floor
Houston, Texas 77002
(713) 274-5137
Laura.Hedge@cao.hctx.net
Counsel for Petitioner
June 8, 2021

APPENDIX

1a
APPENDIX A (1a-23a)
TEXAS COURT OF APPEALS, THIRD
DISTRICT, AT AUSTIN
NO. 03-17-00811-CV
Appellant, Harris County Hospital District //
Cross-Appellants, Public Utility Commission
of Texas and Southwestern Bell Telephone
Company d/b/a AT&T Texas
v.
Appellees, Public Utility Commission of Texas
and Southwestern Bell Telephone Company
d/b/a AT&T Texas // Cross-Appellee, Harris
County Hospital District
FROM THE DISTRICT COURT OF TRAVIS
COUNTY, 250TH JUDICIAL DISTRICT
NO. D-1-GN-15-005808, HONORABLE SCOTT H.
JENKINS, JUDGE PRESIDING
OPINION
This is a suit for judicial review pursuant to the
Administrative Procedure Act, Tex. Gov’t Code §§
2001.001–.902. The Harris County Hospital District
filed a complaint with the Public Utility Commission
(PUC) contesting certain fees Southwestern Bell
Telephone Company charged its telecommunications
customers in the 1990s. Southwestern Bell’s successor in
interest, AT&T, contends the fee dispute was resolved by
a class-action settlement in 2000. The PUC ultimately
dismissed the complaint, holding the Hospital District’s
claims barred by res judicata due to the class-action
settlement. The district court reversed that order,
holding that the Hospital District is not bound by the

2a
settlement because it was not represented in that action
in accordance with Section 281.056(b-1) of the Health
and Safety Code, which requires a county or district
attorney to represent certain hospital districts “in all
legal matters.” See Tex. Health & Safety Code §
281.056(b-1)(2) (requiring such representation in any
county “with population of 3.4 million or more”). We
agree with AT&T and the PUC that the Hospital
District is bound by the disputed settlement decree.
We will therefore reverse the district court’s order and
render judgment dismissing the case. See Tex. R. App.
P. 43.2 (requiring this court to render the judgment
the trial court should have rendered).
I
BACKGROUND
Telecommunications utilities in Texas may charge
customers a fee to recover certain costs resulting from
use of public rights of way. These “municipal fees” are
governed by Section 54.206 of the Utilities Code, which
allows the utility “to collect a fee that a municipality
imposes . . . through a pro rata charge to the customers
[with]in the boundaries of the municipality.” Tex. Util.
Code § 54.206(b). For more than two decades,
customers have alleged that Southwestern Bell
imposed excessive municipal fees throughout the
1990s, resulting in several lawsuits. Four are relevant
here.
The Mirales Settlement
Litigation commenced in 1998 in Cameron County
when two residential customers sued Southwestern
Bell and alleged the utility had been charging excessive
municipal fees since October of 1991. The parties
ultimately negotiated a cy pres class-action

3a
settlement—now known as the Mirales Settlement—to
resolve all related claims in Texas. The proposed
settlement defined the putative class as:
[A]ll persons and entities who currently
reside in the State of Texas who subscribe, or
formerly subscribed, to telephone service
provided by [Southwestern Bell] and pay, or
paid, to [Southwestern Bell] a municipal fee
imposed pursuant to a municipal ordinance,
other than an ordinance based on a percentage
of gross receipts, and collected pursuant to a
tariff or statute.
That definition excluded certain customers not
relevant here, including employees of Southwestern
Bell and the district court.
The proposed settlement, once accepted by the
district court, would prohibit any class member from
pursuing any claim arising from Southwestern Bell’s
collection of these allegedly excessive fees:
“Released Claims” means any and all claims,
rights, causes of action, suits, matters, issues,
controversies, or other bases for liability,
whether known or unknown, that have been,
could have been, or that might be asserted
hereafter in the Lawsuit or in any other court or
administrative or regulatory proceeding . . .
which have arisen, arise now, or hereafter may
arise or relate in any way to the pass-through or
collection of municipal fees in Texas, including
all causes of action that are or could be raised
under Plaintiffs’ pleadings on file herein or that
consumers or customers could raise in relation
to Southwestern Bell’s pass-through of
municipal fees.

4a
It continues, “Any member of the Settlement Class
who has not properly and timely requested exclusion
from the Settlement Class shall be bound by any and
all judgments, settlements, or releases entered or
approved by the Court whether favorable or
unfavorable to the class.” See Tex. R. Civ. P.
42(c)(2)(B)(v) (establishing putative class member’s
right to opt out of class).
After allowing the parties time to notify putative
class members of the proposed settlement, the district
court held two hearings on the fairness of the proposed
certification and settlement. At the first hearing,
certain commercial customers objected to the putative
class as too variant to satisfy the commonality
requirement of certification. See id. R. 42(b)(3)
(requiring common questions of law and fact to
“predominate” over any individual questions). This
challenge was led by Southwestern Tariff Analyst
(STA), a telecommunications billing auditor that had
attempted to intervene as named plaintiff but whose
petition in intervention had been stricken on
Southwestern Bell’s motion.
The district court continued the hearing to afford
Southwestern Bell time to address the objections to
certification. The hearing resumed a week later, and the
reporter’s record reflects that STA offered to withdraw
its objections and waive any right to appeal the
intervention ruling if Southwestern Bell would preserve
STA’s right to bring a separate class action on behalf of
governmental and commercial customers. Southwestern
Bell declined to change the class definition but agreed
not to raise res judicata or related defenses “in any class
action lawsuit brought by STA as plaintiff.” The

5a
agreement was memorialized under Rule 11 and
dictated into the reporter’s record.
The district court then certified the class and
accepted the settlement proposal. On May 4, 2000, the
court’s final judgment “grant[ed] final approval to the
Settlement Agreement” and deemed it “in all respects,
fair, reasonable, adequate, and in the best interests of
the Settlement Class.” The judgment indicates that all
objections were “carefully considered and [were] all
overruled.” The district court later issued a judgment
nunc pro tunc to correct certain typographical and
clerical errors in the final judgment.
The STA Suit
After the Mirales Class settled its claims, STA filed a
class action in 2003, proposing to represent nearly 7,000
governmental and commercial customers with respect to
any remaining claims arising from the same allegedly
excessive fees. See Southwestern Bell Tel. Co. v.
Marketing on Hold, Inc., 308 S.W.3d 909, 914 (Tex.
2010) (STA). The Hospital District was identified by the
class representative and separately by Southwestern
Bell as one of these putative class members, but no
attorney other than class counsel appeared on behalf of
the Hospital District.
The district court eventually certified the class and
the court of appeals affirmed, but the Supreme Court
of Texas reversed, holding that STA—as the only
named plaintiff—had not met its burden to show it
could adequately represent the class. See Tex. R. Civ.
P. 42(a) (requiring, inter alia, a showing that “the
representative parties will fairly and adequately
protect the interests of the class”); STA, 308 S.W.3d at
27 (“Although STA satisfied the typicality and
predominance requirements to be a class

6a
representative . . . it failed to establish that it is an
adequate class representative.”).
The Harris County Suit
A series of mergers left AT&T as successor in interest
to Southwestern Bell’s liability arising from this fee
dispute. Shortly after the Supreme Court of Texas
overruled certification of the STA class in 2010, the
Hospital District sued AT&T in Harris County district
court, reiterating the statutory challenge to the same fees
litigated in Mirales and STA. The Hospital District
conceded the similarity of the allegations but argued its
claims were “carved out” of the released claims by the
Rule 11 agreement and thus that it is not bound by the
Mirales Settlement. The district court did not reach that
argument, instead accepting AT&T’s response that the
claims arise from a fee dispute that falls within the
PUC’s exclusive jurisdiction. See Tex. Util. Code §§
17.157, 52.002, 54.206. It dismissed any “claims that
seek[] reimbursement of municipal charges under tariff,”
and abated the remaining “claims for additional
damages based on Gross Negligence, Fraud and/or the
Texas Deceptive Trade Practices Act” pending the
PUC’s resolution of the fee dispute. The Hospital
District apparently did not file an appeal or seek
mandamus relief from the dismissal or abatement.
The PUC Complaint
The Hospital District submitted its fee complaint to
the PUC in March of 2012. AT&T responded with a
motion to dismiss and a motion for summary decision
characterizing the Hospital District’s allegations as
injusticiable due to the Mirales Settlement and the
doctrine of res judicata. See Citizens Ins. Co. of Am. v.
Daccach, 217 S.W.3d 430, 450 (Tex. 2007) (“Basic
principles of res judicata apply to class actions just as

7a
they do to any other form of litigation.” (citing
Matsushita Elec. Indus. Co. v. Epstein, 516 U.S. 367,
377–79 (1996); Cooper v. Federal Reserve Bank, 467 U.S.
867, 87 (1984); Southwestern Ref. Co. v. Bernal, 22
S.W.3d 425, 432 (Tex. 2000))). The PUC referred the
question of justiciability to an administrative law judge
(ALJ) at SOAH. The ALJ denied the motion to dismiss
and the motion for summary decision.
After more than three years of litigation over the
complaint filed at the PUC, the ALJ rendered a proposal
for decision recommending dismissal of the matter. He
explained, “Under the doctrine of res judicata, all of the
claims asserted by [the Hospital District] in this
proceeding are barred by the Mirales Final Judgment
approving the Mirales Class Action Settlement.” The
PUC subsequently adopted the proposal for decision,
including its finding of facts and conclusions of law, and
issued an order dismissing the Hospital District’s
complaint.
The Hospital District sought judicial review in
December of 2015, naming the PUC as defendant.
AT&T later intervened in the case. As the primary basis
for its challenge to the PUC’s order, the Hospital
District argued that it could not have been a member of
the Mirales Class because Section 281.056 of the Health
and Safety Code—as it existed at the time—provided,
“The county attorney, district attorney, or criminal
district attorney, as appropriate, with the duty to
represent the county in civil matters[,] shall represent
the district in all legal matters.” See Tex. Health &
Safety Code § 281.056(b) (West 1998). It is undisputed
that no such attorney appeared or filed pleadings on
behalf of the District during the Mirales litigation. The
district court ultimately reversed the PUC’s final order:

8a
As a matter of law, pursuant to Section
281.056, Texas Health & Safety Code, [the
Hospital District] must be represented by the
county attorney unless its board opts to retain
outside counsel. No such counsel represented
[the Hospital District] in the Mirales lawsuit.
As a legislatively-created governmental
entity[,] [the Hospital District] cannot be part
of or bound by a class[-] action lawsuit unless
it takes such action to participate in the
lawsuit. Consequently, as a matter of law, [the
Hospital District’s] claims were not resolved
by the Mirales lawsuit nor resolved by its final
judgment.
All three parties filed timely appeal.
II
DISCUSSION
The parties raise three issues on appeal. First, the
Hospital District contends the district court should
have held the 20-year-old Mirales Settlement void
because the released claims arise from a fee dispute
that falls within the exclusive jurisdiction of the PUC.
Second, the PUC and AT&T contends the district court
erred by reversing the PUC’s order and holding the
Hospital District not bound by the Settlement’s release.
Third, the Hospital District contends that, even
assuming the Mirales Settlement is not void and the
Mirales Class can be construed to include the Hospital
District such that its claims would otherwise be barred
by release or res judicata, AT&T should be judicially
estopped from urging this Court to include the
Hospital District in that class. We address these
arguments in turn.

9a
A.

The Hospital District Cannot Prevail on
Its Collateral Challenge.

The Hospital District contends the Travis County
district court erred by failing to hold the Mirales
Settlement void. In support, the Hospital District
argues that the Harris County district court correctly
held the fee dispute within the PUC’s exclusive
jurisdiction and thus that the Cameron County district
court could not have had jurisdiction over the same fee
dispute during the Mirales litigation. According to the
Hospital District, without jurisdiction over the subject
matter, the Cameron County district court could not
have certified the class and accepted the settlement. We
review this challenge de novo. See Gauci v. Gauci, 471
S.W.3d 899, 901 (Tex. App. – Houston [1st Dist.] 2015,
no pet.) (citing Tex. Natural Res. Conservation Comm’n
v. IT–Davy, 74 S.W.3d 849, 855 (Tex. 2002)).
We begin by noting that this is not a jurisdictional
challenge raised on direct appeal. Instead, the Hospital
District collaterally challenges a twenty-year-old classaction settlement decree resolving tens of thousands of
claims filed over two decades ago. Courts generally will
not entertain collateral challenges to final orders, as the
law favors finality and certainty. See Browning v.
Prostok, 165 S.W.3d 336, 345 (Tex. 2005) (citing Tice v.
City of Pasadena, 767 S.W.2d 700, 703 (Tex. 1989);
Crouch v. McGaw, 138 S.W.2d 94, 96 (Tex. 1940)).
However, collateral challenge is proper if the disputed
judgment is allegedly void. See Browning v. Placke, 698
S.W.2d 362, 363 (Tex. 1985) (per curiam) (orig.
proceeding). A judgment is void only if “the court
rendering judgment had no jurisdiction of the parties or
property, no jurisdiction of the subject matter, no
jurisdiction to enter the particular judgment, or no

10a
capacity to act.” PNS Stores, Inc., 379 S.W.3d 267, 272
(Tex. 2012) (citing Travelers Ins. Co. v. Joachim, 315
S.W.3d 860, 863 (Tex. 2010)).
As the Supreme Court of Texas recently noted, “the
traditional doctrine was that a judgment of a court
shown to have lacked subject matter jurisdiction was
void” such that no further inquiry was necessary to
resolve the collateral challenge. Engelman Irrigation
Dist. v. Shields Bros., Inc., 514 S.W.3d 746, 752 (Tex.
2017) (quoting Restatement (Second) of Judgments § 12
cmts. a, b (Am. Law. Inst. 1982)) (internal quotation
marks omitted). However, the Restatement adopts a
“‘modern rule on conclusiveness of determinations of
subject matter jurisdiction . . . giv[ing] finality
substantially greater weight.’” Id. The Engelman Court
made these observations while considering whether to
hold a twenty-year-old judgment void based on
retroactive application of more recent precedent on
sovereign immunity—a doctrine well established as
implicating jurisdiction over subject matter. Id. at 748.
After explaining that the modern approach would bar
this attempted collateral challenge due to the need for
finality in the dispute, the Court ultimately rejected the
plaintiff’s argument and declined to recognize
retroactive application of new precedent as a basis for
collateral challenge. Id. at 755.
Although the Engelman Court did not rest its holding
on Section 12 of the Restatement of Judgments, it
acknowledged the modern trend favoring finality and
certainty. See id. at 750. This approach requires the
reviewing court to weigh any factors militating for and
against upholding the validity of the challenged
judgment. See Restatement (Second) of Judgments § 12
(Am. Law. Inst. 1982). These factors may vary in any

11a
given case, but include the age of the disputed judgment,
the number of parties affected by that judgment, the
breadth of the original tribunal’s jurisdiction, the
extent to which that tribunal made a jurisdictional
determination, and the challenger’s participation in
the litigation that resulted in the disputed judgment.
See id. In the present case, every relevant factor
weighs in favor of finality – “an anchoring principle of
any functioning and efficient judicial system.” See
Engelman, 514 S.W.3d at 753. The challenged
judgment is nearly two decades old, binds tens of
thousands of class members, was rendered by a court
of general jurisdiction, and includes a statement
indicating that the court found jurisdiction over “all
claims” and “all parties.”
But perhaps more importantly, the Hospital
District—as party to this litigation—has had ample
opportunity to litigate its jurisdictional challenge. “A
party that has an opportunity to litigate the question
of subject matter jurisdiction may not at a later time
reopen that question in a collateral attack upon an
adverse judgment.” Bass v. Champion Int’l Corp., 787
S.W.2d 208, 212 (Tex. App.—Beaumont 1990, no writ)
(citing Chicot Cty. Drainage Dist. v. Baxter State Bank,
308 U.S. 371 (1940)); see also Insurance Corp. of Ir.,
Ltd. v. Compagnie des Bauxites de Guinee, 456 U.S.
694, 702 n.9 (1982) (“A party that has had an
opportunity to litigate the question of subject-matter
jurisdiction may not, however, reopen that question in
a collateral attack upon an adverse judgment.”);
Kortebein v. American Mut. Life Ins. Co., 49 S.W.3d 79,
88 (Tex. App.—Austin 2001, pet. denied) (“Absent class
members’ due-process right to adequate representation
is protected by the adoption of appropriate procedures
by the certifying court and by appeal . . . . Due process

12a
does not require collateral second-guessing of those
determinations and that review.”). After reviewing the
record, the PUC concluded Southwestern Bell’s
customers received adequate notice of the Mirales
litigation in 2000, and the Hospital District does not
deny it received that notice. See Tex. R. App. P. 38.1(g).
The Hospital District could have raised this argument
at that time. In addition, the Hospital District concedes
its membership in the putative STA class, whose named
representative sought relief from the same disputed fees
in district court. And although the Supreme Court
ultimately deemed that class uncertifiable in 2010, the
Hospital District could have raised this argument before
that determination. Because the relevant facts and
circumstances of this case – including the Hospital
District’s opportunity to litigate this jurisdictional
challenge in Mirales and STA – weigh in favor of
finality, we reject its present challenge to the Mirales
Final Judgment. We overrule the Hospital District’s
first issue.
B. The Hospital District Is Bound by Mirales.
The crux of this dispute is whether the PUC correctly
held that the Mirales Class includes the Hospital
District or the district court correctly reversed that
holding. AT&T contends the PUC “correctly found [the
Hospital District’s] claims are barred by a
straightforward application of the Mirales Settlement’s
release provision.” Similarly, the PUC, as party to this
appeal, argues:
[The Hospital District’s] claims are barred by
the Mirales settlement and judgment in two
distinct was. First, the doctrine of res judicata
precludes [the Hospital District], a Mirales
class member, from relitigating the exact

13a
claims adjudicated and resolved in Mirales. . . .
Second, setting aside res judicata, the exact
claims [the Hospital District] presses in this
lawsuit were released in Mirales.
We agree with AT&T and the PUC that the present
claims are barred by the release in the Mirales
Settlement.
1.

The Hospital District’s Claims Were
Released by the Mirales Settlement.

The PUC is correct that the Mirales Settlement
expressly releases the claims the Hospital District
attempts to bring here. “‘A settlement agreement is a
contract, and its construction is governed by legal
principles applicable to contracts generally.’” Garza v.
Villarreal, 345 S.W.3d 473, 479 (Tex. App.—San
Antonio 2011, pet. denied) (quoting Donzis v.
McLaughlin, 981 S.W.2d 58, 61 (Tex. App.—San
Antonio 1998, no pet.)). “It is the general rule of the law
of contracts that where an unambiguous writing has
been entered into between the parties, the Courts will
give effect to the intention of the parties as expressed
or as is apparent in the writing.” City of Pinehurst v.
Spooner Addition Water Co., 432 S.W.2d 515, 518 (Tex.
1968). We review the interpretation of an unambiguous
contractual provision de novo. See URI, Inc. v. Kleberg
County, 543 S.W.3d 755, 763 (Tex. 2018).
The Mirales Class is defined in relevant part as “all
persons and entities who currently reside in the State
of Texas who subscribe, or formerly subscribed, to
telephone service provided by [Southwestern Bell] and
pay, or paid, to [Southwestern Bell] a municipal fee . .
. .” None of the parties characterizes this language as
ambiguous, and the Hospital District does not deny it
is an entity who subscribed to telephone service from

14a
Southwestern Bell and paid the municipal fees during
the disputed period. Southwestern Bell’s records
confirm as much. Thus, the Hospital District is a
member of the Mirales Class.
The claims released in the Mirales Settlement
include “any and all claims which have arisen, arise
now, or hereafter may arise or relate in any way to the
pass-through or collection of municipal fees in Texas.”
Again, the parties and this Court are in agreement that
the language is unambiguous. Thus, we turn to the
ordinary meaning of the terms to interpret the clause.
Black defines “arise from” as to “originate from,” “stem
from,” or “result from.” See Arise, Black’s Law
Dictionary (10th ed. 2014). In the present suit, the
Hospital District alleges:
[Southwestern Bell’s] failure or refusal to
refund the Unauthorized Charges [i.e.,
municipal fees charged in excess of statutory
guidelines] constitutes a material breach of
contract and a violation of tariff, substantive
rule[s] and PURA, and has resulted in
unlawful rates being charged and collected by
[Southwestern Bell] from [the Hospital
District].
Each of these claims originates, stems, and results
from Southwestern Bell’s collection of allegedly
impermissible municipal fees. The Hospital District’s
claims therefore arise from the collection of those fees
and fall within the scope of the Mirales Settlement’s
release.
The Hospital District, however, argues that the
unambiguous language of this release does not apply to
its case because that language does not accurately reflect
the claims the Mirales parties intended to release. A

15a
settlement release is governed by the law of contracts
and is therefore limited by any defenses available in
contract law. See Williams v. Glash, 789 S.W.2d 261, 264
(Tex. 1990). As the party seeking to avoid this
unambiguous release, the Hospital District bears the
burden of demonstrating an applicable defense, such as
fraud, mutual mistake, or lack of consideration. See id.
(“[O]nce the affirmative defense of release has been
pleaded and proved, the burden of proof is on the party
seeking to avoid the release to establish mutual
mistake.”). The Hospital District offers the reporter’s
record from the Mirales certification hearing as evidence
that the parties never intended to release its claims as
part of the Mirales Settlement. As the Hospital District
describes it, the parties “carve[d] out claims regarding
certain business customers”—allegedly including the
Hospital District—”from the class action.” Yet the
evidence offered by the Hospital District does not
support its argument. The Hospital District is correct
that counsel for AT&T dictated certain stipulations
into the record as part of a Rule 11 Agreement
accepted by the court, but at no point did AT&T or the
court adopt any claim definition or class definition
other than those stated in the Mirales Settlement. 1
The Hospital District also contends it is neither fair
nor prudent to hold governmental entities bound by
class-action settlements unless those entities
affirmatively choose to “opt in” to the action. But Texas
law requires putative class members to opt out of a
settlement to avoid the binding effects of class action. See
Tex. R. Civ. P. 42(c)(2)(B)(v); Entex v. City of Pearland,
990 S.W.2d 904, 913 (Tex. App.—Houston [14th Dist.]
1 We discuss the Rule 11 Agreement in further detail in our
discussion of estoppel, infra.

16a
1999, no pet.) (“The trial court recognized the problems
with the opt-out provisions of the class action and
expressed its preference for an opt-in notification of class
action, which is not available in Texas.”), abrogated on
other grounds, Tracker Marine, L.P. v. Ogle, 108 S.W.3d
349, 351 (Tex. App.—Houston [14th Dist.] 2003, no pet.);
Enterprise Concepts, Inc. v. Finnell, 964 S.W.2d 348,
349–50 (Tex. App.—Beaumont 1998, no pet.)
(emphasizing the opt-in provision of the Fair Labor
Standards Act, 29 U.S.C. § 216(b), and characterizing
the suit as “not a true class action under Rule 42 of the
Texas Rules of Civil Procedure” due to this prerequisite
to class membership). The Hospital District has not
identified any authority distinguishing governmental
entities from private entities with respect to the
procedures governing class membership under state
law, and courts may not “require a particular procedure
when the legislature has not seen fit to do so itself.”
Matthews v. Scott, 268 S.W.3d 162, 173 (Tex. App.—
Corpus Christi 2008, no pet.) (citing City of Rockwall
v. Hughes, 246 S.W.3d 621, 631 (Tex. 2008)). Thus,
even assuming any merit to the Hospital District’s
policy arguments regarding the effect of class-action
settlements on governmental entities, we would defer
to the Legislature to make any changes to the rules
governing class actions.
Because the unambiguous definitions in the
Mirales Settlement include the Hospital District and
its allegations, and because the Hospital District offers
no persuasive basis for contract avoidance, we
conclude its claims fall within the scope of the release.
2.

Section 281.056 Does Not Exempt the
Hospital District from the Release.

17a
The Hospital District argues that even if its claims
would otherwise fall within the Mirales Settlement’s
release, the Hospital District is not bound by that
release because it was not represented in the manner
required by statute when the Cameron County district
court rendered final judgment. Section 281.056 of the
Health and Safety Code provides, “The county
attorney, district attorney, or criminal district, as
appropriate, with the duty to represent the county in
civil matters shall represent the district in all legal
matters.” See Tex. Health & Safety Code § 281.056(b).
According to the Hospital District, “The plain
language of Section 281.056 requires the presence of
the Harris County Attorney in ‘all legal matters.’”
Based on the undisputed fact that this attorney was
never present in court and filed no pleadings in the
Mirales litigation, the Hospital District reasons that it
was not “represented” in accordance with the statute.
We find the argument unavailing.
“When interpreting a statute, our primary objective
is to ascertain and give effect to the Legislature’s intent
without unduly restricting or expanding the Act’s
scope.” Greater Hous.
P’ship v. Paxton, 468 S.W.3d 51, 58 (Tex. 2015)
(citing City of Lorena v. BMTP Holdings, L.P., 409
S.W.3d 634, 641 (Tex. 2013)). “We seek that intent first
and foremost in the plain meaning of the text.” Id. at
58 (citing Lorena, 409 S.W.3d at 641; Texas Lottery
Comm’n v. First State Bank, 325 S.W.3d 628, 635 (Tex.
2010)). “‘Undefined terms in a statute are typically
given their ordinary meaning . . . .’” Greater Hous.
P’ship, 468 S.W.3d at 58 (quoting TGS–NOPEC
Geophysical Co. v. Combs, 340 S.W.3d 432, 439 (Tex.
2011)).

18a
“Represent” is not defined in Section 281.056, so we
turn to its ordinary meaning. See id. Courts have
defined the verb as “[to] fill the place of for some
purpose: substitute in some capacity.” See Thomas v.
United Parcel Serv., Inc., 890 F.2d 909, 917–18 (7th Cir.
1989) (quoting Webster’s Third New International
Dictionary 1926 (3d ed. 1981)). Similarly, Merriam
defines “represent” as “to manage the legal and
business affairs of.” See Merriam-Webster’s Collegiate
Dictionary 1057 (11th ed. 2008). The Random House
definition of “represent” is “to stand or act in the place
of, as an agent does.” The Random House College
Dictionary 1120 (Revised ed. 1984). And American
Heritage defines the word as “to act as a spokesperson
for.” American Heritage Dictionary of the English
Language 1490 (5th ed. 2015). None of these definitions
supports the Hospital District’s argument that an
attorney must be “presen[t]” in court or file pleadings to
represent a client. Particularly in the context of
government and in-house counsel, attorneys routinely
represent their clients by advising them not to
intervene, not to file responsive pleadings, etc. But
these attorneys are still representing their clients by
advising them, managing their affairs, and acting on
their behalf. Thus, the attorneys delineated in Section
281.056 need not necessarily appear in court or file
pleadings to comply with the representation directive.
The Hospital District complains that the county
attorney’s office had no opportunity to provide advice
pursuant to the statute because no one notified that
office of the Mirales litigation. This argument implies
that the named plaintiffs, the court, or class counsel
had an obligation under Section 281.056 to notify the
county attorney of the class action. But the statute
offers no support for such a construction. To the

19a
contrary, while other statutes place the burden to
notify government counsel on the plaintiff or the
presiding court, cf. Tex. Gov‘t Code § 402.010, this
statute’s only burden is placed on the county attorney
itself. See id. § 311.016(2) (“‘Shall’ imposes a duty.’”).
Moreover, the record reflects that the Hospital District
itself received adequate notice of the proposed classaction settlement. The Hospital District does not deny
it received that notice. To whatever extent the county
attorney was unaware of the litigation, that
unawareness would have resulted, at least in part,
from the Hospital District’s failure to apprise the
attorney of the pending class action. Thus, under the
Hospital District’s interpretation of this Section, it
could simply avoid unwanted litigation by failing to
notify the county attorney. This is not a reasonable
construction of the statute. See Tex. Gov’t Code §
311.021(2)–(3) (requiring courts to presume the
legislature intended a just, reasonable, and effective
result in enacting statute). Because the Hospital
District’s proposed construction is not reasonable and
is inconsistent with the language of the statute, must
reject that construction.
We sustain the issue raised by AT&T and the PUC.
C.

AT&T Is Not Estopped from Seeking to
Bind the Hospital District.

In the final issue before this Court, the Hospital
District contends AT&T is judicially estopped from
characterizing the Hospital District as a member of the
Mirales Class. If the Hospital District is correct, any
error in the District Court’s analysis was harmless and
its order cannot be reversed. See Tex. R. App. P.
44.1(a).

20a
“‘Judicial estoppel is a common law doctrine that
prevents a party from assuming inconsistent positions
in litigation.’” Perryman v. Spartan Tex. Six Capital
Partners, Ltd., 546 S.W.3d 110, 117 (Tex. 2018) (quoting
Kane v. Nat’l Union Fire Ins., 535 F.3d 380, 385 (5th Cir.
2008)). Because judicial estoppel is an affirmative
defense, the party urging estoppel has the burden to
conclusively prove each element. See Anadarko Petrol.
Corp. v. Thompson, 94 S.W.3d 550, 553 (Tex. 2002)
(listing as affirmative defense); QAIC Comm’l Assets,
L.L.C. v. Stonegate Vill., L.P., 234 S.W.3d 726, 742 (Tex.
App.—Dallas 2007, pet. denied) (stating burden);
Southwest Guar. Tr. Co. v. Providence Tr. Co., 970
S.W.2d 777, 782 (Tex. App.—Austin 1998, pet. denied)
(same). Appellate courts generally review judicial
estoppel for an abuse of discretion. See Perryman, 546
S.W.3d at 117.
The elements of judicial estoppel are: “(1) a sworn,
prior inconsistent statement made in a judicial
proceeding; (2) the party now sought to be estopped
successfully maintained the prior position; (3) the prior
inconsistent statement was not made inadvertently or
because of mistake, fraud, or duress; and (4) the
statement was deliberate, clear and unequivocal.” In re
Marriage of Butts, 444 S.W.3d 147, 151 (Tex. App.—
Houston [14th Dist.] 2014, no pet.) (citing Spera v.
Fleming, Hovenkamp & Grayson, P.C., 25 S.W.3d 863,
871 (Tex. App.—Houston [14th Dist.] 2000, no pet.);
Vinson & Elkins v. Moran, 946 S.W.2d 381, 396 (Tex.
App.—Houston [14th Dist.] 1997, writ dism’d by agr.)).
To satisfy the first element, the party seeking estoppel
must conclusively demonstrate that the opposing party
“alleged or admitted in his pleadings in a former
proceeding . . . the contrary to the assertion sought to
be made” in the present proceeding. Long v. Knox, 291

21a
S.W.2d 292, 295 (Tex. 1956) (citing 31 C.J.S. Estoppel,
§ 121 (1955)) (other citations omitted).
The Hospital District cannot prevail on this defense
because it has not identified any prior inconsistent
statement by Southwestern Bell or AT&T. As evidence
of such a statement, the Hospital District produced the
transcript from the final hearing on certification of the
Mirales Class. The Hospital District contends this
transcript shows that Southwestern Bell “entered into a
Rule 11 agreement . . . to carve out claims [of] certain
business customers from the class action . . . including
[the Hospital District’s].” This characterization is
contradicted by the transcript itself. The transcript
confirms that the parties entered into the Rule 11
Agreement and dictated that agreement into the record.
That agreement, however, did not “carve out” any class
members or claims from the proposed settlement.
Instead, STA—the only remaining challenger to
certification of the Mirales Class—”agree[d] to
withdraw all of its objections to the settlement of the
Mirales lawsuit.” In exchange for the withdrawn
objection, Southwestern Bell agreed that it would not
assert “any judgment, ruling, order[,] or action of the
Court in the Mirales lawsuit” as a defense to any “class
action lawsuit brought by STA as plaintiff (whether the
lawsuit is ultimately certified as a class action or not) . .
. in which STA asserts the STA claims for itself and on
behalf of a class of similar situation persons or entities.”
But at no point in this record did Southwestern Bell
suggest that governmental or commercial customers lie
outside the Mirales Class, and at no point did it deviate
from the unambiguous language of the class definition,
which includes all “entities who currently reside in the
State of Texas who subscribe, or formerly subscribed,
to telephone service provided by [Southwestern Bell].”

22a
The Hospital District does not deny that it constitutes
such an entity.
Nor was Southwestern Bell’s subsequent litigation
of the STA class action inconsistent with AT&T’s
current position regarding the binding effect of the
Mirales Settlement on the Hospital District. The
Hospital District argues otherwise, pointing to a list of
putative class members that includes the Hospital
District. It further alleges that Southwestern Bell
“litigated the STA case accepting and affirmatively
arguing that the proposed class members in that case
included not only [the Hospital District] but dozens of
governmental, commercial and other institutional
customers.”
This
argument
mischaracterizes
Southwestern Bell’s position in STA. From the first day
of litigation, Southwestern Bell “vigorously dispute[d]”
the existence of any certifiable class and denied the
viability of the claims alleged. Nothing in this record
reflects that Southwestern Bell ever suggested the
Hospital District—or any other putative class
member—had a viable claim arising from the fee
dispute or that the present claims lie outside the release
set forth in the Mirales Settlement. Thus, the Hospital
District has produced no evidence of a statement
“contrary to the assertion[s]” AT&T makes in the
present case. 2 We overrule the issue.
Long v. Knox, 291 S.W.2d 292, 295 (Tex. 1956). The Hospital
District appears to argue that Southwestern Bell’s failure to raise
the possible res judicata effect of Mirales during the STA litigation
constitutes a prior inconsistent statement. Under the Mirales Rule
11 Agreement, Southwestern Bell had promised not to raise that
argument against STA and its putative class. Thus, even assuming
any inconsistency between that omitted statement and the
assertions made here, “[t]he doctrine of judicial estoppel simply
does not apply under these circumstances.” Ferguson v. Building

2

23a
III
CONCLUSION
Having concluded that the district court erred in
reversing the PUC’s order dismissing the Hospital
District’s complaint, we reverse its final judgment
and render judgment affirming the PUC’s dismissal
order. Tex. R. App. P. 43.2.
_______________________
Edward Smith, Justice
Before Chief Justice Rose, Justices Kelly and Smith
Reversed and Rendered
Filed: May 3, 2019

Materials Corp. of Am., 295 S.W.3d 642, 644 (Tex. 2009) (explaining
that the doctrine is intended “to prevent parties from playing fast
and loose with the judicial system”); Spartan Tex. Six Capital
Partners, Ltd. v. Perryman, 494 S.W.3d 735, 749 (Tex. App.—
Houston [14th Dist.] 2016, pet. granted) (“[C]ourts should
determine if applying judicial estoppel is appropriate in light of the
specific facts of each case and the doctrine’s purpose of ‘protect[ing]
the integrity of the judicial process.’” (quoting United States ex rel.
Long v. GSDMIdea City, L.L.C., 798 F.3d 265, 271 (5th Cir. 2015))
(alteration in original), aff’d as modified, 546 S.W.3d 110 (Tex.
2018)).

24a
APPENDIX B (24a-25a)
TEXAS COURT OF APPEALS, THIRD
DISTRICT, AT AUSTIN
_______________________________________
JUDGMENT RENDERED MAY 3, 2019
_______________________________________
NO. 03-17-00811-CV
Appellant, Harris County Hospital District //
Cross-Appellants, Public Utility Commission
of Texas and Southwestern Bell Telephone
Company d/b/a AT&T Texas
v.
Appellees, Public Utility Commission of Texas
and Southwestern Bell Telephone Company
d/b/a AT&T Texas // Cross-Appellee, Harris
County Hospital District
_________________________________________________
APPEAL FROM THE 250TH DISTRICT COURT
OF TRAVIS COUNTY BEFORE CHIEF
JUSTICE ROSE, JUSTICES KELLY AND
SMITH
REVERSED AND RENDERED – OPINION BY
JUSTICE SMITH
_________________________________________________
This is an appeal from the judgment signed by the
trial court on October 30, 2017. Having reviewed the
record and the parties’ arguments, the Court holds that
there was reversible error in the court’s judgment.
Therefore, the Court reverses the trial court’s judgment

25a
and renders judgment affirming the Public Utility
Commission’s dismissal order. Harris County Hospital
District shall pay all costs relating to this appeal, both in
this Court and the court below.

26a
APPENDIX C (26a-27a)
IN THE SUPREME COURT OF TEXAS
-- -- -- -NO. 19-0709
HARRIS COUNTY
HOSPITAL DISTRICT
vs.
PUBLIC UTILITY
COMMISSION OF TEXAS
AND SOUTHWESTERN
BELL TELEPHONE
COMPANY D/B/A
AT&T TEXAS

§
§
§
§
§
§
§
§
§

Travis County,
3rd District,

November 13, 2020
Petitioner’s petition for review, filed herein in the
above numbered and styled case, having been duly
considered, is ordered, and hereby is, denied.
January 22, 2021
Petitioner’s motion for rehearing of petition for
review, filed herein in the above numbered and styled
case, having been duly considered, is ordered, and
hereby is, denied.
(Justice J. Brett Busby and Justice Rebeca A. Huddle
not sitting)
**********
I, BLAKE A. HAWTHORNE, Clerk of the Supreme
Court of Texas, do hereby certify that the above is a

27a
true and correct copy of the orders of the Supreme
Court of Texas in the case numbered and styled as
above, as the same appear of record in the minutes of
said Court under the date shown.
It is further ordered that petitioner, HARRIS
COUNTY HOSPITAL DISTRICT, pay all costs
incurred on this petition.
WITNESS my hand and seal of the Supreme Court
of Texas, at the City of Austin, this the 22nd day of
January, 2021.
/s/ Blake A. Hawthorn
Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy
Clerk
Supreme Court of
the State of Texas
(SEAL)

28a
APPENDIX D (28a-29a)
Filed in The District Court
Of Travis County, Texas
October 30, 2017 SL
At 1:10 P.M.
Velva L. Price, District Clerk
NO. D-1-GN-15-005808
HARRIS COUNTY
HOSPITAL DISTRICT
Plaintiff,
v.
PUBLIC UTILITY
COMMISSION
Defendant.

§
§
§
§
§
§
§
§
§

IN THE DISTRICT
COURT

250TH JUDICIAL
DISTRICT
TRAVIS COUNTY,
TEXAS

FINAL ORDER
On October 19, 2017, the Court heard Plaintiff
Harris County Hospital District’s Petition for Judicial
Review of PUC Docket No. 40235, SOAH Docket No.
473-13-0391. The administrative record was admitted
into evidence, and the Court heard oral argument.
Having considered the pleadings, HCHD’s opening
brief, the response briefs, the reply, and arguments of
counsel, the Court makes the following rulings:
As a matter of law, pursuant to Section 281.056,
Texas Health & Safety Code, HCHD must be

29a
represented by the county attorney unless its board
opts to retain outside counsel. No such counsel
represented HCHD in the Mireles lawsuit. As a
legislatively-created governmental entity HCHD
cannot be part of or bound by a class action lawsuit
unless it takes such action to participate in the
lawsuit. Consequently, as a matter of law, HCHD’s
claims were not resolved by the Mireles lawsuit nor
resolved by its final judgment.
Consequently, the Court reverses the Commission’s
Order.
This is a final, appealable order.
Signed this 30th day of October, 2017.
/s/ Scott Jenkins
Judge Scott Jenkins

APPROVED AS TO FORM:
/s/ John Hulme
John Hulme,
Counsel for PUC
APPROVED AS TO FORM:
/s/ Susan Hays
Susan Hays,
Counsel for HCHD

/s/ Hans Germann
Hans, Germann,
Counsel for AT&T
w/permission
JH

30a
APPENDIX E (30a-37a)
RECEIVED
2015 OCT- 8 AM 9:35
PUBLIC UTILITY COMMISISON
FILING CLERK
PUC DOCKET NO. 40235
SOAH DOCKET NO. 473-13-0391
COMPLAINT OF
HARRIS COUNTY
HOSPITAL DISTRICT
AGAINST
SOUTHWESTERN
BELL TELEPHONE
COMPANY D/B/A
AT&T TEXAS

§ PUBLIC UTILITY
§ COMMISSION
§
§ OF TEXAS
§
§
§
§

ORDER
This order addresses a complaint by the Harris
County
Hospital
District
(HCHD)
against
Southwestern Bell Telephone, L.P. d/b/a AT&T Texas
in which HCHD alleged that AT&T Texas improperly
passed through municipal franchise fees to AT&T
Texas’s customers, including HCHD, from 1991 to
2000 in violation of AT&T Texas’s tariff. AT&T Texas
filed a motion for summary judgment in this docket,
contending that all of HCHD’s claims are barred by res
judicata, because the claims were previously resolved
by a class action settlement in Jose Mireles, et al. v.

31a
Southwestern Bell Telephone Company. 1 On April 9,
2015, the Commission issued an interim order finding
that “under the doctrine of res judicata all of the claims
in this proceeding are barred by the final judgment
approving a class action settlement in the Mireles v.
SWBT case.” 2 On August 7, 2015, the State Office of
Administrative Hearings administrative law judge
filed a proposal for decision that reflects the
Commission’s decision in its order on interim appeal.
The Public Utility Commission of Texas
(Commission) adopts the proposal for decision,
including the following findings of fact and conclusions
of law:
I. Findings of Fact
1. In 1998, a class action lawsuit entitled Jose
Mireles, et al., v. Southwestern Bell Telephone
Company, Cause No. 98-07-3003-E (Mireles v. SWBT)
was filed in the 357th District Court of Cameron
County, alleging that, from 1991 to 2000,
Southwestern Bell Telephone Company (SWBT)
improperly passed through municipal franchise fees to
SWBT’s customers in violation of SWBT’s tariff.
2. The Mireles v. SWBT case was settled in 2000
by means of a class action settlement agreement,
which the Cameron County District Court (trial court)
determined to be “fair, reasonable, adequate and in the
best interests of the settlement class” in an order and
final judgment signed after a multi-day fairness
hearing (Mireles class action settlement agreement).
1 Docket No. 98-07-3003-E, Order and Final Judgment, 357th
District Court, Cameron County, Texas (May 4, 2000), Order and
Final Judgment Nunc Pro Tune (May 22, 2000).
2

Order on Interim Appeal, Docket No. 40235 (Apr. 9, 2015), at 2.

32a
3. The order and final judgment the Trial Court
entered in Mireles v. SWBT (Mireles final judgment)
was affirmed on appeal and again when attacked by
bill of review.
4. The Mireles final judgment, entered both
originally and nunc pro tunc, settled, released, and
adjudicated all claims held by and all “damages”
claimed by “All persons and entities who currently
reside in the State of Texas who subscribe, or formerly
subscribed, to telephone service provided by [SWBT]
and pay, or paid, to SWBT a municipal fee imposed
pursuant to a municipal ordinance, other than an
ordinance based upon a percentage of gross receipts,
and collected pursuant to tariff or statute.”
5. Excluded from the Mireles class were: (a)
SWBT, and the directors and officers thereof; (b) the
subsidiaries, parents, and affiliates of SWBT, and the
directors and officers thereof; (c) any person or entity
in which any excluded person had a controlling
interest; (d) members of the immediate family of any
of the foregoing, if a natural person; (e) the members,
employees, and agents of the 357th Judicial District
Court of Cameron County, Texas, including any trial
or presiding judge; and (f) the legal representatives,
heirs, successors-in-interest, and assigns of any
excluded person.
6. In the Mireles final judgment, the Court
determined that the notice given to the members of the
settlement class fully and accurately informed all
members of the settlement class of all material
elements of the proposed settlement; was the best
notice practicable under the circumstances; was valid,
due, and sufficient notice to all settlement class
members; and complied fully with Texas Rule of Civil

33a
Procedure 42, the United States Constitution, the
Texas Constitution, and any other applicable law.
7. From 1991 to 2000, HCHD subscribed to SWBT
services and was billed and paid municipal fees to
SWBT, and these were the same fees addressed by the
Mireles final judgment.
8. HCHD took no action in Mireles v. SWBT to
exclude itself from the Mireles class. HCHD did not
intervene in Mireles v. SWBT for any purpose, nor did
HCHD object to or opt out of the Mireles class.
9. HCHD did not attack the Mireles final judgment
by direct appeal or bill of review.
10. HCHD filed its complaint in this case against
Southwestern Bell Telephone, L.P. d/b/a AT&T Texas
(AT&T Texas) on March 16, 2012, alleging that AT&T
Texas improperly charged municipal franchise fees to
AT&T Texas’s customers, including HCHD, from 1991
through 2000 in violation of AT&T Texas’s tariff.
11. On October 1, 2012, the Commission referred
this case to the State Office of Administrative
Hearings (SOAH), requesting the assignment of an
administrative law judge (ALJ) to conduct a hearing
and issue a proposal for decision, if necessary.
12. On November 2, 2012, the Commission issued
its preliminary order in this case.
13. In November 2013, the SOAH ALJ abated the
case for a significant period of time pursuant to the
parties’ agreed motion to abate.
14. In July 2014, the SOAH ALJ lifted the
abatement and adopted a new procedural schedule.
15. On December 3, 2014, AT&T Texas filed its
motion for summary decision.

34a
16. On January 15, 2015, the ALJ issued SOAH
Order No. 24, denying the motion for summary
decision.
17. AT&T Texas appealed SOAH Order No. 24 to
the Commission.
18. On April 9, 2015, the Commission issued its
Order on Interim Appeal, which granted AT&T Texas’s
appeal of SOAH Order No. 24 and found that under
the doctrine of res judicata all of the claims asserted
by HCHD in this proceeding are barred by the final
judgment approving a class action settlement in
Mireles v. SWBT.
19. HCHD’s complaint is based on the same claims
and the same transactions and occurrences—the same
municipal fees, the same line items on the same
telephone bills, for the same time period, under the
same tariffs and statutes—that were the basis of the
Mireles final judgment.
20. The record closed in this proceeding on July 31,
2015, after AT&T Texas submitted proposed findings
of fact and conclusions of law.
21. Official notice was taken of the matters stated
in the Stipulations and Joint Request for Official
Notice filed jointly by AT&T Texas and HCHD in this
case on December 2, 2014, as well as the pleadings and
other filings in this case. The record includes the
affidavits, stipulations, and other documents filed in
support of and in opposition to AT&T Texas’s motion
for summary decision.

35a
II. Conclusions of Law
1. The Commission has jurisdiction over this
matter pursuant to §§ 14.001, 52.002, 53.001, and
64.157 of the Public Utility Regulatory Act, Tex. Util.
Code. Ann. §§ 11.001-66.016 (West 2007 & Supp.
2014).
2. SOAH has jurisdiction over this proceeding
pursuant to PURA § 14.053 and Tex. Gov’t Code Ann.
§ 2003.049 (West 2012 & Supp. 2014).
3. This docket was processed in accordance with
the requirements of PURA and the Texas
Administrative Procedure Act, Texas Government
Code Chapter 2001, and Commission rules.
4. HCHD is bound by the Mireles class action
settlement agreement and Mireles final judgment
because it was a member of the Mireles class and did
not opt out of the class.
5. The doctrine of res judicata requires proof of the
following elements: (a) a prior final judgment on the
merits by a court of competent jurisdiction; (b) identity
of parties or those in privity with them; and (c) a
second action based on the same claims that were
raised or could have been raised in the first action.
6. Each of the three elements to establish res
judicata is satisfied here as a matter of law.
7. Under the doctrine of res judicata, all of the
claims asserted by HCHD in this proceeding are
barred by the Mireles final Judgment approving the
Mireles class action settlement agreement.
8. Summary decision is appropriate in this case
because the pleadings, affidavits, materials obtained
by discovery or otherwise, admissions, matters

36a
officially noticed, or evidence of record show that there
is no genuine issue as to any material fact and that
AT&T Texas is entitled to a decision in its favor, as a
matter of law, on all claims asserted by HCHD in this
case. 16 Tex. Admin. Code § 22.182(a) (TAC).
9. AT&T Texas is entitled to a final order in its
favor, as a matter of law, on all claims asserted by
HCHD in this proceeding. 16 TAC § 22.182(a)-(e).
III. Ordering Paragraphs
In accordance with these findings of fact and
conclusions of law, the Commission issues the
following order:
1. The complaint of Harris County Hospital
District is dismissed.
2. All other motions, requests for entry of specific
findings of fact and conclusions of law, and any other
request for general or specific relief, if not expressly
granted herein, are denied.
SIGNED AT AUSTIN, TEXAS the 8th day of
October 2015.
PUBLIC UTILITY COMMISSION
OF TEXAS
/s/ Donna L. Nelson
DONNA L. NELSON,
CHAIRMAN
/s/ Kenneth W. Anderson, Jr.,
KENNETH W. ANDERSON, JR.,
COMMISSIONER

37a
/s/ Brandy Marty Marquez
BRANDY MARTY MARQUEZ,
COMMISSIONER

38a
APPENDIX F (38a-39a)
RECEIVED
2015 APR- 13 PM 4:27
PUBLIC UTILITY COMMISISON
FILING CLERK

PUC DOCKET NO. 40235
SOAH DOCKET NO. 473-13-0391
COMPLAINT OF
HARRIS COUNTY
HOSPITAL DISTRICT
AGAINST
SOUTHWESTERN
BELL TELEPHONE
COMPANY D/B/A
AT&T TEXAS

§ PUBLIC UTILITY
§ COMMISSION
§
§ OF TEXAS
§
§
§
§

SOAH ORDER NO. 28
NOTICE OF INTENT TO DISMISS AND
DEADLINE FOR FILING RESPONSE
On April 9, 2015, the Public Utility Commission
of Texas (PUC or Commission) issued its Order on
Interim Appeal, finding that all of the claims asserted
by Harris County Hospital District in this matter are
barred by res judicata. Under the circumstances, the
Administrative Law Judge (ALJ) finds that there
remain no issues for which a contested case hearing
would be necessary and a procedural schedule need

39a
not be adopted. Based upon the Commission’s order on
the interim appeal, it appears this case should be
dismissed pursuant to P.U.C. Proc. R. 22.181(a)(1)(c).
Although no party has filed a motion to dismiss, the
presiding officer may initiate the motion under P.U.C.
Proc. R. 22.181 (a). Under the circumstances, the ALJ
finds it appropriate to initiate such a motion, and this
order provides notice to the parties of such. Under the
rule, the parties have 20 days from the date of receipt
of a motion to dismiss to file a response. Out of an
abundance of caution, the ALJ finds it appropriate to
allow a slightly longer time for response. Therefore, it
is ORDERED that the parties shall have until May 11,
2015, to file any response to the ALJ’s intent to dismiss
this case on the basis of res judicata.
SIGNED April 13, 2015.
/s/ Craig R. Bennett
CRAIG R. BENNETT
ADMINISTRATIVE LAW
JUDGE
STATE OFFICE OF
ADMINISTRATIVE
HEARINGS

40a
APPENDIX G (40a-43a)
RECEIVED
2015 APR- 9 PM 12:23
PUBLIC UTILITY COMMISISON
FILING CLERK

PUC DOCKET NO. 40235
SOAH DOCKET NO. 473-13-0391
COMPLAINT OF
HARRIS COUNTY
HOSPITAL DISTRICT
AGAINST
SOUTHWESTERN
BELL TELEPHONE
COMPANY D/B/A
AT&T TEXAS

§ PUBLIC UTILITY
§ COMMISSION
§
§ OF TEXAS
§
§
§
§

ORDER ON INTERIM APPEAL
This interim appeal arises out of Harris County
Hospital District’s complaint against Southwestern
Bell Telephone Company d/b/a AT&T Texas alleging
that, from 1991 to 2000, AT&T improperly passed
through municipal franchise fees to AT&T’s
customers, including the Hospital District, in violation
of AT&T’s tariff. On December 3, 2014, AT&T moved for
summary disposition of the Hospital District’s complaint
on the basis that the order and final judgment approving

41a
a class action settlement in the Mireles v. SWBT case1
acted to release all of the Hospital District’s claims as a
member of the certified Mireles class and to bar their relitigation in any forum—court or this Commission—under
the doctrine of res judicata. On January 15, 2015, the
State Office of Administrative Hearings (SOAH)
administrative law judge (ALJ) issued SOAH Order No.
24 denying AT&T’s motion for summary decision. The
SOAH ALJ found that the Hospital District’s claims were
not barred by res judicata, but did not find that the Mireles
court lacked jurisdiction or that the Hospital District’s
claims were specifically carved out of the Mireles lawsuit.2
The SOAH ALJ found that as a matter of law the Hospital
District was not included in the class represented in the
Mireles lawsuit and, thus, its claims were not resolved by
that lawsuit because Texas Health & Safety Code §
281.056 creates an opt-in requirement for an entity like
the Hospital District to participate in litigation through
outside legal representation and the Texas class action
rule does not allow for opt-in classes.
On January 22, 2015, the SOAH ALJ issued SOAH
Order No. 25 certifying an issue, the issue on which he
decided the motion for summary decision, to the
Commission and abating the proceeding pending
resolution of the certified issue by the Commission.3 The
Commission declined to answer the certified issue.4 On
February 23, AT&T filed its appeal of SOAH Order No.
1 Jose Mireles v. Southwestern Bell Tel. Co., No. 98-07-3003-E,
Order and Final Judgment (357th Dist. Ct., Cameron County,
Texas May 4, 2000), and id. Order and Final Judgment Nunc Pro
Tunc (May 22, 2000).
2

SOAH Order No. 24 (Jan. 15, 2015).

3

SOAH Order No. 25 (Jan. 22, 2015)

4

Order on Certified Issue (Feb. 24, 2015).

42a
24. Because the appeal was not filed within ten days of
the issuance of the order appealed from (SOAH Order No.
24) as required by 16 TAC § 22.123(a)(2), the Commission
finds that AT&T’s appeal is untimely. Orders by the
SOAH ALJ abating the proceeding at SOAH, in this case
SOAH Order No. 25, do not abate the deadline for filing
an interim appeal to the Commission. However, because
the Commission rules do not define the term abatement,
the Commission on its own motion finds good cause for the
late filing of AT&T’s interim appeal.5
The Commission grants AT&T’s interim appeal.
The Commission finds that under the doctrine of res
judicata all of the claims asserted by the Hospital
District in this proceeding are barred by the final
judgment approving a class action settlement in the
Mireles v. SWBT case.
SIGNED AT AUSTIN, TEXAS the 7th day
of April 2015.
PUBLIC UTILITY
COMMISSION OF TEXAS
/s/ Donna L. Nelson
DONNA L. NELSON,
CHAIRMAN
/s/ Kenneth W. Anderson, Jr.
KENNETH W. ANDERSON,
JR.,
COMMISSIONER

5

16 Tex. Admin Code § 22.5.

43a
/s/ Brandy Marty Marquez
BRANDY MARTY MARQUEZ,
COMMISSIONER

44a
APPENDIX H (44a-51a)
TRANSCRIPT OF PROCEEDINGS
BEFORE THE
PUBLIC UTILITY COMMISSION OF TEXAS
AUSTIN, TEXAS

OPEN MEETING
THURSDAY, MARCH 26, 2015

BE IT REMBERED THAT AT approximately 9:30
a.m., on Thursday, the 26th day of March 2015, the
above-entitled matter came on for hearing at the
Public Utility Commission of Texas, 1701 North
Congress Avenue, William B. Travis Building, Austin,
Texas, Commissioners’ Hearing Room, before DONNA
L. NELSON, Chairman, KENNETH W. ANDERSON,
JR. and BRANDY MARQUEZ, Commissioners; and
the following proceedings were reported by William C.
Beardmore, Certified Shorthand Reporter.
***
COMMUNICATIONS
AGENDA ITEM NO. 8
DOCKET NO. 40235; SOAH DOCKET NO.
473-13-0391 - COMPLAINT OF HARRIS COUNTY
HOSPITAL DISTRICT AGAINST SOUTHWESTERN

45a
BELL TELEPHONE COMPANY D/B/A AT&T TEXAS
CHAIRMAN NELSON: Item 8, Docket No. 40235.
This is Harris County/AT&T and I -- let me tell you
where I would go here.
I would let AT&T -- I would grant AT&T’s appeal
and find good cause to waive whatever timeline there
was, and I would find that the Hospital District is
barred by res judicata from its claims in this docket,
because I believe either we decide it or the court
decides it. Either way it’s going to end up being decided
by the court. Right?
If we hold -- if we say the Hospital 1District is
barred by res judicata here, they will appeal it. It will
go to court. So I’m ready for some finality here on this
issue, but would love to hear what you-all think.
COMM. ANDERSON: Well, there’s a lot of merit to
that approach. I would actually -- I guess first I would
point out that I think that AT&T’s appeal was late but
that on our own motion we ought to grant good cause
because we’ve never really clarified the issue of
whether when a matter is abated the clock stops for all
purposes, and I would find, “No, it doesn’t,” because
our abatement rule has -- is -- I mean, our interim
appeal rule, I think, is not affected by -- ought not to
be affected by abatement down at SOAH.
So I think, partly to clarify it for everybody, that we
find as a preliminary matter that the appeal is late,
but that on our own motion grant good cause because
the issue was unclear in order to hear the appeal.
CHAIRMAN NELSON: I agree.
COMM. ANDERSON: Then I would probably -- I
mean, then you get to the res judicata issue and

46a
whether we have -- whether we have jurisdiction to
even decide it in the first place -- the authority -- and
this -- this actually ought to be in the scope of
competition report for 2017 about whether we have -we get some kind of supplemental jurisdiction, because
it seems to me that it’s almost nonsensical that we
can’t decide some of these threshold issues in order to
get to what clearly is our authority.
That being said, there is an issue. So I was inclined
partly to be consistent with the decisions in some other
cases. I was inclined to abate the proceeding here and
direct the parties to go back to the District Court to
actually get a determination on the res judicata issue
because the Chairman is absolutely right.
Whether the issue is decided here or in District
Court, it’s fundamentally dispositive, or if it’s found by
us or the District Court that res judicata applies, then
that disposes of the case.
I feel that a determination by a District Court
would -- is more certain, because the one risk if we
decide res judicata and, therefore, dismiss it, you
appeal it under our statute and the APA and it is
theoretically possible that a judge -- that the Court of
Appeals can say, “We’re not going to address the
merits of res judicata. “We’re going to say, “PUC, you
didn’t have the authority to decide the issue in the first
place. So we remand it back to you for proceedings that
are consistent with that finding.”
So I think by abating the case here and directing
the parties to basically go back to the District Court
and say -- and what’s interesting is, frankly, AT&T
could have done that at the very beginning and
probably should have.

47a
I’m a little bit -- I mean, I have the question in my
mind that it doesn’t really need to be answered
because it’s not germane to what we do here, but why
AT&T didn’t make that case at the District Court in
the first place as opposed to raising the tariff issue, but
that’s, you know, neither here nor there.
CHAIRMAN NELSON: I mean, I think -- I can’t
predict what they would say, but I think they believe
we have the ability to make the decision and
jurisdiction, as I think. I think we do have the ability
to make the decision.
COMM. ANDERSON: Well, we should have the
ability. I just -- we’ve kind of been -- it seems recently
we’ve been taking the view that -- a more narrow view
of our jurisdiction, and that’s a good issue we probably
ought to decide one way or the other just, you know,
how -- when we clearly have jurisdiction to decide the
substantive issue -CHAIRMAN NELSON: The underlying issue.
COMM. ANDERSON: -- the underlying issue, and,
again, that is clear here. Do we have by necessity the
ability to decide the kind of threshold or hurdle issues.
CHAIRMAN NELSON: And I think the answer is,
“We do have that ability,” because I think if we don’t
have that ability then it really calls into question
whether we really have the ability to decide the
underlying issue. So I think from just an expediency
issue and a public policy issue that I would argue it’s
good public policy for us to find we do have the -- I don’t
think there’s anything that clearly says we don’t have
the authority.
I think if you look at the underlying case we have
the authority. So I think we have the ability to make

48a
the decision on res judicata, and I think this just
makes sense.
COMM. MARQUEZ: I’m inclined to say that we -- I
mean, this is a tough call, but I’m inclined to say let’s
make the decision on res judicata and then we’ll
certainly learn whether or not this is something that
we need to take forward to the Legislature next time
around.
But just for expediency sake, this has been -- it’s
time to get these folks moving.
CHAIRMAN NELSON: So you would say we do
have res judicata -COMM. MARQUEZ: Yes.
CHAIRMAN NELSON: -- ability?
COMM. MARQUEZ: Uh-huh.
CHAIRMAN NELSON: Okay. And do you think it
is res judicata?
COMM. MARQUEZ: Yes.
CHAIRMAN NELSON: Okay.
COMM. ANDERSON: Well, I can count to two. So
that’s -- no, that’s fine, and I think that’s a -CHAIRMAN NELSON: Are you going to join with
us?
COMM. ANDERSON: I tell you what, can you give
me -- could we just hold this -CHAIRMAN NELSON: Yeah, sure.
COMM. ANDERSON: -- because I want to go back
and look a little more carefully at some of our other
decisions recently, because I’m just concerned we’re

49a
not on a consistent path about when we decide that we
can -- when we decide we can decide or how we decide
that we decide that we can make a determination
versus it’s not clearly embodied in PURA -CHAIRMAN NELSON: Right.
COMM. ANDERSON: -- because I think -- I mean,
I recall just, I think, at the last Open Meeting -MR. JOURNEAY: Well, it was in this case or on the
certified issue -COMM. ANDERSON: With the certified issue, yes.
MR. JOURNEAY: -- but we didn’t say there that we
didn’t have jurisdiction. We said that the certified
issue rule limits the types that we want certified and
this didn’t fit.
CHAIRMAN NELSON: Right. I was frustrated
when the certified issue came up. I wanted to answer
it. So as a compromise I agreed with you-all on the
certified issue, but I invited AT&T to come back and
re-allege this specific argument so that we could then
-COMM. ANDERSON: Well, I’ll join in the order if
for no other reason than perhaps we’ll get some clarity
in the courts about this, how far -- whether we have
ancillary jurisdiction, if you will.
CHAIRMAN NELSON: Okay. So with that, I will
entertain a motion to grant AT&T’s appeal and rule as
discussed.
COMM. ANDERSON: You have the motion.
COMM. MARQUEZ: And I second.
CHAIRMAN NELSON: Okay. Thank you. Okay. At
some point -- we’re almost at the end of the agenda,

50a
but I’ve got some -- well, we aren’t.
So what I would like to do is just take a five-minute
break and then we’ll be back in five minutes -- a real
five minutes, everyone.
(Laughter)
(Recess: 10:53 a.m. to 11:01 a.m.)
CHAIRMAN NELSON: Let’s go ahead and go back
on the record. If you-all would take a seat, and close
that back door, please.
Item 9 was consented. Ten is not taken up. Eleven
was consented. Twelve and 13 were consented.
CERTIFICATE
STATE OF TEXAS

)

COUNTY OF TRAVIS

)

I, William C. Beardmore, Certified Shorthand
Reporter in and for the State of Texas, do hereby
certify that the above-mentioned matter occurred as
hereinbefore set out.
I FURTHER CERTIFY THAT the proceedings of
such were reported by me or under my supervision,
later reduced to typewritten form under my
supervision and control and that the foregoing pages
are a full, true, and correct transcription of the original
notes.
IN WITNESS WHEREOF, I have hereunto set my
hand and seal this 27th day of March 2015.
/s/ William C. Beardmore
WILLIAM C. BEARDMORE
Certified Shorthand Reporter
CSR No. 918 - Expires 12/31/16

51a
Firm Registration No. 276
Kennedy Reporting Service, Inc.
7800 North MoPac, Suite 120
Austin, Texas 78759
512.474.2233

52a
APPENDIX I (52a-56a)
SOAH DOCKET NO. 473-13-0391
PUC DOCKET NO. 40235
COMPLAINT OF
HARRIS COUNTY
HOSPITAL
DISTRICT
AGAINST
SOUTHWESTERN
BELL TELEPHONE
COMPANY d/b/a
AT&T TEXAS

§
§
§
§
§
§
§
§

BEFORE THE
STATE OFFICE
OF
ADMINISTRATIVE
HEARINGS

SOAH ORDER NO. 24
DENYING MOTION FOR SUMMARY DECISION
Southwestern Bell Telephone, L.P. d/b/a AT&T
Texas (AT&T Texas) has filed a motion for summary
decision in this case, presenting arguments for both
full resolution of this case or, alternatively, partial
resolution of this case. In regard to the arguments for
full resolution, AT&T Texas argues that all potential
claims by Harris County Hospital District (HCHD) in
this case are encompassed within, and resolved by, a
prior class action settlement in a lawsuit brought in
1998 by Jose Mireles and other class representatives
on behalf of a class that purportedly included HCHD
(that lawsuit is referred to as the Mireles Case). HCHD
argues that it was not included within the Mireles
lawsuit for various reasons-including, among other
things, (1) its claims were specifically carved out of the
lawsuit; (2) it could not legally be represented by the
class representative or the private counsel in the

53a
lawsuit, because Tex. Health & Safety Code § 281.056
mandated that it could be represented only by the
Harris County Attorney in any legal proceedings; (3)
as a governmental entity, it could not be forced to
participate in litigation or waive its legal rights
without its express permission; and (4) the trial court
in Mireles lacked jurisdiction over HCHD’s claims, as
the Public Utility Commission has exclusive
jurisdiction over such claims. Therefore, HCHD argues
that its current claims are not precluded by the
settlement in the Mireles Case.
After considering the arguments and evidence
presented, the ALJ finds that the motion for summary
decision should be DENIED. While the ALJ disagrees
with HCHD’s arguments that the trial court lacked
jurisdiction or that HCHD’s claims were specifically
carved out of the Mireles lawsuit, the ALJ does find
that, as a matter of law, HCHD was not included in
the class represented in the Mireles lawsuit and, thus,
its claims were not resolved by that lawsuit.
Under Tex. Health & Safety Code § 281.056, as it
existed at the time of the Mireles lawsuit, HCHD was
mandatorily represented by the County Attorney for
Harris County in all civil matters, unless the HCHD
board opted to retain outside counsel. The HCHD
board had the option to retain outside counsel, but
such counsel was not retained barring action by the
board. Thus, the statute set up a scheme whereby
HCHD was mandatorily-represented only by the
County Attorney for Harris County unless HCHD
specifically took action to do otherwise. The language
of the statute is clear in this regard, using the
mandatory word “shall” to describe that the Harris
County Attorney would represent HCHD in “all legal

54a
matters,” while using the permissive “may” when
stating that the HCHD board could employ additional
legal counsel. 1 However, the board’s permissive
authority to employ outside legal counsel came with a
condition: namely, the board could employ outside
counsel “when the board determines that additional
counsel is advisable.” Thus, to employ outside counsel,
the board was required to affirmatively determine that
outside counsel was advisable. Therefore, for AT&T
Texas to show that HCHD was actually represented in
the Mireles lawsuit, AT&T Texas must show that the
HCHD board affirmatively elected to retain outside
counsel to represent it in such lawsuit. No such
evidence has been presented of this. Moreover, it is not
clear that such a class would even be permissible in
Texas.
In essence, the ALJ agrees that Texas Health & Safety
Code § 281.056 creates an opt-in requirement for an
entity like HCHD to participate in litigation through
outside legal representation. Namely, unless the
board determines otherwise, outside counsel may
never represent HCHD in litigation. But, as HCHD
points out, at least one federal district court has held
that conditional prerequisites for hiring outside
counsel resulted in a class of Texas counties being an
“opt in” class, which was not permissible under the
federal class action rule. 2 The Texas rule for class
actions also does not allow for opt-in classes, 3 so the
Tex. Health & Safety Code § 281.056 (emphasis added); Tex.
Gov’t Code § 311.016.

1

2 See Dallas County, Texas, et al. v. MERSCORP, Inc., 2012 WL
6208385 (N.D.Tex. 2012).

Entex v. City of Pearland, 990 S.W. 2d 904, 913 (Tex. App.Houston [14”‘ Dist.] 1999, no pet.) (“The trial court recognized the

3

55a
reasoning from the federal court is persuasive. Thus,
it appears that class members that, by statute, would
have to opt-in to participate would not be properly
included in the class action. 4
In this case, there is no evidence that HCHD ever
opted to retain outside counsel to represent it in the
Mireles lawsuit. Absent such, its claims were never
resolved through that litigation. In contrast, HCHD
has retained outside counsel to represent it in this
proceeding, and the AU concludes that its claims may
be asserted in this matter.
The ALJ recognizes that this decision is based upon
his interpretation of a relatively unresolved issue of
law. Because the Commission has final authority to
decide issues of applicable law, the ALJ is willing to
abate this case and certify the following question to the
Commission, if any party desires:
Can HCHD, in light of its status as a
legislatively-created governmental entity and
the requirements of Texas Health & Safety
Code 281.056, be bound by a class action
settlement if it did not take affirmative action
to participate in such lawsuit or settlement?
Any request to certify this issue should be made
no later than January 22, 2015.
Apart from its contention that HCHD’s claims are
barred by res judicata, AT&T Texas also contends that
problems with the opt-out provisions of the class action and
expressed its preference for an opt-in notification of class action,
which is not available in Texas.”).
The AU agrees with HCHD that there is a legal distinction
between cities and similar municipalities, and counties and
legislatively-created entities such as HCHD.

4

56a
partial summary decision may be appropriate in
regard to certain claims. After considering the
arguments presented, the ALJ concludes that the fees
collected by the City of Houston under the Specified
Annual Payment Ordinance (SAP Ordinance) were not
taxes, but rather were municipal fees. Therefore,
HCHD’s claim that it was exempt from such fees,
because they were taxes, is without basis. However,
the ALJ concludes that there are fact issues that
remain for hearing to determine whether the fees were
permissibly charged under the enforceable tariffs at
the time.
Therefore, AT&T’s request for partial summary
decision is also DENIED at this time.
SIGNED January 15, 2015.
/s/ Craig R. Bennett
CRAIG R. BENNETT
ADMINISTRATIVE LAW JUDGE
STATE OFFICE OF
ADMINISTRATIVE HEARINGS

57a
APPENDIX J (57a-59a)
SOAH DOCKET NO. 473-13-0391
PUC DOCKET NO. 40235
COMPLAINT OF
HARRIS COUNTY
HOSPITAL
DISTRICT AGAINST
SOUTHWESTERN
BELL TELEPHONE
COMPANY d/b/a
AT&T TEXAS

§
§
§
§
§
§
§
§

BEFORE THE STATE
OFFICE
OF
ADMINISTRATIVE
HEARINGS

PREHEARING CONFERENCE
WEDNESDAY, OCTOBER 31, 2012
BE IT REMEMBERED THAT at 1:45 p.m., on
Wednesday, the 31st day of October 2012, the aboveentitled matter came on for hearing at the State Office
of Administrative Hearings, 300 West 15th Street, 4th
Floor, Austin, Texas, before CRAIG R. BENNETT,
Administrative Law Judge, and the following
proceedings were reported by William C. Beardmore,
Certified Shorthand Reporter.
PROCEEDINGS
WEDNESDAY, OCTOBER 31, 2012
(1:45 p.m.)
JUDGE BENNETT: We're on the record at this
time for a prehearing conference in SOAH Docket No.
473-13-0391, which is in regard to the Complaint of
Harris County Hospital District against Southwestern
Bell Telephone Company d/b/a AT&T Texas. This is

58a
PUC Docket No. 40235.
My name is Craig Bennett. I'm the Administrative
Law Judge assigned by the State Office of
Administrative Hearings to preside over this case. I
will note for the record that it is October 31st, 2012 at
approximately 1:45 p.m.
***
[EXCERPT]
JUDGE BENNETT: And I'm going to stop you for
a moment there, because I'm also going to put HCHD
on notice that I'm not really going to entertain much
discussion of any challenges to Mireles being invalid,
because ultimately I think -- I'm going to treat it as a
valid judgment unless the Court of Appeals has said
otherwise or a higher court has determined otherwise.
I think part of the separation of powers indicates
that I'm not in the position to invalidate a judgment,
nor would the PUC be in a position to invalidate a
judgment of a court of the state. It's only up to the
higher courts to invalidate it.
So any attempt to attack Mireles or the validity of
Mireles I'm not going to give any credence to, just as I
wouldn't give any credence to any arguments about a
particular rule or statute being unconstitutional.
That's not within our province, nor is it within the
province of the Public Utility Commission.
So let me just save you some time in terms of
attempting to address the validity of the Mireles
determination. I think the only question is whether
Mireles applies in this case, not whether it's valid or
invalid.

59a
***
CERTIFICATE
STATE OF TEXAS

)

COUNTY OF TRAVIS

)

I, William C. Beardmore, Certified Shorthand
Reporter in and for the State of Texas, do hereby
certify that the above-mentioned matter occurred as
hereinbefore set out.
I FURTHER CERTIFY THAT the proceedings of
such were reported by me or under my supervision,
later reduced to typewritten form under my
supervision and control and that the foregoing pages
are a full, true, and correct transcription of the original
notes.
IN WITNESS WHEREOF, I have hereunto set my
hand and seal this 1st day of November 2012.
/s/ William C. Beardmore
WILLIAM C. BEARDMORE
Certified Shorthand Reporter
CSR No. 918 - Expires 12/31/16
Firm Registration No. 276
Kennedy Reporting Service, Inc.
7800 North MoPac, Suite 120
Austin, Texas 78759
512.474.2233
Job No. 104689

60a
APPENDIX K (60a-61a)
NO. 2010-28461
HARRIS COUNTY HOSPITAL § IN THE DISTRICT COURT
District,
§
Plaintiffs,
§
§
vs.
§ HARRIS COUNTY TEXAS
§
§
SOUTHWESTERN BELL
§
§
TELEPHONE COMPANY
d/b/a AT&T TEXAS,
§
Defendant.
§ 333RD JUDICIAL DISTRICT
ORDER SUSTAINING PLEA TO THE
JURISDICTION IN PART AND
ABATING REMAINDER OF CLAIMS
BE IT REMEMBERED, that on the ___ day of
_____________, 2010, came on to be heard the
Defendant’s Plea to the Jurisdiction, which upon due
consideration, the Court grants in part and denies in
part and abates the remainder of this case as follows:
IT
IS
THEREFORE
ORDERED
that
Defendant’s Plea to the Jurisdiction is granted with
regard to any claim that seeks reimbursement of
municipal charges under tariff. The Plea is denied as
to those claims for additional damages based on Gross
Negligence, Fraud and/or the Texas Deceptive Trade
Practices Act.

61a
IT IS FURTHER ORDERED that such claims for
additional damages based on Gross Negligence, Fraud,
and/or Texas Deceptive Trade Practices Act are abated
until such time as all Plaintiff’s claims falling within
the exclusive jurisdiction of the Public Utility
Commission are fully and finally resolved.
SIGNED, this 1st day of February, 2011.
/s/ Joseph Halbach
Judge Joseph “Tad” Halbach
Presiding Judge
FILED
Loren Jackson
District Clerk
FEB 1 2011
Time: ________________
Harris County, Texas
By: __________________
Deputy

62a
APPENDIX L (62a-69a)
NO. 98-07-3003-E
JOSE MIRELES, ET AL.
Plaintiffs,
vs.
SOUTHWESTERN BELL
TELEPHONE COMPANY,
Defendant.

§ IN THE DISTRICT COURT
§
§
§ CAMERON COUNTY TEXAS
§
§
§
§ 357TH JUDICIAL DISTRICT

ORDER AND FINAL JUDGMENT
NUNC PRO TUNC
On this day, on its own Motion, the Court has
decided to enter an Order and Final Judgment Nunc
Pro Tunc to correct certain clerical errors contained in
an Order and Final Judgment the Court executed on
May 4, 2000. The Court inadvertently executed two
different forms of Final Judgment One form correctly
set forth the Court’s judgment (the “Correct
Judgment”), while the other form did not (the
“Incorrect Judgment”). Specifically, the Incorrect
Judgment contains the following clerical errors:
1) The last sentence of the first paragraph on page
1 of the Incorrect Judgment states that a hearing on
the proposed settlement “was held on April 27, 2000.”
What the Court actually stated was that the hearing
“was commenced” on April 27, 2000, as the hearing
was not completed on April 27, but was carried over
and completed on May 4, 2000.

63a
2) Also on page 1, the last sentence of the first
paragraph references only a preliminary order entered
on December 16, 1999. It fails to mention the
Supplemental Order, entered on January 5, 2000,
which is contained in the Correct Judgment.
3) On page 3, in numbered paragraph 3, the
Incorrect Judgment has blanks after the words
“January” and “February” in the first sentence. The
Correct Judgment lists the appropriate dates as
“January 27, 2000” and “January 31, 2000.”
4) Paragraph 4 on page 3 in the Incorrect
Judgment begins: “The best notice practicable . , . ,”
while the same paragraph in the Correct Judgment
begins “The total cost of both forms of notice . . .” In
fact, the Incorrect Judgment omits entirely the Court’s
finding with respect to the costs of notice and SWBT’s
right to offset this cost against the total value of
service credits contained in the Settlement
Agreement. As a result, the rest of the numbered
paragraphs in the, Incorrect Judgment are incorrectly
numbered.
5) In Paragraph 6 of the Incorrect Judgment, there
are two sentences following the sentence that states;
“Accordingly, the Court directs that the settlement be
consummated in accordance with the terms and
conditions of the Settlement Agreement.” Those
sentences should not be included in the Judgment. In
the Correct Judgment, the proper language, which
accurately reflects the Court’s ruling on May 4, 2000,
is found in paragraph 7.
6) Paragraph 13 of the Incorrect Judgment states:
“Counsel for Plaintiffs are directed to serve a copy of
this Order on the parties and objectors by first class
mail.” What the Court actually ordered is the

64a
following: “Counsel for Plaintiffs are directed to serve
a copy of this Order on the parties and on any objectors
who appeared at the hearing held on April 27 and who
did not withdraw their objection by first class mail.”
The Court finds as a matter of law that all of these
errors are clerical rather than judicial. To the extent
any are judicial, however, the Court finds that it
maintains jurisdiction to modify the Incorrect
Judgment. Accordingly, the Incorrect Judgment is
hereby vacated, and the following Order and
Judgment Nunc Pro Tunc is entered as of May 4, 2000:
This matter is before the Court on the motion of
Plaintiffs Jose Mireles and Patricia Genuchi, both
individually and on behalf of the Settlement Class
previously certified herein for preliminary settlement
approval purposes (the “Settlement Class”), and
Defendant Southwestern Bell Telephone Company
(hereinafter referred to as “SWBT”), for final approval
of the proposed settlement as set forth in the Class
Action Settlement Agreement dated December 15,
1999, and filed with the Court on December 16, 1999,
(the “Settlement Agreement”). A hearing on the
proposed settlement was commenced on April 27.
2000, pursuant to this Court’s Order Granting
Preliminary Approval of the Settlement, entered on
December 16, 1999 (“Order Granting Preliminary
Approval of Settlement”) and its Supplemental Order,
entered on January 5, 2000.
Notice of the April 27, 2000, hearing was given in
accordance with the Order Granting Preliminary
Approval of Settlement. The parties appeared by their
respective attorneys of record. The Court heard and
considered evidence in support of and in opposition to
the proposed settlement set forth in the Settlement

65a
Agreement. The attorneys for the parties and for the
objectors were heard. An opportunity to be heard was
given to all other persons requesting to be heard in
accordance with the Order Granting Preliminary
Approval of Settlement.
The Court has determined that the notice given to
the members of the Settlement Class fully and
accurately informed all members of the Settlement
Class of all material elements of the proposed
settlement; was the best notice practicable under the
circumstances; was valid., due and sufficient notice to
all Settlement Class members; and complied fully with
Texas Rule of Civil Procedure 42, the United States
Constitution, the Texas Constitution and any other
applicable law, The entire matter of the proposed
settlement having been heard and considered by the
Court,
IT IS HEREBY ORDERED, ADJUDGED AND
DECREED THAT:
1. This Court has jurisdiction over all claims of all
Settlement Class members as asserted in Plaintiffs’
Third Amended Petition (the “Action”) and the
Settlement Agreement; likewise, this Court has
jurisdiction over all members of the Settlement Class.
The Settlement Class is defined as:
All persons and entities who currently reside
in the State of Texas who subscribe, or formerly
subscribed, to telephone service provided by
SWBT and pay, or paid, to SWBT a municipal
fee imposed pursuant to a municipal ordinance,
other than an ordinance based upon a
percentage of gross receipts, and collected
pursuant to tariff or statute.

66a
Excluded from the Class are (a) SWBT, and the
directors and officers thereof, (b) the subsidiaries,
parents, and affiliates of SWBT, and the directors and
officers thereof; (c) any person or entity in which any
excluded person has a controlling interest; (d)
members of the immediate family of any of the
foregoing, if a natural person; (e) the members,
employees, and agents of the 357th Judicial District
Court of Cameron County, Texas, including any trial
or presiding judge; and (f) the legal representatives,
heirs, successors-in-interest, and assigns of any
excluded person.
2. Commencing on January 21, 2000, and
continuing through February 19, 2000, copies of the
Notice of Conditional Class Certification, Proposed
Settlement and Hearing were mailed to certain
members of the Settlement Class, specifically all
current customers of SWBT in Texas, in accordance
with the Order Granting Preliminary Approval of
Settlement.
3. On January 27, 2000 and January 31, 2000, the
Notice of Conditional Class Certification, Proposed
Settlement and Hearing was published in the Dallas
Morning News, the Houston Chronicle, the Austin
American-Statesman,
the
Lubbock
Avalanche
Journal, the San Antonio Express News, the El Paso
Times, the Corpus Christi Caller Times, and the
Brownsville Herald in accordance with the Order
Granting Preliminary Approval of Settlement.
C.
4. The total cost of both forms of notice was
$397,553.04, which the Court finds to be reasonable.
SWBT shall be entitled to offset this amount against

67a
the total value of service credits in accordance with the
terms of the Settlement Agreement.
5. The best notice practicable under the
circumstances having been provided to the Settlement
Class members and full opportunity having been
offered to members of the Settlement Class to
participate in this hearing, it is hereby determined
that all members of the Settlement Class who have not
timely elected to be excluded from the Settlement
Class arc bound by this Order and Final Judgment,
6. The Court finds that the numerosity, typicality,
commonality and adequacy requirements of Texas
Rule of Civil Procedure 42 are satisfied, and that in
accordance with Rule 42(b)(4), common issues of fact
and law predominate and make certification of the
Settlement Class fair, efficient and appropriate.
Therefore, pursuant to Texas Rule of Civil Procedure
42, the Court certifies the Settlement Class for
purposes of final approval of the settlement.
7. Pursuant to Texas Rule of Civil Procedure 42,
and based on its review of the entire record and all of
the evidence before it, the Court hereby grants final
approval to the Settlement Agreement and finds that
it is, in all respects, fair, reasonable, adequate and in
the best interests of the Settlement Class. The
objections which were filed, timely or otherwise, have
been carefully considered and are all overruled.
Accordingly, the Court directs that the settlement be
consummated in accordance with the terms and
conditions of the Settlement Agreement.
8. Settlement Class Plaintiffs and all members of
the Settlement Class who did not file timely notices of
exclusion,
either
directly,
representatively,
derivatively, or in any other capacity, arc barred and

68a
permanently enjoined from the prosecution against
SWBT (in any local, state or federal court, agency or
other authority or forum, in any state of the United
States) of any and all claims, demands, causes of
action of every kind and nature, for any alleged
obligations, damages, losses, and costs, whether
known or unknown, actual or potential, suspected or
unsuspected, contingent or fixed, that were or could
have been asserted or sought in the Action, relating in
any way to SWBT’s pass-through, collection,
accumulation, handling, custody, control, distribution
or use of municipal fees in Texas up to the date of Final
Approval as defined in the Settlement Agreement. A
list of the class members who properly and timely
excluded themselves from the Settlement Class shall
be filed jointly by counsel for the Plaintiffs, and the
Settlement Class and counsel for SWBT in the Office
of the District Clerk within thirty (30) days of this
Order and Final Judgment.
9. This Action and all claims and causes of action
asserted herein are dismissed with prejudice.
10. Each party shall bear its own litigation
expenses and court costs subject to the settlement
terms concerning attorneys’ fees and costs.
11. In the event that the settlement does not
become Final in accordance with the terms of the
Settlement Agreement, then this Order and Final
Judgment shall be rendered null and void and be
vacated.
12. Without affecting the finality of this Order and
Final Judgment and until the Satisfaction of
Judgment is filed, the Court shall retain continuing
jurisdiction over this case and the parties, including
all members of the Settlement Class; the

69a
administration and enforcement of the settlement; and
the benefits to the Settlement Class, including for such
purposes as supervising the implementation,
enforcement, construction and interpretation of the
Settlement Agreement.
13. The Court grants the application for Attorneys’
Fees and Expenses submitted by counsel for Plaintiffs
and the Settlement Class.
14. Counsel for Plaintiffs are directed to serve a
copy of this Order on the parties and on any objectors
who appeared at the hearing held on April 27, 2000
and who did not withdraw their objection by first class
mail.
DATED:

SO ORDERED:

May 22, 2000

s/ Fernando Mancias
Presiding District Judge

70a
APPENDIX M (70a-77a)
NO. 98-07-3003-E
JOSE MIRELES, ET AL. § IN THE DISTRICT COURT
Plaintiffs, §
§
vs.
§ CAMERON COUNTY TEXAS
§
SOUTHWESTERN BELL §
TELEPHONE COMPANY, §
Defendant. § 357TH JUDICIAL DISTRICT
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
1. The Court concludes that it has jurisdiction over
all claims of all the members of the settlement class
(“Settlement Class”), as asserted in Plaintiffs’ Third
Amended Petition (the Action”). Likewise, this Court
has jurisdiction over the Settlement Class.
2. The Court finds that the Settlement Class is so
numerous that joinder of all members is impracticable.
In this connection, the Court finds that the Settlement
Class includes at least 5 million members located in
various municipalities all over the State of Texas.
3. There are several common issues of law and fact
in the Action. One legal issue is whether Southwestern
Bell Telephone Company (“SWBT”) was entitled to
collect municipal fees from its subscribers in Texas
municipalities that have municipal fee ordinances
pursuant to which municipalities are compensated on
a basis other than a percentage of SWBT’s grossreceipts. One example of such an ordinance at issue is

71a
a specified annual payment (“SAP”) ordinance.
Another example is a fee-per-line ordinance (“FPL”).
4. The particular class representatives’ claims are
typical of the Settlement Class’ claims. Indeed, the
claims of the Settlement Class are identical as it
relates to the common legal issue described in
paragraph 3.
5. The Court finds that the named class
representatives, Jose Mireles and Patricia Genuchi,
ably performed their representative roles. They did not
receive any favorable treatment under the Settlement
Agreement, had no conflicts with the other members
of the Settlement Class, and they fairly and
adequately represented and protected the rights and
interests of the Settlement Class.
6. Thus, the Court concludes that the numerosity,
typicality, commonality, and adequacy requirements
of Texas Rule of Civil Procedure 42(a) fully are
satisfied.
7. Further, in accordance with Rule 42(b)(4), the
Court concludes that common issues of fact and law
predominate over any questions affecting only
individual members, and that a class action is superior
to other available methods for the fair and efficient
adjudication of the controversy. The Court finds the
following matters to be pertinent, and has considered
each of them in reaching this conclusion: (A) Among
other things. because the sum of money at issue for
individual class members is small – especially
considering the strength of SWBT’s defenses – and any
recovery would be much smaller than and probably
would not justify the transactional costs involved in
pursuing such claims individually, the Court finds and
concludes that the interest of members of the

72a
Settlement Class in individually controlling the
prosecution of a separate action, if any, is very small;
(B) there was no evidence that any litigation of this
type already had been commenced by any members of
the Settlement Class prior to this Action; (C) because
of the transactional costs that would be involved in
pursuing individual actions across the State of Texas,
it is desirable to concentrate the litigation in one
forum. This forum is appropriate inasmuch as this
Court fully is aware of and is capable of performing its
duties in connection with this Action; and (D) the
settlement avoids many of the difficulties that would
be presented in trying this Action. The Court
concludes that it could manage the difficulties
presented in a trial of this action based upon what the
Court knows at this point.
8. Therefore, the Court concludes that the
requirements of Texas Rule of Civil Procedure 42(b)
have been satisfied. The Court finds and concludes
that the Settlement Class should be certified for
purposes of final approval of the Settlement
Agreement.
9. The Court finds that, after it preliminarily
determined that a class action could be maintained in
this Action in its Order Granting Preliminary
Approval of Settlement, notice was given to the
Settlement Class in accordance and compliance with
such order. The Court concludes that such notice was
the best notice practicable under the circumstances.
The Court finds that the notice included individual
notice to all members of the Settlement Class who
could be identified through reasonable effort. Indeed.
notice was given not only to subscribers who live in
Texas municipalities in which SAP and FPL

73a
ordinances ever were in effect, but went to all current
SWBT subscribers -- whether or not they live or
operate in a municipality, and regardless of the type of
ordinances in effect in such municipalities.
10. The Court finds that the notice fairly and
accurately advised each member of the Settlement
Class: (A) of the nature of the suit; (B) that the Court
would exclude him or her from the class if he or she
requested to be excluded by a specified date; (C) that
the judgment would bind all members of the
Settlement Class who did not request exclusion by that
specified date; and (D) that any member not
requesting exclusion could enter an appearance
through counsel or otherwise object to the settlement.
The Court concludes that the notice was valid. due and
sufficient notice to all Settlement Class members, and
complied fully with all of the requirements of Texas
Rule of Civil Procedure 42(c)(2), the United States
Constitution, the Texas Constitution, and all other
applicable laws.
11. The Court finds that the parties appeared at the
fairness hearing both individually and by their
respective attorneys of record, along with counsel for
one of the objectors. The Court heard and considered
evidence in support of and in opposition to the
proposed settlement set forth in the Settlement
Agreement. While not all of the objectors appeared at
the fairness hearing, the Court finds and concludes
that a full and fair opportunity to be heard was given
to all persons requesting to be heard in accordance
with the Order Granting Preliminary Approval of
Settlement.
12. Further, the Court finds that all of the written
objections and other papers that were filed with the

74a
Court, timely or otherwise, were carefully considered
by the Court. The Court considered all such objections
-- whether the objectors making such objections
appeared at the fairness hearing or not. The Court
concludes that none of the objections are meritorious,
and they should all be overruled.
13. The Court finds that SWBT had numerous,
substantial defenses to the merits of the Action. Some
of the defenses, if successful, would have been
dispositive of the case, meaning that the members of
the Settlement Class would have received no recovery.
14. The Court finds that the amount and nature of
the discovery taken by class counsel was reasonable
under the circumstances. The Court finds that the
merits of the Action, in large part, turned on legal
issues, and the essential facts were not hotly
contested.
15. The Court finds that, under the totality of the
circumstances, the total consideration in the
Settlement Agreement is adequate. Further, the Court
concludes that the cy pres nature of the settlement is
fair, appropriate, adequate, and the best way to
compensate the Settlement Class under the
circumstances. In this connection, the Court finds that
it would be extraordinarily difficult, if not impossible,
to identify many of the specific members of the
Settlement Class. Additionally, the Court finds that,
even if individual members were identified, the
administrative costs in verifying the amounts that
such members had paid to SWBT would almost
certainly exceed any individual recovery. Further, the
Court finds that the amounts that might be recovered
by individual class members if the Action were
successful is literally too small individually to justify

75a
the administrative expense of distributing litigation
recoveries to each class member according to his or her
own loss. Finally, the Court concludes that disbursing
the settlement funds to and by means of the
Telecommunications Infrastructure Board (“TIFB”) is
a fair, appropriate, and adequate way to compensate
the
Settlement
Class.
Indeed,
under
the
circumstances, the payment to TIFB is the best way to
provide compensation to the Settlement Class.
16. The Court finds that counsel for the members of
the Settlement Class have recommended that the
Court approve the Settlement Agreement. The Court
finds that class counsel collectively have sufficient
involvement, competency, and experience in class
litigation to merit this Court giving some weight to
their recommendation. Accordingly, the Court finds
that it should, and it has, given appropriate weight to
such recommendation.
17. The Court finds that, absent a settlement, the
future expenses in prosecuting the Action would be
substantial. In light of the real possibility that the
Settlement Class would receive nothing if the Action
were litigated, the transactional costs could well
exceed any potential recovery. The Action had been
litigated for approximately a year and a half at the
time of the settlement, which the Court finds was a
sufficient time for class counsel to evaluate the merits
of the Action. Considering the totality of the
circumstances, including the appellate process for
certification decisions, the Action reasonably could be
expected to take a great deal more time, perhaps years,
to conclude. In this light, the consideration obtained in
the Settlement Agreement is not “clearly inadequate.”
Instead, as stated above, the Court finds the

76a
consideration to be adequate, and clearly in the best
interest of the Settlement Class.
18. The Court finds that a neutral party, the Office
of Public Utility Counsel (“OPUC”), not only did not
object to the settlement, but congratulated the parties
on reaching a settlement. The Court finds that OPUC
was interested in the merits of this Action inasmuch
as it had earlier intervened in the Action. As a result,
the Court finds that OPUC had sufficient interest in
the merits of this Action such that its statements
regarding the settlement merit some weight. The
Court concludes that it has given such statement its
appropriate weight.
19. The Court finds that the number of objectors is
small in light of the huge number of members in the
Settlement Class. The Court finds that the objections
that were presented to the Court are insubstantial in
both number and nature.
20. The Court finds that the Settlement Agreement
is the result of good faith, honest, arms-length
negotiations. It is clear that the Action was hotly
contested; there was no collusion among counsel for
the Settlement Class and counsel for SWBT.
21. The Court finds that, in response to the notice
to the Settlement Class. Some members of the
Settlement Class excluded themselves from the
Settlement. The Court concludes that the Settlement
Class members that excluded themselves are, in fact,
excluded and not bound by the Order and Final
Judgment Nunc Pro Tunc.
22. The Court finds and concludes that the
Settlement Class Plaintiffs and all members of the
Settlement Class who did not tile timely notices of

77a
exclusion,
either
directly,
representatively,
derivatively, or in any other capacity, are barred and
permanently enjoined from the prosecution against
SWBT (in any local, state or federal court, agency or
other authority or forum. in any state of the United
States) of any and all claims, demands, causes of
action of every kind and nature. for any alleged
obligations, damages, losses, and costs, whether
known or unknown, actual or potential, suspected or
unsuspected, contingent or fixed, that were or could
have been asserted or sought in the Action, relating in
any way to SWBT’s pass-through, collection,
accumulation, handling, custody, control, distribution
or use of municipal fees in Texas up to the date of Final
Approval as defined in the Settlement Agreement.
23. Pursuant to Texas Rule of Civil Procedure 42,
applicable case law, and based on its review of the
entire record and all of the evidence before it, the
Court hereby concludes that the Settlement
Agreement is, (1) in all respects, fair, adequate, and
reasonable, (2) was the product of honest, arms-length,
hotly-contested negotiations, and (3) is in the best
interests of the Settlement Class.
DATED: JUNE 27, 2000

SO ORDERED:
s/ Fernando Mancias
Presiding Judge
FILED 4:16 P.M.
AURORA DE LA
GARZA, DIST CLERK
JUN 28, 2000

78a
APPENDIX N (78a-96a)
Filed
19-0709
12/21/2020 10:00 pm
tex-49153424
SUPREME COURT OF TEXAS
BLAKE A. HAWTHORNE,
CLERK
NO. 19-0709
IN THE SUPREME COURT OF TEXAS
HARRIS COUNTY HOSPITAL DISTRICT,
PETITIONER
V.

PUBLIC UTILITY COMMISSION,
RESPONDENT
Appeal from the Third Court of Appeals, Sitting
in Austin
HARRIS COUNTY HOSPITAL DISTRICT’S
MOTION FOR REHEARING FROM THE
DENIAL OF PETITION FOR REVIEW

79a
ISSUES PRESENTED
1. Whether this Court should have granted review
where the court of appeals’ opinion applied a novel test
in contradiction of the Restatement (Second) of
Judgments and this Court’s precedents for res judicata
analysis?
2. Whether this Court should have granted review
where the court of appeals’ opinion opens the door to
unsanctioned attorneys representing governments in
litigation despite the Texas Constitution, multiple
statutes, and this Court’s precedents restricting the
legal representation of governments exclusively
requiring a state attorney’s participation in litigation
in order to protect the sovereign and public coffers?

80a
ARGUMENT
This Court should reconsider its denial and grant
HCHD’s petition for review because the lower court in
a published opinion grossly misapplied the
Restatement and this Court’s precedents adding to the
confusion in the state’s jurisprudence regarding
subject matter jurisdiction this Court sought to clarify
in Engelman Irrigation Dist. v. Shields Bros., Inc., 514
S.W.3d 746 (Tex. 2017).
I. The court of appeals’ published decision
muddies Texas jurisprudence on subject
matter jurisdiction and should be corrected.
The court of appeals did not follow res judicata
precedent and review the competency of the Mireles
court to entertain a case based on Public Utility
Commission (“PUC”) rate-making but instead applied
a test and factors that it apparently fabricated itself,
without any precedent or authority and in conflict with
this Court’s prior decisions.
A. The court of appeals misapplied the
Restatement and Engelman by applying a
factor-based test that appears in neither
authority.
Neither the Restatement (Second) of Judgments
Section 12 nor Engelman apply a list of factors to
determine whether a claim is barred by res judicata.
Yet, the court of appeals defined the “modern trend
favoring finality and certainty” as an approach
requiring the reviewing court to weigh any factors
militating for or against upholding the validity of the
challenged judgment. Harris County Hosp. Dist. v.
Pub. Util. Comm’n, 577 S.W.3d 370, 378 (Tex. App. –

81a
Austin 2019) [hereinafter HCHD] (citing Restatement
(Second) of Judgments § 12 (Am. Law. Inst. 1982)
[hereinafter Restatement]).
These factors were “the age of the disputed
judgment, the number of parties affected by that
judgment, the breadth of the original tribunal’s
jurisdiction, the extent to which that tribunal made
jurisdictional determination, and the challenger’s
participation in the litigation that resulted in the
disputed judgment.” HCHD, 577 S.W.3d at 378. The
court concluded that because the Mireles judgment
was rendered by a court of general jurisdiction, the
settlement stated that the court had jurisdiction over
the claims, and HCHD had an “opportunity to litigate”
jurisdiction, finality should trump any lack of subject
matter jurisdiction. Id. This analysis ignored the res
judicata elements that require first determining if the
prior court was one of competent jurisdiction. See
Restatement § 11 (“A judgment may be properly
rendered against a party only if the court has the
authority to adjudicate the type of controversy
involved in the action.”). Texas law embraces this rule.
See Engelman, 514 S.W.3d at 750; Igal v. Brightstar
Info. Tech. Group, Inc., 250 S.W.3d 78, 82 (Tex. 2008);
Citizens Ins. Co. of Am. v. Daccach, 217 S.W.3d 430,
452-53 (Tex. 2007).
In addition to its failure to follow the res judicata
analysis framework, the lower court’s application of
the Restatement’s modern rule was ham-handed and
provides misleading precedent. First, the modern rule
is not absolute in favor of finality. Indeed, Section 12
itself provides exceptions and requires that the
judgment arise from a contested action.
When a court has rendered a judgment in a

82a
contested action, the judgment precludes the
parties from litigating the question of the
court’s subject matter jurisdiction in
subsequent litigation except if:
(1) The subject matter of the action was so
plainly beyond the court’s jurisdiction that its
entertaining the action was a manifest abuse
of authority; or
(2) Allowing the judgment to stand would
substantially infringe the authority of
another tribunal or agency of government;
....
Restatement § 12 (emphasis added). Section 12(2)’s
exception applies when exclusive jurisdiction is vested
in another tribunal. See Blinder, Robinson & Co., Inc.
v. S.E.C., 837 F.2d 1099, 1104 (D.C. Cir 1988), cert.
denied 488 U.S. 869, 109 S. Ct. 177, 102 L.Ed.2d 146
(1988) (discussing Kalb v. Feuerstein, 308 U.S. 433
(1940) and United States v. United States Fidelity &
Guaranty Co., 309 U.S. 506 (1940)).
Section 12 also describes its limits and nuances
explicitly noting in what circumstances finality should
be given greater or lesser weight:
The modern rule on conclusiveness of
determinations of subject matter jurisdiction
gives finality substantially greater weight
than validity, for the reasons stated in
Comment c. It gives different weight to finality
when the tribunal is one of limited legal
capacity, see Comment e, and when the parties
have not contested the action, i.e., in the case
of a default judgment. See Comment f.
Restatement § 12, cmt. a. These limits include

83a
when the first tribunal is limited in its jurisdiction or
when jurisdiction was not actually litigated. When the
Restatement says jurisdiction was “actually litigated”
it really means “actually litigated.” See Restatement §
12(2) & cmt. d. When subject matter jurisdiction is
only “implicitly resolved through a judgment on the
merits . . . it signifies that the adversary system has
failed to bring forward a highly relevant issue in the
original proceeding.” Id., cmt. d. The Restatement is
clear that even under the modern rule, relief from
judgment should not be denied “under almost all
circumstances” when the conditions of Section 12 are
met. Restatement § 69, cmt. c. The court of appeals’
decision ignores the Restatement’s teachings and
creates its own test which should be overturned.
1. While Texas district courts are courts of general
jurisdiction, the Legislature has committed
certain issues to administrative agencies,
limiting that jurisdiction.
Applying the modern rule properly results in a very
different analysis than that of the court of appeals.
Here the core issue of every claim was one the
Legislature had committed to another tribunal
making a court otherwise of general jurisdiction one of
incompetent jurisdiction. 1 See TEX. UTIL. CODE §
52.002(a); see also TEX. CONST. art. V, § 8 (“District
Court jurisdiction consists of exclusive, appellate, and
original jurisdiction of all actions, proceedings, and
remedies, except in cases where exclusive, appellate,
or original jurisdiction may be conferred by this
Constitution or other law on some other court,
tribunal, or administrative body.”) (emphasis added).
See HCHD Br. 19-24, Tabs L & M, for discussion and the claims
plead in Mireles and HCHD.

1

84a
Given this plain text in the Constitution and the
Utilities Code, the court of appeals was wrong to flatly
state the Mireles court was one of general jurisdiction
without acknowledging the considerable reach of
Section 52.002. HCHD, 577 S.W.3d at 379.
2. The court of appeals’ reliance on the settlement’s
recitation of jurisdiction is self-fulfilling and
circular.
Instead of examining the Mireles pleadings to
determine whether the Mireles court had subject
matter jurisdiction over the claims as plead, the court
of appeals relied on the Mireles judgment’s findings
and conclusions that “the court [had] jurisdiction over
‘all claims’ and ‘all parties’.” Relying on the Mireles
judgment’s rote recitation of jurisdiction is selffulfilling. It is harmful error because it ignores the
jurisdictional facts and relies on the very judgment
that is the subject of the review, which insulates itself
from collateral attacks even though the pleaded facts
show that court lacked subject matter jurisdiction.
Such a methodology will lead to fraud and abuse in
cases where settlement can release larger claims, and
does not satisfy due process or serve the ends of justice.
It is critical to the jurisprudence of this State and its
institutions and citizens that this Court address the
issue of subject matter jurisdiction by reviewing the
Mireles pleadings in the context of the PUC’s exclusive
jurisdiction. This Court should do this without giving
any consideration to the statements, findings, and
conclusions contained in the Mireles judgment itself
because if the court had no jurisdiction in the first
place that judgment is void.
No court has addressed the facts and claims
pleaded by the Mireles plaintiffs to determine whether

85a
the Mireles district court had subject matter
jurisdiction, which the court of appeals should have
done first. “Under Texas law, res judicata does not
apply when the first tribunal lacked subject matter
jurisdiction.” Engelman., 514 S.W.3d at 750. That is, a
reviewing court must first determine whether the
prior court was one of competent jurisdiction. This, the
court of appeals failed to do.
3. Under the Restatement actual litigation of
jurisdiction is required to impose an absolute
bar to subsequent litigation.
The court of appeals states that the most important
factor was that HCHD had “ample opportunity” to
litigate a jurisdictional challenge. HCHD, 577 S.W.3d
at 378. Putting aside the absurdity of faulting a party
aligned with the plaintiffs in a lawsuit for not
questioning a court’s subject matter jurisdiction at all
much less sooner, the court subverts the modern rule’s
analysis beyond recognition. Unlike in Engelman or
the cases the court of appeals cites where the litigant
was an actual party to the prior litigation, see id.,
HCHD is only made a “party” by the class action
procedural device in one case where the class was
certified simultaneously with settlement and
judgment and in another where the class certification
was overturned. See TEX. R. CIV. P. 42; Swern. Bell
Tel. Co. v. Marketing on Hold Inc., 308 S.W.3d 909
(Tex. 2010) [hereinafter STA]; HCHD Br. Tab K, Defs’
Orig. Answer to Pl.’s Third Am. Petition, No. 20000502931-B, (138th Dist. Ct. Harris County, Nov. 16,
2010).
This “factor” of an ample opportunity to litigate is
not determinative nor does it weigh in favor of finality
because the Section 12 requires a “full opportunity to

86a
litigate” and that the parties “actually contested
both the tribunal’s jurisdiction and issues
concerning the merits” for finality to have its
“strongest justification.” Restatement § 12, cmt. a. The
issues of jurisdiction and the merits were never
actually contested by anyone in Mireles, and HCHD
was never a party and never had the full opportunity
to litigate jurisdiction or the merits in Mireles.
The court of appeals seeks to punish HCHD for the
failure of multiple courts to recognize the lack of
subject matter jurisdiction and rewards AT&T for
laying behind the log and not raising the matter in the
STA case until 2010, the same year AT&T raised
subject matter jurisdiction in HCHD and won. In all
three cases – Mireles, STA, and HCHD – every claim 2
was premised on AT&T’s failure to follow the PUC
tariff, yet AT&T can avoid the jurisdiction of district
courts in two of the cases while enjoying the
jurisdiction in the third to cut off and settle claims on
the cheap for innumerable customers, including
governments.
To the extent the Restatement considers the
“challenger’s participation” in the prior litigation, 577
S.W.3d at 378, the Restatement looks to whether
subject matter jurisdiction or the merits were actually
litigated, not theoretically available for litigation.
Restatement § 12, cmts. c, d. Neither occurred in
Mireles or STA. By holding a theoretical opportunity
to litigate against HCHD the court of appeals gets this
rule of the Restatement on this point exactly
2 As the Court recently noted, a court’s jurisdiction is determined
claim-by-claim rather than by damage elements. Pike v. Texas
EMC Mngmt., LLC, __ S.W.3d __, 2020 WL 3405812, *6 n.7 (Tex.
2020).

87a
backward. Only when a party actually litigated
jurisdiction in prior litigation is that party definitively
barred by res judicata from raising issues in
subsequent litigation.
B. The court of appeals wrongly presumes
parties can acquiesce in subject matter
jurisdiction.
The court also presumes that acquiescence in
jurisdiction by passing on “opportunities to litigate”
the issue is significant and has the power to confer
subject matter jurisdiction where there was none. This
error in jurisprudence is glaring and serves to muddy
the jurisprudential waters. This presumption also
exposes another logical and jurisprudential flaw in the
published opinion.
The court of appeals did rightly note that a
settlement agreement is contract. HCHD, 577 S.W.3d
at 379. But, parties cannot contractually agree to a
court’s subject matter jurisdiction nor confer subject
matter jurisdiction by consent or waiver. San Antonio
River Auth. v. Austin Bridge & Road, L.P., 601 S.W.3d
616, 627 (Tex. 2020); Dubai Petroleum Co. v. Kazi, 12
S.W.3d 71, 76 (Tex. 2000); Federal Underwriters Exch.
v. Pugh, 141 Tex. 539, 174 S.W.2d 598, 600 (Tex. 1943).
Nor may jurisdiction be established by estoppel. In re
Crawford & Co., 458 S.W.3d 920, 928 n.7 (Tex. 2015)
(per curiam) (citing Wilmer-Hutchins Indep. Sch. Dist.
v. Sullivan, 51 S.W.3d 293, 294 (Tex. 2001)). “A party
cannot by his own conduct confer jurisdiction on a
court when none exists otherwise.” Wilmer-Hutchins
Indep. Sch. Dist., 51 S.W.3d at 294-95.
Here, the court of appeals avoided the requisite
jurisdictional analysis the Mireles court failed to make
and HCHD argued was required before the Mireles

88a
settlement could bar its claims as res judicata. For res
judicata to apply, the prior court must be one of
competent jurisdiction. Engelman, 514 S.W.3d at 750.
The court of appeals did not ask that question, but
instead invented “factors” citing to Section 12 of the
Restatement. In doing so it stretched the “modern
rule” from one favoring finality to one that always
finds subject matter jurisdiction. Such an absolute
application of the rule cannot be correct especially in
cases of statutory grants of exclusive original
jurisdiction.
C. Mireles was a rate case within the PUC’s
exclusive jurisdiction.
In the case of statutory grants of exclusive original
jurisdiction, there is no question the issue is truly
jurisdictional in the constitutional sense. Cf. Pike v.
Texas EMC Mgmt., LLC, __ S.W.3d __, 2020 WL
3405812, *5 (Tex. 2020) (distinguishing standing in
the constitutional sense from other standing issues).
The only question in cases of statutory grants of
exclusive original jurisdiction is the scope of the
subject matter jurisdiction given the statutory
language. This Court is currently considering the
meaning of “rates, operations, and services” in the
statute for electric utilities in In re CenterPoint Energy
Houston Elec. LLC, No. 19-0777 (good Samaritan
electrocuted by downed power line); In re Oncor Elec.
Delivery Co. LLC, No. 19- 0662 (tree trimming injury);
and In re Texas-New Mexico Power Co., No. 19-0656
(flood damage from construction matts) (all argued on
Oct. 8, 2020). See TEX. UTIL. CODE § 32.001
(governing electric utilities); see also Oncor Elec.
Delivery Co. v. Chaparral Energy, LLC, 546 S.W.3d
133, 138 (Tex. 2018). Section 52.002(a) governing

89a
telecommunication utilities contains the same phrase.
The Mireles court lacked any power over the
Mireles claims – all regarding “municipal charges”
that were collected or over collected by AT&T –
because these claims were within the PUC’s exclusive
jurisdiction the business and property of such utilities
in order to regulate their rates, operations, and
services. See TEX. UTIL. CODE § 52.002(a).
Recognizing that “public utilities are by definition
monopolies in the areas they serve”, Texas passed the
Public Utility Regulatory Act (“PURA”) to “protect the
public interest in [utilities’] rates and services.” Time
Warner Cable Texas LLC v. CPS Energy, 593 S.W.3d
291, 295 (Tex. 2019) (alteration in orig.). PURA grants
the PUC exclusive jurisdiction over the rates that
telecommunications companies charge and collect
from their consumers. See, e.g., Southwestern Bell Tel.
Co. v. Public Util. Comm ‘n, 735 S.W.2d 663, 668 (Tex.
App.-Austin 1987, no writ) (“[T]he Legislature vested
in the [PUC], subject to limitations contained in the
statute, ‘exclusive original jurisdiction over the
business and property of all telecommunications
utilities in this state’ for the general purpose of
‘regulating [the] rates, operations, and services’ of
such utilities and the particular purpose of adjusting
and accommodating, according to the public interest,
the various and sometimes conflicting legislative
purposes that underlie PURA.”) (emphasis omitted).
The Mireles case was within the exclusive
jurisdiction of the PUC; consequently, the Mireles
judgment and settlement release are void, and the
court of appeals misapplied Section 12 and this Court’s
precedents.
II.

The court of appeals’ opinion is harmful to

90a
the rights of Texas governments and
elected state attorneys.
Stating that HCHD was a party to Mireles is also
error because of the requirements in Texas Health &
Safety Code Section 281.056 and other statutes
limiting who may represent the government. The
Harris County Attorney never appeared in the Mireles
class action litigation, the HCHD board never acted to
engage additional counsel (i.e., the Mireles attorneys)
to represent it in Mireles, and HCHD never filed any
intervention, objection or “opt out” in Mireles and was
never a named party in Mireles.
The Court should review this case because the
court of appeals opinion has numerous errors that are
harmful to the sovereign rights and interests of the
Harris County Hospital District, the State of Texas,
and other Texas governmental entities, and the rights
and interests of those for which exclusive jurisdiction
of government regulatory agencies is meant to protect.
Harris County, Travis County and Liberty County
have already filed an amicus letter in this case asking
that the grant the petition for review. By dismissing
HCHD’s petition, this Court is essentially telling
Texas governmental entities, including HCHD, that
they can participate in and be bound by class actions
as absent unnamed class members – even when the
class representatives are individuals whose interests
and claims are not the same or substantially similar to
the governments’. 3 This will likely result in other class
This result is ironic given this Court’s ruling in STA that a class
with divergent members could not be adequately represented by
a class representative that did not mirror that membership. STA,
308 S.W.3d at 925-27. While STA cannot represent governments

3

91a
actions with class definitions broadly worded to
include governmental entities. Under the court of
appeals opinion, government class members would
nonetheless be bound. This could easily result in the
release of millions, or billions, of dollars owed to the
State, counties, political subdivisions. Threats to
public coffers are precisely why laws limiting
government representation were enacted. See Looscan
v. Harris Cty., 58 Tex. 511, 515 (1883). However, this
could be prevented if this Court enforces Section
281.056(b), the Texas Constitution and other statutes
which exclusively charge the Attorney General, county
attorneys, and district attorneys with these
responsibilities of representation.
In addition, the court of appeals’ tunnel-vision
reliance on dictionaries to ascertain the meaning of
“represent” in the context of statutes concerning
governmental representation is myopic. Words in
statutes exists in a context. How a general language
dictionary defines a legal term of art may or may not
be helpful. Moreover, the court of appeals ignored
other statutes governing outside counsel for Harris
County as well as a large body of caselaw regarding
protecting governments’ representation in court. See
HCHD Br. at 31-38; HCHD Reply Br. 18-23. For
example, for large counties like Harris County, the
commissioners’ court may employ, but only the county
attorney may select, special counsel to represent the
county in lawsuits. TEX. LOC. GOV’T CODE § 89.001.
This Court long and consistently recognized this
exclusive right for county attorneys to represent the
county in lawsuits. Maud v. Terrell, 200 S.W. 375, 376
and other institutions adequately, the individual representatives
in Mireles were sufficient.

92a
(Tex. 1918); Looscan, 58 Tex. at 515. If the court of
appeals’ analysis is correct, then statutes providing
that the Attorney General “represent” state agencies
would not exclude any outside counsel from filing a
suit on the agency’s behalf without the Attorney
General’s participation and blessing. See TEX. GOV’T
CODE §§ 815.203, 825.203, 840.201.
III.

The court of appeals’ analysis was
premised on multiple false assertions and
characterizations of HCHD’s arguments.

The court of appeals opinion is also packed with
assertions about HCHD’s positions and arguments
that are off base and at times out of left field. To get to
its legal conclusion – based on a test derived from the
ether – the court had to rely on multiple false
statements about HCHD’s position:
● HCHD never disputed that its claims were the
same as those lodged in Mirele, see 577 S.W.3d
at 378-80; indeed, it is precisely because the
claims are so similar that it is logically
impossible for the PUC’s exclusive original
jurisdiction create a lack of subject matter
jurisdiction for the HCHD court, but not the
Mireles court.
● HCHD never complained or asserted that it did
not receive class action notice, id. at 382, but
viewed this issue as irrelevant as the Mireles
court did not have jurisdiction in the first place.
Likewise, HCHD never argued the county
attorney “had no opportunity to provide advice.”
Id.
● HCHD did not argue that the release language
did not intend to release its claims, see id. at

93a
380; rather, HCHD argues that the release, like
the notice issue, is irrelevant because the
Mireles court did not have subject matter
jurisdiction.
● HCHD did not base its representation
arguments on fairness, prudence, or policy, id.
at 380-81, but on statute, Texas jurisprudence,
and the holdings of federal courts that bar
counties from class action membership because
of
those
laws
limiting
government
representation.
HCHD raises these points not to argue that all
errors warrant correction, but to demonstrate the
multitude of errors and contortions in which the court
of appeals had to engage to arrive at its analysis and
conclusion, all resulting in an opinion that will serve
to mislead litigants and lower courts into misapplying
this Court’s jurisprudence on res judicata and the
modern rule for analyzing judgments and subject
matter jurisdiction. In sum, the opinion is not just one
in need of correction, but one that states incorrect law
doing damage to the jurisprudence of this state.
CONCLUSION AND PRAYER
For these reasons, HCHD asks that this motion be
granted, that this Court grant its petition for review,
set the case for oral argument, and after argument
reverse the lower court’s decision and remand this case
back to the PUC for a determination on the merits.
Respectfully submitted,
/s/ Susan Hays
SUSAN HAYS

94a
State Bar No. 24002249
LAW OFFICE OF SUSAN HAYS, P.C.
P.O. Box 41647
Austin, Texas 78704
Telephone: (214) 557-4819
Telecopier: (214) 432-8273
hayslaw@me.com
Vince Ryan
State Bar No. 17489500
HARRIS COUNTY ATTORNEY
Terence O’Rourke
Special Assistant County
Attorney
State BarNo.15311000
Randall Raymond Smidt
Assistant County Attorney
State Bar No. 00798509
randall.smidt@hctx.cao.net
1019 Congress
Houston, TX 77002
Telephone: (713) 274-5167
Telecopier: (713) 755-8848
Thomas R. Bray
LAW OFFICE OF THOMAS R. BRAY
State Bar No. 02926800
1431 Wirt Road, Suite 140
Houston, Texas 77055
Telephone: (713) 827-1760
Telecopier: (713) 827-1760
CERTIFICATE OF COMPLIANCE
I hereby certify that there are 3,570 words within
this document using the counting parameters of Texas

95a
Rule of Appellate Procedure 9.4(i)(l).
/s/Susan Hays
Susan Hays
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
above Motion for Rehearing was served upon all
counsel of record, via e-service on this December 21,
2020 pursuant to TEXAS RULE OF APPELLATE
PROCEDURE 9 .5 and the e-filing rules of this Court:
Ken Paxton
Attorney General of Texas
Jeffrey C. Mateer
First Assistant Attorney General
James E. Davis
Deputy Attorney General for Civil Litigation
Priscilla M. Hubenak
Chief, Environmental Protection Division
John R. Hulme
Assistant Attorney General
john.hulme@oag.texas.gov
P.O. Box 12548, MC-066
Austin, Texas 78711-2548
Counsel for the PUC
Kyle Hawkins
Solicitor General
John R. Hulme
Assistant Attorney General
Amy Davis
Assistant Attorney General
P.O. Box 12548, MC-066
Austin, Texas 78711-2548
Counsel for the PUC

96a
Thomas R. Phillips
Gavin Villareal
Ellen Springer
Baker Botts, LLP
gavin.villareal@bakerbotts.com
98 San Jacinto Blvd.,
Austin Texas 78701
Sara E. Romine
AT&T Service, Inc.
208 South Akard St., Room 3113
Dallas, Texas 75202
Hans Germann
Mayer Brown, LLP
71 S. Wacker Dr.
Chicago, Illinois 60606
Counsel for AT&T
/s/ Susan Hays
Susan Hays

97a
APPENDIX O (97a-153a)
NO. 03-17-00811-CV
IN THE THIRD COURT OF APPEALS SITTING IN
AUSTIN
PUBLIC UTILITY COMMISSION,
APPELLANT/CROSS-APPELLEE
V.

HARRIS COUNTY HOSPITAL DISTRICT,
APPELLEE/CROSS-APPELLANT
Appeal from the 250th District Court, Travis
County, Texas
BRIEF OF APPELLANT/CROSS-APPELLEE
STATEMENT OF THE CASE
Nature of the
Case:

Administrative appeal from a
lawsuit by a governmental
entity asserting claims for
breach of contract, breach of
express warranty for services,
negligence per se, fraud, and
Deceptive Trade Practices Act
(“DTPA”)
all
based
on
allegations that AT&T illegally
charged municipal fees under
the applicable tariff.

98a
Harris County
Trial Court
Disposition:

No. 2010-28461, 333rd District
Court, Judge Tad Halbach,
granted AT&T’ s plea to the
jurisdiction finding that the
PUC had exclusive jurisdiction
over all but the additional
damages sought in the gross
negligence, fraud and/ or DTP A
claims and abated those
damages claims until the PUC
resolved the tariff issues. Order
Sustaining
Plea
to
the
Jurisdiction in Part and
Abating Remainder of Claims,
Feb. 1, 2011 [3:98 at 570] (Tab
D).

Public Utility
Commission
Disposition:

PUC Docket No. 40235; SOAR
Docket No. 473-13-0391. An
Administrative Law Judge
denied AT&T’s motion for
summary decision arguing res
judicata as to the Mireles class
action settlement, and found
that Section 281.056, Health &
Safety Code, requires HCHD to
“opt-in” to a class action and
thus HCHD could not be part of
the Mireles class. SOAR Order
No. 24, Jan. 15, 2015, [4:110]
(Tab C). Upon review, the
Commission agreed with AT&T
that the claims were barred by
res judicata. (Tab B). See Tab 1

99a
(chart of PUC proceedings).
Administrative
Appeal to the
Travis County
District Court
and its
Disposition:

The Hon. Scott Jenkins, 250th
District Court, reversed the
PUC finding that as a matter of
law, a legislatively-created
governmental entity cannot be
bound by a class action lawsuit
unless it took actions to
participate in such a law suit in
compliance with its governing
statutes. (Tab A).

RECORD CITATIONS
Given the size of the record, citations to the
administrative record will include a notation in square
brackets of the binder and item number as listed in the
Notice of Filing of Administrative Record. E.g.,
“Formal Complaint, Mar. 16, 2012, [1:1]” indicates the
Complaint which can be found in Binder 1, Item 1.
Significant portions of the record are sequentially
paginated, such as stipulated exhibits found in Binder
3, Item 98. These stipulated exhibits will be noted as
the parties agreed to the documents’ validity. Any
citations to paginated documents will note that page
number rather than the native pagination of the
document. E.g., “[Ex. STIP-3, 3:98 at 228]” indicates
Binder 3, Item 98, at stipulated exhibit 3, page 228.
Transcripts from the PUC proceedings may be found
at the end of the Administrative Record and will be
cited by volume and page. E.g., Open Meeting Tr. Vol.
C at 60-65.
Citations the clerk’s record will be cited as CR_, and to
the reporter’s record will be cited as RR__.

100a
ISSUES PRESENTED
1. Whether the Mireles class action settlement
judgment is void for lack of subject matter jurisdiction
because the issues there, as those in this case,
encompass a matter committed to the PUC’ s exclusive
jurisdiction: whether AT&T illegally collected
municipal fees from its customers including HCHD?
(Cross-appeal)
2.
Whether
constitutional
and
statutory
requirements for the legal representation of
governmental entities in litigation prohibits a classaction judgment from binding that governmental
entity when those requirements were not met?
(Response)
STATEMENT ON ORAL ARGUMENT
This case raises complex, novel issues at the
intersection of PUC jurisdiction, class actions, and the
nature of governmental entities. There are no binding
cases directly on point to the two issues presented
above, given a governmental entity plaintiff and a
class action settlement, and significant policy issues
are implicated concerning the ability of governmental
entities to protect the public’s interest and coffers.
Consequently, HCHD believes that oral argument will
significantly benefit this Court.

101a
STATEMENT OF FACTS
As both the Public Utility Commission (“PUC”) and
Southwestern Bell Telephone Company d/b/a AT&T
Texas (“AT&T”) describe in their briefs, in the 1990s
Southwestern Bell Telephone Company paid
municipal fees to cities for use of rights-of-way and
passed those costs onto customers whether residential,
commercial, or governmental. Lawsuits were filed
alleging AT&T either overcharged or charged the fees
illegally - that is not in compliance with PUC tariffs.
This case, brought by a governmental entity, 1 makes
similar claims to those brought in a cy pres,
settlement-class action known as Mireles in that all
claims are based on allegations of illegally charged
fees. The Harris County Hospital District (“HCHD”)
maintains that because that underlying issue is
subject to the PUC’s exclusive, original jurisdiction the
Mireles settlement is void and cannot bar its claims
under the res judicata doctrine. Alternatively, under
the Texas Constitution and statutes, as a
governmental entity, HCHD’s representation cannot
be vested in others via the class actions procedural
device without its express consent.
A. HCHD sues AT&T over the illegal
collection of municipal charges in Harris
County, but must pursue these rate-based
claims in the PUC after AT&T succeeds in
arguing the PUC has exclusive jurisdiction.
Harris County Hospital District (“HCHD”) filed
1 Counties, county entities, and other political subdivisions of the
state are not barred by statutes of limitations. See TEX. CIV.
PRAC. & REM. CODE§ 16.061.

102a
suit against Southwestern Bell Telephone Company
d/b/a AT&T Texas (“AT&T”) in Harris County district
court (“the Harris County suit”) alleging breach of
contract, breach of express warranty for services,
negligence per se, fraud, and Deceptive Trade
Practices Act (“DTPA”) claims against AT&T based on
factual allegations that AT&T collected from HCHD
“municipal charges” unlawfully both because they
were charged without legal authorization and because
AT&T collected more in these fees than it paid in
“municipal fees” (also known as “franchise fees”).
HCHD also sought attorneys’ fees, punitive damages,
interest, costs, and expenses. See Pl.’s Orig. Pet., Oct.
22, 2010 [Ex. STIP-9, 3:98 at 471].
AT&T filed a plea to the jurisdiction asserting that
the district court had no subject matter jurisdiction
over the case because the PUC had exclusive original
jurisdiction over any rate or fee dispute subject to a
regulatory scheme established by Public Utility
Regulatory Act (“PURA”) (codified at TEX. UTIL.
CODE § § 11.001- 66.016). Plea to the Jurisdiction,
[Ex. STIP-10, 3:98 at 491-502]; Supp. Plea to the
Jurisdiction [Ex. STIP-12, 3:98 at 503-12] (Tab D). The
trial court granted the plea “with regard to any claim
that seeks reimbursement of municipal charges under
tariff’ and abated the damages claims “until such time
as all Plaintiffs claims falling within the exclusive
jurisdiction of the Public Utility Commission are fully
and finally resolved.” Order Sustaining Plea to the
Jurisdiction in Part and Abating Remainder of Claims,
Feb. 1, 2011 [Ex. STIP-15, 3:98 at 570] (Tab D). HCHD
then initiated the administrative matter at issue here.
Formal Complaint, Mar. 16, 2012, PUC Docket No.
40235 [1 :1]; see also SOAR No. 473-13-0391.

103a
B. The troubled Mireles cy pres settlement
prompted multiple challenges including one
that carved-out certain institutional class
members.
In Mireles, proposed class action plaintiffs alleged
claims for breach of contract, fraud, unjust
enrichment, and DTP A all based on the core
allegation that the fees had been charged illegally.
Mireles settled simultaneously with class certification
- that is, a “settlement class” - with a cy pres remedy that is, AT&T’s customers received nothing directly.
Mireles v. Sw. Bell Tel. Co., No. 98- 07-3003-E, 357th
District Court, Cameron County, Texas (“the Mireles
settlement”) (AT&T Br. Tab 4). The claims in Mireles,
like the claims here, were all based on whether AT&T
over-collected municipal charges or collected them
without authorization from a PUC tariff. See Orig.
Petition, Mireles, July 30, 1998, [Ex. STIP-19, Ex. 1,
3:98 at 631-41] Third Amd. Pet. [3:98 at 642-54].
Mireles was and is a case study in the perils of
settlements and settlement classes.
The Mireles settlement did not go down easy.
Multiple objectors from different perspectives arrived
in rapid succession to contest the cy pres settlement
which in turn spawned multiple branches of litigation
which lasted for years. See timeline chart at Tab 2. The
Mireles settlement had multiple points of controversy
including: (1) its cy pres remedy, (2) that it was a
settlement class rather than having the class certified
before settlement, and (3) the lack of disclosure of the
true measure of damages before settlement and notice
to class members.
The advertised settlement amount was $10 million,
but the settlement’s structure did not require AT&T to

104a
pay that amount. Instead, AT&T was to pay $3 million
cash to the Telecommunication Infrastructure Fund
Board (“TIFB”) for grants to web librarians and pay
class counsel $2 million. Anything remaining would be
“paid” via “service credits” to the TIFB (not to class
members). This service credit balance would be further
offset by AT&T’ s notice cost to class members and the
cost of the settlement administrator. Northrup v. Sw.
Bell Tel. Co., 72 S.W.3d 1, 3 (Tex. App. - Corpus Christi
2001, no pet.) (hereinafter Northrup I).
Mireles was also a “settlement class” as the class
was certified simultaneously with the settlement
approval. See Northrup I, 72 S.W.3d at 8-15 (analyzing
the pitfalls of settlement classes and holding that
objectors may intervene after final judgment and still
have standing to appeal).
AT&T claimed and Mireles class counsel accepted
that it would be unreasonably difficult to identify all
class members and determine the amount of damages
for each. See Notice of Class Action, Proposed
Settlement and Hearing at 101 (AT&T Br. Tab 4);
Northrup v. Sw. Bell Tel. Co., 72 S.W.3d 16, 21 (Tex.
App. - Corpus Christi 2002, pet. denied improvidently
granted) (hereinafter Northrup II). Moreover, class
counsel and AT&T claimed that the damages for
individual customers were so small that the
administrative costs of their settlements would exceed
those individual amounts, but there was not enough
discovery produced before settlement or during the
time for objections to confirm these assertions. Id.;
Hearing on Obj. and Intervention, Apr. 27, 2000, at
202 [Ex. H-16, 4:104 at 360] (Class counsel: “We are
talking about two dollars a person.”); Northrup II, 72
S.W.3d at 20 (“around one dollar”). To the contrary, as

105a
became clear during discovery at the PUC, HCHD (and
likely other institutional customers) was overcharged
well into the six figures. 2
The PUC’s Statement of Facts claims the
settlement was upheld multiple times against
“collateral attacks.” PUC Br. at 8; see also AT&T Br.
at 5-6. That is not true. There were not multiple
“collateral attacks” against the settlement, but
multiple class settlement objections, a bill of review
based on newly discovered evidence on the much
larger-than-represented scope of damages, and a case
carving out commercial customers by Rule 11
agreement.
Michael Northup, an individual class member,
objected to the adequacy of notice, the adequacy of
representation, and the amount of attorney’s fees,
launching himself on a procedural journey which
lasted four years and included multiple trips to the
higher courts, ending after the Supreme Court granted
review, only to deny review as improvidently granted
a year later. 3
Chemject International, Inc. (“Chemject”), via both
2 Encompassed in items 3-6 in HCHC’s List of Exhibits and
Testimony that May be Declassified and Used Without Protection
of a Confidential Designation, Jan. 20, 2015 [ 4: 111]. See also
Joint Status Report in Response to SOAH Order No. 20, at 3, June
20, 2014 (AT&T agreeing to declassify documents) [2:85]; see also
Sw. Bell Tel. Co. v. Marketing on Hold d/b/a Sw. Tariff Analyst,
308 S.W.3d 909, 931 n.6 (Tex. 2010) (STA II) (O’Neill dissenting)
(describing damages from just one type of fee for individual
institutional customers in the thousands of dollars).

See Northrup II, 72 S.W.3d 16 (approving the class action
settlement); see also Northrup I, 72 S.W.3d 1, 16 (holding that
intervening class members had standing to appeal given use of
the unusual settlement class device).

3

106a
a bill of review and an intervention before the Mireles
mandate issued, challenged the Mireles Settlement
suing both AT&T and class counsel based on newly
discovered evidence resulting in allegations that
AT&T and class counsel made misrepresentations to
the court and in the class notice about the scope of
discovery and purported inability to identify the class
members’ damages or to do so economically. 4
Marketing on Hold d/b/a Southwest Tariff Analyst
(“STA”), an auditing company that reviewed
customers’ bills for errors and held assignments to
claims against AT&T, entered into a Rule 11
agreement with AT&T and class counsel in exchange
for dropping its objections to the Mireles class
settlement which was read into the record to carve out
claims regarding certain business customers from the
class action. 5 STA sought a class action for certain
business customers of AT&T, including HCHD, 6 which
4 See Chemject Int’l, Inc. v. Sw. Bell Tel. Co., Nos. 13-04-567-CV,
13-06-032-CV, 2007 WL 177651 at *6-7 (Tex. App. - Corpus
Christi 2007, pet. denied) (affirming dismissal because the fraud
alleged in the notice to class members and class counsel
representations was deemed intrinsic rather than the extrinsic).
5 Mireles Fairness Hearing Tr., at 5-12 [Ex. STIP-4, 3:98 at 23442]; see also Sw. Bell Tel. Co. v. Marketing on Hold d/b/a Sw.
Tariff Analyst, 170 S.W.3d 814, 820 n.8 (Tex. App. -Corpus
Christi 2005) (STA I) and STA II, 308 S.W.3d at 929 (O’Neill
dissenting) (both describing carve-out class of commercial
customers).

Included in the parties’ stipulations was a list of prospective
class members which included HCHD [Ex. STIP-7, 3:98 at 321,
352]. This list was an exhibit to AT&T’s response to STA’s motion
for class certification. Stipulations and Jt. Req. for Official Notice,
Dec. 2, 2014 at 2, [Ex. STIP-7, 3:98]; Def.’s Resp. to Mot. for Class
Certification, Jan. 13, 2003 [Ex. STIP-6, 3:98 at 264, 268 (list of
exhibits with “List of Prospective Class Members” as Ex. 9), 3016

107a
was granted by the trial court and upheld by the court
of appeals. This interlocutory appeal then moved to the
Supreme Court - where it sat for five years - until
finally being overturned. 7
Throughout the Mireles litigation, neither the
Harris County Attorney nor any attorney retained by
HCHD and approved by its board represented HCHD
in the case, nor did the board approve HCHD’s
participation in the case.
C. The PUC proceedings in this case
turned into a game of procedural ping pong
over which tribunal should decide AT &T’s
res judicata defense.
The procedural history at the PUC has been as
tortured as the Mireles litigation’s and is detailed in a
chart at Tab 1 but summarized here. AT&T responded
to HCHD ‘s Complaint with a motion to dismiss based
on the Mireles settlement and theories of res judicata,
release, and equitable estoppel. Mot. to Dismiss, Apr.
10, 2012 [1:4]. HCHD responded that it could not have,
as a matter of law, been a class member as a
governmental entity with statutory restrictions on its
representation and that if the PUC has exclusive
jurisdiction, as AT&T successfully argued in the
Harris County suit, then the Mireles judgment was
03 (AT&T’s description of the potential class members as included
businesses and governmental entities)].
STA, 170 S.W.3d 814 (affirming class action certification), rev’d
308 S.W.3d 909 (Tex. 2010) (5-3 decision). The litigation ended in
2011 with a mediated settlement of STA’s individual claims but
not the claims of any other AT&T customers. See Jt. Mot. to
Dismiss with Prejudice, [Ex. STIP-16, 3:98 at 572]; see also [Ex.
STIP-7, 3:98 at 321-96, 352] (list of potential class members
including HCHD).

7

108a
void for lack of subject matter jurisdiction and could
not support a res judicata defense. Obj. and Resp. of
HCHD, Apr. 30, 2012 [1:7].
The Administrative Law Judge (“ALJ”) denied the
motion accepting the argument that as a government
entity
with
statutory
restrictions
on
its
representation, HCHD could not be barred by the
Mireles judgment. SOAH Order No. 24, at 2-3, Jan. 15,
2015, [4:110] (Tab D). The ALJ also agreed that there
is a legal distinction between cities on one hand and
counties and other legislatively-created entities on the
other. Id. at 3 n. 4. Recognizing the novel issues of law,
the ALJ offered to abate the case and certify the
following question to the PUC:
Can HCHD, in light of its status as a
legislatively-created governmental entity and
the requirements of the Texas Health & Safety
Code 281.056, be bound by a class action
settlement if it did not take affirmative action
to participate in such lawsuit or settlement?
SOAH Order No. 25, Jan. 23, 2015 [5:113]. Meanwhile,
the case was set for a hearing a few weeks later which
would be the first time any tribunal had addressed the
municipal charge billing issue on its merits. See SOAH
Order No. 23, Nov. 21, 2014 [3:97].
During their discussions, the Commissioners were
troubled about their ability to address the res judicata
issues and wondered whether they had supplemental
or ancillary jurisdiction to decide the issue at all, and
expressed a need to have an efficient final ruling on
the res judicata legal question so that the rest of the

109a
case could be resolved. 8 See Open Meeting Tr. Vol. C
at 60-65. They then reversed the ALJ’s decision,
flipping the result in AT&T’s favor. Id. at 65 (“Well, I’ll
join in the order if for no other reason than perhaps
we’ll get some clarity in the courts about this, how far
- whether we have ancillary jurisdiction, if you will.”);
Order on Interim Appeal, Apr. 9, 2015, [5:129].
D. The trial court reversed the PUC’s
decision finding that Mireles did not bar
HCHD’s claims because the requisites of
Health & Safety Code Section 281.056 had not
been met.
HCHD filed an administrative appeal. After
briefing and oral argument, the trial court took the
position the ALJ had taken: that Section 281.056’s
requirements had not been met and thus the Mireles
settlement did not bar HCHD’s claims:
As a matter of law, pursuant to Section
281.056, Texas Health & Safety Code, HCHD
must be represented by the county attorney
unless its board opts to retain outside counsel.
No such counsel represented HCHD in the
Mireles lawsuit. As a legislatively-created
governmental entity HCHD cannot be part of
or bound by a class action lawsuit unless it
takes such action to participate in the lawsuit.
Consequently, as a matter of law, HCHD’s
claims were not resolved by the Mireles
lawsuit nor resolved by its final judgment.
Final Order, CR 330 (Tab A). The court rejected
8 This issue was briefed below, and the parties agreed the PUC
did have the power to consider the res judicata issue. CR 168-73,
233-34.

110a
HCHD’s argument that the Mireles Settlement was
void due to the PUC’s exclusive jurisdiction. Both
AT&T and the PUC appealed the court’s ruling. HCHC
also filed a notice of appeal to preserve its rights as to
the jurisdictional argument. 9
SUMMARY OF THE ARGUMENT
This case raises complex, novel issues at the
intersection of PUC jurisdiction, class actions, and the
nature of governmental entities. From the beginning
of this case, HCHD has embraced the fact that its
claims are the same type as those raised m Mireles.
Given the PUC’s “exclusive, original jurisdiction” over
“rates, operations, and services,” the Mireles judgment
is void for lack of subject matter jurisdiction, and given
that the constitutional and statutory requisites for
governmental entity representation were not met,
HCHD could not be part of the Mireles class as a
matter of law. Thus, HCHD ‘s claims are not barred by
res judicata because the Mireles court was not a court
of competent jurisdiction and as a governmental entity
HCHD was not in privity to the Mireles class action
members.
AT&T argued that the claims in this case are
subject to the exclusive jurisdiction of the PUC and
won that argument in the Harris County suit. That
legal conclusion – accepted by the Harris County court
The PUC complains HCHD’s cross appeal is improper and
reserves the right to move to dismiss the cross appeal. PUC Br.
at 13 n.5. There may very well be strong argument that it is, but
there are also arguments and authorities that it may be
warranted obligating counsel to protect HCHC’s interests by
filing a notice of appeal. Whether as a cross appeal or as an
alternative ground, this Court should review the issues presented
to move this dispute closer to a final resolution.

9

111a
and the PUC – has legal consequences. Any court that
has considered such claims without the PUC first
passing on the issue dedicated to its exclusive original
jurisdiction did so without subject matter jurisdiction.
Any judgment entered by a court without subject
matter jurisdiction is void as a matter of law. Thus, the
Mireles judgment is void and cannot support AT&T’ s
res judicata defense.
HCHD is a subdivision of the State of Texas. By a
longstanding statute, only the County Attorney with
the optional addition of outside co-counsel approved by
its board may represent it in litigation. Such strict
statutory restrictions on the representation of
governmental entities serve to protect the sovereign
and the public coffers. Federal courts have recently
held that governmental entities like HCHD with such
statutory restrictions on legal representation may not
generally take part in class actions as they must “optin” which is not permitted under federal or Texas law.
Consequently, class action judgments may only bind
HCHD if the County Attorney represented it in that
proceeding. There is no dispute that he did not do so.
Thus, as a matter of law the Mireles judgment cannot
bind HCHD.
Finally, principles of judicial estoppel prohibit
AT&T from now claiming HCHD was part of the class
settlement when it previously claimed it was not or
from disclaiming the application of the PUC’s
exclusive jurisdiction after having successfully plead
for it in a parallel case to Mireles.
ARGUMENT
The party relying on the affirmative defense of res
judicata must prove (1) a prior final determination on
the merits by a court of competent jurisdiction; (2)

112a
identity of parties or those in privity with them; and
(3) a second action based on the same claims as were
or could have been raised in the first action. Travelers’
Ins. Co. v. Joachim, 315 S.W.3d 860,861 (Tex. 2010);
Citizens Ins. Co. v. Daccach, 217 S.W.3d 430, 449 (Tex.
2007). Here, HCHD contests whether the Mireles court
was a court of competent jurisdiction over the claims
or HCHD itself and whether as a governmental entity
it can be in privity with the class members when
statutory prerequisites were not met. Because res
judicata does not apply when the first tribunal lacked
subject matter jurisdiction, the doctrine does not bar
HCHD’s claims. See Engleman Irrigation Dist. v.
Shields Bros., Inc., 514 S.W.3d 746, 747 (Tex. 2017).
I. As the issues presented are legal issues, the
standard of review is de novo.
While in the proceedings below the parties
disputed the correct standard of review, the PUC now
concedes that de novo review is appropriate as this
case presents questions of law. PUC Br. at 15; see also
CR 167-68, 232, 296-98.
The res judicata issues are legal ones. Whether an
agency has exclusive jurisdiction over an issue is a
question of law and thus reviewed de novo. Subaru of
America, Inc. v. David McDavid Nissan, Inc., 84
S.W.3d 212, 221 (Tex. 2002). The interpretation of
statutes and procedural rules are likewise legal issues
subject to de novo review. Tex. Gen. Indem. Co. v. Tex.
Workers’ Compensation Comm’n, 36 S.W.3d 635, 639
(Tex. App. – Austin 2000, no pet.).
II. The PUC’s exclusive original jurisdiction
applies to the claims in this suit and in Mireles,
rendering the Mireles judgment void. (CrossAppeal)

113a
AT&T argued in the Harris County suit that the
PUC has exclusive original jurisdiction as a
“legislatively-imposed jurisdictional mandate” and
won that argument. 10 Now, AT&T does not want to
live with the consequences of the PUC having
exclusive original jurisdiction: that any court
judgments rendered without deferring to the agency’s
jurisdiction are void, including the Mireles judgment.
But AT&T cannot have its procedural cake and eat it
too.
A. Because the PUC has exclusive jurisdiction
over “rates, operations, and services,” the
Mireles
court
lacked
subject
matter
jurisdiction and its judgment is void.
The PUC’s jurisdiction does not wholly and without
exception include or exclude any “claim” in the sense
of a cause of action such as negligence or DTPA.
Instead, in cases where the Legislature has chosen to
vest an agency with “exclusive jurisdiction” whether a
particular case is first subject to an agency’s
jurisdiction is depends on whether a claim, as plead by
a particular plaintiff, encompasses those issues
committed to an agency’s jurisdiction. Oncor Elec.
Delivery Co. v. Chaparral Energy, LLC, _ S.W.3d _, No.
16-0301, slip op. at 4-14 (Tex. Apr. 27, 2018) (breach of
contract claim involving tariff subject to PUC’s
exclusive jurisdiction); Autobahn Imports, L.P. v.
Jaguar Land Rover N Am,. L.L.C, _Fed. Appx. _, 2018
WL 1612252, *5 (5th Cir. Apr. 3, 2018) (“Land Rover
cannot bypass the Board’s exclusive jurisdiction by
choosing to avoid explicitly relying on a Code provision
10 Defendant’s Supplemental Plea to the Jurisdiction and Motion
to Dismiss Plaintiff’s First Amended Petition, [Ex. STIP-12, 3:98
at 535, 536] (Tab D).

114a
as the basis for its counterclaims.”)
1. The PUC ‘s exclusive jurisdiction attaches to
any cause of action plead based on issues
committed to the agency’s jurisdiction.
Texas district courts are courts of general
jurisdiction that enjoy a presumption that they have
subject matter jurisdiction “except in cases where
exclusive, appellate, or original jurisdiction may be
conferred by [the] Constitution or other law on some
other court, tribunal, or administrative body.” TEX.
CONST. art V, § 8; Dubai Petroleum Co. v. Kazi, 12
S.W.3d 71, 75 (Tex. 2000). PURA is the “other law”
that grants the PUC exclusive original jurisdiction
over fee disputes like the one before the Mireles court
and raised by HCHD’s lawsuit. See Chaparral Energy,
LLC, slip op. at 11.
“When the legislature grants an administrative
body the sole authority to make an initial
determination in a dispute, the agency has exclusive
jurisdiction over the dispute.” Subaru, 84 S.W.3d at
221 (emphasis added). PURA grants the PUC “the
general power to regulate and supervise the business
of each public utility within its jurisdiction and to do
anything specifically designated or implied by this
title that is necessary and convenient to the exercise of
that power and jurisdiction.” TEX. UTIL. CODE §
14.001.
As
for
telecommunications
utilities
specifically, the Legislature has granted the PUC
exclusive original jurisdiction and broadly stated that
jurisdiction:
To carry out the public policy stated by Section
52.001 and to regulate rates, operations,
and services so that the rates are just, fair,
and reasonable and the services are adequate

115a
and efficient, the commission has exclusive
original jurisdiction over the business and
property of a telecommunications utility in
this state subject to the limitations imposed by
this title.
TEX. UTIL. CODE § 52.002(a) (emphasis added)
(as stated in PURA97) (Tab H). 11 The “exclusive,
original jurisdiction” language appears in multiple
places in PURA divesting district courts of subject
matter jurisdiction over electric utilities, cooperatives,
and certain subject matters such as interconnection
rates and terms. 12 Notably, PURA limits the exclusive
jurisdiction over electric utilities in Chapter 32, but
Chapter 52 governing telecommunications providers
has no such section limiting jurisdiction. See In re
Entergy Corp., 142 S.W.3d 316, 323 (Tex. 2004)
(quoting TEX. UTIL. CODE§ 32.002(a)).
The breadth of the PU Cs exclusive jurisdiction
over telecommunications rate disputes is most starkly
explained in the Supreme Court’s In re Southwestern
Bell Tel. Co. decision. In re Sw. Bell Tel. Co., 235
S.W.3d 619 (Tex. 2007). There, the plaintiffs lodged
PURA97 is the version of the Public Utility Regulatory Act that
was in effect at the time when the Mireles case was filed and when
the Mireles Final Judgment signed and entered. Unless noted, the
PURA provisions cited herein are the same as current law. The
“exclusive original jurisdiction” language in Section 52.002 and
its predecessors has existed since the mid-l 970s. Act of June 2,
1975, 64th Leg., R.S., ch. 721 § 1, 1975 Tex. Gen. Stat. 2327, 2335
(§ 18) (H.B. 819).

11

12 See TEX. UTIL. CODE §§ 32.001 (electric utilities); § 41.055
(electric co-operatives); § 60.002 (competitive safeguards for
telecommunications market); § 60.122 (interconnection rates and
terms); cf § 66.009(i) (granting courts exclusive jurisdiction to
enforce provision of public access channels).

116a
claims that the utility was collecting an illegal
surcharge and should consequently refund the
charges. Id. at 625. The plaintiffs sought a declaration
that The Universal Service Fund (“TUSF”) charge was
improper and an order to refund the improperly
charged fees, plead as a request for injunctive relief
and as an unjust enrichment claim; the Court defined
these in its opinion as “core claims.” Id. at 623 & 623
n.3. The plaintiffs also requested attorney’s fees
(which the Court did not include in its “core claims”
definition). Id. at 623. The Court concluded that the
PUC had exclusive jurisdiction over the “core claims”
based on Section 52.002(a) and the pervasive
regulatory scheme that is PURA. Id. at 625-26; cf. Ellis
v. Reliant Entergy Retail Servs., LLC, 418 S.W.3d 235
(Tex. App. - Houston [14th] 2013, no pet.) (PUC’s
exclusive jurisdiction does not apply to retail electric
provider’s suit on a sworn account against customer
because it is not an electric utility under PURA). As
for the request for attorney’s fees, the Court recognized
that it presumably arose from the declaratory
judgment request and could not vest the trial court
with jurisdiction. In re Sw. Bell Tel. Co., 235 S.W.3d at
627. Thus, although some “claims” were not in the
PUC’s jurisdiction, the trial court still lacked
jurisdiction until administrative remedies were
exhausted.
The scope of the PUC’s exclusive original
jurisdiction is broad and encompasses any claim that
touches on those matters committed to its jurisdiction.
Causes of action as a particular plaintiff asserts its
claims will be dismissed or abated until all matters be they facts, issues, or claims - within an agency’s
exclusive jurisdiction are resolved by that agency. See
Chaparral Energy, LLC, slip op. at 11- 12 (discussing

117a
“hybrid claims-resolution process”); Subaru, 84
S.W.3d at 226, 228 (remanding breach of oral contract
claims to trial court with instructions to abate until
necessary facts and issues underlying the breach of
contract claim are resolved by the agency); City of
Houston v. Centerpoint Energy Houston Elec. LLC, No.
01- 11-00885-CV, 2012 WL 6644982 (Tex. App. Houston [1st] 2012, no pet.) (dismissing breach of
contract claim that encompasses a tariff or rate issue);
Oncor Elec. Delivery Co. v. Giovanni Homes Corp., 438
S.W.3d 644 (Tex. App. - Fort Worth 2014, pet. denied)
(abating trespass and breach of contract claims based
on agreement governed by tariffs terms); see also
Autobahn Imports, L.P., 2018 WL 1612252, *5
(“Restated according to Suburu [sic], even if Land
Rover’s breach of contract claims are not explicitly
alleging Code violations, the underlying facts still
require determinations governed by the Code.”).
Thus, when a cause of action lodged in a trial court
encompasses matters within the exclusive jurisdiction
of an agency, the trial court does not have subject
matter jurisdiction over those “claims” even if the
agency cannot grant the relief requested. 13 The
plaintiff must first exhaust administrative remedies
before the court has subject matter jurisdiction. In re
This is not to be confused with primary jurisdiction, a
prudential doctrine which arises when two tribunals have
jurisdiction but one is better suited to address the issue. See
Forest Oil Corp. v. El Rucio Land and Cattle Co., 518 S.W.3d 422,
429-30 (Tex. 2017). This doctrine does not apply to claims that are
“inherently judicial in nature.” Id. at 430. Nor does it apply when
an agency is powerless to grant relief sought and has no authority
to make incidental findings which are essential to the granting of
the relief. Foree v. Crown Central Petroleum Corp., 421 S.W.2d
312, 316 (Tex. 1968).
13

118a
Sw. Bell Tel. Co., 235 S.W.3d at 625.
2. Judgments entered without jurisdiction are
void.
A judgment rendered without subject matter
jurisdiction cannot be considered final. City of Houston
v. Rhule, 417 S.W.3d 440, 442 (Tex. 2013) (citing Dubai
Petroleum Co., 12 S.W.3d at 76 and RESTATEMENT
(SECOND) JUDGMENTS § 12 cmt. b (1982)). A
judgment is void when it is apparent the court
rendering judgment had no jurisdiction over the
subject matter. Browning v. Prostok, 165 S.W.3d 336,
346 (Tex. 2005). Void judgments may be collaterally
attacked. Id.
Importantly, subject-matter jurisdiction may not
be conferred by consent, waiver, or estoppel at any
stage of a proceeding. Dubai Petroleum Co., 12 S.W.3d
at 76. “A party cannot by his own conduct confer
jurisdiction on a court when none exists otherwise.”
Wilmer-Hutchins Indep. Sch. Dist. v. Sullivan, 51
S.W.3d 293, 294 (Tex. 2001) (per curiam). Therefore,
even if HCHD had been a party in Mireles, which
HCHD disputes for the reasons discussed herein, the
judgment would nevertheless be void as to HCHD’s
claims being asserted now because the Mireles district
court did not have subject matter jurisdiction.
The Texas Supreme Court has grown wary of
recognizing exclusive jurisdiction exactly because of
the danger of rendering judgments void. 14 But, when
it comes to telecommunications rate and charges
disputes, that choice has been made both by the
In re United Servs. Auto Ass’n, 307 S.W.3d 299, 306 (Tex. 2010)
(noting reluctance to conclude a provision is jurisdictional given
the vulnerability of the final judgments to attack).

14

119a
Legislature and- at AT&T’s urging-by the Supreme
Court. While there is a trend to limit the vulnerability
of final judgments to collateral attacks based on lack
of subject matter jurisdiction, 15 the analysis does not
reach a case where the statutory language is as clear
as it is in PURA that “exclusive original jurisdiction”
is vested in the agency.
Both the PUC and AT&T invoke Engleman
Irrigation Dist. v. Shields Bros., Inc. for the principle
of res judicata’s preference for finality of judgments.
PUC Br. at 16-17; AT&T Br. at 12. But Engleman
decided whether courts must equate sovereign
immunity with subject matter jurisdiction. Engleman
Irrigation Dist., 514 S.W.3d at 747. The Supreme
Court concluded that it does not, and held that the
retroactive application of its own judge-made law only
applied to cases then pending, and not to long-final
decisions. In doing so the Court pulled back on its own
sovereign immunity jurisprudence out of concern for
finality of judgments. This case concerns jurisdictional
issues derived from statute (thus not subject to judicial
revision).
B. Both the claims here and the claims in
Mireles derive from AT&T illegally collecting
fees - an issue subject to the PUC’s exclusive
jurisdiction.
The Mireles claims and the type of claims HCHD
makes in its lawsuit and PUC complaint both concern
whether the utility legally collected municipal charges
from its customers.
1. The Harris County court found the PUC had
exclusive jurisdiction - exactly as AT&T had
15

See Dubai Petroleum Co., 12 S.W.3d at 76.

120a
urged.
Just as it did in Southwestern Bell Telephone, here
AT&T argued successfully that HCHD’s claims are
subject to PUC exclusive jurisdiction relying on
Section 52.002(a) concerning the PUC’s broad
jurisdiction powers, Section 17.057 concerning utilityretail customer disputes, and chapter 53 concerning
rate-making. Plea to the Jurisdiction, at 3-10 [3:98 at
493-500] (Tab D). In its arguments AT&T stated “[t]his
case is materially identical to Southwestern Bell – only
the specific type of charge that was allegedly improper
is different.” Id. at 496 (referring to In re Sw. Bell Tel.
Co., 235 S.W.3d 619). The trial court dismissed all
claims that “seek reimbursement of municipal charges
under tariff’ but abated claims for “additional
damages” until the claims falling within “the exclusive
jurisdiction of the [PUC] are fully and finally
resolved.” 16 By abating that portion of the lawsuit over
which it had jurisdiction (certain damages claims) and
dismissing the rest (that under the PUC’s exclusive
jurisdiction), the court did exactly what it should have
done. See Subaru, 84 S.W.3d at 228.
2. The claims in Mireles, like the claims here, all
encompass an issue committed to the PUC ‘s
exclusive jurisdiction.
The PUC falsely states that “the Mireles lawsuit
was grounded in matters outside the PUC’s exclusive
jurisdiction.” PUC Br. at 32. To the contrary all the
Mireles claims were grounded in the lawfulness of the
telecommunications fee charges which is exclusively
within the PUC’s jurisdiction.
16 Order Sustaining Plea to the Jurisdiction in Part and Abating
Remainder of Claims, Feb. 1, 2011 (Tab D).

121a
The Mireles plaintiffs alleged causes of action for
breach of contract, fraud, unjust enrichment, and DTP
A with every claim based on a matter within the
jurisdiction of the PUC: whether AT&T had legal
authorization to charge the municipal fees to
customers it had charged. 17 Likewise here, HCHD
alleged causes of action for breach of contract, breach
of express warranty for services, negligence per se,
fraud, and DTP A with every claim based on a matter
within the jurisdiction of the PUC: whether AT&T had
legal authorization to charge the municipal fees to
customers it had charged. 18
If the PUC had exclusive jurisdiction over any of
the “claims” in Mireles, it had jurisdiction over all of
them, because all of them were based on matters
within exclusive jurisdiction of the PUC. See Plaintiffs
Third Amended Petition and Jury Demand, Mireles v.
Swern. Bell Tel. Co., No. 98-07-3003-E, 357th Dist. Ct.,
Cameron County, Texas, [Ex. STIP-19, Ex. 1, 3:98 at
649-51]. At the heart of every claim is whether AT&T:
● “collect[ed]
municipal
charges
without
authorization.” Id. at ¶ 31 (breach of contract);
● “concealed from Plaintiffs the correct amount of
municipal charge,” id. at ¶ 33 (fraud);
● engage in the “unauthorized collection and/or
over collection of the municipal charge,” id. at
¶¶ 35-37 (unjust enrichment); and
See Plaintiffs Third Amended Petition and Jury Demand,
Mireles v. Swern. Bell Tel. Co., No. 98-07-3003-E, 357th Dist. Ct.,
Cameron County, Texas, [Ex. STIP-19, Ex. 1, 3:98 at 649-51].
17

See Plaintiff’s First Amended Original Petition, HCHD v.
Swern. Bell. Tel. Co., No. 2010-28461, 333rd Dist. Ct., Harris
County, Texas [Ex. STIP-20, 3:98 at 757-61].

18

122a
● “charged for the municipal charge” something
different from “the amount actually owed in
municipal charge.” Id. at ¶ 44 (DTPA).
Since every claim was based on unauthorized by the
PUC municipal charges, they all were within the
exclusive jurisdiction of the PUC.
The PUC argues that it does not have jurisdiction
over the Mireles claims for fraud, unjust enrichment,
and DTP A and because it had jurisdiction over only
“some claims” the Mireles final judgment is not void.
PUC Br. at 15; see also RR 25 (PUC argues it has no
jurisdiction over fraud and DTP A claims). But every
claim brought was based on the legality of fees charged
telecommunications customers – an issue exclusively
within the PUCs jurisdiction. The PUC incorrectly
claims that “HCHD does not dispute that the Mireles
court – not the PUC – has jurisdiction over claims for
fraud, unjust enrichment, and violations of the
Deceptive Trade Practices Act.” PUC Br. at 17 n.6. To
the contrary as AT&T argued successfully to the
Harris County court when fraud, unjust enrichment
and DTP A claims are grounded in an issued
committed to the PUC’s jurisdiction, then the PUC
does in fact have exclusive jurisdiction over those
claims.
In other words, a fraud, unjust enrichment or
DTPA claim is not in all forms free from agency
jurisdiction. It depends on the basis for the claim as
pled by the plaintiff. The opinion the Texas Supreme
Court released today settles this issue. See Chaparral
Energy, LLC, slip op. at 11-12 (the PUC must resolve
all tariff-based issues before the plaintiff may seek
damages in the district court in a “hybrid claims
resolution process”). In Mireles as here, all the claims

123a
were pled based on the unlawful telecommunications
fee
charges.
Because
the
lawfulness
of
telecommunications fee charges is exclusively within
the PU Cs jurisdiction, then any claim based on that
issue must first be presented to the PUC, any district
court is without subject matter jurisdiction to hear the
claim, and any judgment rendered without PUC input
is void.
While the PUC may not have the jurisdiction of a
district court to consider common law damages such as
punitive damages or statutory damages such as
DTPA’s treble damages, it did have jurisdiction over
all claims in Mireles because it has jurisdiction over
the underlying issue supporting each claim unauthorized charges. Furthermore, the trial court’s
order on AT&T’s plea to the jurisdiction distinguished
not by “claim” but by liability and damages, abating
“such claims for additional damages based on Gross
Negligence, Fraud and/or the Deceptive Trade
Practices Act.” Tab D (emphasis added). The Harris
County court did not leave any claims wholly behind
when it dismissed the case for failure to exhaust
administrative remedies.
3. Matsushita and Lubin do not stand for any
proposition that avoids the consequence of the PUC ‘s
exclusive jurisdiction.
PUC argues that so long as the district court had
jurisdiction over some portion of the claims it can
exercise jurisdiction to grant a final judgment with the
effect of releasing any claims including those that
could not have been brought before the court. PUC Br.
at 32-34 (citing Matsushita Elec. Indus. Co. v. Epstein,
516 U.S. 367 (1996) and Lubin v. Farmers Grp., Inc.,
No. 03-03-00374, 2009 WL 3682602 (Tex. App. -Austin

124a
Nov. 6, 2009, no pet.)). These cases are not on point as
every single cause of action in Mireles encompassed
the claim that AT&T had charged customers fees
without authorization - the very matter that is subject
to the PUC’s exclusive original jurisdiction. Moreover,
as noted above, Chaparral Energy forecloses the
argument that so long as the district court has
jurisdiction over some portion of the case the case can
be saved from the exclusive jurisdiction of the
administrative agency.
Lubin concerned a specific provision allowing the
Department of Insurance to ask the Attorney General
of Texas to file a class action lawsuit concerning
violations of certain insurance code provisions. Lubin,
2009 WL 3682602, * 1. The case did not concern the
subject matter jurisdiction of the court itself. Further,
Lubin explicitly did not decide the issue of whether a
class action settlement could resolve claims over which
the trial court had no subject matter jurisdiction and
only noted in dicta the Supreme Court’s decision in
Matsushita. Lubin, 2009 WL 3682602, *26 (“although
we need not decide the issue here”).
Matsushita concerned an issue of federalism,
specifically the effect of the Full Faith and Credit Act
and the application of Delaware law. Matsushita, 516
U.S. at 369; see 28 U.S.C. § 1768 (requiring federal
courts to give a state court judgment the same effect
as it would have in the courts of the State in which it
was rendered). The specific issue presented in that
case was whether a federal court may withhold full
faith and credit from a state-court judgment simply
because a settlement released claims within the
exclusive jurisdiction of the federal courts, and the
Supreme Court concluded federal courts could not do

125a
so. 516 U.S. at 369. In applying the Full Faith and
Credit Act, the Supreme Court analyzed the state law
question of how Delaware law treated the judgment in
question.
Matsushita also concerned a different procedural
and factual stance. There the plaintiffs did not plead
the claim outside the Delaware court jurisdiction that
were plead in federal court, namely claims under the
federal Securities and Exchange Act. 516 U.S. at 370.
Moreover, the Delaware court class action settlement
explicitly referenced the then-pending federal court
claims. 516 U.S. at 372. In other words, the parties
explicitly chose to include in their settlement claims
they acknowledged were subject to federal court
jurisdiction.
These cases are not on point to the situation here.
Unlike the Delaware court in Matsushita, the Mireles
court never had subject matter jurisdiction over any of
the PUC-rate-based claims in the first place, rendering
its judgment void and thus subject to collateral attack.
III. As a sovereign entity, by constitutional and
statutory provisions, HCHD cannot be subjected
to a class action without its express consent and
representation by the county attorney.
(Response)
Health & Safety Code Section 281.056 requires
that the county attorney represent HCHD in “all legal
matters” and allows outside counsel to join as
“additional” counsel only if its board approves. TEX.
HEALTH & SAFETY CODE § 281.056. Further, the
board decides if HCHC should sue. In general, county
attorneys have a constitutional duty and a right to
represent the county, and where statutes provide,
county entities. Likewise, the commissioners court

126a
decides whether the county should participate in
litigation, and, if a statute provides as Section 261.056
does, then an entity’s board makes that decision.
HCHD’s board neither approved participation in
Mireles or hiring of additional counsel, and the county
attorney did not represent it in the litigation; thus,
HCHD cannot have been part of the settlement class.
A. Texas counties and county entities must be
represented by the district or county
attorney in “all legal matters.”
Counties are legal subdivisions of the State of
Texas. TEX. CONST. art. XI, § 1. While cities are a
creature of the Constitution, statute, and in the case of
home rule cities their charters, they are not legal
subdivisions of the State itself. Id.; TEX. LOC. GOV’T
CODE §§ 81.001 et seq.; City of San Antonio v. City of
Boerne, 111 S.W.3d 22, 28 (Tex. 2003). Counties, in
contrast to home rule cities, may exercise only those
powers expressly conferred by statute or the
constitution. City of Laredo v. Webb County, 220
S.W.3d 571,576 (Tex. App. -Austin 2007, no pet.).
Counties act through Commissioners’ Courts
composed of four Commissioners and the County
Judge. TEX. CONST. art. V, § 18. The Commissioners
Court exercises powers over “all county business.” Id.;
Cosby v. County Comm’rs of Randall County, 712
S.W.2d 246, 248 (Tex. App. - Amarillo 1986, writ ref d
n.r.e.). Constitutionally and statutorily conferred
powers of counties should be broadly and liberally
construed to determine the scope of express and
necessarily implied powers to conduct that “county
business.” Cosby, 712 S.W.2d at 248; Renfro v.
Shropshire, 566 S.W.2d 688,690 (Tex. Civ. App. Eastland 1978, writ ref’d n.r.e.). The Commissioners

127a
Court is vested with the exclusive right to determine
when a suit shall be instituted in the name of or for the
benefit of the county. Looscan v. Harris County, 58
Tex. 511, 514 (1883); Simmons v. Ratliff, 182 S.W.2d
827, 829 (Tex. Civ. App. -Amarillo 1944, no writ).
The Texas Constitution requires that district and
county attorneys represent the state in district court.
TEX. CONST. art V, § 21. The offices of the county and
district attorney are constitutionally created and thus
constitutionally protected. State ex rel. Eidson v.
Edwards, 793 S.W.2d 1, 4 (Tex. Crim. App. 1990)
(collecting cases). Powers the Constitution confers on
state officials such as county attorneys are exclusive
and cannot be enlarged or restricted except in the
manner the Constitution itself authorizes. Garcia v.
Laughlin, 285 S.W.2d 191, 194, 155 Tex. 261,265
(1955); Hill County v. Sheppard, 178 S.W.2d 261,264
(Tex. 1944); Maud v. Terrell, 200 S.W. 375, 376 (Tex.
1918); see Tex. Atty. Gen. Op. GA-0153 (2004)
(summarizing the parameters of representation of
counties).
In fact, this Court after reviewing this line of cases
elucidating the powers of district and county attorneys
held:
These cases establish, beyond controversy, we
think, that the authority to bring and
maintain actions in the courts to enforce the
rights of the State is vested by the
Constitution exclusively in the State’s
attorneys (General, district and county) and
the legislature is without power to divest that
authority or to delegate it to others.
Am. Liberty Pipe Line Co. v. Agey, 167 S.W.2d 580,
583 (Tex. Civ. App. - Austin 1942), aff’d 172 S.W.2d

128a
972 (Tex. 1943).
The state may not be represented in district courts
unless a county or district attorney joins in the
representation. State Bd. of Dental Examiners v.
Bickham, 203 S.W.2d 563, 566 (Tex. Civ. App. - Dallas
1947, no writ). Even when a private co-counsel joins in
the representation of the state, they do so at the
consent, direction, and control of the state’s attorney
“in subordination to their authority”:
Wherever provision is made for the services of
other persons for the express purpose [of legal
services], it is the constitutional right of the
Attorney-General and the county and district
attorneys to decline them or not at their
discretion, and, if availed of, the services are to
be rendered in subordination to their
authority.
Maud, 200 S.W. at 376; Hill v. Texas Water Quality
Bd., 568 S.W.2d 738, 741 (Tex. Civ. App. -Austin 1978,
writ ref’d n.r.e.).
The Legislature may allocate duties between the
district and county attorneys. Ex parte Austin Indep.
Sch. Dist., 23 S.W.3d 596, 600-01 (Tex. App. - Austin
2000, PDR ref’d); Lone Starr Multi Theaters, Inc. v.
State, 922 S.W.2d 295, 298 (Tex. App. - Austin 1996,
no writ). The Legislature created the Office of the
Harris County Attorney in 1953 abolishing the prior
criminal district attorney status for the County and
splitting that role into a District Attorney and a
County Attorney. See Acts of May 19, 1953, 53rd Leg.,
R.S., ch. 315,316, Tex. Gen. Laws 784, 786 (H.B. 561;
H.B. 562); see Driscoll v. Harris County, 688 S.W.2d
569, 572, 578 (Tex. App. - Houston [14th] 1984, writ
ref’d n.r.e.) (per curiam) (en banc); Tex. Atty. Gen. Op.

129a
GA-0153, at *2 (2004). The statute then and now
requires that the County Attorney represent the
County, the state, county officials, and certain county
entities in “all civil matters.” See TEX. GOV’T CODE
§ 45.201; Driscoll, 688 S.W.2d at 572; see also TEX.
LOC. GOV’T CODE§ 89.001 (authorizing special
counsel selected by the county attorney); Guynes v.
Galveston County, 861 S.W.2d 861 (Tex. 1993)
(Hightower, J. dissenting) (comparing the statutes
governing Harris and Fort Bend county attorneys).
While the county attorney represents the county,
the commissioners court must still authorize lawsuits;
the county attorney has no power to do so unless
authorized by statute or the commissioners court.
Ward County v. King, 454 S.W.2d 239,240 (Tex. Civ.
App. -El Paso 1970, writ dismissed); Goarv. City of
Rosenberg, 115 S.W. 653, 655 (Tex. Civ. App. 1909).
Texas law designates the states attorney with the
exclusive right to represent a governmental entity in
part to protect the public coffers. See Baker v. Wade,
743 F.2d 236, 243 (5th Cir. 1984) (noting the state as
a sovereign should speak in court with a single voice).
Allowing anyone but the commissioners court to
initiate suits for the county would:
. . . induc[e] financial embarrassments and
absolute losses to the county, against which
the official guardians of the county’s interest
in financial matters would be often rendered
impotent to protect. The existence of such a
right, in discord and conflict with the powers
and duties of the commissioners’ court, would
promote confusion, create uncertainty and
doubt, and in the end might paralyze the
power of that court to efficiently regulate the

130a
financial affairs of the county.
Looscan, 58 Tex. at 515.
HCHD is a political subdivision of the State of
Texas organized as a hospital district in Harris
County, and governed by Chapter 281, Health &
Safety Code, pursuant to Article IX of the Texas
Constitution. See TEX. CONST. art. IX § 4 (countywide hospital districts), art. IX § 9 (creating county
hospital districts); TEX. HEALTH & SAFETY CODE
ch. 281 (hospital districts in counties of at least
190,000). In keeping with the constitutional powers of
counties and county attorneys and the typical
safeguards on participation in litigation, the
Legislature has drafted its governing statutes in
parallel to those provisions governing counties and
other governmental entities.
B. Section 281.056 requires the county
attorney’s representation and management
of litigation and only allows outside counsel
if the hospital district board approves.
HCHD’s
1. The plain language of Section 281.056
requires the presence of the Harris County
Attorney in “all legal matters.”
At the time of Mireles, the statute governing
hospital districts’ legal representation provided:
(a) The board may sue and be sued.
(b) The county attorney, district attorney,
or criminal district attorney, as appropriate,
with the duty to represent the county in civil
matters shall represent the district in all
legal matters.

131a
(c) The board may employ additional
legal counsel when the board determines
that additional counsel is advisable.
(d) The district shall contribute sufficient
funds to the general fund of the county for the
account of the budget of the county attorney,
district attorney, or criminal district attorney,
as appropriate, to pay all additional salaries
and expenses incurred by that officer in
performing the duties required by the district.
TEX. HEALTH & SAFETY CODE § 281.056
(emphasis added); Act of May 18, 1989, 71st Leg., R.S.
ch. 678 § 1, 1989 Tex. Gen. Stat. 2230, 2545 (H.B.
2136). Then and now, the Legislature gave control of
hospital districts to their boards, providing that “[t]he
board shall manage, control, and administer the
hospital or hospital system of the district.” TEX.
HEALTH & SAFETY CODE § 281.047; see id. §
281.001(1) (defining “board”); see Harris Cnty. Hosp.
Dist. v. Tomball Reg’l Hosp., 283 S.W.3d 838, 843 (Tex.
2009). Based on the plain statutory language of
Sections 281.056 and 281.047, as a matter of law, the
county attorney’s representation and HCHD board
action was required for HCHD to participate in Mireles
via outside counsel. Section 281.056 uses the
mandatory term “shall” requiring county attorney
representation of a hospital district in “all legal
matters.” See TEX. GOV’T CODE § 311.016. At the
board’s discretion, “additional” counsel may be added
but the county attorney remains as legal
representative. TEX. HEALTH & SAFETY CODE §
281.056(b), (c). This language mandates that the
County Attorney for Harris County represent HCHD
in “all legal matters,” and only permits employment of

132a
additional counsel when its board determines it to be
advisable, neither of which occurred in Mireles.
2. The statutory language is mandatory as to
the county attorney’s representation, not
“permissive.”
AT&T argues that Section 281.056 is permissive
rather than mandatory focusing on the word “may”.
AT&T Br. at 20. The PUC Administrative Law Judge
dispensed with this argument by noting that the
language in the statute is clear “using the mandatory
‘shall’ to describe that the Harris County Attorney
would represent HCHD in ‘all legal matters’ while
using the permissive ‘may’ when stating that the
HCHD board could employ additional legal counsel.”
SOAH Order No. 24 at 2 [4:110] (Tab C). There is
nothing permissive about “shall represent.” Nor is
there anything permissive about the constitutional
powers and rights of county attorneys to direct
representation of the governmental entities in civil
litigation.
C. Multiple other statutes protect the
representation of governmental entities.
1. The Texas Constitution and statutes grant
county and district attorneys specific powers to
protect governmental legal representation.
The PUC and AT&T struggle to interpret Section
281.056 in their favor by misconstruing statutory
context and the nature of governmental entities. The
PUC argues that because the phrase “exclusively
represent” appears in other statutes (those concerning
criminal district attorneys) then the Legislature must
know how to make representation exclusive yet failed
to do so in Section 281.056. PUC Br. at 14, 23-24, 24

133a
n.8. The PUC fails to appreciate the differences among
a criminal district attorney, a district attorney, and a
county attorney, and fails to read that “exclusively
represent” language in its constitutional and statutory
context.
First, all the statutes the PUC cites concern
criminal district attorneys (a term that is something of
a misnomer as they handle criminal and civil matters).
In Texas, some counties have criminal district
attorneys which are tasked with representing the
state in criminal matters and handling civil matters
for the county. 19 The “shall exclusively represent”
language in those statutes concerns criminal
prosecutions. 20 See e.g., TEX. GOV’T CODE § 44.129.
The key language in the myriad of constitutional
provisions and statutes concerning the powers and
duties of district and county attorneys is “shall
represent.” See TEX. CONST. art. V, § 21. “Shall”
meaning mandatory. See TEX. GOV’T CODE §
311.016. The Legislature is without authority to
restrict this duty. Maud, 200 S.W. at 376; Am. Liberty
Pipe Line Co., 167 S.W.2d at 583; State ex rel. Downs
v. Harney, 164 S.W.2d 55, 57-58 (Tex. Civ. App. - San
Antonio 1942, writ ref’d w.o.m.). If the services of other
lawyers are utilized they must act “in subordination”
19 See TEX. CONST. art. V, § 21; TEX. GOV’T CODE ch. 44; see
also Texas Association of Counties, District and County Attorney,
available
at
https://county.org/texas-countygovernment/texascounty-officials/Pages/District-and-CountyAttomey.aspx.
20 Even then, the “exclusive” language is not entirely true as
another governmental lawyer, the Attorney General, may handle
prosecutions in certain circumstances. TEX. CODE OF CRIM.
PROC. art. 2.021. In other circumstances an attorney pro tern
may represent the state. Id. at art. 2.07.

134a
to the district or county attorney. Maud, 200 S.W. at
376; Hill, 568 S.W.2d at 741.
In the context of representing the hospital district,
the Legislature did not restrict the county attorneys
duty but repeated the “shall represent” language, thus
requiring the presence and consent of the county
attorney in all cases where HCHD’s interests were at
stake. 21 In each statutory provision, the legislature
also allows, permissively “additional legal counsel” as
the respective hospital district board sees fit. 22 Similar
statutes provide for the Attorney General to represent
government entities. 23 Indeed, any agreement for legal
services for a state agency must be approved by the
Attorney General “to be valid” as must any invoice to
be “eligible for payment.” TEX. GOV’T CODE §
402.0212. Current law requires any contract for
outside legal services or contingent fee contracts by
most governmental entities is subject to the approval
of the Attorney General and Comptroller and the strict
requirements of state statutes. See TEX. GOV’T
CODE ch. 2254, subch. C & D. At the time of Mireles,
the constitutional and statutory powers of the Harris
County Attorney prevented any outside legal
representation without his participation and the
HCHD board’s approval.
TEX. HEALTH& SAFETY CODE§ 281.056; see also TEX.
SPEC. DIST. CODE§ 1053.059 (Lubbock County Hospital
District); § 1085.060 (Parker County Hospital District); §
1107.068 (Titus County Hospital District).

21

22

Id.

TEX. GOV’T CODE§ 815.203 (“The attorney general shall
represent [the Employees Retirement System] in all litigation.”);
§ 825.203 (same for Teacher Retirement System); § 840.201 (same
for Judicial Retirement System); § 855.202 (same for Municipal
Retirement System).

23

135a
AT&T argues that Section 281.056 does not exempt
hospital districts from class action procedures. AT&T
Br. at 17. Likewise, AT&T argues Legislature could
have done so expressly as it did in Civil Practice and
Remedies Code § 16.061. AT&T Br. at 21. Such
specificity is not required because of the constitutional
and statutory protections of county entity
representation already make that representation
exclusive, as explained above.
The right of local self-government in the
several counties of the State is one of cherished
value, and any attempt under vague or
indefinite delegation of constitutional or
statutory powers in derogation of that right
should be frowned upon and strictly construed
and applied by the courts.
Downs, 164 S.W.2d at 58-59. Moreover, it is the
constitutional right of county attorneys to decline
outside representation at their discretion. Hill, 568
S.W.2d at 741.
2. The results of lawsuits instigated without
county attorney participation or consent to
additional counsel are void as to the county
entity.
Litigation brought in the name of the county in
contravention of the constitutional provisions
regarding representation of counties is void. 24 Am.
24 AT&T asserts that HCHC’s counsel admitted at the trial court
hearing that Section 281.056 is not jurisdictional declaring that
“fatal” to HCHC’s position. AT&T Br. at 32 (citing RR 14). First,
there was no such clear admission as AT&T’s counsel himself
later stated” ... I think we were going to get an admission . . . . RR
45 (emphasis added). Second, jurisdictional issues cannot be

136a
Liberty Pipe Line Co., 167 S.W.2d at 581. When the
statutory
prerequisites
of
governmental
representation are not met, such as by failing to join
the prosecuting officers of the State, a district court is
without jurisdiction to entertain a lawsuit. Bickham,
203 S.W.2d at 565. The failure to obtain the
participation of the county attorney and consent of the
HCHD board renders the Mireles judgment void and
ineffective as to HCHD and other county entities.
D. When there are statutory requirements to
governmental representation, an “opt-in”
mechanism is created and prohibits class
action representation.
These constitutional and statutory provisions
limiting the representation of counties and county
entities and their participation in litigation are exactly
the sort of provisions MERSCORP held would prevent
a governmental entity from being a class member in
the first place.
When statutes require a local government to take
specific action to be represented in litigation then, by
law, those local governments can only “opt-in” to class
actions. Ackal v. Centennial Beauregard Cellular
L.L.C., 700 F.3d 212, 218- 19 (5th Cir. 2012); Dallas
County v. MERSCORP, Inc., 2012 WL 6208385, *6-8
(N.D. Tex. 2012). Consequently, because federal law
prohibits “opt-in” classes such local governments may
not maintain a class. Id. This is so because an “opt-in”
class is contrary to the very idea of a class action as a
procedural device to resolve (and then forever bar) the
claims of similarly situated litigants. In MERSCORP,
waived. Entergy Corp. v. Jenkins, 469 S.W.3d 330, 337 (Tex. App.
- Houston [1st] 2015, pet. denied).

137a
Texas counties attempted to organize a class action
suit over the recording of deed records. Applying
federal class action rules and law, 25 the district court
refused to certify a class of counties precisely because
of statutory limits on a county participating in
lawsuits. See id. at *7-10. Large counties may hire
special counsel through the county attorney but with
specific limitations on the procedure to do so. See id. at
*7; TEX. LOC. GOV’T CODE § 89.001 (county attorney
“shall select” special counsel). The result of these
requirements is that counties may only “opt-in” to join
a class action suit, and because opt-in classes are not
authorized under federal law, 26 the class action in
MERSCORP could not be certified. MERSCORP, Inc.,
2012 WL 6208385, at *7.
In its analysis, the district court distinguished
cases involving class actions of Texas cities because,
unlike
cities,
counties
are
“essentially
instrumentalities of the state.” Id. at *9-10 (citation
omitted). The court then rejected the city-class action
cases as authority on the issue of whether counties
25 Texas courts have held that when analyzing the Texas class
action rule, Texas Rules of Civil Procedure 42, courts are guided
by analysis of Federal Rule of Civil Procedure 23, from which Rule
42 was derived. See Ford Motor Co. v. Sheldon, 22 S.W.3d 444,452
(Tex. 2000); General Motors Corp. v. Bloyed, 916 S.W.2d 949,954
n.1 (Tex. 1996); 1 McDonald, Texas Civil Practice § 5:54, at 567
n. 445 (1992).
26 Texas law likewise does not authorize opt-in class actions.
Entex v. City of Pearland, 990 S.W.2d 904, 913 (Tex. App. Houston [14th] 1999, no pet.), abrogated on other grounds,
Tracker Marine, L.P. v. Ogle, 108 S.W.3d 349 (Tex. App. - Houston
[14th Dist.] 2003, no pet.)) (“The trial court recognized the
problems with the opt-out provisions of the class action and
expressed its preference for an opt-in notification of class action,
which is not available in Texas.”) (emphasis added).

138a
may be bound by a class-action judgment without first
following statutory procedures for hiring private
counsel. 27 Id. at *9. MERSCORP’s reasoning followed
that of a fairly recent Fifth Circuit case, Ackal, 700
F.3d 212, which refused to certify a class of Louisiana
parishes because of similar statutory hurdles to
governmental subdivisions’ use of private counsel.
Applying the substantive criteria of Texas Health
& Safety Code Section 281.056 to the reasoning of
Ackal and MERSCORP requires a conclusion that
HCHD could not be a member of the Mireles class
unless the Harris County Attorney actively
represented it. AT&T grasps at statutory differences
between Section 281.056 and Louisiana statute in
Ackal. AT&T Br. at 28-30. But again, the depth of the
constitutional and statutory limitations on others
decided to embroil counties and county entities in
litigation over comes this distinction without a
difference.
AT&T argues MERSCORP and Ackal are
distinguishable because there the issues were raised
at the class certification stage. AT&T Br. at 12-13, 2627. That procedural difference does not change the
legal status of HCHD or of counties, or the great
constitutional and statutory difference between
counties and cities in Texas or between counties and
27 AT&T argues MERSCORP conflicts with a long line of cases
allowing municipalities to certified class actions then cites
MERSCORP distinguishing those cases as decided under Rule 42
rather than FRCP 23. AT&T Br. at 30-31. As briefed above,
counties are fundamentally different in their powers and duties
than cities under Texas law. See supra at 27-28. Moreover, in
Texas courts, it is beyond question that courts treat Federal Rule
of Civil Procedure 23 precedent as persuasive when interpreting
Texas Rule of Civil Procedure 42. See supra at 38 n.25.

139a
private party litigants. AT&T also analogizes Section
281.056 to corporate bylaws, arguing that means the
section cannot have the effect HCHD argues it does.
AT&T Br. at 18-20; TCJL Br. at 11-12. As briefed
extensively above the representation of counties and
county entities is a constitutional matter vested in the
district and county attorney. Counties are not private
businesses with no public interest or funds at stake.
The corporate bylaws analogy is misplaced.
AT&T also attempts to distinguish MERSCORP
because it derived from specific statutory limitations
about selecting private counsel and contingency fee
arrangements, claiming “no such specific provisions
and limitations are at issue here.” AT&T Br. at 31; see
also PUC Br. at 25 n.9. To the contrary that is exactly
what is at issue here: a specific statutory provision
limiting engagement of outside counsel and a class
action led by contingency fee lawyers - who earned $2
million in fees on a case that settled not only before
trial but before discovery or a class action certified. See
RR at 41 (trial court noting both cases involved
contingency fees).
The PUC argues that HCHD could have very well
been “represented” by the county attorney, thus the
class action settlement still binds its claims just as a
private corporation with its own counsel would have
been “represented” yet caught up in the settlement.
PUC Br. at 25-28. This argument ignores that
governmental entities are endowed with duties,
privileges, and immunities private parties and
corporations do not enjoy as evidenced by Section
281.056 and the multitude of other statutes protecting
the interests and limiting the representation of
government agencies and entities.

140a
E. The class actions procedural rule cannot
trump substantive statutory safeguards and
constitutional principles for governmental
entities.
There are no Texas cases analyzing the interplay
between Rule 42 and the constitutional and statutory
provisions protecting governmental participation in
litigation and legal representation. AT&T argues that
HCHC ‘s interpretation of the plain language of these
statutes would conflict with class action rules. AT&T
Br. at at 21-22. AT&T also argues that Section 281.056
does not confer a substantive right, again analogizing
the provision to corporate bylaws, and that any right
was not abridged within the meaning of Government
Code § 22.004(a). AT&T Br. at 23-24. These arguments
elevate a procedural rule over substantives laws
endowed with constitutional importance.
Procedural rules “may not abridge, enlarge, or
modify the substantive rights of a litigant.” TEX.
GOV’T CODE § 22.004(a) (emphasis added). A class
action is merely a procedural device intended to
advance judicial economy by trying claims together
that lend themselves to collective treatment. Sw.
Refining Co. v. Bernal, 22 S.W.3d 425,437 (Tex. 2000).
“Procedural devices may ‘not be construed to enlarge
or diminish any substantive rights or obligations of
any parties to any civil action.”‘ Id. (quoting TEX. R.
CIV. P. 815); see also TEX. GOV’T CODE § 22.004(a).
Generally, statutes trump administrative or
procedural rules. Johnstone v. State, 22 S.W.3d 408,
409 (Tex. 2000) (“when a rule of procedure conflicts
with a statute, the statute prevails unless the rule has
been passed subsequent to the statute and repeals the
statute”); In re Chu, 134 S.W.3d 459, 466 (Tex. App. -

141a
Waco 2004, orig. proceeding) (“a statute controls over
a procedural rule”). Constitutional provisions certainly
trump procedural rules. Rule 42 of the Texas Rules of
Civil Procedure cannot bind the Harris County
Hospital District, a political subdivision, in a lawsuit
in which HCHD was not represented by the County
Attorney. Nor do the class action rules somehow give
the district court jurisdiction over matters for which
the PUC has exclusive jurisdiction. 28
The PUC makes the somewhat bizarre argument
that Mireles class counsel only represented HCHD’s
“interests” in Mireles, and did not “represent” HCHD
as a client. PUC Br. at 2, 28-29; AT&T Br. at 10. First,
counties and their entities must affirmatively agree to
be a plaintiff in a lawsuit. Moreover, the law does not
recognize any such “representation light” – the
attorney-client relationship comes in a whole, not in
parts. Pointedly, the ethical duties of an attorney
serving as class counsel run to all class members,
because all class members are his or her clients. See
Kleiner v. First Nat. Bank, 751 F.2d 1193, 1206-07
(11th Cir. 1985) (sanctioning defense counsel for
communicating with class members as they were
represented by class counsel as soon as the class was
certified); Krim v. pcOrder.com, Inc., 210 F.R.D. 581,
589-90 (W.D. Tex. 2002) (analyzing proposed class
counsels’ conflicts of interests). “Class counsel must
act with unwavering and complete loyalty to the class
members they represent, and the responsibility of
28 See TEX. R. CIV. P. 816 (“These rules shall not be construed to
extend or limit the jurisdiction of the courts of the State of Texas
nor the venue of actions therein.”); see also “Who May Speak for
the King? Challenging Common Assumptions About Representing
the Government in Class Litigation,” Class Action Litigation
Report, Vol. 5, No. 15, Aug. 13, 2004 [4:104 at 192].

142a
class counsel to absent class members whose control
over their attorneys is limited does not permit even the
appearance of divided loyalties of counsel.” Id. at 589
(quotation and citation omitted). The class action rules
mean not only that the class counsel represents class
members, and not some fictional “interest” of the class
members, but also that counsel must do so with the
strictest ethical standards. Indeed, inadequacy of class
counsel in representing certain members can raise res
judicata defenses in subsequent proceedings. Gonzales
v. Cassidy, 474 F.2d 67, 75-76 (5th Cir. 1973) (“The
judgment in a class action will bind only those
members of the class whose interests have been
adequately represented by existing parties to the
litigation.”) (citation omitted). 29
The PUC and AT&T try to support their position by
citing Assignees of Best Buy v. Combs, 395 S.W.3d 847
(Tex. App. - Austin 2013, pet. denied), but they
misconstrue the analysis and the holding in this case.
See AT&T Br. at 17, 22; PUC Br. at 29. The issue in
Assignees of Best Buy was whether a trial court could
appoint class counsel in a class action to represent the
individual class members on separate claims for tax
refunds that were required to be brought before the
Comptroller – that is, in a separate administrative
HCHD recognizes that Gonzales has been criticized in other
opinions including in cases cited by AT&T. See Juris v. Inamed
Corp., 685 F.3d 1294, 1313-14 (11th Cir. 2012); Kortebein v. Am.
Mut. Life. Ins. Co., 49 S.W.3d 79, 87 n.6 (Tex. App. - Austin 2001,
pet. denied). Gonzales concerned a unique procedural history
which warranted refusing the application of res judicata.
Similarly, the specific (and longstanding) statute limiting who
may “represent” a county hospital district warrants the refusal of
the application of res judicata here because, by law, the class
representation was inadequate.
29

143a
proceeding and a completely different forum than the
class action case. The Comptroller sought to
collaterally attack the order appointing class counsel
in this manner as void based on a lack of subject
matter jurisdiction. Id. at 858. The Third Court of
Appeals analyzed when a district court has the power
to appoint counsel for a litigant and held that Rule 42
did not give trial courts the implied authority to
appoint class counsel to act as individual counsel in
actions outside the class action suing a different
defendant and seeking a different type of relief. Id. at
867; see TEX. R. CIV. P. 42.
In analyzing the procedural device that is a class
action, the court reviewed when the law provides for
appointment of counsel, namely when a party is
unable to adequately represent his or her own
interests. Id. at 863. The law similarly allows trial
courts that have made the procedural determination
that a lawsuit should be certified as a class action to
appoint class counsel. Id. As a procedural device, a
class action may not be construed to enlarge or
diminish the substantive rights or obligations of
parties to any civil action. Id. at 862 (citing TEX. R.
CIV. P. 815; Bernal, 22 S.W .3d at 437; TEX. GOV’T
CODE § 22.004). Thus, Assignees of Best Buy supports
HCHD’s position that the class action procedural
device cannot overpower the statutory limits on
representation of county hospitals.
If Rule 42 really could trump the statutory and
constitutional protections of governmental entities in
litigation then self-proclaimed class counsel from the
other side of the state could embroil HCHD in
litigation without its board’s approval when the county
attorney himself could not do so unilaterally. In sum,

144a
local
governments
are
different
creatures
constitutionally, and particularly in litigation
precisely because the legislature has chosen to restrict
the legal representation of certain entities - counties
and county hospitals. Consequently, in MERSCORP
and Ackal courts analyzed the longstanding statutes
restricting representation in light of the class action
procedural device, and found that counties and their
related entities cannot passively be part of a class
action because they must, by law, “opt-in” to
representation. Thus, the Mireles class could not have
included, as a matter of law, HCHD and other such
county entities.
F. The Texas Civil Justice League fails to
recognize that the Mireles Settlement is
precisely the kind of abuse H.B. 4’s class
action provisions were intended to stop.
Amicus the Texas Civil Justice League (“TCJL”)
attempts to vilify HCHD for seeking to protect the
public coffers, punish a vendor who cheated its
customers, and call out a class action settlement that
was troubled from the beginning and spawned decades
of litigation. TCJL Br. at 13-14. The Legislature has
made reasoned policy choices and inscribed them into
law: by enacting chapter 26 to put an end to class
actions that enrich class counsel while class members
get little or nothing besides their claims foreclosed and
by enacting dozens of statutes, such as Section
261.056, requiring that government claims be
prosecuted by government lawyers whether with or
without the assistance of private counsel. See TEX.
CIV. PRAC. & REM. CODE ch. 26. TCJL argues that
a chapter enacted in 2003 as part of the massive “tort
reform” bill, H.B. 4, and modifications to Rule 42 made

145a
as a result, support the dominance of class action
procedures over all else. TCJL Br. at 7-11. TCJL also
maintains that “[w]e can thus assume that this case
complied with Rule 42 in all material respects and that
the parties to the judgment were justified in their
belief the case was over.” TCJL Br. at 10. Since chapter
26 was enacted and Rule 42 amended five years after
the Mireles settlement we cannot assume that. Rather,
the Legislature enacted those class action reforms in
response to settlements – like that in Mireles – where
class counsel made millions but class members
received little or nothing of value.
H.B. 4 was enacted at a time when efforts were
being made to curtail abuses in both federal and state
courts namely cases where attorneys were awarded
large fees and the class members receive little of value
– precisely as happened in the Mireles settlement. As
the Supreme Court Advisory Committee began
addressing class actions, none other than then
associate Justice Nathan Hecht laid out the concerns
warning of defendants liking class actions when “they
can buy res judicata at a fairly low price that they can’t
get anywhere else except in bankruptcy court.” 30
IV. Res judicata does not bar HCHD’s claims
because the Mireles judgment was void and
HCHD could not have been a party without the
consent of the County Attorney or its board.
Both the PUC and AT&T maintain that HCHD’s
claims are barred by res judicata. PUC Br. at 16-20;
30 Hearing of the Supreme Court Advisory Committee, Morning
Session, April 12, 2003 at 8490-91, available at
http://jwclientservices.jw.com/sites/scac/pa,ges/SCAC%20Libracy
.aspx.

146a
AT&T Br. at 15-16. First, as argued above (1) the
Mireles judgment is void for lack of subject matter
jurisdiction and (2) by law HCHD cannot be part of any
litigation without the participation of the county
attorney and the approval of its board, thus the
Mireles judgment does not affect its claims.
A. HCHD is not attempting an improper a
collateral attack because the Mireles
judgment is void.
Res judicata only applies if there is a final
judgment by a court of competent jurisdiction.
Montgomery v. Blue Cross and Blue Shield of Texas,
Inc., 923 S.W.2d 147, 150 (Tex. App. - Austin 1996,
writ denied). Res judicata does not bar a claim if the
court rendering judgment in the initial suit lacked
subject matter jurisdiction over the claim. Id. In order
for a court to act, it is a fundamental principle that it
must first have jurisdiction to do so. Drew v. State, 765
S.W.2d 533, 535 (Tex. App. - Austin 1989, pet. dism’d).
A judgment rendered without subject matter
jurisdiction cannot be considered final. Rhule, 417
S.W.3d at 442. Any order or decree, other than one for
dismissal, rendered without jurisdiction is void. Drew,
765 S.W.2d at 536. As explained above, the Mireles
court did not have jurisdiction over issues subject the
PUC’s longstanding original exclusive jurisdiction.
Consequently, the Mireles judgment is void.
Subject matter jurisdiction cannot be conferred by
consent, waiver, or estoppel at any stage of a
proceeding. Entergy Corp. v. Jenkins, 469 S.W.3d 330,
337 (Tex. App. - Houston [1st] 2015, pet. denied)
(holding that the law of the case doctrine does not
preclude examination of subject matter jurisdiction).
Failure to exhaust administrative remedies renders

147a
any subsequent trial court orders void when an agency
has exclusive jurisdiction over part of a case. See
Entergy Corp., 469 S.W.3d. at 346 (voiding a class
certification
order
for
failure
to
exhaust
administrative remedies). No amount of time passing
or acts by litigants or courts can cure a lack of subject
matter jurisdiction. If there are any firm rules in Texas
jurisprudence, there is at least one: orders issued by a
tribunal without subject matter jurisdiction are void
Because the Mireles claims were all based on an
issue committed to the PUCs jurisdiction, that prior
judgment was not a court of competent jurisdiction as
to the claims as plead. Second, HCHD could not be a
party to the case without the participation of the
county attorney.
B. Judicial estoppel bars AT&T from taking
the position that the claims here are not
subject to the PUC’s exclusive jurisdiction
and that HCHD, as a governmental entity, can
be drawn into litigation without its express
consent.
When a party assumes a certain position in a legal
proceeding and succeeds, that party may not later,
simply because its interests have changed, assume a
contrary position, especially if it be to the prejudice of
the other party. New Hampshire v. Maine, 532 U.S.
742, 749 (2001); Pleasant Glade Assembly of God v.
Schubert, 264 S.W.3d 1, 6 (Tex. 2008). In addition,
equitable considerations bear in the res judicata
analysis.
See
RESTATEMENT
(SECOND)
JUDGMENTS § 74 (equitable considerations in
granting relief). Both in the Harris County suit where
it succeeded in having its plea to the jurisdiction
granted and in prior related litigation, AT&T has

148a
successfully taken positions it now opposes to HCHC’s
detriment.
To get Mireles to a final settlement AT&T struck a
deal with STA, a bill auditing company 31 that had
received assignments from large business customers of
AT&T’s: STA would drop its objections in Mireles if its
claims and those “of other persons similarly situated”
could proceed as a separate lawsuit, and AT&T agreed
it would not assert the Mireles release, settlement, or
judgment “whether the lawsuit is ultimately certified
as a class action or not.” Fairness Hearing, May 4,
2000 at 6- 8, 11 [3:98 at 236-38, 241]. 32
AT&T proceeded to litigate case for the next ten
years. During the STA litigation, AT&T affirmatively
asserted a list of potential class members which
included HCHD, using it to argue in its response to
STA’s motion for class certification that the class was
too diverse to be certified with STA as its
representative because it included governmental
entities:
Finally, a substantial number of state agencies
are part of the putative class, but these
agencies could not even participate in the class
action without first securing permission to sue
[through] the Texas Attorney General’s Office.
[Citation omitted.] In the absence of securing
such permission, state agencies are forbidden
31 See STA II, 308 S.W.3d at 927 (O’Neill dissenting) (noting
STA’s “unique expertise”).
32 The carve-out included certain commercial customers. [3:98 at
236, 241]; see also STA I, 170 S.W.3d at 820 n. 8 and STA II, 308
S.W.3d at 929 (O’Neill dissenting) (both describing carve-out
class of commercial customers).

149a
to file suit. 33
AT&T’s argument was ultimately successful when
the Supreme Court of Texas ruled that STA was not
an adequate class representative. STA, 308 S.W.3d at
924- 25. Thus, AT&T seized on this idea of limiting the
participation of sovereign governmental entities in
class actions in its ultimately successful efforts to fight
the class certification in STA. AT&T has taken one
position regarding governmental entities in class
actions in STA, then taken the opposite position here
in an attempt to bind HCHD with a class action
judgment it could not have legally participated in
without the explicit acts of the Harris County Attorney
and the HCHD board.
After the decade of litigation and AT&T prevailing
in avoiding a class action in STA, AT&T then filed
pleadings claiming the PUC had exclusive original
jurisdiction. 34 Despite having raised the PUC’s
exclusive original jurisdiction and obtained the
dismissal of claims on that ground in a multitude of
33 Def’s Resp. to Mot. for Class Certification, Mireles, at 30 [Ex.
STIP-6, 3:98 at 303]; see also Stipulations and Jt. Req. for Official
Notice, Dec. 2, 2014 at 2 [Ex. STIP-7, 3:98 at 321, 352]; Def.’s
Resp. to Mot. for Class Certification, Jan. 13, 2003 [Ex. STIP-6,
3:98 at 264, 268 (list of exhibits with “List of Prospective Class
Members” as Ex. 9), 301-03 (AT&T’s description of the potential
class members included businesses and governmental entities).

See SWBT Orig. Answer to Pl.’s Third Amd. Pet. at 12.12, STA.,
No. 2000-05-1931-B (138th Dist. Court, Cameron County), [Ex.
STIP-14, 3:98 at 565] (“SWBT asserts that STA is barred from
any relief or remedy as to each of its claims and causes of action
for failure to exhaust administrative remedies. The Public Utility
Commission (“PUC”) has exclusive original jurisdiction over
exactly the type of fee dispute that STA asserts in this lawsuit.
See, e.g., TEX. UTIL. CODE §§ 17.157, 52.002; see also In re Sw.
Bell Tel., Co., 235 S.W.3d 619, 625-626 (Tex. 2007).”).
34

150a
other cases, AT&T did not raise it in Mireles; 35
consequently, this jurisdictional issue was not
addressed by the Mireles district court or any appellate
court.
Judicial estoppel and equitable consideration now
prohibit AT&T from now arguing that the PUCs
original exclusive jurisdiction does not apply to claims
based on fee disputes (rendering any resulting
judgment void) or arguing that HCHD can be drawn
into a class action without its consent. See New
Hampshire, 532 U.S. at 749; Pleasant Glade Assembly
of God, 264 S.W.3d at 6. To allow otherwise would
allow AT&T to obtain unfair advantage from selfcontradictory positions. See id.
CONCLUSION AND PRAYER
AT&T cannot have its procedural cake and eat it
too. If the PUC has exclusive jurisdiction over cases
involving tariff-based disputes, then any judgments
arising out of such cases where administrative
remedies were not exhausted are void. Because the
Mireles judgment is void, res judicata does not bar
HCHD’s lawsuit. Alternatively, the Mireles judgment
cannot bind HCHD in a judgment without the County
Attorney representing it and its board approving any
outside counsel and participation in the lawsuit.
Finally, AT&T is estopped from claiming Mireles bars
HCHD’s claims.
HCHD prays that this court rule that res judicata
does not bar its claims against AT&T and remand the
case to the PUC for determination of the issues over
which the agency has exclusive jurisdiction, namely
35 Def’s First Amd. Answer and Orig. Counterclaim, Mireles [Ex.
H-9, 4:104 at 285].

151a
the claim that AT&T illegally billed HCHD municipal
charges. 36
Dated April 27, 2018.
Respectfully submitted,
Vince Ryan
State Bar No. 17489500
HARRIS COUNTY ATTORNEY
Randall Raymond Smidt
Assistant County Attorney
State Bar No. 00798509
Terence O’Rourke
First Assistant County Attorney
State BarNo.15311000
1310 Prairie, Suite 880
Houston, TX 77002
Telephone: (713) 755-5585
Telecopier: (713) 755-8848
/s/
Susan Hays
LAW OFFICE OF
SUSAN HAYS, PC
State Bar No. 24002249
P.O. Box 41647
Austin, Texas 78704
Telephone: (214) 557-4819
36 The PUC urges this Court to remand the jurisdiction issue
claiming that the lower court did not address it. PUC Br. at 3132. This is not true. The issue was briefed to the trial court and
argued at the hearing. See CR 299-307, 241-46, 279-81, 299-306;
RR 7-11.

152a
Telecopier: (214) 432-8273
hayslaw@me.com
Thomas R. Bray
LAW OFFICE OF
THOMAS R. BRAY
State Bar No. 02926800
1431 Wirt Road, Suite 140
Houston, Texas 77055
Telephone: (713) 827-1760
Telecopier: (713) 827-1760
ATTORNEYS FOR
APPELLANTS
CERTIFICATE OF COMPLIANCE
I hereby certify that there are 13,546 words within
this document using the counting parameters of Texas
Rule of Appellate Procedure 9.4(i)(l).
/s/Susan Hays
Susan Hays
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
above Initial Brief was served upon all counsel of
record, via efiling on this 27th day of April, 2018,
pursuant to TEXAS RULE OF APPELLATE
PROCEDURE 9 .5:
Ken Paxton
Attorney General of Texas
Jeffrey C. Mateer
First Assistant Attorney General

153a
James E. Davis
Deputy Attorney General for Civil Litigation
Priscilla M. Hubenak
Chief, Environmental Protection Division
John R. Hulme
Assistant Attorney General
john.hulme@oag.texas.gov
P.O. Box 12548, MC-066
Austin, Texas 78711-2548
Counsel for the PUC
Thomas R. Phillips
Gavin Villarreal
Baker Botts, LLP
98 San Jacinto Blvd.,
Austin Texas 78701
Charles Blanchard
Cristie Villarreal
AT&T Legal Department
816 Congress Ave., Suite 1100
Austin, Texas 78701
Hans Germann
Michael T. Sullivan
msullivan@nayerbrown.com
Mayer Brown, LLP
71 S. Wacker Dr.
Chicago, Illinois 60606
/s/ Susan Hays

154a
APPENDIX P (154a-215a)
SOAH DOCKET NO. 473-13-0391
PUC DOCKET NO. 40235
COMPLAINT OF
§ BEFORE THE
HARRIS COUNTY
§ STATE OFFICE
HOSPITAL
§
DISTRICT
§ OF
AGAINST
§
SOUTHWESTERN
§ ADMINISTRATIVE
BELL TELEPHONE § HEARINGS
COMPANY d/b/a
§
AT&T TEXAS
HARRIS COUNTY HOSPITAL DISTRICT’S
RESPONSE TO SOAH ORDER NO. 28
AND
REQUEST FOR ORAL ARGUMENT
TO THE HONORABLE ADMINISTRATIVE LAW
JUDGE:
Harris County Hospital District (“HCHD”) files this
Response to SOAH Order No. 28 and Request for Oral
Argument.
I.

A DISMISSAL OF HCHD’S COMPLAINT
WOULD DENY HCHD DUE PROCESS,
AND BE CONTRARY TO APPLICABLE
LAWS, RULES, AND CODES
Background

1. The ALJ issued SOAH Order No. 28, which
indicates it was based on the Order on Interim Appeal
issued by the Public Utility Commission of Texas
(“PUC” or “Commission”) and its finding that “under

155a
the doctrine of res judicata all of the claims asserted
by the Hospital District in this proceeding are barred
by the final judgment approving a class action
settlement in the Mireles v. SWBT case.” SOAH Order
No. 28 states that under the circumstances, “there
remain no issues for which a contested case hearing
would he necessary and a procedural schedule need
not be adopted.” The ALJ also expressed his intent “to
initiate a motion to dismiss this case pursuant to
P.U.C. Proc. R. 22.181(a)(1)(c), and gave all parties
until May 11, 2015 to respond.
2. This response is timely filed. In this response,
HCHD will show that it would be a denial of
constitutional due process and a contrary to applicable
statutes, rules, and case authority if HCHD’s
complaint is dismissed based on the Commission’s
finding in its Order on Interim Appeal, including, but
not limited to, the following laws:
a) The due process clause of the Fourteenth
Amendment to the Constitution of the United
States of America;
b) The due course of law clause of Article 1, Section
19 of the Constitution of the State of Texas;
c) Texas Government Code §§ 2001.058(e) and
2003.049(g) and (h), which limits the
Commission’s ability to change a finding of fact
or conclusion of law made by the ALJ, or to
vacate or modify an order of the ALJ; it further
requires that the agency state in writing the
specific reason and legal basis for any such
change;
d) Texas Government Code § 2001.058(d), which
prohibits the Commission from attempting to

156a
influence ALJ’s findings of fact or application of
law except by proper evidence and legal
argument;
e) Texas Government Code § 2003.049(b), which
precludes the Commission from adjudicating
the matter until after the ALJ has issued his
proposal for decision;
f) Texas Utilities Code §§ 17.157, 52.002; and In re
Sw. Bell Tel., Co., 235 S.W.3d 619, 625-626 (Tex.
2007), regarding the Commission’s exclusive
jurisdiction over billing claims and tariff issues.
g) 1 Tex. Admin. Code § 155.153(a)(1), which
requires that the ALJ conduct a full, fair, and
efficient hearing;
h) P.U.C. Proc. R. § 22.261 which precludes the
Commission from making a final order until a
proposal for decision is served on all parties, and
which requires any proposal for decision to
include a proposed final order, a statement of
the reasons for the proposed decision, and
proposed findings of fact and conclusions of law
in support thereof;
i) The doctrine of res judicata, and controlling case
authority;
j) Health & Safety Code §281.056; and
k) TRCP 42, and controlling case authority.
Moreover, the Commission’s Order on Interim Appeal
is arbitrary, capricious, not reasonably supported by
substantial evidence, and characterized by an abuse of
discretion or a clearly unwarranted exercise of
discretion. For these reasons, and the reasons stated
below, the Commission’s res judicata finding in the

157a
Order on Interim Appeal should be disregarded by the
ALJ, and the ALJ should proceed with his duties and
responsibilities as an independent administrative law
judge of the Texas State Office of Administrative
Hearings (“SOAH”).
SOAH and the Duties and Responsibilities of an
ALJ
3. SOAH was created in 1991 to “serve as an
independent forum for the conduct of adjudicative
hearings in the executive branch of state government
. . . [and which could] separate the adjudicative
function from the investigative, prosecutorial, and
policymaking functions in the executive branch in
relation to hearings that the office is authorized to
conduct.” 1 The central role of the SOAH ALJ is to
act as the factfinder for the particular agency board or
commission over whose contested case the ALJ is
presiding. 2 This is to ensure the ALJ’s role as an
independent arbiter, 3 and as such, the involved
agency is charged with providing the applicable rules
or policies in writing to the ALJ so that he or she may
formulate the findings of fact and conclusions of law to
create a proposal for decision (“PFD”). 4 It is then left
to the agency’s board or commission to issue its final
order after examining the record and the SOAH ALJ’s
1 Texas Government Code § 2003.021(a); Act of May 27th, 1991,
72d Leg., R.S., ch. 591, 1991 Tex. Gen. Laws 2127.
2 Nancy L. Harlan, Which Way is the Scale Tipped Now? The
Shifting Balance of Power between the Authority of
Administrative Agencies and the State Office of Administrative
Hearings Regarding Rulings in Contested Cases, 4 TEX. TECH J.
TEX. ADMIN. L. 227 (2003).
3

Texas Government Code § 2003.051.

4

Id.; see also § 2003.042(a)(6).

158a
PFD. 5 The agency is permitted to change a finding of
fact or conclusion of law, and to modify or vacate the
PFD, but only under certain criteria. 6 “An agency
must, however, respect the due-process rights of
applicants who appear before it in contested cases.”
Flores v. Employees Ret. Sys. of Texas, 74 S.W.3d 532,
539 (Tex. App. 2002) (citing Seely, 764 S.W.2d at 815
(holding that an agency denied a party a meaningful
hearing required by due process); Madden, 663 S.W.2d
at 625–27 (holding that an agency violated procedural
due-process rights of a party by failing to give him
notice of new statutory interpretation that agency
applied for first time in the course of claimant’s
hearing)).
4. Under Texas Government Code § 2001.058(e),
the Commission may change a finding of fact or
conclusion of law made by the administrative law
judge, or may vacate or modify an order only if the
Commission determines:
(1) that the administrative law judge did not
properly apply or interpret applicable law, agency
rules, written policies provided under Subsection
(c), or prior administrative decisions;
(2) that a prior administrative decision on which
the administrative law judge relied is incorrect or
should be changed; or

5

Texas Government Code § 2003.062.

Texas Government Code §§ 2001.058(e) and 2003.049(g) and (h);
see Larry E. Temple and Dylan O. Drummond, Traps for the
Unwary Administrative Lawyer, State Bar of Texas, 17th Annual
Advanced Administrative Law Course, September 22-23, 2005,
Chapter 11.
6

159a
(3) that a technical error in a finding of fact should
be changed.
The agency shall state in writing the specific
reason and legal basis for a change made under
this subsection.
Under Texas Government Code § 2003.049(g) and (h),
the Commission may change a finding of fact or
conclusion of law made by the administrative law
judge or vacate or modify an order issued by the
administrative law judge only if the Commission:
(1) determines that the administrative law judge:
(A) did not properly apply or interpret applicable
law, commission rules or policies, or prior
administrative decisions; or
(B) issued a finding of fact that is not supported
by a preponderance of the evidence; or
(2) determines that a commission policy or a prior
administrative
decision
on
which
the
administrative law judge relied is incorrect or
should be changed.
(h) The commission shall state in writing the
specific reason and legal basis for its
determination under Subsection (g).
Importantly, Texas Government Code § 2001.058(d)
states, “A state agency may not attempt to influence
the finding of facts or the administrative law
judge’s application of the law in a contested case
except by proper evidence and legal argument.” “A
hearing examiner who is an ALJ with the State Office
of Administrative Hearings (SOAH) and not employed
by the agency is a ‘disinterested hearings officer.’”
Flores, 74 S.W.3d at 539. “An independent factfinder

160a
is integral to the structure of the hearing-examiner
process.” Id. at 540. “The Legislature has further
protected the independent nature of the hearingexaminer process” by requiring the Commission to
state in writing the reason, including the legal basis,
for any change or rejection it makes under Texas
Government Code §§ 2001.058(e) and 2003.049(g) and
(h). Id.
5. Here, the process has been turned upside down
by the Commission’s unlawful attempt to influence the
ALJ’s finding of facts and his application of the law.
SOAH and the ALJ should defend their independence
in the administrative adjudication process.
6. The Commission’s attempt at influencing the
ALJ seems obvious because the Commission
completely failed to state in writing the specific reason
and legal basis for a res judicata finding that is
contrary to the ALJ’s finding in SOAH Order No. 24,
and did not mention any reason or legal basis during
the Open Meeting. 7 There is absolutely no stated
7 The only reason indicated during the Open Meeting for the res
judicata finding was that the Commissioners wanted to expedite
an appeal so that a court could determine the Commission’s
ancillary jurisdiction. But does not address the elements of res
judicata, and is a false reason because during the Open Meeting
each Commissioner indicated a belief that the Commission had
jurisdiction to decide the res judicata issue. See Open Meeting
Transcript, Exhibit 1. Moreover, the conclusions in the Order on
Certified Issue stating that the Commission does not have
authority to construe class action matters or Health & Safety
Code Chapter 281, do not reconcile with a res judicata finding,
because without determining whether or not HCHD was a
member of the Mireles class by construing Health & Safety Code
Chapter 281 and class action rules and laws, and then finding
that HCHD was a member, arguendo, the Commission could not
have found that res judicata bars HCHD’s claims; because

161a
justification for the Commission’s disagreement with
the ALJ’s finding, which leaves one to conclude that
the Commission did not even consider Health & Safety
Code § 281.056. It is reasonable to conclude that the
Commission did not consider Section 281.056, because
the Commission’s Order on Certified Issue states that
“the legal status of the district and its authority to sue
and be sued-would require the Commission to construe
provisions of chapter 281. The Commission has not
been authorized by any law to determine the legal
status of a hospital district or the capacity of a district
to sue or be sued.” [Emphasis added.] In other words,
since the Commission already concluded in the Order
on Certified Issue that it has no authority to construe
Health & Safety Code Chapter 281, then it is
reasonable to believe that the Commission did not
consider Chapter 281 when making its finding that res
judicata is a bar to HCHD’s claims. This is also
reasonable to believe because if it had properly
considered Health & Safety Code § 281.056 when
making its res judicata finding, it should have
concluded that HCHD was not a member of the Mireles
class, which would have negated an essential element
of res judicata.
7. Notwithstanding
the
Section
281.056
argument, it also reasonable to conclude that the
Commission did not consider HCHD’s alternative
arguments that there is a genuine issue of material
fact as to (1) whether HCHD is a class member under
the class definition in Mireles, or (2) whether
conditions occurred or did not occur that rendered the
without a conclusion that HCHD was a member of the Mireles
class the “identity of party” element of res judicata could not be
proven as a matter of law. See “Elements of Res Judicata” and
other analysis of this issue, infra.

162a
Mireles judgment null, void, and vacated under its
express terms and conditions of the Mireles judgment;
because the Commission already concluded in the
Order on Certified Issue that “no law has authorized
[the] Commission to determine membership of a class
or any other matter related to class action under rule
42.” In other words, since the Commission already
concluded in the Order on Certified Issue that it has
no authority to determine membership in a class or
construe matters related to class action under rule 42,
then it is reasonable to conclude that it did not
consider HCHD’s arguments and evidence concerning
the class action settlement and the class definition
when making its finding that res judicata is a bar to
HCHD’s claims. This is also reasonable to believe
because if it had properly considered rule 42 and
controlling case authority concerning class actions and
class membership, it should have concluded that there
is a genuine issue of material fact as to the class
definition and the Mireles judgment and settlement.
Moreover, since the Commission concluded that it
cannot construe or decide these issues, it is a logical
extension that the Commission cannot conclude that
HCHD was a member of the Mireles class, which would
prevent the Commission from concluding that that
AT&T has met its burden of proving the “identity of
party” element of res judicata.
8. Under 1 Tex. Admin. Code § 155.153(a)(1), the
ALJ has a duty to “conduct a full, fair, and efficient
hearing.” Canon 3 of the Model Code of Judicial
Conduct for State Administrative Law Judges is titled
“A State Administrative Law Judge Shall Perform the
Duties of the Office Impartially and Diligently”, and
states, “The judicial duties of a state administrative
law judge take precedence over all other activities.”

163a
Canon 3(A)(1) states, “A state administrative law
judge shall be faithful to the law and maintain
professional competence in it. A judge shall not be
swayed by partisan interests, public clamor or fear of
criticism.”
Canon
3(A)(4)
states,
“A
state
administrative law judge shall accord to all persons
who are legally interested in a proceeding, or their
representatives, full right to be heard according to
law.” And Canon 3(A)(4)(f) states, “Decisions of a state
administrative law judge shall be based exclusively on
evidence in the record of the proceeding and material
that has been officially noticed.” Canon 2(A) states, “A
state administrative law judge shall respect and
comply with the law and shall act at all times in a
manner that promotes public confidence in the
integrity and impartiality of the administrative
judiciary.” If the res judicata finding made by the
Commission is a final or binding adjudication, then
how is the ALJ supposed to fulfill his duties and
ethical responsibilities to be impartial and to respect
and comply with the law, to conduct a full and fair
hearing, and to make his decisions based exclusively
on evidence in the record and material officially
noticed? The answer is that he cannot.
9. The Commission has unfairly and improperly
placed the ALJ in an unenviable position. In order for
the ALJ to be fair and impartial, and to comply with
applicable laws, rules and codes, the ALJ should
disregard the res judicata finding made by the
Commission in the Order on Interim Appeal and not
dismiss HCHD’s complaint; to do otherwise and follow
the guidance of the Commission would essentially give
the appearance that the Commission has (unlawfully)
influenced the ALJ’s decision. To base a decision on
the Order on Interim Appeal would be the same as

164a
treating the res judicata finding as a final adjudication
made to force the ALJ to try and find any facts that
might support such a finding, rather than allowing the
ALJ to act impartially and base his decision on the
totality of the relevant evidence and record in a
manner that respects and complies with the law, with
improper external influences.
10. Texas Government Code § 2003.049(b) states
that “[t]he utility division shall conduct hearings
relating to contested cases before the commission,
other than a hearing conducted by one or more
commissioners.” Texas Government Code § 2003.051
states:
Except in connection with interim appeals of
orders or questions certified to an agency by an
administrative law judge, as permitted by law,
a state agency that has referred a matter to the
office in which the office will conduct a hearing
may not take any adjudicative action
relating to the matter until the office has
issued its proposal for decision or
otherwise concluded its involvement in
the matter. The state agency may exercise its
advocacy rights in the matter before the office
in the same manner as any other party.
[Emphasis added.]
As argued elsewhere herein, the interim appeal of
the ALJ’s denial of AT&T’s Motion for Summary
Decision was not permitted by law; moreover, the
Commission already concluded that that it did not
have the authority to answer the ALJ’s certified
question, or the authority to decide matters pertaining
to the class action rule or the Health & Safety Code.
Therefore, the Commission could not have taken any

165a
adjudicative action relating to HCHD’s complaint until
after the ALJ issues his proposal for decision, which
has not yet occurred.
11. P.U.C. Proc. R. § 22.261 states:
In a contested case, if a majority of the
commissioners has not heard the case or read
the record, the commission may not issue a final
order, if adverse to a party other than the
Commission, until a proposal for decision is
served on all parties. The proposal for
decision shall be prepared by the presiding
officer(s) who conducted the hearing or who
have read the record. The proposal for
decision shall include a proposed final
order, a statement of the reasons for the
proposed decision, and proposed findings
of fact and conclusions of law in support of
the proposed final order.
Therefore, the ALJ must consider all of the evidence
before making any findings of fact and conclusions of
law concerning res judicata, and should not be bound
by the Commission’s arbitrary and capricious finding
in its Order on Interim Appeal.
12. If the Commission wanted to make all of the
decision and leave nothing to the ALJ’s discretion and
good judgment, then a majority of the Commissioners
could have elected to hear the case or read the entire
record, but that did not occur. 8 Instead, the complaint
8 None of the Commissioners even voted to allow HCHD an oral
argument after HCHD made a proper formal filing that requested
one. See PUC Docket No. 40235, Item No. 193. This is despite
the fact that numerous other matters on the agenda for the March
26, 2015 open meeting were allowed oral argument.

166a
was referred to SOAH and the ALJ, 9 and as a result of
that referral a proposal for decision is required before
any final order may be entered by the Commission. 10
13. It is also worth pointing out that in PUC Staff’s
letter to the ALJ dated April 10, 2015, Staff stated that
“Staff views the Commission’s order as dispositive as
to all issues in this proceeding,” and “supports the
finality of the Commission’s order;” but from Staff’s
most recent filing, it appears that Staff is no longer
claiming that the res judicata finding brings finality to
HCHD’s claims, because Staff is now suggesting that
the ALJ issue a Proposal for Decision with findings of
fact and conclusions of law. 11
Elements of Res Judicata
14. In order for res judicata to apply, proof is
required for each of the following elements: (1) a prior
final judgment on the merits by a court of competent
jurisdiction, (2) identity of parties or those in privity
with them, and (3) a second action based on the same
claims that were raised or could have been raised in
the first action.” Amstadt v. U.S. Brass Corp., 919
S.W.2d 644, 652 (Tex.1996). A litigant is generally not
bound by a judgment in a suit to which he was not a
party unless he was in privity with a party to the
original suit. McGee v. McGee, 936 S.W.2d 360, 364
(Tex.App.—Waco 1996, writ denied). Res judicata
does not bar a claim if the court rendering judgment in
See Order of Referral filed October 1, 2012 (PUC Docket No.
40235, Item No. 15).

9

10

P.U.C. Proc. R. § 22.261.

11 See PUC Staff’s Response to Harris County Hospital District’s
Motion for Rehearing and Response to SOAH Order No. 28 filed
May 4, 2015 (PUC Docket No. 40325, Item No. 203).

167a
the initial suit lacked subject-matter jurisdiction over
the claim. Montgomery v. Blue Cross and Blue Shield
of Texas, Inc., 923 S.W.2d 147, 150 (Tex. App. – Austin
1996, writ denied). In other words, a claim is not
barred by res judicata if it could not have been
brought. Id.
In order for a court to act, it is a
fundamental principle that it must first have
jurisdiction to do so. Drew v. State, 765 S.W.2d 533,
535 (Tex.App. - Austin 1989). A judgment rendered
without subject matter jurisdiction cannot be
considered final. City of Houston v. Rhule, 417 S.W.3d
440, 442 (Tex. 2013). A court cannot insulate its
judgments from collateral attack for lack of
jurisdiction simply by holding that it has jurisdiction.
York v. State, 373 S.W.3d 32, 44 (Tex. 2012). The
Commission erred because AT&T failed to conclusively
establish each element of a res judicata defense.
The ALJ has the Authority to issue a Proposal
for Decision and propose Conclusions of Law
that the Mireles Judgment is not a res judicata
bar to HCHD’s claims
15. During the hearing on October 31, 2012, 12 the
ALJ stated:
I’m also going to put HCHD on notice that I’m
not really going to entertain much discussion
of any challenges to Mireles being invalid,
because ultimately I think -- I’m going to treat
it as a valid judgment unless the Court of
Appeals has said otherwise or a higher court
has determined otherwise.
I think part of the separation of powers
indicates that I’m not in the position to
12

See transcript excerpts of hearing, Exhibit 2 attached.

168a
invalidate a judgment, nor would the PUC be
in a position to invalidate a judgment of a court
of the state. It’s only up to the higher courts to
invalidate it.
So any attempt to attack Mireles or the
validity of Mireles I’m not going to give any
credence to, just as I wouldn’t give any
credence to any arguments about a particular
rule or statute being unconstitutional. That’s
not within our province, nor is it within the
province of the Public Utility Commission.
So let me just save you some time in terms of
attempting to address the validity of the
Mireles determination. I think the only
question is whether Mireles applies in this
case, not whether it’s valid or invalid.
With all due respect to the ALJ and the positions
stated above, 13 the ALJ should be able to conclude that
HCHD and its claim are not bound or barred by the
Mireles judgment without having to conclude that the
Mireles judgment is valid or invalid. For example,
AT&T’s res judicata defense would not apply if the
ALJ concludes that (1) HCHD was not a member of the
Mireles class, because of the application of Health &
Safety Code § 281.056; or (2) HCHD’s claims are
within the exclusive jurisdiction of the PUC. Either
one of these conclusion of law should support the
conclusion that HCHD’s claims are not barred by res
judicata. AT&T’s res judicata defense should also be
The ALJ also stated in SOAH Order No. 24 that “the ALJ
disagrees with HCHD’s arguments that the trial court lacked
jurisdiction or that HCHD’s claims were specifically carved out of
the Mireles lawsuit.”

13

169a
denied because AT&T has failed to meet its burden of
prove as a matter of law all of the elements of res
judicata; this also would not require a conclusion of
law that the Mireles judgment is or is not valid.
Although HCHD’s legal arguments and evidence
should negate elements of res judicata without the
necessity that the ALJ conclude that the Mireles
judgment is invalid, HCHD has nonetheless made its
arguments and provide substantial evidence to prove
or raise a genuine issue of material fact that the
Mireles judgment is invalid or unenforceable against
HCHD and its claims, so that the arguments are not
waived in the event of an appeal. By so doing, AT&T
has failed to meet its burden of proving as a matter of
law all of the elements of res judicata.
16. In a prior PUC complaint, the Commission
described reasons for denying a motion for summary
decision under P.U.C. Proc. R. R. 22.182(a). In
Complaint of West End Square, Ltd. against Oncor
Electric Delivery Company, SOAH Docket No. 473-082640, PUC Docket No. 35409, the Commission entered
an order dated October 13, 2008, rejecting the ALJ’s
proposal to grant a partial summary judgment. The
Commission stated:
“The movant must also establish that it ‘is
entitled to a decision in its favor, as a matter
of law on the issues expressly set forth in the
motion.’ (citing P.U.C. Proc. R. 22.182(a)).
Based upon its review of the pleadings, the
Commission concludes that there are factual
elements that must be established before the
provisions in Oncor’s tariff that are in issue
can be resolved. Consequently, West End did
not met its burden of showing that there is no

170a
genuine issue as to any material fact and that
it is entitled to a decision in its favor as a
matter of law. Consequently, the Commission
reverses Order No. 6.” 14
Similar to the decision in West End Square, Ltd., in
the present docket AT&T has not established that it is
entitled to a decision in its favor as a matter of law on
res judicata, and there are factual elements that were
not established that must be resolved, as described
herein. Therefore, AT&T has not met its burden of
showing that there is no genuine issue as to any
material fact or that it is entitled to a summary
decision in its favor as a matter of law.
17. But if a collateral attack on the Mireles
judgment does become an issue, Assignees of Best Buy,
395 S.W.3d 847, 859 (Tex. App. – Austin 2013, review
denied), provides support for maintaining a collateral
attack in an agency proceeding. In Assignees of Best
Buy, there were orders in a class action judgment that
purported to make class counsel the legal
representative of all of the class members in a tax
refund proceeding before the Comptroller.
The
Comptroller sought to collaterally attack such orders
as void, based on a lack of subject matter jurisdiction.
In footnote 7 of the court’s opinion, the court stated
that “[t]he Comptroller is not bringing a direct attack;
she need not have been a party to the Retailer Suits to
bring a collateral attack. She seeks to avoid the
prior judgments’ effect in the administrative
refund proceedings.” [Emphasis added.]
Even
though HCHD was not a party to Mireles, if AT&T’s
res judicata argument is heard then due process
14 See Order on Appeal of Order No. 6 (PUC Docket No. 35409,
Item No. 57).

171a
should require that HCHD be allowed to counter with
argument, evidence, and authority to negate one of the
elements of res judicata by establishing that HCHD
was not a party and that the Mireles judgment and
settlement are not binding on HCHD, just as the
Comptroller was allowed to do in the administrative
proceeding.
18. In Assignees of Best Buy, 395 S.W.3d at 858859, the court described a collateral attack as follows:
A collateral attack seeks to avoid the binding
force of a judgment in a proceeding not
instituted for the purpose of correcting,
modifying, or vacating that judgment.
Browning v. Prostok, 165 S.W.3d 336, 346
(Tex.2005). The collateral attack is brought by
a party seeking some specific relief that the
judgment currently bars; in this case, the
Comptroller seeks to avoid payment of
aggregated refunds to the Assignees based on
the claims filed by settlement-class counsel.
See id. Because the collateral attack by
definition is not a direct attack and can arise
in a variety of contexts, no set procedure exists
for collaterally attacking a judgment.FN7 See
Texas Dep’t of Transp. v. T. Brown
Constructors, Inc., 947 S.W.2d 655, 659
(Tex.App.-Austin 1997, pet. denied). Only a
void judgment may be collaterally attacked.
Browning, 165 S.W.3d at 346. The judgment of
a court of general jurisdiction is void only when
it is apparent that the court had (1) no
personal jurisdiction over a party or his
property, (2) no jurisdiction over the subject
matter, (3) no jurisdiction to enter the

172a
particular judgment, or (4) no capacity to act
as a court. Sierra Club, 495 S.W.2d at 881–82.
A judgment is also subject to collateral attack
for “fundamental error,” which occurs when “
‘the record shows the court lacked jurisdiction
or the public interest is directly or adversely
affected as that interest is declared in the
statutes or the Constitution of Texas.’ “
Wagner, 315 S.W.3d at 192 (quoting Pirtle v.
Gregory, 629 S.W.2d 919, 920 (Tex.1982)).
Since the Mireles court lacked subject matter
jurisdiction over billing claims against AT&T, a
collateral attack should be permissible, although it is
not the only means for defeating AT&T’s alleged res
judicata defense. 15 See discussion, supra.
The PUC’s jurisdiction to construe and apply
Health & Safety Code Chapter 281
19. AT&T has argued that PURA prevents the ALJ
and Commission from being able to examine and
interpret Texas Health & Safety Code § 281.056.
AT&T has also argued that the ALJ and PUC do have
jurisdiction to examine and interpret the class action
judgment and settlement in Mireles. HCHD alleges
that if AT&T could have its res judicata defense heard,
but HCHD could not have present all of its available
arguments and evidence to negate the res judicata
elements, HCHD would be denied due process. HCHD
contends that AT&T cannot have it both ways; in other
words, the PUC and ALJ must necessarily have the
15 In HCHD’s response to AT&T’s Motion, HCHD also provided
evidence raising a genuine issue of material fact concerning
whether the Mireles judgment was void and vacated pursuant to
its express terms.

173a
authority to examine and interpret both AT&T’s res
judicata defense and evidence, and HCHD’s counterdefenses, arguments and evidence (including, but not
limited to § 281.056); or the PUC and ALJ have no
authority to examine and interpret either of them. In
the Commission’s Order on Certified Issue, the
Commission concluded that it does not have the
authority to construe Health & Safety Code Chapter
281 and does not have the authority to construe class
action rule 42 and other class action matters; and
cannot determine whether or not HCHD is a member
of the Mireles class. But if the Commission cannot
determine whether or not HCHD is a member of the
Mireles class, how can the Commission find res
judicata? The answer is that it cannot.
20. In AT&T’s Appeal, AT&T relies on P.U.C. Proc.
R §22.181(a)(1)(c) to support res judicata jurisdiction,
without the corresponding jurisdiction to construe
Health & Safety Code Chapter 281. But this rule does
not define the scope of the Commission’s authority, or
limit it. A state agency’s powers are limited to (1)
powers expressly conferred by the Legislature, and (2)
“implied powers that are reasonably necessary to carry
out the express responsibilities given to it by the
Legislature.” Texas Mun. Power Agency v Public
Utility Com’nof Texas, 253 S.W.3d 184, 192-193 (Tex.
2007) (citing State v. Public Util. Comm’n, 883 S.W.2d
190, 196 (Tex.1994)). When the Legislature expressly
confers a power on an agency, it also impliedly intends
that the agency have whatever powers are reasonably
necessary to fulfill its express functions or duties. Id.
at 193. In ascertaining the scope of an agency’s
authority, the Texas Supreme Court gives great
weight to the agency’s own construction of a statute.
Id. at 192. Texas Utilities Code §14.051 et seq.

174a
appears to be the portion of the Public Utility
Regulatory Act (“PURA”) that provides the
Commission with the power to decide contested
matters involving claims within the Commission’s
jurisdiction. It is reasonable that this power would
impliedly include the power to decide legal issues that
would negate an element of a res judicata defense such
as Health & Safety Code § 281.056, because without
that power the Commission could not fairly adjudicate
contested claims, resources would be wasted, and due
process would be denied.
21. The Commission’s decision to be “expeditious”
and let the courts decide the purported jurisdictional
issue is unsupportable because the Commission has
previously dealt with similar issues without having to
seek court involvement. For example, in PUC Docket
34332, SOAH Docket No. 473-07-3696, another
complaint involving HCHD which was heard by this
ALJ, the Commission entered an order interpreting
the Prompt Payment Act. 16 In its final order, the
Commission also made findings of fact and conclusions
of law regarding the Prompt Payment Act. 17
22. Clearly, the Commission has previously
decided that it has the authority to interpret and
decide issues involving other statutes that bear on the
merits or defenses of an overbilling complaint by
HCHD (i.e., the Prompt Payment Act). 18
See SOAH Docket No. 473-07-3696, PUC Docket No. 34332;
Order Denying Appeal of Order No. 19 filed July 16, 2008 (PUC
Docket No. 34332, Item No. 162).

16

17 See SOAH Docket No. 473-07-3696, PUC Docket No. 34332;
Order filed April 15, 2009 (PUC Docket No. 34332; Item No. 245).
18 Not only did the Commission do this regarding the Prompt
Payment Act in Docket No. 34332, it also did it in PUC Docket

175a
23. In summary, the Commission erred in its Order
on Certified Issue wherein it concluded that the
Commission does not have authority to construe
Health & Safety Code Chapter 281, or determine that
HCHD was not a member of the Mireles class. The
Commission also erred in its finding that res judicata
bars HCHD’s claims.
HCHD’s Proposed Findings of Facts
24. HCHD suggests that the following findings of
fact should be made in any Proposal for Decision
issued by the ALJ in this case:
(1)

On November 24, 1965, an “Order Canvassing
Returns and Declaring Results of Special
Election”, was passed and approved by the
Harris County Commissions Court, which
created HCHD. 19

(2)

HCHD has brought claims against AT&T in
PUC Docket No. 40235 alleging that charges
on Southwestern Bell Telephone Company

Nos. 11735, 20 Tex. P.U.C. Bulletin 1029, Proposal for Decision,
(Jan 28, 1994) at 300-301; and Docket No. 21423, ORDER
ADOPTING NEW §§26.21 - 26.24 AND §§26.26 - 26.28, §§26.30
& 26.31 AS APPROVED AT THE 11/6/00 OPEN MEETING AND
SUBMITTED TO THE SECRETARY OF STATE, December 6,
2000, at 37. The PUC has also entered adopted Substantive Rules
addressing the Prompt Payment Act. See Rules §§25.33 and
25.482.
19 See HCHD’s Response to AT&T’s Motion for Summary Decision
filed December 23, 2014 at p. 12 (PUC Docket No. 40235, Item
No. 168); Exhibit STIP-23; Stipulations and Joint Request for
Official Notice filed December 2, 2014 (hereinafter referred to as
“Stipulations”), Exhibit STIP-23 (PUC Docket No. 40235, Item
No. 162). HCHD’s Response to AT&T’s Motion for Summary
Decision is hereinafter referred to as “HCHD’s Response to
AT&T’s MSD”.

176a
phone bills described as “municipal charges”
or “special municipal charges” from October 1,
1991 through May 31, 2000, and the collection
of those charges by AT&T or its predecessor
entity, were not authorized by any tariff filed
with and approved by the PUC. HCHD has
also alternatively alleged in its pleadings in
this docket that AT&T’s charges violated a
stipulation and Commission order filed in
PUC docket 8585; AT&T discriminated in
charging the municipal charges or special
municipal charges; and AT&T did not have a
valid tariff allowing it to make apply the
municipal charges or special municipal
charges to certain SmartTrunk and Digital
Loop services. All of the foregoing claims are
hereinafter referred to as the “municipal
charge claims.” 20
(3)

The municipal charge claims were initially
brought in the 333rd District Court of Harris
County, Texas, Cause No. 2010-28461, styled
Harris
County
Hospital
District
v.
Southwestern Bell Telephone Company d/b/a
AT&T Texas, but were dismissed by the

20 See HCHD’s Complaint filed March 16, 2012 (PUC Docket No.
40235, Item No. 1); see HCHD’s Response to AT&T’s MSD filed
December 23, 2014 (PUC Docket No. 40235, Item No. 168); see
HCHD’s Reply to Commission Staff’s Response in Support of
AT&T’s Motion for Summary Decision filed January 6, 2015
((PUC Docket No. 40235, Item No. 169) (hereinafter referred to
as “HCHD’s Reply to PUC Staff regarding AT&T’s MSD”); see
HCHD’s Surreply to AT&T’s Reply to HCHD’s Response to
AT&T’s Motion for Summary Decision filed January 12, 2015
(PUC Docket No. 40235, Item No. 172) (hereinafter referred to as
HCHD’s Surreply regarding AT&T’s MSD”)

177a
court’s order ruling on AT&T’s plea to the
jurisdiction which alleged that the PUC has
exclusive jurisdiction over the municipal
charge claims. 21

21

(4)

AT&T was previously a defendant in a class
action lawsuit styled Jose Mireles v.
Southwestern Bell Telephone Company, No.
98-07-3003-E, 357th District Court of
Cameron County, Texas (“Mireles”). 22

(5)

A Class Action Settlement Agreement dated
December 15, 1999 was filed in the Mireles
case on December 16, 1999 (the “Mireles
Settlement Agreement”). 23

(6)

An Order and Final Judgment Nunc Pro Tunc
dated May 22, 2000 was signed by the Mireles
judge (the “Mireles Judgment”). 24

(7)

The Harris County Attorney did not represent
HCHD in Mireles. 25

(8)

The board of HCHD did not engage additional
counsel to represent it in Mireles. 26

See Stipulations, Exhibits STIP-10 and STIP-15.

22 See Stipulations, Exhibit STIP-2 and STIP-3; see HCHD’s
Response to AT&T’s MSD, Exhibit H-9.
23

See Stipulations, Exhibit STIP-3.

24

See Stipulations, Exhibit STIP-2.

25 See HCHD’s Response to AT&T MSD at pp. 6, and Affidavit of
Sara Thomas; see HCHD’s Surreply regarding AT&T’s MSD, at
pp. 16-19.
26

Id.

178a
(9)

The Mireles Judgment has a provision that
defines the Settlement Class as follows: 27
The Settlement Class is defined as:
All persons and entities who currently
reside in the State of Texas who subscribe,
or formerly subscribed, to telephone
service provided by SWBT and pay, or paid,
to SWBT a municipal fee imposed
pursuant to a municipal ordinance, other
than an ordinance based upon a percentage
of gross receipts, and collected pursuant to
tariff or statute.
Excluded from the Class are (a) SWBT, and
the directors and officers thereof; (b) the
subsidiaries, parents, and affiliates of
SWBT, and the directors and officers
thereof; (c) any person or entity in which
any excluded person has a controlling
interest; (d) members of the immediate
family of any of the foregoing, if a natural
person; (e) the members, employees, and
agents of the 357th Judicial District Court
of Cameron County, Texas, including any
trial or presiding judge; and (f) the legal
representatives,
heirs,
successors-ininterest, and assigns of any excluded
person.

(10) The Mireles Judgment states in paragraph 7: 28

27 See Stipulations, Exhibit STIP-2; see HCHD’s Response to
AT&T MSD at pp. 9, 26-27.
28

See Stipulations, Exhibit STIP-2.

179a
[T]he Court directs that the settlement be
consummated in accordance with the
terms and conditions of the Settlement
Agreement.
(11) The Mireles judgment has a provision which
states: 29
11. In the event that the settlement does
not become Final in accordance with the
terms of the Settlement Agreement, then
this Order and Final Judgment shall be
rendered null and void and be vacated.
(12) The Settlement Agreement defines “Final
Approval” as: 30
Final Approval. “Final Approval” means
the date of occurrence of the last to occur of
each of the following: (a) entry of an Order
and Final Judgment substantially in the
form attached hereto as Exhibit “E” finally
approving this Agreement; and (b) either
expiration of all direct appeal periods or
the final affirmance of the Final Judgment
by the highest court having jurisdiction of
the appeal of such Final Judgment, or the
final dismissal or denial of any and all
appeals from the Final Judgment.
(13) The Settlement Agreement has provision
which states: 31

29

Id.

30 See Stipulations, Exhibit STIP-3; Section I of the Settlement
Agreement; HCHD’s Response to AT&T’s MSD at pp. 22-26.
31

Id.

180a
4. The Three Million Dollars ($3,000,000)
cash component of the Settlement Benefits
Fund shall be paid in its entirety to the
TIFB in the form of two separate grants as
follows:
(a) A grant to the TIFB in the amount of
Two Million Dollars ($2,000,000) to be used
or distributed by the TIFB for salaries of
regional Web Librarians for the Texas
Internet
Collaborative
Community
Networks (“CCNs”) for the two-year life of
the program.
(b) A grant to the TIFB in the amount of up
to One Million Dollars ($1,000,000) to be
used or distributed by the TIFB for local
advertising of web sites or for training of
users or Web Librarians for the CCNs.
(14) The Settlement Agreement defines TIFB as
the Texas Telecommunications Infrastructure
Fund Board. 32
(15) The Settlement Agreement also contains the
following provisions, to-wit: 33
Section III.A.1 of the Settlement Agreement:
This Agreement represents the Parties’
preliminary agreement to settle the
Lawsuit. The Agreement is subject to and
conditioned upon: (i) the Parties’ further
negotiation and execution of any necessary
32 Id. at Section I; HCHD’s Response to AT&T’s MSD at pp. 2226.
33 See Stipulations, Exhibit STIP-3; HCHD’s Response to
AT&T’s MSD at pp. 22-26.

181a
settlement documents; (ii) reasonable
confirmatory discovery between the
Parties; and (iii) Preliminary and Final
Judicial Approval of the Agreement.
Section III.A.2 of the Settlement Agreement:
In the event that any of the above events
do not occur for any reason or Preliminary
or Final Approval is not obtained for any
reason, then (i) this Agreement shall
become null and void; (ii) the Parties shall
be restored to their respective positions
prior to the execution of this Agreement;
(iii) the Parties hereby agree to jointly
move the Court to vacate any and all orders
entered pursuant to this Agreement; (iv)
litigation of the Lawsuit shall continue;
and (v) the settlement, this Agreement and
all negotiations related thereto shall be
inadmissible in future proceedings.
Section III.N. of the Settlement Agreement
provides, in pertinent part, as follows:
1. If this Agreement is terminated for any
reason prior to Final Approval, or if any of
the orders set out in the Exhibits to this
Agreement are not entered substantially
as reflected in those Exhibits, or if the
settlement
contemplated
by
this
Agreement is not concluded substantially
as described in this Agreement with an
order of the Court approving the
settlement, the Agreement and all other
acts taken to effect a proposed settlement
will be void and of no effect . . .

182a
2. If Final Approval does not occur, or if
this Agreement is terminated or canceled
pursuant to its terms, Plaintiffs and SWBT
shall be deemed to have reverted to their
respective status as of the date and time
immediately prior to the execution of this
Agreement, and they shall proceed in all
respects as if this Agreement and related
orders had not been executed. In such
event, the terms and provisions of this
Agreement shall have no further force and
effect with respect to Plaintiffs and the
Released Parties and shall not be used in
this or any other litigation or any other
proceeding for any purpose, and any orders
or judgment entered by the Court in
accordance with the terms of this
Agreement shall be treated as vacated,
nunc pro tunc.
(16) The Mireles Findings of Fact and Conclusions
of Law state in paragraph 16 as follows: 34
Finally, the Court concludes that
disbursing the settlement funds to and by
means
of
the
Telecommunications
Infrastructure Board (“TIFB”) is a fair,
appropriate and adequate way to
compensate the Settlement Class. Indeed,
under the circumstances, the payment to
TIFB is the best way to provide
compensation to the Settlement Class.

34 See Stipulations, Exhibit STIP-21; HCHD’s Response to
AT&T’s MSD at pp. 22-26.

183a
(17) In June 2003, TIFB was eliminated by
Proclamation of Texas Governor Rick Perry,
who also entered an Executive Order to close
out all TIFB grants and funding. 35
(18) The Thirteenth Court of Appeals issued a
mandate on an appeal from the Mireles
Judgment on February 25, 2004. 36
HCHD’s Proposed Conclusions of law
25. HCHD suggests that the following conclusions
of law should be made in any Proposal for Decision
issued by the ALJ in this case:
(1)

Harris County Hospital District is a political
subdivision of the State of Texas, created on
November 24, 1965, pursuant to Article IX,
Section 4, of the Constitution of Texas, and
Chapter 266, Acts of the Fifty-third
Legislature, Regular Session, 1953, as
amended, (codified as Article 4494n, Vernon’s
Texas Civil Statutes). 37

(2)

Under Tex. Health & Safety Code § 281.056,
as it existed at the time of the Mireles lawsuit,
it was mandatory that the County Attorney for
Harris County represent the HCHD in all civil
matters; HCHD could also employ additional
counsel if its board determines it to be
advisable. 38

35 VETO MESSAGE OF GOV. PERRY, TEX. H.B. 1, 78th Leg.
(2003); HCHD’s Response to AT&T’s MSD at pp. 22-26.
36

HCHD’s Response to AT&T’s MSD at pp. 22 at footnote 15.

37 See Stipulations; Exhibit STIP-23; HCHD’s Response to
AT&T’s MSD at pp. 12, 16.
38

See HCHD’s Surreply regarding AT&T’s MSD at p. 5-8.

184a
(3)

HCHD was not a member of the Mireles class,
because of the application of Health & Safety
Code § 281.056. 39

(4)

The municipal charge claims being made by
HCHD are within the exclusive jurisdiction of
the PUC, because of Texas Utilities Code §
52.002 and § 17.157; and In re Sw. Bell Tel.,
Co., 235 S.W.3d 619, 625-626 (Tex. 2007). 40

(5)

The definition of the Mireles Settlement Class
is not based on objective criteria because a
determination of whether HCHD paid to
SWBT a “municipal fee imposed pursuant to a
municipal ordinance, other than an ordinance
based upon a percentage of gross receipts, and
collected pursuant to tariff or statute,” is a
determination
within
the
exclusive
jurisdiction of the PUC which has not yet been
made. 41

39 See HCHD’s Response to AT&T’s MSD at pp. 12-16; HCHD’s
Surreply regarding AT&T’s MSD, at pp. 5-8, 16-19; HCHD
Response to AT&T Appeal of Order No. 24 filed March 2, 2015
(hereinafter referred to as “HCHD Response to AT&T Appeal”),
at pp. 12-13 (PUC Docket No. 40235, Item No. 187); HCHD Brief
in Support of a “No” Answer to the ALJ’s Certified Question to
the Commission filed February 4, 2015, at pp. 17-19 (PUC Docket
No. 40235, Item No. 179) (hereinafter referred to as “HCHD Brief
on Certified Question”).

See HCHD’s Response to AT&T’s MSD at pp. 7, 16-22; HCHD’s
Surreply regarding AT&T’s MSD, at pp. 2-4; HCHD Response to
AT&T Appeal at pp. 13-16; HCHD Brief on Certified Question at
pp. 5-7, and 9 at footnote 16.

40

41 See HCHD’s Response to AT&T’s MSD at p. 9, 26-27; HCHD
Response to AT&T Appeal at p. 13; HCHD Brief on Certified
Question at p. 11.

185a
(6)

There is a genuine issue of material fact
concerning whether certain conditions
rendered the Mireles Settlement Agreement
are null and void pursuant to its own terms,
which precludes the granting of AT&T’s
Motion for Summary Decision. 42

(7)

There is a genuine issue of material fact
concerning whether certain conditions
rendered the Mireles Judgment are null, void
and vacated pursuant to its own terms, which
precludes the granting of AT&T’s Motion for
Summary Decision. 43

(8)

There is a genuine issue of material fact as to
the nature of the Mireles claims, which
precludes the granting of AT&T’s Motion for
Summary Decision. 44

(9)

AT&T has not met its burden because it did
not prove as a matter of law all of the elements
of res judicata.

(10) HCHD has negated as a matter of law, at least
one of the elements of res judicata.

See HCHD’s Response to AT&T’s MSD at p. 7-8; 26-27; HCHD’s
Surreply regarding AT&T’s MSD at pp. 11-12, 16.

42

43

Id.

44 AT&T has provided no summary decision evidence as to the
claims that were being made by the Mireles plaintiffs. More
specifically, there are no Mireles plaintiff’s pleadings filed in the
summary decision record by either AT&T or HCHD (e.g., there is
no original petition or petition at the time of the Mireles
Judgment), and it is AT&T’s burden to establish all elements of
res judicata including the element that claims being made in this
proceeding are the same claims that were made in Mireles, or that
could have been made in Mireles.

186a
(11) Res judicata is not a bar to HCHD’s claims
being made against AT&T in this PUC Docket
No. 40235.
SOAH Order No. 24, the Order on Certified
Issue, and the Order on Interim Appeal
26. In SOAH Order No. 24, the ALJ found that “as
a matter of law, HCHD was not included in the class
represented in the Mireles lawsuit and, thus, its claims
were not resolved by that lawsuit.” SOAH Order No.
24 also stated:
The ALJ recognizes that this decision is based
upon his interpretation of a relatively
unresolved issue of law. Because the
Commission has final authority to decide issues
of applicable law, the A.LJ is willing to abate
this case and certify the following question to
the Commission, if any party desires:
Can HCHD, in light of its status as a
legislatively-created governmental entity
and the requirements of Texas Health &
Safety Code 281.056, be bound by a class
action settlement if it did not take
affirmative action to participate in such
lawsuit or settlement?
AT&T informed the ALJ of its desire that the
Commission answer the question, which was certified
by SOAH Order No. 25. But in its Order on Certified
Issue, the Commission held:
The presiding officer, here the SOAH ALJ, may
certify an issue to the Commission “that
involves an ultimate finding of compliance with
or satisfaction of a statutory standard the
determination of which is committed to the

187a
discretion or judgment of the commission by
law.”5 Three categories of issues are specifically
identified in the Commission’s rule for
certification.6 Ordinarily, certified issues seek
an interpretation of a provision of the Public
Utility Regulatory Act (PURA), a statute this
Commission is responsible for administering
and enforcing, or a Commission rule or order or
Commission policy.
The issue certified – whether the legal status of
the Hospital District and the requirements of
Texas Health & Safety Code § 281.056
precluded the Hospital District from being a
class member of a class action brought pursuant
to Texas Rules of Civil Procedure Rule 42 –
raises several issues that are beyond the PURA
and Commission rules and orders. Two of the
issues the legal status of the district and its
authority to sue and be sued – would require the
Commission to construe provisions of chapter
281.
The Commission has not been authorized by
any law to determine the legal status of a
hospital district or the capacity of a district to
sue or be sued. A third issue raised by this
certification would require the Commission to
construe rule 42 of the Texas Rules of Civil
Procedure, which “govern the procedure in the
justice, county, and district courts” of Texas.7
Again, no law has authorized this Commission
to determine the membership of a class or any
other matter related to class action under rule
42. None of these issues are the type of issue
identified in the certification rule nor do any

188a
involve the compliance with or satisfaction of a
statutory standard the determination of which
is committed to the discretion or judgment of
the Commission by law. Consequently, the issue
identified by the SOAH ALJ is not eligible for
certification under the Commission’s rule.
Additionally, even if the issue were eligible for
certification, it is procedurally improper. In
reaching the ruling on ATT’s motion for
summary decision, the SOAH ALJ has already
decided the issue that was certified to the
Commission. The purpose of certifying issues is
to allow the Commission to give guidance to an
ALJ so that the ALJ may decide a matter, not
that it be decided by the Commission. Since the
SOAH ALJ has already decided the precise
issue upon which certification is sought, the
SOAH ALJ no longer needs an answer to the
certified issue and certification was improper. If
parties disagree with a decision of the ALJ, an
appeal to the Commission, not certification, is
the proper route.8
5

16 Tex. Admin. Code § 22.127(a).

6

Id. § 22.127(b).

7

Tex. R. Civ. P. 42.

8

16 Tex. Admin. Code § 22.123

AT&T then filed its Appeal of SOAH Order No.24.
During the Open Meeting on March 26, 2015, the
Commission found that the filing of AT&T’s appeal
was late, but granted leave on the Commission’s own
motion. Excerpts from the transcript of the meeting
are below:

189a
At p. 59, at l. 9:
CHAIRMAN NELSON: “If we hold – if we say
the Hospital District is barred by res judicata
here, they will appeal it. It will go to court. So
I’m ready for some finality here on this issue.”
COMM. ANDERSON: Well, there’s a lot of
merit to that approach.
At p. 61, at l. 1:
COMM. ANDERSON:
“I feel that a
determination by a District Court would – is
more certain, because the one risk if we decide
res judicata and, therefore, dismiss it, you
appeal it under our statute and the APA and it
is theoretically possible that a judge – that the
Court of Appeals can say, “We’re not going to
address the merits of res judicata.”
At p. 62, at l. 23:
CHAIRMAN NELSON: “I think if you look at
the underlying case we have the authority. So I
think we have the ability to make the decision
on res judicata, and I think this just makes
sense.”
At p. 63, at l. 2:
COMM. MARQUEZ: “I’m inclined to say that
we – I mean, this is a tough, but I’m inclined to
say let’s make the decision on res judicata and
then we’ll certainly learn whether or not this is
something that we need to take forward to the
Legislature next time around. But just for
expediency sake, this has been – it’s time to get
these folks moving.

190a
CHAIRMAN NELSON: “So you would say we
do have res judicata –
COMM. MARQUEZ: “Yes.
CHAIRMAN NELSON: “ – ability?
COMM. MARQUEZ: “Uh-huh.
CHAIRMAN NELSON:
think it is res judicta?

“Okay.

And do you

COMM. MARQUEZ: “Yes.
At p. 64, at l. 20:
CHAIRMAN NELSON:
“Right.
I was
frustrated when the certified issue came up. I
wanted to answer it. So as a compromise I
agreed with you-all on the certified issue, but I
invited AT&T to come back and re-allege this
specific argument so that we could then –
At p. 65, l. 1:
COMM. ANDERSON: “Well, I’ll join in the
order if for no other reason than perhaps we’ll
get some clarity in the courts about this, how far
– whether we have ancillary jurisdiction, if you
will.
CHAIRMAN NELSON: Okay. So with that, I
will entertain a motion to grant AT&T’s appeal
and rule as discussed.
COMM. ANDERSON: You have the motion.
COMM. MARQUEZ: And I second.
CHAIRMAN NELSON:
Okay.

Okay.

Thank you.

191a
27. It is clear from the above dialogue that each
Commissioner indicated his or her belief that the
Commission has jurisdiction to hear the issue of res
judicata. But the Commission’s Order on Certified
Issue only a month earlier was unmistakable in its
conclusion that the Commission does not have any
“authority” (which HCHD interprets to mean
jurisdiction) to “construe provisions of Chapter 281” of
the Health & Safety Code, or “determine the legal
status of a hospital district or the capacity of a district
to sue or be sued”, or “determine the membership of a
class or any other matter related to class action under
rule 42.” 45 And there was not a single statement made

One would think that if the Commission has authority or
jurisdiction to hear and decide res judicata, it would also have
jurisdiction to hear and decide any other issue and evidence that
would negate a res judicata element. Likewise, if the Commission
rules that it does not have the authority or jurisdiction to an
argument and evidence that would negate an element of res
judicata, then it stands to reason that it would not be able to
decide res judicata because to do otherwise would deny HCHD
due process and a fair hearing. What makes these two rulings
irreconcilable and illogical is because, in order for the
Commission to decide the res judicata issue being raised by AT&T
the Commission must interpret class action rules and laws and
an alleged state court judgment because these are the basis of
AT&T’s res judicata argument, but the Commission already
determined in the Order on Certified Issue that it has no
authority to construe class action rules, laws and related matters.
In making its finding in its Order on Interim Appeal that res
judicata bars HCHD’s claim, the Commission does not explain
how it has jurisdiction to decide AT&T’s res judicata claim
without considering the class action rules and the state court
judgment, or how it can decide res judicata without considering
all of HCHD’s considerable arguments and evidence that disprove
or raise genuine issues of material fact as to the elements of res
judicata. The Commission does not explain this because any

45

192a
during the Open Meeting or in the Order on Interim
Appeal indicating a reversal of these conclusions in the
Order on Certified Issue concerning the Commission’s
lack of authority to construe and determine these
matters. Thus, the only conclusion that can be drawn
is that the Commissioners’ res judicata finding is not
supported by substantial evidence, and is arbitrary,
capricious, and/or an abuse of discretion, which has
denied HCHD due process. Texas Health Facilities
Com’n v. Charter Medical-Dallas, Inc., 665 S.W.2d
446, 454 (Tex. 1984) (“agency decisions that are
unsupported by substantial evidence have been
deemed arbitrary and capricious.”) Such a decision
denies HCHD its due process right and opportunity to
prove that it was not party in Mireles or in privity with
a party, which would have negated an element of res
judicata. More specifically, HCHD has been denied
the due process right and opportunity to prove that
HCHD was not represented by the Harris County
Attorney in Mireles as required under Health & Safety
Code § 281.056(a), and that Mireles class counsel was
not approved by the HCHD board as required under §
281.056(b), and therefore, HCHD was not a member of
the Mireles class.
28. In Texas Health Facilities Com’n, the court
stated:
We held that instances may arise in which the
agency’s action is supported by substantial
evidence, but is arbitrary and capricious
nonetheless. One such instance is when a denial
of due process has resulted in the prejudice of
substantial rights of a litigant.
explanation it would be contrary to logic, reason, and the
applicable law.

193a
Another example of arbitrary action by an
agency is Railroad Commission v. Alamo
Express, 158 Tex. 68, 308 S.W.2d 843 (1958).
Therein, this Court found that the agency had
acted in an arbitrary manner when it failed
totally to make findings of fact and instead
based its decision on findings in another case.
Arbitrary and capricious agency action also may
be found when an agency improperly bases its
decision on non-statutory criteria. Public Utility
Commission
v.
South
Plains
Electric
Cooperative, Inc., 635 S.W.2d 954, 957
(Tex.App.—Austin 1982, writ ref’d n.r.e.).
In this complaint, there is no substantial evidence
to support any conclusion that res judicata bars
HCHD’s claims; but even if there had been,
arguendo, substantial rights of HCHD have
nonetheless been prejudiced because the
Commission has refused to hear and decide
HCHD’s evidence and arguments negating the
elements of res judicata, including, but not limited
to, HCHD’s arguments and supporting evidence
that 1) Health & Safety Code § 251.056 prevents
HCHD from being a member of Mireles; 2) the
Commission’s exclusive jurisdiction over HCHD’s
claims prevents HCHD’s claims from being
adjudicated or settled in Mireles; 46 and 3) there are
“genuine issues of material fact” as to: 47
a)
Jose Mireles v. Southwestern Bell Tel. Co., No. 98-07-3003-E,
Order and Final Judgment (357th Dist. Ct., Cameron County,
Texas May 4, 2000); see Stipulations, Exhibit STIP-2.
46

These genuine issues of material fact would preclude a
summary decision, even if Health & Safety Code did not as a
matter of law exclude HCHD from being in Mireles.

47

194a
whether HCHD was described as a class member
in Mireles, b) whether the Mireles judgment 48 is
null, void and vacated pursuant to its own terms
and conditions; c) whether HCHD’s claims are the
same claims that were made, or could have been
made, in Mireles; and d) as to the nature of the
Mireles claims. All of these grounds preclude a
summary dismissal under P.U.C. Proc. R.
22.181(a), or a summary decision under P.U.C.
Proc. R. §22.182(a), as described in more detail
below and in HCHD’s response and response
evidence in opposition to AT&T’s motion for
summary decision. Consequently, HCHD is being
denied due process.
The Order on Interim Appeal is not a Final
Order or Order that May Become Final
29. In PUC Docket No. 40235, Item No. 204,
“Commission Advising” informed the parties that “No
commissioner has voted to add the Motion for
Reconsideration or the request for oral argument to an
open meeting agenda.” This was in response to the
Motion for Rehearing and Request for Oral Argument
filed by HCHD on April 29, 2015. 49 In HCHD’s filing
at paragraph 46, HCHD pleaded the following:
IV.
ALTERNATIVE
RECONSIDERATION

MOTION

FOR

46. If the Commission now deems its
Order on Interim Appeal an “interim order” as
48 See Stipulations, Exhibit STIP-2; Order and Final Judgment
Nunc Pro Tunc (May 22, 2000).

See Harris County Hospital District’s Motion for Rehearing and
Request for Oral Argument (PUC Docket No. 40235, Item No.
201).

49

195a
described in P.U.C. Proc. R. 22.123 for which a
motion
for
reconsideration
would
be
appropriate (not a motion for rehearing), and
does not deem it to be a final order or an order
that may become final, then HCHD
alternatively asks for leave to file this as a
motion for reconsideration showing good cause
to be the confusion created by statements made
by the Commissioners during the open meeting
about finality and appeals, and the position of
PUC Staff that the Order on Interim Appeals
has finality.
By Commission Advising’s characterizing HCHD’s
filing as a “Motion for Reconsideration, HCHD believes
that the Commission has determined that its Order on
Interim Appeal is not a final order or an order that
may become final.
30. In response to HCHD’s Motion for
Reconsideration, PUC Staff stated:
Staff recommends that this case may be
dismissed pursuant to 16 TAC § 22.181 or may
be disposed of using the summary decision
procedures in 16 TAC § 22.182. In either case,
Staff recommends that the ALJ prepare a
proposal for decision, including findings of fact
and conclusions of law, for the Commission to
consider at an open meeting.
In footnote 5 of Staff’s response, Staff stated:
Commissioner Anderson’s memorandum on this
matter, if an ALJ determines that an entire
matter should be resolved through the
summary decision process or by dismissal with
prejudice, a proposal for decision should be

196a
prepared for the Commission’s consideration at
an open meeting. Complaint of Danny Moffatt
Against Texas Wind Stream, Inc., Docket No.
40962,
Memorandum
of
Commissioner
Anderson (Feb. 14, 2013).
Staff apparently agrees with HCHD’s position that if
the ALJ were to enter an order dismissing HCHD’s
claims, arguendo, the ALJ should issue a Proposal for
Decision with findings of facts and conclusions of law.
If the ALJ does not issue a Proposal for Decision with
findings of facts and conclusions of law, HCHD
believes that any such dismissal would be appealed to
the Commission and then it would have to return to
the ALJ again for a Proposal for Decision with findings
of fact and conclusions of law, which would add more
delay. 50
31. Texas Utilities Code Section 14.057(a) states
that “[a] commission order must be in writing and
contain detailed findings of the facts on which it is
passed.” The Commission’s Order on Interim Appeal
contains no detailed findings of facts on which it was
passed. Texas Government Code § 2001.141(c) states
that “[f]indings of fact may be based only on the
evidence and on matters that are officially noticed.”
The Order on Interim Appeal does not even mention
any evidence, or matters officially noticed, on which to
base any findings of fact to support a res judicata bar
HCHD believes it would come back to the ALJ because if it was
dismissed under § 22.181(a)(1)(C), then § 22.181(a)(4) allows the
dismissal to be appealed pursuant to § 22.123, thereby treating
the dismissal as an interim order. And before any order may
become a final order, P.U.C. Procedural Rule §22.261(a) requires
a proposal for decision together with findings of fact and
conclusions of law. See §22.261(a), supra.

50

197a
of HCHD’s claims.
Therefore, any Proposal for
Decision by the ALJ must have findings of fact and
conclusions of law to support any proposed final order
on res judicata. 51
So what exactly is the Order on Interim
Appeal?
32. The Order on Interim Appeal did not comply
with P.U.C. Procedural Rule § 22.262.
Section
22.262(a) only allows the commission to “vacate or
modify an order issued by the administrative law
judge” if the commission:
(1) determines that the administrative law
judge:
(A) did not properly apply or interpret
applicable law, commission rules or policies,
or prior administrative decisions; or
(B) issued a finding of fact that is not
supported by a preponderance of the
evidence; or
(2) determines that a commission policy or a
prior administrative decision on which the
administrative law judge relied is incorrect or
should be changed.
The
Commissioners
made
none
of
these
determinations; therefore, the Order on Interim
Appeal did not vacate or modify SOAH Order No. 24.
Further, P.U.C. Procedural Rule § 22.262(b) states:

51 Of course, HCHD contends that there are no facts or evidence
to support a summary decision on res judicata, or at the very
least, there are genuine issues of material fact precluding
summary decision.

198a
The commission shall state in writing the
specific reason and legal basis for its
determination under subsection (a) of this
section.
The Commissioners did not do this either.
33. P.U.C. Procedural Rule § 22.263(a) states:
(1) A final order of the commission shall be in
writing and signed by a majority of the
commissioners.
(2) A final order shall include findings of fact and
conclusions of law separately stated and may
incorporate findings of fact and conclusions of law
proposed within a proposal for decision.
(3) Findings of fact, if set forth in statutory
language, shall be accompanied by a concise and
explicit statement of the underlying facts
supporting the findings.
(4) The final order shall comply with the
requirements of §22.262(b) of this title (relating to
Commission Action after a Proposal for Decision).
The Order on Interim Appeal does not include findings
of fact and conclusions of law separately stated, or
findings of fact set forth in statutory language; nor
does it comply with §22.262(b).
34. If the Order on Interim Appeal did not modify
or vacate SOAH Order No. 24, 52 and is not a final order
or an order that may become final, then what is it?
HCHD contends that it was merely a subterfuge to
answer a certified issue that the Commission is
It did not reverse or change the ALJ’s findings, or grant
AT&T’s Motion for Summary Decision.
52

199a
prohibited from answering, and a pretense to use res
judicata to dismiss this case when the Commission
could not otherwise do so for the reasons stated in its
Order on Certified Issue, and because the facts and
law do not support a dismissal. In other words, it was
an attempt to influence the ALJ’s finding of facts and
applications of the law, in violation of Texas
Government Code § 2001.058(d).
35. HCHD contends that the ALJ was correct when
he found that HCHD was not a member of Mireles
class because of Health & Safety Code § 281.056;
therefore, HCHD respectfully requests that the ALJ
disregard the Commission’s finding that res judicata
bars HCHD’s claims.
II. PROCEDURAL
POINTS
OF
ERROR
CONCERNING AT&T’S APPEAL OF SOAH
ORDER NO. 24
An appeal of SOAH Order No. 24 should not
have been available to AT&T
36. The Commission also erred in allowing AT&T
to appeal SOAH Order No. 24, because SOAH Order
No. 24’s denial of res judicata was a denial of a final
summary decision; it was not a denial of a “partial”
summary decision. Clearly, AT&T’s motion on res
judicata sought a final decision. But P.U.C. Proc. R.
§22.182(e) specifically limits an appeal of a denial of a
summary decision to a “partial summary decision.” 53
There is not a Commission rule authorizing an appeal
of a denial of a final summary decision.

P.U.C. Proc. R. §22.182(e) states, in relevant part: “An order
granting or denying partial summary decision is appealable to the
commission.” [Emphasis added.]

53

200a
37. P.U.C. Proc. R. §22.123(a)(2) states, in relevant
part, as follows:
Appeals are available for any order of the
presiding officer that immediately prejudices a
substantial or material right of a party, or
materially affects the course of the hearing,
other than evidentiary rulings.
An appeal of SOAH Order No. 24 was not available to
AT&T under this rule for several reasons, described
below.
Order No. 24 did not prejudice AT&T or affect
the course of the hearing
38. First, the ALJ denying AT&T’s motion for
summary decision on res judicata grounds is not
prejudicial, nor does it affect the course of the hearing.
As the Commission stated in the Complaint of Joe
Shields, supra, since a motion for summary decision is
similar to a motion for summary judgment, it should
be helpful to analyze motions for summary judgments
on this issue at this point.
39. A motion for summary decision under P.U.C.
Proc. R. §22.182 is similar to a motion for summary
judgment under Tex. R. Civ. P. 166a. Texas courts
have held that the denial of a motion for summary
judgment would not be reviewable on appeal.
Ackermann v. Vordenbaum, 403 S.W.2d 362, 365 (Tex.
1966). Under Rule 166a, it has been held that an order
denying a motion for summary judgment “does not
finally decide any question before the court and [the
court] do not think it has the effect of limiting the
power of the trial court in any way.” Anderson v.
Bormann, 489 S.W.2d 945, 947 (Tex. App. – San
Antonio 1973, writ ref’d n.r.e.). Nothing in TRCP Rule

201a
166a places a limitation on the number of motions for
summary judgment which may be filed. Id. Similarly,
there does not appear to be any limit to the number of
motions for summary decision a party may file under
the P.U.C. Procedural Rules, or how soon a party may
file one. Consequently, there is no prejudice and the
course of the hearing is not changed by the denial of a
motion for summary decision.
40. A trial court also has the inherent authority to
change or modify any interlocutory order or judgment
until the judgment becomes final. A trial court may, in
the exercise of discretion, properly grant summary
judgment after having previously denied summary
judgment without a motion by or prior notice to the
parties, as long as the court retains jurisdiction over
the case. H.S.M. Acquisitions, Inc. v. West, 917 S.W.2d
872, 876 -877 (Tex.App.–Corpus Christi 1996, writ
denied). Similarly, there is nothing final about the
ALJ’s Order No. 24; therefore, there was no prejudice
or change in the course of the hearing.
41. Federal courts handle summary judgments
similarly. See Lind v. United Parcel Serv., Inc., 254
F.3d 1281, 1285–86 (11th Cir. 2001) (“even in the
absence of a factual dispute, a district court has the
power to ‘deny summary judgment in a case where
there is reason to believe that the better course would
be to proceed to a full trial.’’”); Kunin v. Feofanov, 69
F.3d 59, 62 (5th Cir. 1995) (per curiam) (affirming and
attaching the district court’s opinion, which stated:
“even if the standards of Rule 56 are met, a court has
discretion to deny a motion for summary judgment if
it believes that ‘a better course would be to proceed to
a full trial’”) (quoting Anderson, 477 U.S. at 255–56);
United States v. Certain Real and Personal Prop.

202a
Belonging to Hayes, 943 F.2d 1292, 1297 (11th Cir.
1991) (“A trial court is permitted, in its discretion, to
deny even a well-supported motion for summary
judgment, if it believes the case would benefit from a
full hearing. Trial courts may ‘deny summary
judgment in a case where there is reason to believe
that the better course would be to proceed to a full
trial.’ A trial court’s discretion to deny summary
judgment is reviewed only for an abuse of discretion.”)
(internal citations omitted); Veillon v. Exploration
Servs., Inc., 876 F.2d 1197, 1200 (5th Cir. 1989)
(finding no error in refusal to grant a motion for
summary judgment because “[a] district judge has
discretion to deny a Rule 56 motion even if the movant
otherwise successfully carries its burden of proof if the
judge has doubt as to the wisdom of terminating the
case before a full trial”); Marcus v. St. Paul Fire and
Marine Ins. Co., 651 F.2d 379, 382 (5th Cir. 1981)
(“Even if St. Paul were entitled to summary judgment,
the sound exercise of judicial discretion dictates that
the motion should be denied to give the parties an
opportunity to fully develop the case. This is
particularly true in light of the posture of the entire
litigation. A district court can perform this ‘negative
discretionary function’ and deny a Rule 56 motion that
may be justifiable under the rule, if policy
considerations counsel caution.”) (citing McLain v.
Meier, 612 F.2d 349, 356 (8th Cir. 1979), after remand,
637 F.2d 1159 (8th Cir. 1980)); McLain, 612 F.2d at
356 (“. . . even if the court is convinced that the moving
party is entitled to such a [summary] judgment[,] the
exercise of sound judicial discretion may dictate that
the motion should be Denied, and the case fully
developed.”); Safe Flight Instrument Corp. v.
McDonnell-Douglas Corp., 482 F.2d 1086, 1093 (9th

203a
Cir. 1973) (finding no error in the district court’s denial
of a motion for partial summary judgment, and noting
that “[t]he district court did not deny the motion
because it was convinced that the motion was without
merit, but because the issue presented was so
complicated the court did not wish to dispose of it on a
motion for partial summary judgment”).
42. As the above cases indicates, AT&T has no
“right” (much less a “substantial or material right”) to
have its Motion for Summary Decision granted; nor
has the ALJ’s denial of AT&T’s Motion in any way
materially affected the course of the hearing. Thus,
AT&T was not entitled to an appeal under P.U.C. Proc.
R. §22.123(a)(2). Therefore, the Commission erred in
its Order on Interim Appeal by finding that res
judicata is a bar to HCHD’s claims.
43. AT&T is also not prejudiced by the denial of its
Motion for Summary Decision, if, arguendo, the ALJ
and the Commission did not have authority or
jurisdiction to interpret class action rules and law or
the Texas Health & Safety Code; because if the ALJ
and Commission did not have jurisdiction there could
be no prejudice by failing to hear what they are
prohibited from hearing in the first place. If that were
the case, HCHD’s claims should go straight to a
hearing on the merits, because it is undisputed that
the Commission has exclusive jurisdiction over
HCHD’s overbilling claims in this proceeding.
Alternatively, if the Commission and/or the ALJ do
have the authority or jurisdiction to examine and
interpret class action rules and law, or the Texas
Health & Safety Code, then the denial of AT&T’s
Motion for Summary Decision is not prejudicial in any
event, since AT&T may still adduce its evidence at the

204a
hearing on the merits, as may HCHD. Therefore, no
substantial or material right of AT&T was prejudiced
by SOAH Order No. 24, nor did Order No. 24
materially affect the course of the hearing.
Accordingly, the Commission erred in finding that res
judicata is a bar to HCHD’s claims.
As an evidentiary ruling, SOAH Order No. 24
was not appealable
44. The Commission erred in granting AT&T’s
appeal because under P.U.C. Proc. R. §22.123(a)(2)
appeals are only allowed for interim orders “other than
evidentiary rulings.”
III.

POINTS OF ERROR ON THE MERITS
CONCERNING THE ORDER ON INTERIM
APPEAL

The Commission erred because HCHD was not
a member of the Mireles class, because of the
requirements and limitations of Health &
Safety Code §281.056
45. The Commission erred because HCHD was not
a member of the Mireles class. HCHD presented
evidence of its status as a political subdivision of the
State of Texas, 54 that it is subject to Health & Safety
Code §281.056 which limits HCHD’s ability to
participate
in
legal
matters
without
the
representation of the Harris County Attorney, and the
requirement that any outside counsel be approved by
the HCHD board. HCHD also provided evidence that
the County Attorney did not represent HCHD in
Mireles, and that the board did not approve the
representation of the Mireles attorneys to represent
54

See Stipulation, Exhibit STIP-23.

205a
HCHD. 55
AT&T has no evidence that HCHD
affirmatively participated in Mireles. HCHD is not
named on any of the Mireles pleadings, Settlement
Agreement or judgment. Therefore, the ALJ was
correct to deny AT&T’s Motion, and the Commission
erred in finding that res judicata is a bar to HCHD’s
claims.
46. The Commission erred because HCHD was not
a party or class member in Mireles. This is supported
by the holdings in Dallas County, Tex. v. MERSCORP,
Inc., 2012 WL 6208385, 10 (N.D. Tex. 2012), and Ackal
v. Centennial Beauregard Cellular L.L.C., 700 F.3d
212 (5th Cir. 2012).
47. In Merscorp, the court held:
Here, the Court is bound by the Fifth Circuit’s
interpretation of Rule 23 of the Federal Rules of
Civil Procedure. Given the procedural
requirements that Texas counties must satisfy
prior to hiring outside counsel to represent them
in litigation, certifying a class of Texas counties
would create a class that functions as an “opt in”
class, which is prohibited by the Fifth Circuit’s
most recent interpretation of Rule 23. See
Ackal, 700 F.3d 212, 2012 WL 5275441, at *56.
Texas courts should come to the same conclusion that
hospital districts would have to “opt into” a class
action, which did not occur in regards to Mireles,
because Texas courts are guided by analysis of Federal
Rule of Civil Procedure 23, from which Rule 42 was
derived. General Motors Corp. v. Bloyed, 916 S.W.2d
949, 954 n.1 (Tex. 1996).
Federal decisions and
55 See HCHD’s Response to AT&T MSD, Affidavit of Sara
Thomas.

206a
authorities interpreting current federal class action
requirements are persuasive in Texas actions. See
Ford Motor Co. v. Sheldon, 22 S.W.3d 444, 452 (Tex.
2000). Moreover, like the federal rule, “opt in” classes
are not available under the Texas class action rule and
laws. See Entex v. City of Pearland, 990 S.W. 2d 904,
913 (Tex. App. - Houston[14th Dist. [1999, no pet)
(“The trial court recognized the problems with the optout provisions of the class action and expressed its
preference for an opt-in notification of class action,
which is not available in Texas.”). Therefore, HCHD
was not a member of the Mireles class, and the ALJ did
not err in his denial of AT&T’s Motion for Summary
Decision.
The Commission erred because HCHD cannot
be identified as a Mireles class member
48. The Commission also erred because there is
nothing in the Mireles class definition that would allow
a conclusion that HCHD was described therein. In its
Appeal, AT&T states that it is relying on “the clear
terms of a class definition that included HCHD.”
Appeal at p. 9.
AT&T also states that “the
Commission should disregard HCHD’s defense and
instead take the Mireles Final Judgment at face value
and apply it to bar HCHD’s claim.”
49. But as stated in HCHD’s Response to AT&T’s
Motion for Summary Decision, the Mireles class
definition is:
All persons and entities who currently reside in
the State of Texas who subscribe, or formerly
subscribed, to telephone service provided by
SWBT and pay, or paid, to SWBT a municipal
fee imposed pursuant to a municipal ordinance,
other than an ordinance based upon a

207a
percentage of gross receipts, and collected
pursuant to tariff or statute.
Clearly, any determination of class membership
depends upon a determination of whether or not the
amounts collected by SWBT (i.e., AT&T) were
“collected pursuant to tariff or statute” or “imposed
pursuant to a municipal ordinance.” Consequently,
the class definition is neither clear, as alleged by
AT&T in its appeal, nor objective, as required by
Citizens Ins. Co. of America v. Daccach, 217 S.W.3d
430, 459 (Tex. 2007). Nothing on the face of the
Mireles judgment allows a court, the ALJ or the
Commission, to determine if HCHD was a class
member.
50. Consequently, AT&T has failed to meet its
burden to establish that HCHD was a party, or in
privity with a party, in the Mireles case. As to HCHD’s
complaint, whether AT&T collected a municipal fee
“pursuant to tariff or statute”, and whether a
municipal fee charged HCHD was “imposed pursuant
to a municipal ordinance,” are the types of issues that
would be addressed in a hearing on the merits in this
docket; these types of issues are within the exclusive
jurisdiction of the PUC.
The Commission erred because HCHD’s claims
are within the PUC’s exclusive jurisdiction;
therefore, they were not claims in Mireles
51. Moreover, whether the amounts were “collected
pursuant to tariff or statute” is the core issue in
HCHD’s complaint, and this issue cannot be
determined in this proceeding without a hearing on
the merits in this proceeding. AT&T’s motion should
have been denied for this reason as well, because the
Commission has exclusive jurisdiction to determine

208a
this core issue, which means that the Mireles court had
no subject jurisdiction over HCHD’s claims. See In re
Sw. Bell Tel., Co., 235 S.W.3d 619, 625-626 (Tex.
2007); Tex. Util. Code §§ 17.157, 52.002. See also
Hamilton v. Washington, 2014 WL 7458988, 6
(Tex.App.-Austin) (Tex.App.2014) (“we conclude that
the district court lacked jurisdiction over Hamilton’s
claim for reinstatement because the Commission has
exclusive jurisdiction over such claims. ‘When the
legislature grants an administrative body the sole
authority to make an initial determination in a
dispute, the agency has exclusive jurisdiction over the
dispute.’) (quoting Thomas v. Long, 207 S.W.3d 334,
340 (Tex. 2006), citing Subaru of Am. v. David
McDavid Nissan, Inc., 84 S.W.3d 212, 221 (Tex. 2002));
also citing Mitz v. Texas State Bd. of Veterinary Med.
Exam’rs, 278 S.W.3d 17, 22 (Tex.App.–Austin 2008,
pet. dism’d)).
52. The Commission erred in its finding that res
judicata is a bar to HCHD’s claims, because HCHD’s
claims are within the exclusive jurisdiction of the
Commission, which means that the Mireles court had
no jurisdiction over these claims; consequently, AT&T
could not conclusively establish that the claims in
Mireles are the same claims for purposes of
conclusively establishing that element of res judicata.
HCHD’s claims could not have been brought in Mireles
because of the exclusive jurisdiction of the PUC.
Furthermore, this also means that AT&T could not
conclusively establish the res judicata element there
was a prior judgment on these claims from a court of
competent jurisdiction.
53. Since the Mireles court lacked subject matter
jurisdiction over HCHD’s core claim that AT&T’s

209a
municipal charges collected from HCHD lacked a tariff
to support such charges, the Mireles judgment could
have no effect on HCHD’s claims. Indeed, in In re Sw.
Bell Tel., Co., the Texas Supreme Court held that the
PUC had exclusive jurisdiction over the core-claim
leaving the trial court with no subject matter
jurisdiction over the core claims; the Supreme Court
also held that the plaintiffs’ claim for “core-claim
attorney’s fees, presumably pursuant to the
declaratory judgment act . . ., cannot operate to vest
the trial court with jurisdiction where there was none
before.” Likewise, the Mireles court did not have
subject matter jurisdiction over the unauthorized
municipal charge claims in the Mireles case, and could
not otherwise acquire jurisdiction over Mireles’ other
theories of recovery that were based on the core claim.
54. Because the PUC had exclusive jurisdiction
over the claims being raised in HCHD’s PUC
Complaint, at all times during the Mireles litigation,
the Mireles court lacked subject matter jurisdiction to
enter any orders or judgments on HCHD’s claims (in
addition to the fact that HCHD never appeared and
was not a party in the case).
“Subject-matter
jurisdiction may not be conferred by consent, waiver,
or estoppel at any stage of a proceeding.” Saudi v.
Brieven, 176 S.W.3d 108, 113 (Tex. App. - Houston [1st
Dist.] 2004, pet. denied) (quoting Tourneau Houston,
Inc. v. Harris County Appraisal Dist., 24 S.W.3d 907,
910 (Tex. App. - Houston [1st Dist.] 2000, no pet.))
(reasoning that lack of subject matter jurisdiction is
fundamental error); see also State ex rel. Latty v.
Owens, 907 S.W.2d 484, 486 (Tex.1995) (“it is wholly
unnecessary to appeal from a void judgment”);
Gainous v. Gainous, 219 S.W.3d 97, 105 (Tex. App. –
Houston [1 Dist.] 2006 review denied).

210a
55. The Commission also has exclusive jurisdiction
over its prior Final Order in Docket 8585, which forms
the basis of one of HCHD’s municipal charge claims
being made in this docket.
The Commission erred because the Mireles
judgment is not regular on its face, and is
subject to a collateral attack
56. The Commission erred when it found that
HCHD’s claims are barred by res judicata, because the
Mireles judgment is not regular on its face; it has an
express provision to render it void on certain
conditions, and it references a Settlement Agreement
that has provisions for rendering the entire settlement
and judgment void on certain conditions. AT&T has
not met its burden by establishing as a matter of law
that it is entitled to summary judgment because of the
genuine issues of material fact regarding the element
that there must be a prior valid judgment. HCHD
provided substantial evidence raising a genuine issue
of material fact that the Mireles settlement could not
be completed as contemplated due to the termination
of TIFB, 56 which if proven could render the Mireles
judgment null, void, and vacated according to the
judgments express terms and conditions 57 and the
express terms and conditions of the Settlement
Agreement. 58

See Exhibit H-4 to HCHD’s Response to AT&T’s MSD (PUC
Docket No. 40235, Item No. 168; but see native attachment at p.
216).

56

57 See Stipulation, Exhibit STIP-3, at p. 18, paragraph 11 (PUC
Docket No. 40235, Item No. 162)
58

Id. at p. 39, paragraph 2.

211a
57. AT&T also argues that HCHD’s complaint is an
impermissible collateral attack on the Mireles
judgment and settlement. However, HCHD could not
possibly be collaterally attacking the Mireles judgment
if HCHD was never a member of the Mireles class as a
matter of law because of Health & Safety Code
§281.056(a) and (b), or because HCHD’s claims are
within the exclusive jurisdiction of the PUC.
Moreover, a collateral attack may be made in an
agency contested matter. See Assignees of Best Buy,
supra.
The Commission erred because there is no
summary decision evidence of the nature of the
claims made by the plaintiffs in the Mireles case
58.
The Commission also erred because at
the very least, there is a genuine issue of material fact
as to the specific claims that the plaintiffs in Mireles
were making. There is no summary decision evidence
of the claims that were being made by the Mireles
plaintiffs. For example, the summary decision record
does not contain any of the Mireles plaintiffs’ pleading,
much less the pleadings that were live at the time of
the settlement and judgment, to enable the ALJ or
Commission to accurately evaluate and determine the
claims being made in Mireles, in order to satisfy the
third element of res judicata (e.g., whether HCHD’s
claims in this PUC proceeding are based on the same
claims that were raised in Mireles or could have been
raised in Mireles). This means that AT&T has
completely failed to meet its burden to conclusively
establish the prior claim element of res judicata; it also
means that at the very least, there is a genuine issue
of material fact as to this element. The record only
describes HCHD’s claims in this proceeding, which

212a
plainly shows that this Commission has the exclusive
jurisdiction over HCHD’s claims; this means that the
Mireles court had no jurisdiction over HCHD’s claims
herein. To further emphasis this point, the 333rd
District Court of Harris County, Texas dismissed
HCHD’s claims that are being brought in this Docket
No. 40234, 59 because of AT&T’s plea to the jurisdiction
alleging that the PUC has exclusive jurisdiction over
the claims. The 333rd District Court agreed with
AT&T’s position that the PUC has exclusive
jurisdiction.
IV.

ORAL ARGUMENT REQUESTED

59.
response.
V.

HCHD requests oral argument for this

CONCLUSION

60. There is no substantial evidence to support the
Order on Interim Appeal. AT&T did not conclusively
establish each element of a res judicata defense as a
matter of law, and there are genuine issues of material
fact as to elements of res judicata. Importantly,
HCHD conclusively established that it could not be a
party or in privity with a party to the Mireles case, and
that HCHD’s claims were not in the Mireles case, as a
matter of law. Therefore, AT&T was not entitled to a
finding that res judicata bars HCHD’s claims. HCHD
has also demonstrated that the Commission’s Order on
Interim Appeal was arbitrary, capricious, not
reasonably supported by substantial evidence, and
characterized by an abuse of discretion or a clearly
unwarranted exercise of discretion, and that it would
deny HCHD due process if the ALJ bases his decision

59

See Stipulations, Exhibit STIP-10; STIP 15.

213a
on the Order on Interim Appeal and dismisses HCHD’s
complaint.
61. HCHD should be allowed to have a hearing on
the merits of HCHD’s unauthorized billing claims.
Otherwise, several more years and a significant
amount of money will be wasted during an appeal that
will ultimately be reversed and remanded. The parties
have already invested over three years at the PUC and
SOAH, just to get to this point, and undoubtedly
hundreds of thousands of dollars in fees and costs have
already been incurred. It would not be in the interest
of justice, fairness, or judicial economy to delay a
hearing on the merits any longer.
VI.

PRAYER

For the foregoing reasons, Harris County Hospital
District asks the ALJ to disregard the finding in the
Commission’s Order on Interim Appeal, and set the
hearing on the merits on the first available date;
alternatively, if the ALJ is still intent on dismissing
HCHD’s complaint, then HCHD asks that the ALJ
issue a Proposal for Decision with findings of fact and
conclusions of law, but without giving any deference to
the Commission’s res judicata finding in the Order on
Interim Appeal. HCHD requests such other relief as
may be appropriate.
Respectfully submitted,
VINCE RYAN, Harris County Attorney
RANDALL RAYMOND SMIDT
Assistant County Attorney

State Bar No. 00798509
TERENCE O’OROURKE
Special Assistant County Attorney

214a
State Bar No. 15311000
1310 Prairie Suite 880
Houston, TX 77002
Telephone (713) 755-5585
Telecopier (713) 755-8848
/s/ Thomas R. Bray
Thomas R. Bray
LAW OFFICE OF THOMAS R. BRAY
State Bar No. 02926800
1431 Wirt Road, Suite 140
Houston, Texas 77055
Telephone: 713-827-1760
Telecopier: 713-827-7510
J. Marcus “Marc” Hill
State Bar No. 09638150
HILL & HILL, PC
1770 St. James Place, Suite 115
Houston, Texas 77056
Telephone: 713-688-6318
Telecopier: 713-688-2817
THE HENNESSY LAW FIRM
Edward J. Hennessy
Texas Bar No. 09472000
2900 Weslayan, Suite 550
Houston, Texas 77027
Telephone (713) 224-5066
Telecopier (713) 224-5055
ATTORNEYS FOR HARRIS
COUNTY HOSPITAL DISTRICT
CERTIFICATE OF SERVICE

215a
I hereby certify that a copy of this document was
served in accordance with Commission rules in this
proceeding on the 11th day of May, 2015.
/s/ Thomas R. Bray
Thomas R. Bray

216a
APPENDIX Q (216a-217a)
SOAH DOCKET NO. 473-13-0391
PUC DOCKET NO. 40235
COMPLAINT OF
§ BEFORE THE
HARRIS COUNTY
§ STATE OFFICE
HOSPITAL
§
DISTRICT
§ OF
AGAINST
§
SOUTHWESTERN
§ ADMINISTRATIVE
BELL TELEPHONE § HEARINGS
COMPANY d/b/a
§
AT&T TEXAS
AFFIDAVIT OF L. SARA THOMAS
TO THE HONORABLE ADMINISTRATIVE LAW
JUDGE:
BEFORE ME, the undersigned authority, on
this day personally appeared L. Sara Thomas, who
under oath said:
“My name is L. Sara Thomas. I am over twenty-one
(21) years of age and competent to testify about the
matters stated herein. I have personal knowledge of
the facts stated herein, and they are all true and
correct.”
“I am an attorney employed by the Han-is County
Attorney’ s office, and am assigned to represent the
Harris County Hospital District (hereinafter referred
to as the “Hospital District”).
“I have performed a diligent and complete review of
the minutes and records of the board of the Harris
County Hospital District and I did not find any record

217a
or information concerning Cause No. 98-07-3003-E,
styled Jose Mireles and Patricia Genuchi, et al., v.
Southwestern Bell Telephone Company, in the 357th
Judicial District Court of Cameron County, Texas
(hereinafter referred to as the “Mireles case”).
“Based on my review of the minutes and records of
the board of the Hospital District, the board did not
authorize or approve any participation by the Hospital
District in the Mireles case, nor did the Harris County
Attorney or any attorney in the Harris County
Attorney’s office represented the Hospital District in
the Mireles case.
“The above is true and correct.”
“This concludes my affidavit.”
/s/ L. Sara Thomas
L. Sara Thomas
COUNTY OF HARRIS
STATE OF TEXAS

§
§

SUBSCRIBED AND SWORN TO BEFORE ME,
on this the 22nd day of December, 2014 by:
/s/ Marta Bolinska
NOTARY PUBLIC in and
for the State of Texas

MARTA BOLINSKA
NOTARY PUBLIC, STATE OF TEXAS
MY COMMISSION EXPIRES
DEC. 21, 2017
[SEAL – NOTARY PUBLIC STATE OF TEXAS]

218a
APPENDIX R (218a-240a)
RECEIVED
12 MAR 16 AM 9:39
PUBLIC UTILITY COMMISISON
FILING CLERK
PUC DOCKET NO. 40235
COMPLAINT OF
HARRIS COUNTY
HOSPITAL DISTRICT
AGAINST
SOUTHWESTERN
BELL TELEPHONE
COMPANY d/b/a
AT&T TEXAS

§
§
§
§
§
§
§
§

PUBLIC UTILITY
COMMISSION
OF

TEXAS

FORMAL COMPLAINT
HARRIS COUNTY HOSPITAL DISTRICT,
hereinafter called AComplainant@ or AHCHD@,
complaining
of
SOUTHWESTERN
BELL
TELEPHONE COMPANY d/b/a AT&T TEXAS,
hereinafter sometimes called ARespondent@ or
“SWBT”, files this formal Complaint and would show
the following:
A. Procedural History
1. On January 26, 2012, Complainant received a
letter (see attached) from the Public Utility
Commission of Texas informing Complainant that

219a
Commission Staff waived “for good cause the
requirement that this complaint be presented for
informal resolution.”
B. Introduction
2. HCHD’s claims alleged in this Complaint are
not the only claims that HCHD has against SWBT, but
are in addition to HCHD’s other claims against SWBT,
including, but not limited to, those presently pending
before the Public Utility Commission of Texas
(“PUC)”) and those alleged by HCHD in Cause No.
2010-28461, styled Harris County Hospital District v.
Southwestern Bell Telephone Company d/b/a AT&T
Texas, currently pending in the 333rd Judicial District
Court of Harris County, Texas.
3. In Cause No. 2010-28461, HCHD alleged some of
the same facts as alleged in this Complaint, but also
alleged, without limitation, facts that would support
the following alleged causes of action: breach of
contract, breach of warranty, negligence per se, fraud,
and violations of the Texas Deceptive Trade Practices
– Consumer Protection Act (“DTPA). HCHD also
sought the recovery of attorneys’ fees, costs and
expenses.
4. SWBT answered HCHD’s petition in Cause No.
2010-28461 by claiming an alleged defense, among
others, that the 333rd Judicial District Court lacked
“subject matter jurisdiction over HCHD’s claims
because the PUC has exclusive original jurisdiction
over exactly the type of fee dispute that HCHD asserts
in this lawsuit.” (citing Tex. Util. Code §§ 17.157,
52.002; and In re Sw. Bell Tel., Co., 235 S.W.3d 619,
625-626 (Tex. 2007). SWBT also alleged that “HCHD’s
claims and causes of action, if any, arise solely from
the tariff, which operates as a contract between HCHD

220a
and AT&T.” Contrary to these allegations by SWBT,
SWBT has been continuously defending these very
same types of claims for approximately twelve years
now in other state court actions, to-wit: Cause No. 9807-3003-E, styled Jose Mireles and Patricia Genuchi,
et al., v. Southwestern Bell Telephone Company, in the
357th Judicial District Court of Cameron County,
Texas; and Cause No. 2000-05-001931-B, Marketing
On Hold, Inc. d/b/a Southwestern Tariff Analyst, et
al. v. Southwestern Bell Telephone Company, in the
138th Judicial District Court of Cameron County,
Texas. These two cases are discussed in greater detail
in this Complaint.
5. HCHD alleges that if the PUC has exclusive
jurisdiction over exactly the type of fee dispute that
HCHD asserts in Cause No. 2010-28461 as SWBT
alleges, then SWBT would have raised the
jurisdictional issue in Cause No. 98-07-3003-E and
Cause No. 2000-05-001931-B. Moreover, if the PUC
has exclusive subject matter jurisdiction over the
claims in Cause No. 2010-28461, Cause No. 98-073003-E and Cause No. 2000-05-001931-B, then the
orders and final judgments in Cause Nos. 98-07-3003E and 2000-05-001931-B are null and void and subject
to a collateral attack, including, without limitation, a
collateral attack by the 5 million customers who were
purportedly affected by the class action settlement in
Cause No. 98-07-3003-E. Indeed, SWBT’s sworn
pleadings filed in Cause No. 2010-28461 are judicial
admissions, and therefore, SWBT should be judicially
estopped from denying the invalidity of the judgments
and orders entered in Cause Nos. 98-07-3003-E and
2000-05-001931-B, should HCHD choose to assert
judicial estoppel for those purposes.

221a
6.
Despite the fact that SWBT perpetuated
litigation by defending claims in Cause Nos. 98-073003-E and 2000-05-001931-B based on the same or
similar types of claims, without ever asserting that the
PUC had exclusive jurisdiction over those cases, and
even settled Cause No. 98-07-3003-E as a class action
with the entry of a final judgment, and defended
several appeals and other lawsuits in order to retain
that final judgment, see discussion infra, SWBT now
claims that the PUC has “exclusive” jurisdiction over
these types of claims.
7. Notwithstanding the foregoing reasons given by
HCHD in support of its claim that SWBT has waived
its alleged defense that the PUC has jurisdiction over
these types of claims, on February 1, 2011, the 333rd
District Court entered an Order granting SWBT’s Plea
to the Jurisdiction but only “with regard to any claim
that seeks reimbursement of municipal charges under
tariff.” The Plea was denied “as to those claims for
additional damages based on Gross Negligence, Fraud
and/or the Texas Deceptive Trade Practices Act,”
which claims were abated “until such time as all
Plaintiff’s claims falling within the exclusive
jurisdiction of the Public Utility Commission are fully
and finally resolved.” A copy of the Order is attached
as Exhibit 1. Without waiving its right to appeal the
Order and challenge whether the PUC has exclusive
jurisdiction over HCHD’s claims, HCHD is filing this
Complaint with the PUC on the municipal charge
claims described herein only, without waiving any of
the claims that HCHD currently has pending before
the 333rd Judicial District Court in Cause No. 201028461.

222a
8. HCHD will also note that in PUC Docket No.
34940, styled Complaint of Harris County Hospital
District Against Southwestern Bell Telephone, LP
d/b/a AT&T Texas, a complaint filed by HCHD on
entirely different types of claims than those raised in
this Complaint, HCHD argued that the PUC had
jurisdiction over HCHD’s fraud claims raised therein.
In Order No. 3, the Administrative Law Judge
dismissed HCHD’s fraud claim stating that it was not
a claim supported under PURA. The Commissioners
affirmed Order No. 3. (See Control Number 34940,
Item Number 27.) Therefore, it would appear that the
Commission has already stated a position that it has
no jurisdiction to hear claims that are beyond the
limits of PURA (e.g., fraud, negligence per se, DTPA
violations,). By the 333rd District Court’s Order, it
would appear that the Court concluded that the PUC
has exclusive jurisdiction to hear HCHD’s breach of
contract and breach of express warranty claims;
therefore, without waiving its right to appeal or
challenge the Order, to the extent that the PUC has
exclusive jurisdiction over HCHD’s breach of contract
and breach of express warranty claims, such claims
should be construed as alleged herein.
B. Parties
9. Complainant Harris County Hospital District is
a political subdivision of the State of Texas organized
as a hospital district in Harris County, Texas, created
under Texas Health & Safety Code §281 Subchapter A
and pursuant to Article IX of the Texas Constitution,
with its administrative offices located at 2525 Holly
Hall Drive, Houston, Texas 77054.
10. Respondent Southwestern Bell Telephone
Company d/b/a AT&T Texas (“SWBT”) is a Missouri

223a
corporation providing telecommunication services
within the States of Texas. SWBT provides a broad
variety of services to the public in cities in Texas
pursuant to franchises granted by the cities to SWBT
and pursuant to certificates of convenience and
necessity issued by the Public Utility Commission of
Texas (“PUC”), as well as non-regulated services.
SWBT’s principal place of business is in Dallas, Texas.
SWBT may be served through its registered agent for
services of process, CT Corporation System, 350 North
St. Paul St., Ste. 2900, Dallas, TX 75201-4234, or
through such other person qualified to accept service
for SWBT.
C. Jurisdiction
11. As stated above, the 333rd District Court of
Harris County, Texas has ordered that the PUC has
exclusive jurisdiction over the claims being alleged in
this Complaint.
D. Background
12. HCHD consists of several significant hospitals
and health care facilities in Harris County, Texas. As
part of its operations, HCHD has had extensive
telephone services provided by SWBT over the years.
HCHD has generally been billed by SWBT and paid by
HCHD on a monthly basis. As part of the SWBT bills,
there has been an item shown as “municipal charges”,
which HCHD paid. HCHD recently learned that
during the period from October 1, 1991 through
February 2000, all or a portion of those charges were
not authorized according to a tariff (“Unauthorized
Charges”). In addition, HCHD may have also paid
SWBT state and local taxes that were applied to such
Unauthorized Charges. HCHD seeks, among other
things, recovery of damages for such payments.

224a
The Mireles Class Action
13. Although HCHD recently learned about its own
municipal charge claims, other customers of SWBT
raised similar claims in two previous class action
lawsuits. The first class action is known as the Mireles
class action. 1 The Mireles case involved issues relating
to municipal charges on bills of over 5 million SWBT
customers throughout Texas from 1991 through 2000.
In Mireles, the plaintiffs were generally alleging that
SWBT could not collect municipal charges from its
customers during these years because SWBT did not
have a tariff applicable to the specific type of municipal
ordinance at issue. The Mireles case was filed in 1998,
and in late 1999 SWBT signed a settlement
agreement. The settlement was approved by the court
in May 2000.
14. Although the Mireles case has been concluded,
it did not affect the claims of HCHD because HCHD is
a political subdivision of the State of Texas. As a
political subdivision, HCHD was not a member of the
Mireles class. More specifically, representation of
HCHD is subject to the requirements of TEXAS HEALTH
& SAFETY CODE § 281.056 and other laws of the State
of Texas. There was no compliance with Section
281.056 in the Mireles case; therefore, HCHD’s claims
were not prosecuted in Mireles, and HCHD is not
bound by or subject to the Mireles settlement or
judgment.
15. In addition, the Mireles settlement was tainted
by subsequent allegations that the settlement was the
1 Cause No. 98-07-3003-E, styled Jose Mireles and Patricia
Genuchi, et al., v. Southwestern Bell Telephone Company, in the
357th Judicial District Court of Cameron County, Texas.

225a
product of fraud and collusion. Mireles was a case
where the plaintiffs were claiming over $700 million in
overcollections by SWBT. Without having received
any discovery from SWBT, the Mireles plaintiffs
entered into a settlement agreement with SWBT on
terms that would ultimately purport to release all
municipal charge claims throughout Texas for 5
million SWBT customers, including, claims that were
never part of the suit as originally filed. The Mireles
settlement paid absolutely nothing to any class
members – no money, property, service credits, or
coupons. Instead, the settlement was a purported cy
pres settlement with an alleged value of $10 million,
out of which $2 million was paid to class counsel, $1.25
million went to SWBT for notice and administrative
costs, and the remainder (in the form of service credits
and cash) was to go to a SWBT supported agency of the
State
of
Texas,
the
Telecommunications
Infrastructure Fund Board (“TIFB”). 2
16. After the settlement was approved by the trial
court, a putative class member, Chemject
International, Inc., alleged that material false
statements and representations were made to the
putative class which mislead the class and prevented
members from opposing the settlement; Chemject
further alleged that these and other false statements
and representations mislead the trial court and
induced it to approve the settlement. 3 For example,
2 Before there was a final approval of the settlement was and “cy
pres” payments were made, TIFB was eliminated by a
Proclamation of Texas Governor Rick Perry, and by an Executive
Order, a timeline was established for the Texas Workforce
Commission to close out all TIFB grants and funding.

Chemject also alleged that the elimination of TIFB rendered the
settlement void. See Chemject Int’l, Inc. v. Sw. Bell Tel. Co., 2007

3

226a
Chemject alleged that the following statements
contained in the class action settlement notice sent to
5 million SWBT customers in their monthly phone bill
envelope, were false and misleading:
“SWBT does not keep any of the municipal fees
it collects – all of the money goes to the
municipalities;”
“Class Counsel has conducted sufficient
discovery so as to investigate the facts and
applicable law regarding the matters raised in
the Lawsuit;”
“More importantly, discovery in the Lawsuit
revealed that it would be extraordinarily
difficult, if not impossible, to identify the
specific amounts that individual Settlement
Class members might recover even if the
Lawsuit were successful;”
“Class Counsel has determined that the
amounts that might be recovered by individual
Settlement Class members would be quickly
consumed by the overall notice and
administration costs necessary to facilitate
settlement, because the Settlement Class is
exceptionally large (it is estimated at more than
five million members), and because the amount
of possible recovery varies greatly but generally
is not a large sum of money;”

WL 177651, 2007 Tex.App. LEXIS 586, (Tex.App.-Corpus Christi
Jan. 25, 2007, pet. denied; cert. denied) (mem.op.); cert. denied,
128 S.Ct. 1873, 170 L.Ed.2d 745, 76 USLW 3374, 76 USLW 3549,
76 USLW 3554 (2008)

227a
“Discovery determined that SWBT cannot
independently identify which Class Members
suffered what damages;” and
“The Administrative costs associated with
trying to identify and then confirm individual
recoveries on a case-by-case basis would
exhaust any recovery.
An example of a misrepresentation that Chemject
alleged was made to the trial court by class counsel at
the hearing that approved the Mireles class action
settlement is:
“Through our discovery of the case, we
determined that the phone company is not
keeping this money. They are not profiting from
this process. In fact, there was evidence to
suggest that maybe they’ve overpaid the
amount of taxes, not kept some of this money;”
and
Chemject
also
alleged
that
a
similar
misrepresentation was made by class counsel to the
court of appeals. When one of the Justices asked the
“So Southwestern Bell didn’t keep any of the money
that they collected?” the Mireles class counsel
responded:
“Not a single penny Your Honor. It was a pure
pass-through tax.
It was, in fact, our
municipalities taxing us in a way that they
didn’t want to go directly to us, and it was
money provided to them.
In response to the foregoing statements, Chemject
generally alleged, among other things, that: (1)
sufficient discovery was not conducted by Class
Counsel, since there was no discovery received from

228a
SWBT before the settlement agreement was signed;
(2) SWBT did collect millions of dollars in municipal
fees that it did not pay the municipalities; (3) SWBT
has electronic records that would allow identification
of the specific members who suffered damages and the
specific amounts that they might recover, for most, if
not all, of the time periods at issue; and (4) the amount
of possible recovery was very large, and substantially
exceeded the administration costs of the case.
Ultimately, however, Chemject’s attempts to set aside
the Mireles settlement were rejected by the trial and
appellate courts, primarily on jurisdictional grounds
and by concluding that Chemject’s fraud allegations
were in the nature of intrinsic fraud, not extrinsic
fraud which is required for a bill of review. 4 In any
event, HCHD was not a member of the Mireles class
action and is not bound by any of its settlement terms
or the final judgment in that case.
The STA Class Action
17. The action that raised some of the same types
of municipal charge claims against SWBT as HCHD
raises herein was filed in May 2000 by Marketing On
Hold, Inc. d/b/a Southwestern Tariff Analyst (“STA”).
The STA action was carved out of the Mireles class
action settlement by a Rule 11 agreement approved by
the Mireles court. The STA action was initially filed
and approved as a class action, but was later decertified as a class.

Cause No. 98-07-3003-E, Jose Mireles, et al. v. Southwestern Bell
Telephone Company, in the 357th Judicial District Court of
Cameron County, Texas; Cause No. 2004-05-2337-E in the 357th
District Court of Cameron County, Texas; see Chemject Int’l, Inc.
v. Sw. Bell Tel. Co., supra.

4

229a
18. By way of background, STA is in the business
of auditing telephone bills and records, and then
making recommendations to its customers about ways
to reduce their telephone bills and/or obtain refunds
for overbillings. In the course of this business, STA
determined that many of its customers had been billed
by SWBT for items that were not authorized under
SWBT’s franchise agreements with municipalities
throughout Texas. These franchise agreements were
typically approved by the municipalities as
ordinances. Generally, these agreements/ordinances
only allowed SWBT to apply a municipal charge to a
customer service charge if done according to tariff and
all of the following conditions are met: the customer
service charge is (1) billed through CRIS, (2) a
recurring charge, (3) a local exchange access element,
(4) provided within the municipality, and (5) a EUCL
charge as imposed by the FCC. In the STA class
action, STA claimed that the customer service charges
made by SWBT for Digital Loop Service, SmartTrunk
service, and Hotel/Motel measured service, did not
satisfy all of the conditions of the franchise
agreements/ordinances.
19. SWBT essentially admitted that HCHD did not
participate in the Mireles class action, when it stated
in Defendant’s Response to Plaintiff’s Motion for Class
Certification filed in the STA case, at page 30, as
follow:
Finally, a substantial number of state agencies
are part of the putative class, but these
agencies could not even participate in the class
action without first securing permission to sue
[through] the Texas Attorney General’s Office.

230a
In the absence of securing such permission,
state agencies are forbidden to file suit.
Since HCHD’s right to sue is governed by HEALTH &
SAFETY CODE § 281.056, the Texas Attorney General’s
permission is not required; however, the HCHD
Board’s approval is required and HCHD must also be
represented by the Harris County attorney, neither of
which occurred in the Mireles class action. Therefore,
the Mireles class certification case cannot have any
preclusive effect on any of HCHD’s claims being made
herein. 5
E. Factual Allegations
20. SWBT provides telephone service subject to a
regulatory scheme established by the laws and
ordinances of the State of Texas. SWBT is permitted
to charge subscribers only those charges which are
included in a tariff approved by the Public Utilities
Commission of Texas (“PUC”).
21. One of SWBT’s costs of providing regulated
telephone service is the payment SWBT makes to a
municipality for the use of that municipality’s rightsof-way. Each municipality may charge SWBT for the
use of the municipality’s rights-of-way. SWBT’s
payment to municipalities for the use of the rights-ofway is generally referred to as a “franchise fee.” The
compensation and other conditions of using the
municipality’s right of way are recited in a franchise
fee ordinance adopted by each municipality.
22. Prior to 1978, SWBT sought to recover the cost
of franchise fees by including the franchise fee cost as
5 Notably, TEX. CIV. P. & REM. CODE §16.061 exempts HCHD’s
claims from any limitation period.

231a
part of the rates that SWBT charged its subscribers for
telephone service. In 1978, SWBT proposed to the
PUC a new method for attempting to recover the
franchise fee cost. This proposed method would charge
customers a pro rata share of any franchise fees that
are based upon a percentage of SWBT’s gross receipts
received for telephone service in a particular
municipality. This proposed tariff was approved by
the PUC and implemented by SWBT. Specifically, the
tariff provided, in pertinent part, as follows:
There shall be added to the customer’s bill for
service, an additional charge equal to the pro
rata share of any occupation, franchise,
business, license, excise privilege or other
similar charge or tax, now or hereafter imposed
upon the gross receipts or revenue of the
Telephone Company by any municipal taxing
body or municipal authority whether by
statute, ordinance, law or otherwise, and
whether presently due or to hereafter become
due.
The charge applicable to each customer will
appear separately on the customer’s regular
monthly bill and shall be determined on a basis
equal to the tax levied by each municipal taxing
body or municipal authority.
The amount of charge to the customer shall be
computed by dividing the tax expressed as a
percentage by 100% minus the tax expressed as
a percentage and multiplying the decimal thus
obtained by the customer’s service charges to
which such tax applies as reflected by the
following formula:

232a
Tax %
x Service Charges = Amount of
100% - Tax %
Subject to Tax
Charge to
Customer
The amount of charge to the customer will be
rounded to the nearest cent.
23. Although SWBT’s proposed tariff formula
characterized the franchise fee charge as a “tax,”
subsequent Attorney General Opinions and case
authority plainly state that a franchise fee is not a
“tax,” rather, it is essentially a form of rent paid to the
municipality for the use of its rights of way.
24. The PUC approved SWBT’s proposal in Docket
No. 1704, August 14, 1978. At the time that the tariff
was approved, the franchise fees that SWBT was
charged by the municipalities were generally pursuant
to an ordinance or franchise agreement, which stated
the fee as a percentage of SWBT’s gross receipts or
revenues from the rendition of local exchange
telephone transmissions service. The PUC’s approval
of the tariff authorized SWBT to recover these costs by
charging its customers within each municipality
having such an ordinance or agreement, a pro rata
share of the franchise fee, stated separately on the
customer’s bill in accordance with the terms and
conditions of the tariff.
25. Litigation ensued between municipalities and
SWBT wherein municipalities challenged SWBT on
the amounts being included in and excluded from gross
receipts. As part of the resolution of that litigation,
SWBT proposed, and most municipalities enacted,
specified annual payment ordinances (also called
“SAP” ordinances), wherein SWBT would pay each
such municipality a specified annual payment as a

233a
franchise fee, rather than a franchise fee based upon a
percentage of gross receipts.
26. Beginning by at least 1991 and continuing
thereafter, Texas cities enacted ordinances that
imposed an “Annual Charge” (a stated minimum
annual dollar amount) upon the Gross Receipts of
SWBT.
The ordinances became effective upon
“acceptance” by SWBT.
The “Annual Charge”
ordinance contains the following language or language
similar thereto:
“The TELEPHONE COMPANY will, according
to tariff, bill such Annual Charge to the
customers billed the customer service charges
included within the term “Gross Receipts,” as
defined herein. Gross Receipts, for purposes of
the Annual Charge, shall include only customer
service
charges
billed
through
the
TELEPHONE Company’s Customer Records
Information System (“CRIS”) for the recurring
charges for the local exchange access rate
element specified in the TELEPHONE
Company’s tariffs filed with the PUC for any
TELEPHONE COMPANY services provided
within the CITY which are also subject to an
interstate end user common line (“EUCL”)
charge
as
imposed
by
the
federal
communications commission (“FCC”).”
For example, in Harris County alone, the following
municipalities adopted a SAP ordinance from 1991to
1995:
Bunker Hill Village (Ordinance No. 99231); Deer Park (Ordinance Nos. 2276 & 2301 & 2607
& 2276 & 2631); Hedwig Village (Ordinance Nos. 459,
441, 374); Houston (Ordinance No. 91-1169); Hudson
(Ordinance Nos. 1997-02, 1992-4); Hunters Creek

234a
Village (Ordinance Nos. 538, 485); Jersey Village
(Ordinance No. 92-22); La Porte (Ordinance Nos. 972208, 1834); Pasadena (Ordinance No. 93-82); Piney
Point Village (Ordinance Nos. 838, 837, 816,
745); Seabrook (Ordinance Nos. 92-26); Shoreacres
(Ordinance Nos. 99-05, 98-16, 97-17, 92-15); South
Houston (Ordinance No. 95-006, 942-4-92); Southside
Place (Ordinance No.160-A, 160); Spring Valley
(Ordinance Nos. 99-20, 99-19, 98-24, 97-35, 97-05, 9632, 95-16, 94-17, 44); Tomball (Ordinance Nos. 99-13,
99-11, 99-15, 99-03, 98-25, 98-16, 97-13, 96-16, 95-07A,
92-10); Webster
(Ordinance
No. 95-21); West
University Place (Ordinance No. 1446). Throughout
Texas, over 400 Texas municipalities adopted SAP
ordinances from 1991 to 1995.
27. Generally, in addition to the requirement that
a municipal charge billed to a customer must be
according to tariff, all of the following conditions must
also be satisfied before a “municipal charge” may be
applied to a SWBT customer’s service charge:
(1)

The customer service charge must be billed
through CRIS;

(2)

The customer service charge must be a
recurring charge;

(3)

The customer service charge must be a local
exchange access element;

(4)

The customer service charge must be provided
within the city; and

(5)

The customer service charge must be subject
to a EUCL charge as imposed by the FCC.

In addition to its claim that there was no tariff upon
which SAP ordinance municipal charges to customers

235a
could be based, HCHD also alleges that SWBT applied
“municipal charges” to certain customer service
charges relating to Digital Loop Service and
SmartTrunk service to which HCHD subscribed,
although Digital Loop Service and SmartTrunk
service did not satisfy all of the required conditions
described above under the applicable municipal
ordinances, including, without limitation, City of
Houston Ordinance No. 91-1169.
28. In 1997, Texas municipalities began adopting
a “fee per line” ordinance, in place of the SAP
ordinance. The “fee per line” ordinance did not base
the municipal charge on any reference to “gross
receipts,” or a specified annual payment.
The
municipal charge was based upon a set fee per each
access line in each municipality. For example, the City
of Houston’s fee per line Ordinance No. 98-593,
adopted in 1998, the initial monthly rate for a
residential access line was $1.34, and $4.55 for a nonresidential access line.
29. SWBT did not file a new tariff with the PUC,
or amend the existing tariff, to enable it to collect a
municipal charge from its customers pursuant to a
“SAP” ordinance, “flat-fee” ordinance, or “fee per line”
ordinance. SAP ordinances, “flat-fee” ordinances and
“fee per line” ordinances are not ordinances that state
the franchise fee as a percentage of SWBT’s gross
receipts or revenues. The above-described tariff
approved in Docket 1704 does not apply to SAP
ordinances, “flat-fee” ordinances or “fee per line”
ordinances. Without authorization, SWBT based the
“municipal charges” upon the franchise fees paid to
municipalities having SAP ordinances or “fee per line”
ordinances. SWBT collected the “municipal charge”

236a
from its customers without authorization. Further, it
collected more in so-called “municipal charges” from
its customers, than it paid to municipalities as
franchise fees.
30. HCHD subscribed to SWBT services in the
State of Texas, during the period from 1991 through
February 2000. 6 SWBT sent HCHD statements for
service. One mandatory component of the statement
is a billing for the “municipal charge.” Another
component of the statement is a line item described on
the statement as “state and local taxes.” HCHD
cannot independently verify, or independently
determine, the customer service charges on which the
“municipal charge” is being applied and the rate
applied to such customer service charges, nor can
HCHD independently verify, or independently
determine, whether state and local taxes were applied
thereto. SWBT has concealed certain details and facts
relating to the Unauthorized Charges.
31. HCHD relied on SWBT’s billing statements as
being true and correct. From 1991 through February
2000, HCHD was charged “municipal charges” and
paid to SWBT “municipal charges” that were
purportedly based upon franchise fees paid to
municipalities having SAP ordinances, “flat-fee” or
Effective on or about March 1, 2000, all SAP ordinances, flat-fee
and “fee per line” ordinances were terminated by SWBT,
pursuant to Tex. Loc. Gov’t. Code §283.054. In its notice letter to
municipalities, SWBT acknowledged that from and after that
date, SWBT would operate under Chapter 283 of the Texas Local
Government
Code,
Public
Utility
Commission
rules
implementing Chapter 283, and other state and federal laws, as
applicable. SWBT submitted, and the PUC approved, a new tariff
provision for municipal fees, effective June 1, 2000, in order to
comply with the “fee per line” structure of Chapter 283.

6

237a
“fee per line” ordinances, although (a) there was no
tariff authorizing all or part of those charges to
SWBT’s customers, and (b) all or part of those charges
did not satisfy the terms and conditions of the
ordinances. As mentioned above, HCHD may have
also been charged and paid the state and local taxes
that SWBT applies to “municipal charges,” which also
would have been unauthorized.
32. SWBT’s act or omissions as stated in this
petition are a violation of certain laws, tariffs, rules
and/or regulations governing SWBT, including, but
not limited to, §§ 53.002, 53.004(a) and (b) of the Public
Utility Regulatory Act (“PURA”), and 16 TAC
§26.27(a)(3)(B) (formerly 16 TAC §26.27(d), formerly
16 TAC §23.45(h), formerly 16 TAC §23.45(g)). SWBT
has a duty to comply with the PURA, the PUC’s rules
and regulations, and the tariffs. PURA prohibits
SWBT from charging, demanding or receiving
compensation from a person that is unjust,
unreasonable, or other than the compensation
prescribed by applicable tariff. See PURA sections
52.251, 53.002, 53.003, and 53.004(a).
33. SWBT’s failure to pay its obligations to HCHD
for collecting the “municipal charges” as described
above, is a violation of 16 TAC §26.27(a)(3)(B)
(formerly 16 TAC §26.27(d), formerly 16 TAC
§23.45(h), formerly 16 TAC §23.45(g)).
These
obligations accrue interest as set forth in the
substantive rules of the PUC including, but not limited
to, 16 TAC §26.27(a)(3)(B) (formerly 16 TAC §26.27(d),
formerly 16 TAC §23.45(h), formerly 16 TAC
§23.45(g)). SWBT has failed and refused to pay the
obligations in accordance with the laws, rules and

238a
regulations governing SWBT, and continues to fail and
refuse to pay the obligations.
F. HCHD’s Claim
34. Complainant realleges and incorporates by
reference the allegations made in Paragraphs 1-32 of
this Complaint.
35. Complainant’s application for service became a
contract when accepted by SWBT. The relevant terms
of each contract are governed by the PURA, the terms
of SWBT’s tariffs, and the substantive rules relating
thereto. SWBT’s acts or omissions described above
constitute a material breach of such contracts.
Pursuant to 16 TAC §26.27(a)(3)(B) (formerly 16 TAC
§26.27(d), formerly 16 TAC §23.45(h), formerly 16 TAC
§23.45(g)), SWBT was to refund the amount of any
Unauthorized Charges for the entire period of the
overcharge. SWBT’s failure or refusal to refund the
Unauthorized Charges constitutes a material breach
of contract, and a violation of tariff, substantive rule(s)
and PURA, and has resulted in unlawful rates being
charged and collected by SWBT from HCHD. HCHD
is entitled to a refund of these unlawful rates in an
amount equal to the Unauthorized Charges, plus any
state and local taxes that may have been applied to
such Unauthorized Charges, plus accrued interest.
Alternatively, SWBT’s conduct was a breach of an
express warranty for which HCHD seeks the
refund/recovery of the above described Unauthorized
Charges, state and local taxes applied thereon, plus
accrued interest. In the event that the PUC does not
have jurisdiction to determine damages for claims of
breach of contract and/or breach of express warranty,
then in any event, HCHD seeks to a refund of the
Unauthorized Charges, plus any state and local taxes

239a
applied thereon, plus accrued interest, for the entire
period of the overbilling as stated in SWBT’s General
Exchange Tariff, Section 23, Sheet 11, paragraph 6.2
and/or 16 TAC §26.27(a)(3)(B)(i), under any available
theory for which the PUC may have jurisdiction or
authority to order such a refund, including, but not
limited, PURA §§ 53.002 and 53.004, as may be
applicable.
PRAYER
WHEREFORE, Complainant HCHD prays for
the recovery/refund of the Unauthorized Charges, plus
any state and local taxes that may have been applied
to such Unauthorized Charges, plus accrued interest,
and all other relief, at law and in equity, to which it
may show itself justly entitled.
Dated: March 15, 2012
Respectfully submitted,
/s/ Thomas R. Bray
Thomas R. Bray
LAW OFFICE OF THOMAS R. BRAY
State Bar No. 02926800
1431 Wirt Road, Suite 140
Houston, Texas 77055
Telephone: 713-827-1760
Telecopier: 713-827-7510
VINCE RYAN, Harris County Attorney
RANDALL RAYMOND SMIDT
Assistant County Attorney
State Bar No. 00798509
TERENCE O’OROURKE
First Assistant County
Attorney
State Bar No. 15311000

240a
1310 Prairie Suite 880
Houston, TX 77002
Telephone (713) 755-5585
Telecopier (713) 755-8848
J. Marcus “Marc” Hill
State Bar No. 09638150
HILL & HILL, PC
1770 St. James Place, Suite 115
Houston, Texas 77056
Telephone: 713-688-6318
Telecopier: 713-688-2817
THE HENNESSY LAW FIRM
Edward J. Hennessy
Texas Bar No. 09472000
2900 Weslayan, Suite 550
Houston, Texas 77027
Telephone (713) 224-5066
Telecopier (713) 224-5055
ATTORNEYS FOR COMPLAINANT
HARRIS COUNTY HOSPITAL DISTRICT

241a
APPENDIX S (241a-255a)
Filed 10 June 24 P12:28
Loren Jackson – District Clerk
Harris County
ED101J015839194
By: Irma medina
CAUSE NO. 2010-28461
HARRIS COUNTY HOSPITAL § IN THE DISTRICT COURT
District,
§
Plaintiffs,
§
§
vs.
§ HARRIS COUNTY TEXAS
§
§
SOUTHWESTERN BELL
§
TELEPHONE COMPANY
§
d/b/a AT&T TEXAS,
§
Defendant.
§ 333RD JUDICIAL DISTRICT
DEFENDANT’S PLEA TO THE JURISDICTION
AND MOTION TO DISMISS PLAINTIFF’S
ORIGINAL PETITION
Defendant Southwestern Bell Telephone Company
d/b/a AT&T Texas (“AT&T”) respectfully files this Plea
to the Jurisdiction and Motion to Dismiss Plaintiff’s
Original Petition for lack of subject matter
jurisdiction. The Texas Legislature has vested the
Public Utility Commission of Texas (“PUC”) with
exclusive original jurisdiction to determine precisely

242a
the type of fee dispute that is at issue in this lawsuit.
Because HCHD has failed to exhaust its
administrative remedies by presenting its claims to
the PUC, this Court lacks subject matter jurisdiction
and HCHD’s claims must be dismissed.
INTRODUCTION AND FACTUAL BACKGROUND
At issue in this case are the rates charged by AT&T
for telephone service throughout Texas during the
1990s. HCHD contends that AT&T overbilled for
telephone service between October 1991 and February
2000 by including “municipal charges” in HCHD’s bills
that were not authorized by AT&T’s PUC-approved
tariff. (See PL’s Pet. ¶¶ 6, 23-25.) These municipal
charges are included in customers’ bills so that AT&T
can
recover
“franchise
fees”-the
fees
that
municipalities charge AT&T for the use of rights-ofway. (See id. ¶ 15.) A utility’s right to pass through
franchise fees as a municipal charge to its customers
is a common practice that is specifically authorized by
the Public Utility Regulatory Act (“PURA”). See, e.g.,
TEX. UTIL. CODE§ 54.206.
HCHD has lodged its complaint against AT&T’s
municipal charges in the wrong forum. This Court
does not have jurisdiction to retroactively alter the
rates AT&T charged its customers or to determine in
the first instance whether AT&T’s rates and charges
complied with the tariff. The Texas Legislature has
unambiguously vested exclusive original jurisdiction
over disputes involving telephone service rates in the
PUC. Each of HCHD’s causes of action including its socalled “tort” claims-is rooted in the assertion that
AT&T charged rates not authorized by the tariff. This
sort of fee dispute falls squarely within the PUC’s
broad authority and exclusive jurisdiction. HCHD’s

243a
attempt to circumvent the PUC’s absolute authority to
determine all matters affecting telephone rates and
services must be rejected, and HCHD’s claims should
be dismissed for lack of subject matter jurisdiction.
LEGAL STANDARD
“[T]he Legislature grants an administrative agency
the sole authority to make an initial determination in
a dispute” falling within the agency’s exclusive
jurisdiction. Subaru of Am., Inc. v. David McDavid
Nissan, Inc., 84 S.W.3d 212, 221 (Tex. 2002) (emphasis
in original). For such a dispute, a plaintiff is required
to exhaust all administrative remedies before seeking
judicial review of the agency’s action. Id Until a
plaintiff exhausts administrative remedies, “the trial
court lacks subject matter jurisdiction and must
dismiss the claims within the agency’s exclusive
jurisdiction.” Id.
ARGUMENT AND AUTHORITIES
I. HCHD’s claims must be dismissed for lack of
subject matter jurisdiction.
A. PURA establishes the PUC’s exclusive
original jurisdiction over claims involving
a utility’s rates, operations, and services.
The PUC has exclusive jurisdiction over HCHD’s
claims in this action. As the Texas Supreme Court has
explained, “An agency has exclusive jurisdiction when
a pervasive regulatory scheme indicates that the
Legislature intended for the regulatory process to be
the exclusive means of remedying the problem to
which the regulation is addressed.” In re Sw. Bell Tel.,
235 S.W.3d 619, 624-25 (Tex. 2007).

244a
“Whether an agency has exclusive jurisdiction
depends on statutory interpretation.” Id. at 221-22. “In
construing PURA or any other statute, [a court’s]
objective is to determine and give effect to the
Legislature’s intent.” In re Entergy Corp., 142 S.W.3d
316, 322 (Tex. 2004). This case requires little statutory
interpretation because the Legislature’s grant of
exclusive jurisdiction to the PUC could not have been
more explicit. Section 52.002 of PURA provides:
To carry out the public policy stated by Section
52.001 and to regulate rates, operations, and
services so that the rates are just, fair, and
reasonable and the services are adequate and
efficient, the [PUC] has exclusive original
Jurisdiction over the business and property of
a telecommunications utility in this state
subject to the limitations imposed by this title.
TEX. UTIL. CODE § 52.002(a) (emphasis added).
In Southwestern Bell, the Texas Supreme Court held
that the grant of “exclusive original jurisdiction” in
section 52.002 ‘‘makes it clear that the Legislature
intended” a dispute involving an alleged improper
surcharge collected from Southwestern Bell’s
customers “to begin its journey toward resolution at
the PUC.” 235 S.W.3d 619, 626 (Tex. 2007). That
holding represented a logical extension of the Court’s
holding in Entergy just three years earlier. 142 S.W.3d
at 323. There, the Court found that an identical grant
of “exclusive original jurisdiction” to the PUC
represented the Legislature’s intent that disputes
“regarding [electric] utility rates, operations, and
services” be heard in the first instance by the PUC. In
re Entergy, 142 S.W.3d at 323; see also Subaru, 84
S.W.3d at 223 (enforcing grant of “exclusive original

245a
jurisdiction” to Texas Motor Vehicle Board). The Court
upheld the PUC’s exclusive jurisdiction over the
underlying disputes in both Entergy and Southwestern
Bell because “PURA is intended to serve as a
‘pervasive regulatory scheme’” for electric and
telephone utilities. In re Entergy, 142 S.W.3d at 323.
This is as true today as it was when those cases were
decided.
In Entergy and Southwestern Bell, the supreme
court analyzed other provisions of PURA that
evidenced the Legislature’s intent to grant the PUC
broad discretion and exclusive jurisdiction over the
regulation of public utilities. See id. at 322-23; In re
Sw. Bell, at 625-26. Many of those same provisions,
and others, demonstrate the Legislature’s intent that
the PUC be the forum of first resort for rate or other
fee disputes between AT&T and its customers –
including the dispute over municipal fees that is
presented here. See, e.g., TEX. UTIL. CODE § 14.001
(granting the PUC “the general power to regulate and
supervise the business of each public utility . . . and to
do anything specifically designated or implied by this
title that is necessary and convenient to the exercise of
that power and jurisdiction.”); id. § 51.00l(a)
(acknowledging
significant
changes
in
the
telecommunications industry and explaining, “It is the
purpose of this subtitle to grant the commission
authority to make and enforce rules necessary to
protect customers of telecommunications services
consistent with the public interest.”); id. § 53.001
(granting the PUC the authority to “establish and
regulate rates of a public utility” and to adopt rules for
determining “the applicability of rates”); id. § 53.003
(“The commission shall ensure that each rate a public
utility ... make[s], demand[s], or receive[s] is just and

246a
reasonable”) (emphasis added); id. § 17.157(a)
(granting the PUC authority to resolve disputes
between retail customers and utilities).
The PUC is vested-under the Legislature’s broad
grant of authority-with the “sole authority’’ to make an
initial determination in a dispute involving the
business and/or rates of a public utility. Subaru, 84
S.W.3d at 221; see also In re Entergy, 142 S.W.3d at
323 (explaining that through language granting the
PUC “exclusive jurisdiction” over electric utilities, “the
Legislature clearly expresse[d] its intent,” which made
the court’s “exclusive jurisdiction inquiry []
uncomplicated.”). Thus, based on the plain language of
PURA and the case Jaw interpreting it, any dispute
regarding the rates charged by telecommunications
providers must be determined, in the first instance, by
the PUC. HCHD’s claims fall squarely within this
mandate.
B. Based on the allegations in HCHD’s
Petition, it is clear that the PUC is the
required forum for HCHD’s fee dispute.
As shown above, it is crystal clear that PURA
establishes the PUC’ s exclusive jurisdiction over the
rates charged to customers by telecommunications
utilities. In this case, HCHD contends that it was
overcharged for telephone service between 1991 and
2000 because (1) AT&T included “municipal charges”
in HCHD’s bills that were not authorized by the tariff,
and (2) “all or part of those charges did not satisfy the
terms and conditions of’ various city ordinances. (Pl’s
Pet. ¶¶ 23, 25.) The PUC has exclusive jurisdiction to
address HCHD’s claims under either theory.
This case presents a simple rate or fee dispute
between AT&T and. one of its · customers. As the

247a
Texas Supreme Court recognized in Southwestern
Bell, this is exactly the type of dispute that the
Legislature entrusted to the PUC’s discretion and
exclusive jurisdiction:
For billing disputes, the PUC’s authority is
even more comprehensive, as it may “resolve
disputes between a retail customer and a
billing
utility,
service
provider,
[or]
telecommunications utility.” [TEX. UTIL.
CODE] § 17.157(a). In exercising, its authority
in resolving disputes, the PUC may
investigate an alleged violation, order a
service provider to produce information or
records, and require a service provider to
“refund or credit overcharges or unauthorized
charges with interest.” Id. § 17.I57(b)(l), (3),
and (6). The PUC also has the authority to
seek to enjoin a utility from engaging in acts
that violate PURA, and it can assess
administrative penalties against that utility.
Id. § 15.021, .023. These provisions, along with
the Legislature’s grant to the PUC of
“exclusive original jurisdiction over the
business and property of a telecommunications
utility,” id. § 52.002(a), establish that the
Legislature granted the PUC the authority to
approve a [specific surcharge at issue],
regulate a service provider’s collection of the
surcharge, hear disputes between customers
and service providers. concerning the
[surcharge], and grant refunds where
appropriate.
235 S.W.3d at 625-26. Accordingly, the Supreme Court
determined that the PUC had exclusive jurisdiction

248a
over the rate dispute at issue there and held that the
trial court abused its discretion in denying
Southwestern Bell’s plea to the jurisdiction. Id. at 627.
This case is materially identical to Southwestern
Bell – only the specific type of charge that was
allegedly improper is different. Compare id. with Pl’s
Pet. ¶¶ 23, 25. In Southwestern Bell, the alleged
improper charge was the Texas Universal Service
Fund fee, whereas the current case involves municipal
or franchise fees that were passed through io HCHD
as specifically authorized by PURA. See TEX. UTIL.
CODE §§ 51.009, 54.206(a). The distinction in the type
of charge is irrelevant to the jurisdictional issue
because franchise or municipal fees are encompassed
in PURA’s broad definition of “rate.” See Cent. Power
& Light Co. v. Pub. Util. Comm’n of Tex., 17 S.W.3d
780, 784, 785-86 (Tex. App.-Austin 2000, pet denied)
(finding that franchise fees fall within PURA’s broad
definition of rate, and affirming the PUC’s
determination that the proper allocation and collection
of municipal fees through customer bills is within the
PUC’s jurisdiction); TEX. UTIL. CODE § 11.003(16)
(defining “rate” as including “(A) any compensation,
tariff, charge, fare, toll, rental, or classification that is
directly or indirectly demanded, observed, charged, or
collected by a public utility for service, product, or
commodity described in the definition of utility in
Section 31.002 or 51.002; and (B) a rule, practice, or
contract affecting the compensation, tariff, charge,
fare, toll, rental, or classification.”). Thus, the
Legislature’s mandates to the PUC that it “establish
and regulate rates of a public utility,” TEX. UTIL.
CODE § 53.001, and that it “shall ensure that each
rate a public utility ... make[s], demand[s], or
receive[s] is just and reasonable,” id. § 53.003

249a
(emphasis added), include the exclusive jurisdiction to
determine whether the franchise or municipal fees at
issue in this lawsuit are authorized – i.e., “just and
reasonable.”
HCHD is well aware of the PUC’s jurisdiction over
billing disputes between a telecommunications utility
and its customers. Indeed, in a case decided just last
year, HCHD instituted a proceeding in the PUC
against AT&T on very similar allegations. See Tex.
Pub. Util. Comm’n, Complaint of Harris County Hosp.
Dist. against Sw. Bell Tel., LP, Docket No. 34322, 2009
WL 1097277 (April 15, 2009). HCHD alleged that
AT&T’s collection of late fees from HCHD violated the
Prompt Payment Act. Id. at *l. The PUC held that it
had jurisdiction over that billing dispute and issued an
order on the complaint. Id. at *3, COL ¶ l. HCHD’s
current lawsuit, while brought under the guise of
common law contract and tort claims, is the same type
of claim that it recently asserted to the PUC – that
AT&T collected a fee in violation of law.
HCHD also argues that AT&T violated various
municipal ordinances when it applied the municipal
charge to components of telephone service that
allegedly do not meet certain criteria set forth in the
ordinances. (See Pl’s Pet. ¶ 21.) HCHD’s apparent
contention is that municipal ordinances can exclude
certain service components from the municipal charge
regardless of whether the charge is authorized by the
tariff or PURA. (See id. ¶¶ 21, 25.) But to the extent
AT&T’s municipal charges did not violate the tariff or
PURA, a municipality cannot unilaterally alter the
rates that its residents will be charged by passing a
restrictive ordinance. See City of Nassau Bay v.
Nassau Bay Tel. Co., Inc., 517 S.W.2d 613, 616 (Tex.

250a
Civ. App. Houston [1st Dist.] 1974, writ ref’d n.r.e.)
(holding that “a city has no inherent power to regulate
the rates charged by a public utility.”); see also TEX.
LOC. GOV. CODE § 283.001(c)(4) (authorizing the
collection
of
municipal
fees
that
are
nondiscriminatory).
HCHD’s theory based on AT&T’s alleged violation
of municipal ordinances is merely another way of
stating that AT&T is charging unauthorized rates.
Resolution of this issue will require an interpretation
and reconciliation of the ordinances against the tariff
and PURA, each of which specifically authorize AT&T
to pass through a municipality’s franchise fees by way
of a municipal charge to its customers. For all of the
reasons stated above, such a determination is uniquely
within the exclusive jurisdiction of the PUC.
Accordingly, as in Southwestern Bell, this Court
should dismiss HCHD’s claims for lack of subject
matter jurisdiction based upon the PUC’s exclusive
original jurisdiction.
II. In the alternative, the PUC enjoys primary
jurisdiction over HCHD’s claims, which
requires abatement of this case pending a
determination by the PUC.
PURA’s express language and the Texas Supreme
Court’s decisions in Entergy and Southwestern Bell
leave little doubt that the PUC enjoys· exclusive
original jurisdiction over HCHD’s claims in this action.
At the very least, however, the PUC has primary
jurisdiction over this rate dispute, meaning that this
Court should abate these proceedings pending an
initial determination of HCHD’s claims by the PUC.
Primary jurisdiction “operates to allocate power
between courts and agencies when both have authority

251a
to make initial determinations in a dispute.” Subaru,
84 S. W.3d at 221. The purpose of the doctrine is “to
assure that the agency will not be bypassed on what is
especially committed to it.” City of Galveston v.
Flagship Hotel, Ltd., 73 S.W.3d 422,425 (Tex. App.Houston [1st Dist.] 2002, pet. denied). A trial court
should abate the proceedings and allow the agency to
make initial determinations when “(l) an agency is
typically staffed with experts trained in handling the
complex problems in the agency’s purview; and (2)
great benefit is derived from an agency’s uniformly
interpreting its laws, rules, and regulations.” Subaru,
84 S.W.3d at 221.
There is no doubt that the PUC has extensive
experience in regulating telecommunications utilities
and determining the proper application of PURA.
Moreover, the PUC is specifically charged with
regulating, enforcing and implementing the terms of
the PURA. See TEX. UTIL. CODE § 14.001 (providing
the PUC with the “general power to regulate and
supervise the business of each public utility within its
jurisdiction and to do anything specifically designated
or implied by this title that is necessary and
convenient to the exercise of that power and
jurisdiction.”); id. § 14.051 (allowing the PUC to “make
findings of fact and decisions to administer [PURA]”);
Pub. Util. Comm’n v. Sw. Bell Tel. Co., 960 S.W.2d 116;
119 (Tex. App.-Austin 1997, no pet.) (“The legislature
delegated to the [PUC] a general regulatory power
over public utilities expressed in the broadest possible
terms.”) Indeed, the PUC’s expertise in utility
regulation has Jed the Supreme Court to accord “great
weight” to the PUC’s construction of PURA. State v.
Pub. Util. Comm’n, 883 S.W.2d 190, 196 (Tex. 1994).

252a
Even if HCHD’s claims that AT&T collected
unauthorized rates were not within the exclusive
jurisdiction of the PUC, the agency is uniquely
qualified to interpret both PURA and AT&T’s tariff, as
well as how each impacts the validity of the municipal
ordinances at issue. Such an analysis is absolutely
necessary to adjudicate HCHD’s claims. Accordingly,
the PUC enjoys, at the very least, primary jurisdiction
over HCHD’s claims such that this Court should abate
these proceedings pending the PUC’s determination of
HCHD’s claims.
CONCLUSION AND PRAYER FOR RELIEF
For the foregoing reasons, AT&T’s plea to the
jurisdiction should be granted and this Court should
dismiss each of HCHD’s claims for lack of subject
matter jurisdiction. In the alternative, this Court
should abate these proceedings pending a
determination of HCHD’s claims by the PUC.
Respectfully submitted,
By: /s/ Michael S. Goldberg
Michael S. Goldberg
State Bar No. 08075800
Shira Yoshor
State Bar No. 00788730
Aaron M. Streett
State Bar No. 24037561
Joshua B. Nix
State Bar No. 24056046
910 Louisiana Street
Houston, Texas 77002
(713}229-1459 Telephone
(713) 229-7759 Telecopy
shira.yoshor@bakerbotts.com
ATTORNEYS FOR DEFENDANT

253a
SOUTHWESTERN BELL TELEPHONE
COMPANY d/bla AT&T TEXAS
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing document was sent by certified mail, return
receipt requested, to counsel for the Harris County
Hospital District on June 24, 2010.
/s/ Joshua B. Nix
Joshua B. Nix

254a
CAUSE NO. 2010-28461
HARRIS COUNTY HOSPITAL § IN THE DISTRICT COURT
District,
§
Plaintiffs,
§
§
vs.
§ HARRIS COUNTY TEXAS
§
§
SOUTHWESTERN BELL
§
§
TELEPHONE COMPANY
d/b/a AT&T TEXAS,
§
Defendant.
§ 333RD JUDICIAL DISTRICT
VERIFICATION
STATE OF TEXAS
COUNTY OF TRAVIS

§
§
§

BEFORE ME, the undersigned authority,
personally appeared Robert Digneo, who after being
duly sworn by me, deposed and stated as follows:
1. My name is Robert Digneo. I am over the age of
twenty-one, am fully competent to make this
verification, and have never been convicted of a crime.
The information in this verification is within my
personal knowledge and is true and correct.
2. I am the AVP-External Affairs/Regulatory of
AT&T Services, Inc.
3. I have reviewed AT&T’s Plea to the Jurisdiction
and Motion to Dismiss Plaintiff’s Original Petition and

255a
I hereby verify that the factual statements contained
therein are true and correct.
FURTHER AFFIANT SAYETH NOT
Executed on this 24th day of June 2010.
/s/ Robert H. Digneo
[Name]
SWORN TO AND SUBSCRIBED before me on the
24th day of June, 2010.
/s/ Natasha Nicole Bergen
Notary Public

Natasha Nicole Bergen
Notary Public, State of Texas
My Commission Expires
August 03, 2013
(SEAL)
My Commission Expires:
August 3. 2013

256a
APPENDIX T (256a-260a)
Filed 10 June 24 P12:28
Loren Jackson – District Clerk
Harris County
ED101J015839194
By: Irma medina
CAUSE NO. 2010-28461
HARRIS COUNTY HOSPITAL § IN THE DISTRICT COURT
District,
§
Plaintiffs,
§
§
vs.
§ HARRIS COUNTY TEXAS
§
§
SOUTHWESTERN BELL
§
TELEPHONE COMPANY
§
d/b/a AT&T TEXAS,
§
Defendant.
§ 333RD JUDICIAL DISTRICT
DEFENDANT’S ORIGINAL ANSWER
Defendant Southwestern Bell Telephone Company
d/b/a AT&T Texas (“AT&T”) files this Original Answer
in response to Plaintiff Harris County Hospital
District’s (“HCHD”) Original Petition (“Petition”) and
would respectfully show the Court as follows:
I. GENERAL DENIAL

257a
1.1 Pursuant to Rule 92 of the Texas Rules of Civil
Procedure, AT&T generally denies the allegations and
claims set forth in HCHD’s Petition and demands
strict proof thereof by a preponderance of the credible
evidence, as required by the Constitution and laws of
the State of Texas.
1.2 AT&T specifically reserves the right to file
amended pleadings in this case in accordance with the
Texas Rules of Civil Procedure.
II. AFFIRMATIVE AND OTHER DEFENSES
2.1 AT&T also pleads the following additional
defenses, some of which may be affirmative defenses
on which AT&T will have the burden of proof and
others of which relate to the elements of HCHD’s
causes of action. By pleading these defenses, AT&T
does not assume the burden of proof on any defenses
for which it would not otherwise have the burden of
proof under Texas law.
2.2 HCHD’s claims and causes of action are barred
by the economic loss rule.
2.3 HCHD’s claims and causes of action are barred
by the doctrine of estoppel.
2.4 HCHD’s claims and causes of action are barred
by the doctrine of laches.
2.5 HCHD’s claims and causes of action are barred
by the filed rate doctrine.
2.6 HCHD’s claims and causes of action are barred
by the doctrines of res judicata and/or collateral
estoppel.
2.7 HCHD’s claims and causes of action are barred
by the doctrine of release.

258a
2.8 HCHD’s claims and causes of action are barred
by the voluntary payment rule.
2.9 HCHD’s claims and causes of action are barred
by waiver.
2.10 To the extent HCHD failed to mitigate its
damages, AT&T asserts failure to mitigate as an
affirmative defense.
2.11 AT&T asserts that HCHD is barred from any
relief or remedy as to each of its claims and causes of
action for failure to exhaust administrative remedies.
This Court lacks subject matter jurisdiction over
HCHD’s claims because the Public Utility Commission
of Texas (“PUC”) has exclusive original jurisdiction
over exactly the type of fee dispute that HCHD asserts
in this lawsuit. See, e.g., TEX. UTIL. CODE §§ 17.157,
52.002; see also In re Sw. Bell Tel. Co., 235 S.W.3d 619,
625-26 (Tex. 2007).
2.12 HCHD’s claims are barred, in whole or in part,
by section 54.206 of the Texas Utilities Code and/or
section 283.001 et seq. of the Texas Local Government
Code.
2.13 HCHD’s claims fail because HCHD has not
alleged any misrepresentations regarding the
characteristics of the services provided by AT&T.
2.14 HCHD’s claims fail because HCHD has not
alleged that AT&T had a duty to disclose information
under Texas law.
2.15 AT&T further asserts that HCHD’s claims and
causes of action, if any, arise solely from the tariff,
which operates as a contract between HCHD and
AT&T. Because AT&T owed no duties to HCHD

259a
independent of that contract, each of HCHD’s alleged
tort claims are barred under Texas law.
2.16 Defendants deny any liability for punitive or
exemplary damages. Moreover, HCHD’s claim for
punitive or exemplary damages is subject to the
limitations and requirements of chapter 41 of the
Texas Civil Practice and Remedies Code, including the
cap on exemplary damages set out in section 41.008(b),
and also subject to the limitations arising from the Due
Process Clause of the United States Constitution.
III. PRAYER
Wherefore, AT&T prays that the Court dismiss
each of HCHD’s claims for lack of subject matter
jurisdiction based upon the PUC’s exclusive original
jurisdiction. In the alternative, AT&T prays that upon
final trial and hearing in this case, HCHD takes
nothing by reason of this suit, that AT&T recovers its
costs of court and expenses, and for all other relief to
which it is entitled.
Respectfully submitted,
By: /s/ Shira Yoshor
Shira Yoshor
State Bar No. 00788730
Aaron M. Streett
State Bar No. 24037561
Joshua B. Nix
State Bar No. 24056046
910 Louisiana Street
Houston, Texas 77002
(713) 229-1459 Telephone
(713) 229-7759 Telecopy
shira.yoshor@bakerbotts.com
ATTORNEYS FOR DEFENDANT

260a
SOUTHWESTERN BELL TELEPHONE
COMPANY d/b/a AT&T TEXAS
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the
foregoing document was sent by certified mail, return
receipt requested, to counsel for the Harris County
Hospital District on June 4, 2010.
/s/ Joshua B. Nix
Joshua B. Nix
(Seal
District Court of
Harris County, Texas)
I, Loren Jackson,
District Clerk of Harris
County, Texas certify that this is a true and correct
copy of the original record filed and or recorded in my
office, electronically or hard copy, as it appears on this
date Witness my official hand and seal of office this
June 7, 2010
Certified Document Number: 45487777 Total Pages: 4
/s/ Loren Jackson
LOREN JACKSON, DISTRICT CLERK
HARRIS COUNTY, TEXAS
In accordance with Texas Government Code 406.013
electronically transmitted authenticated documents
are valid. If there is a question regarding the validity
of this document and or seal please e-mail
support@hcdistrictclerk.com

261a
APPENDIX U (261a-285a)
Filed
Loren Jackson
District Clerk
May 6 – 2010
8:15 A.M.
CAUSE NO. 2010-28461
HARRIS COUNTY HOSPITAL § IN THE DISTRICT COURT
District,
§
Plaintiffs,
§
§
vs.
§ HARRIS COUNTY TEXAS
§
SOUTHWESTERN BELL
§
TELEPHONE COMPANY
§
d/b/a AT&T TEXAS,
§
Defendant.
§ 333RD JUDICIAL DISTRICT
PLAINTIFF’S ORIGINAL PETITION
TO THE HONORABLE JUDGE OF SAID COURT:
NOW COMES, HARRIS COUNTY HOSPITAL
DISTRICT, hereinafter called APlaintiff@ or AHCHD@,
complaining of Defendant, SOUTHWESTERN BELL
TELEPHONE COMPANY d/b/a AT&T TEXAS,
hereinafter sometimes called ADefendant@ or “SWBT”,
filing this Original Petition and would show the Court
and jury as follows:
A. Case Level

262a
1. Plaintiff intends that discovery be conducted
under Level 3 of Rule 190 of the Texas Rules of Civil
Procedure.
B. Parties
2. Plaintiff Harris County Hospital District is a
political subdivision of the State of Texas organized as
a hospital district in Harris County, Texas, created
under Texas Health & Safety Code §281 Subchapter A
and pursuant to Article IX of the Texas Constitution,
with its administrative offices located at 2525 Holly
Hall Drive, Houston, Texas 77054.
3. Defendant Southwestern Bell Telephone
Company d/b/a AT&T Texas (“SWBT”) is a Missouri
corporation providing telecommunication services
within the States of Texas. SWBT provides a broad
variety of services to the public in cities in Texas
pursuant to franchises granted by the cities to SWBT
and pursuant to certificates of convenience and
necessity issued by the Public Utility Commission of
Texas (“PUC”), as well as non-regulated services.
SWBT’s principal place of business is in Dallas, Texas.
SWBT may be served through its registered agent for
services of process, Timothy A. Whitley, 6500 West
Loop South, Room 5.5, Bellaire, Texas 77401.
C. Jurisdiction and Venue
4. This Court has jurisdiction over the Defendant
because Defendant is registered to do business in
Texas, and because Defendant’s principal place of
business is in Texas. The amount in controversy,
exclusive of interest and costs, exceeds the minimum
jurisdictional limits of this Court.

263a
5. Venue is proper under Tex. Civ. Prac. & Rem.
Code §15.002(a) because all or a substantial part of the
events or omissions giving rise to the claim occurred in
Harris County, Texas. For venue facts, Plaintiff also
relies on all other allegations made in this Petition.
D. Background
6. HCHD consists of several significant hospitals
and health care facilities in Harris County, Texas. As
part of its operations, HCHD has had extensive
telephone services provided by SWBT over the years.
HCHD has generally been billed by SWBT and paid by
HCHD on a monthly basis. As part of the SWBT bills,
there has been an item shown as “municipal charges”,
which HCHD paid. HCHD recently learned that
during the period from October 1, 1991 through
February 2000, all or a portion of those charges were
not authorized according to a tariff (“Unauthorized
Charges”). In addition, HCHD may have also paid
SWBT state and local taxes that were applied to such
Unauthorized Charges. HCHD seeks, among other
things, recovery of damages for such payments.
HCHD seeks recovery under the following alternative
common law causes of action: breach of contract,
breach of express warranty, negligence per se, and
fraud.
The Mireles Class Action
7. Although HCHD just recently learned about its
own municipal charge claims, other customers of
SWBT raised similar claims in two previous class
action lawsuits. The first class action is known as the

264a
Mireles class action. 1 The Mireles case involved issues
relating to municipal charges on bills of over 5 million
SWBT customers throughout Texas from 1991
through 2000.
In Mireles, the plaintiffs were
generally alleging that SWBT could not collect
municipal charges from its customers during these
years because SWBT did not have a tariff applicable to
the specific type of municipal ordinance at issue. The
Mireles case was filed in 1998, and in late 1999 SWBT
signed a settlement agreement. The settlement was
approved by the court in May 2000.
8. Although the Mireles case has been concluded, it
did not affect the claims of HCHD because HCHD is a
political subdivision of the State of Texas. As a
political subdivision, HCHD was not a member of the
Mireles class. More specifically, representation of
HCHD is subject to the requirements of TEXAS HEALTH
& SAFETY CODE § 281.056 and other laws of the State
of Texas. There was no compliance with Section
281.056 in the Mireles case; therefore, HCHD’s claims
were not prosecuted in Mireles, and HCHD is not
bound by or subject to the Mireles settlement or
judgment.
9. In addition, the Mireles settlement was tainted
by subsequent allegations that the settlement was the
product of fraud and collusion. Mireles was a case
where the plaintiffs were claiming over $700 million in
overcollections by SWBT. Without having received
any discovery from SWBT, the Mireles plaintiffs
1 Cause No. 98-07-3003-E, styled Jose Mireles and Patricia
Genuchi, et al., v. Southwestern Bell Telephone Company, in the
357th Judicial District Court of Cameron County, Texas.

265a
entered into a settlement agreement with SWBT on
terms that would ultimately purport to release all
municipal charge claims throughout Texas for 5
million SWBT customers, including, claims that were
never part of the suit as originally filed. The Mireles
settlement paid absolutely nothing to any class
members – no money, property, service credits, or
coupons. Instead, the settlement was a purported cy
pres settlement with an alleged value of $10 million,
out of which $2 million was paid to class counsel, $1.25
million went to SWBT for notice and administrative
costs, and the remainder (in the form of service credits
and cash) was to go to a SWBT supported agency of the
State
of
Texas,
the
Telecommunications
Infrastructure Fund Board (“TIFB”). 2
10. After the settlement was approved by the trial
court, a putative class member, Chemject
International, Inc., alleged that material false
statements and representations were made to the
putative class which mislead the class and prevented
members from opposing the settlement; Chemject
further alleged that these and other false statements
and representations mislead the trial court and
induced it to approve the settlement. 3 For example,
2 Before there was a final approval of the settlement was and “cy
pres” payments were made, TIFB was eliminated by a
Proclamation of Texas Governor Rick Perry, and by an Executive
Order, a timeline was established for the Texas Workforce
Commission to close out all TIFB grants and funding.

Chemject also alleged that the elimination of TIFB rendered the
settlement void. See Chemject Int'l, Inc. v. Sw. Bell Tel. Co., 2007
WL 177651, 2007 Tex.App. LEXIS 586, (Tex.App.-Corpus Christi
Jan. 25, 2007, pet. denied; cert. denied) (mem.op.); cert. denied,

3

266a
Chemject alleged that the following statements
contained in the class action settlement notice sent to
5 million SWBT customers in their monthly phone bill
envelope, were false and misleading:
“SWBT does not keep any of the municipal fees
it collects – all of the money goes to the
municipalities;”
“Class Counsel has conducted sufficient
discovery so as to investigate the facts and
applicable law regarding the matters raised in
the Lawsuit;”
“More importantly, discovery in the Lawsuit
revealed that it would be extraordinarily
difficult, if not impossible, to identify the
specific amounts that individual Settlement
Class members might recover even if the
Lawsuit were successful;”
“Class Counsel has determined that the
amounts that might be recovered by individual
Settlement Class members would be quickly
consumed by the overall notice and
administration costs necessary to facilitate
settlement, because the Settlement Class is
exceptionally large (it is estimated at more
than five million members), and because the
amount of possible recovery varies greatly but
generally is not a large sum of money;”
“Discovery determined that SWBT cannot
independently identify which Class Members
suffered what damages;” and
128 S.Ct. 1873, 170 L.Ed.2d 745, 76 USLW 3374, 76 USLW 3549,
76 USLW 3554 (2008)

267a
“The Administrative costs associated with
trying to identify and then confirm individual
recoveries on a case-by-case basis would
exhaust any recovery.
An example of a misrepresentation that Chemject
alleged was made to the trial court by class counsel at
the hearing that approved the Mireles class action
settlement is:
“Through our discovery of the case, we
determined that the phone company is not
keeping this money. They are not profiting
from this process. In fact, there was evidence
to suggest that maybe they’ve overpaid the
amount of taxes, not kept some of this money;”
and
Chemject
also
alleged
that
a
similar
misrepresentation was made by class counsel to the
court of appeals. When one of the Justices asked the
“So Southwestern Bell didn’t keep any of the money
that they collected?” the Mireles class counsel
responded:
“Not a single penny Your Honor. It was a pure
pass-through tax.
It was, in fact, our
municipalities taxing us in a way that they
didn’t want to go directly to us, and it was
money provided to them.
In response to the foregoing statements, Chemject
generally alleged, among other things, that: (1)
sufficient discovery was not conducted by Class
Counsel, since there was no discovery received from
SWBT before the settlement agreement was signed;
(2) SWBT did collect millions of dollars in municipal
fees that it did not pay the municipalities; (3) SWBT

268a
has electronic records that would allow identification
of the specific members who suffered damages and the
specific amounts that they might recover, for most, if
not all, of the time periods at issue; and (4) the amount
of possible recovery was very large, and substantially
exceeded the administration costs of the case.
Ultimately, however, Chemject’s attempts to set aside
the Mireles settlement were rejected by the trial and
appellate courts, primarily on jurisdictional grounds
and by concluding that Chemject’s fraud allegations
were in the nature of intrinsic fraud, not extrinsic
fraud which is required for a bill of review. 4 In any
event, HCHD was not a member of the Mireles class
action and is not bound by any of its settlement terms
or the final judgment in that case.
The STA Class Action
11. The other class action that raises some of the
same types of municipal charge claims against SWBT
as HCHD raises herein was filed in May 2000 by
Marketing On Hold, Inc. d/b/a Southwestern Tariff
Analyst (“STA”). The STA class action is currently
pending before the Texas Supreme Court on SWBT’s
interlocutory appeal of the trial court’s certification of
the class. 5 The STA class action was carved out of the
Cause No. 98-07-3003-E, Jose Mireles, et al. v. Southwestern Bell
Telephone Company, in the 357th Judicial District Court of
Cameron County, Texas; Cause No. 2004-05-2337-E in the 357th
District Court of Cameron County, Texas; see Chemject Int'l, Inc.
v. Sw. Bell Tel. Co., supra.

4

5 On February 19, 2010, the Texas Supreme Court reversed the
trial court and court of appeals and de-certified the class; STA has
filed a motion for rehearing which is pending. See Cause No.
2000-05-001931-B, Marketing On Hold, Inc. d/b/a Southwestern
Tariff Analyst, et al. v. Southwestern Bell Telephone Company,

269a
Mireles class action settlement by a Rule 11 agreement
approved by the Mireles court.
12. By way of background, STA is in the business
of auditing telephone bills and records, and then
making recommendations to its customers about ways
to reduce their telephone bills and/or obtain refunds
for overbillings. In the course of this business, STA
determined that many of its customers had been billed
by SWBT for items that were not authorized under
SWBT’s franchise agreements with municipalities
throughout Texas. These franchise agreements were
typically approved by the municipalities as
ordinances. Generally, these agreements/ordinances
only allowed SWBT to apply a municipal charge to a
customer service charge if done according to tariff and
all of the following conditions are met: the customer
service charge is (1) billed through CRIS, (2) a
recurring charge, (3) a local exchange access element,
(4) provided within the municipality, and (5) a EUCL
charge as imposed by the FCC. In the STA class
action, STA claimed that the customer service charges
made by SWBT for Digital Loop Service, SmartTrunk
service, and Hotel/Motel measured service, did not
satisfy all of the conditions of the franchise
agreements/ordinances.
As of the filing of this
petition, the status of the STA case is that the Texas
Supreme Court reversed the court of appeals and trial
pending in the 138th Judicial District Court of Cameron County,
Texas; Case No. 05-0748, Southwestern Bell Telephone Company
v. Marketing on Hold, Inc. d/b/a Southwest Tariff Analyst, in the
Supreme Court of Texas; see Southwestern Bell Telephone
Company v. Marketing On Hold, Inc., 170 S.W.3d 814 (Tex. App.
– Corpus Christi 2005, review granted).

270a
court’s certification, and decertified the class; 6
however, a motion for rehearing was filed by STA
which is currently pending. Although HCHD was
listed as a putative class member by SWBT in the STA
case, the requirements of TEXAS HEALTH & SAFETY
CODE § 281.056 were not satisfied.
13. SWBT essentially admitted that HCHD did not
participate in the Mireles or STA class actions, when
it stated in Defendant’s Response to Plaintiff’s Motion
for Class Certification filed in the STA case, at page
30, as follow:
Finally, a substantial number of state agencies
are part of the putative class, but these
agencies could not even participate in the class
action without first securing permission to sue
[through] the Texas Attorney General’s Office.
In the absence of securing such permission,
state agencies are forbidden to file suit.
Since HCHD’s right to sue is governed by HEALTH
& SAFETY CODE § 281.056, the Texas Attorney
General’s permission is not required; however, the
HCHD Board’s approval is required and HCHD must
also be represented by the Harris County attorney,
neither of which occurred in the STA case or the

On February 11, 2010, HCHD joined with STA in filing a federal
district court lawsuit in Austin, Texas, against the Justices of the
Texas Supreme Court, asking the federal court to declare that the
Justices’ three year delay after oral argument was a deprivation
of constitutional due process. The Texas Supreme Court issued
its opinion eight days later. HCHD subsequently dismissed itself
from the federal lawsuit.

6

271a
Mireles case. 7 Therefore, neither the STA case nor the
Mireles case can have any preclusive effect on any of
HCHD’s claims being made herein. 8
E. Factual Allegations
14. SWBT provides telephone service subject to a
regulatory scheme established by the laws and
ordinances of the State of Texas. SWBT is permitted
to charge subscribers only those charges which are
included in a tariff approved by the Public Utilities
Commission of Texas (“PUC”).
15. One of SWBT’s costs of providing regulated
telephone service is the payment SWBT makes to a
municipality for the use of that municipality’s rightsof-way. Each municipality may charge SWBT for the
use of the municipality’s rights-of-way. SWBT’s
payment to municipalities for the use of the rights-ofway is generally referred to as a “franchise fee.” The
compensation and other conditions of using the
municipality’s right of way are recited in a franchise
fee ordinance adopted by each municipality.
16. Prior to 1978, SWBT sought to recover the cost
of franchise fees by including the franchise fee cost as
7 Although HCHD might have found it preferable to be a member
of the STA class under other circumstances, the likelihood of
further delay (the STA case is already nearly ten years old, seven
years of which has been the certification appeal) and the
uncertainty resulting from the Texas Supreme Court’s recent decertification and opinion, makes it necessary for HCHD to file its
own suit now rather than wait to see what happens in the STA
case.
8 Notably, TEX. CIV. P. & REM. CODE §16.061 exempts HCHD’s
claims from any limitation period.

272a
part of the rates that SWBT charged its subscribers for
telephone service. In 1978, SWBT proposed to the
PUC a new method for attempting to recover the
franchise fee cost. This proposed method would charge
customers a pro rata share of any franchise fees that
are based upon a percentage of SWBT’s gross receipts
received for telephone service in a particular
municipality. This proposed tariff was approved by
the PUC and implemented by SWBT. Specifically, the
tariff provided, in pertinent part, as follows:
There shall be added to the customer’s bill for
service, an additional charge equal to the pro
rata share of any occupation, franchise,
business, license, excise privilege or other
similar charge or tax, now or hereafter
imposed upon the gross receipts or revenue of
the Telephone Company by any municipal
taxing body or municipal authority whether by
statute, ordinance, law or otherwise, and
whether presently due or to hereafter become
due.
The charge applicable to each customer will
appear separately on the customer’s regular
monthly bill and shall be determined on a
basis equal to the tax levied by each municipal
taxing body or municipal authority.
The amount of charge to the customer shall be
computed by dividing the tax expressed as a
percentage by 100% minus the tax expressed
as a percentage and multiplying the decimal
thus obtained by the customer’s service
charges to which such tax applies as reflected
by the following formula:

273a
Tax %
x Service Charges = Amount of
100% - Tax %
Subject to Tax
Charge to
Customer
The amount of charge to the customer will be
rounded to the nearest cent.
17. Although SWBT’s proposed tariff formula
characterized the franchise fee charge as a “tax,”
subsequent Attorney General Opinions and case
authority plainly state that a franchise fee is not a
“tax,” rather, it is essentially a form of rent paid to the
municipality for the use of its rights of way.
18. The PUC approved SWBT’s proposal in Docket
No. 1704, August 14, 1978. At the time that the tariff
was approved, the franchise fees that SWBT was
charged by the municipalities were generally pursuant
to an ordinance or franchise agreement, which stated
the fee as a percentage of SWBT’s gross receipts or
revenues from the rendition of local exchange
telephone transmissions service. The PUC’s approval
of the tariff authorized SWBT to recover these costs by
charging its customers within each municipality
having such an ordinance or agreement, a pro rata
share of the franchise fee, stated separately on the
customer’s bill in accordance with the terms and
conditions of the tariff.
19. Litigation ensued between municipalities and
SWBT wherein municipalities challenged SWBT on
the amounts being included in and excluded from gross
receipts. As part of the resolution of that litigation,
SWBT proposed, and most municipalities enacted,
specified annual payment ordinances (also called
“SAP” ordinances), wherein SWBT would pay each

274a
such municipality a specified annual payment as a
franchise fee, rather than a franchise fee based upon a
percentage of gross receipts.
20. Beginning by at least 1991 and continuing
thereafter, Texas cities enacted ordinances that
imposed an “Annual Charge” (a stated minimum
annual dollar amount) upon the Gross Receipts of
SWBT.
The ordinances became effective upon
“acceptance” by SWBT.
The “Annual Charge”
ordinance contains the following language or language
similar thereto:
“The
TELEPHONE
COMPANY
will,
according to tariff, bill such Annual Charge to
the customers billed the customer service
charges included within the term “Gross
Receipts,” as defined herein. Gross Receipts,
for purposes of the Annual Charge, shall
include only customer service charges billed
through
the
TELEPHONE
Company’s
Customer Records Information System
(“CRIS”) for the recurring charges for the local
exchange access rate element specified in the
TELEPHONE Company’s tariffs filed with the
PUC for any TELEPHONE COMPANY
services provided within the CITY which are
also subject to an interstate end user common
line (“EUCL”) charge as imposed by the federal
communications commission (“FCC”).”
For example, in Harris County alone, the following
municipalities adopted a SAP ordinance from 1991to
1995:
Bunker Hill Village (Ordinance No. 99231); Deer Park (Ordinance Nos. 2276 & 2301 & 2607
& 2276 & 2631); Hedwig Village (Ordinance Nos. 459,

275a
441, 374); Houston (Ordinance No. 91-1169); Hudson
(Ordinance Nos. 1997-02, 1992-4); Hunters Creek
Village (Ordinance Nos. 538, 485); Jersey Village
(Ordinance No. 92-22); La Porte (Ordinance Nos. 972208, 1834); Pasadena (Ordinance No. 93-82); Piney
Point Village (Ordinance Nos. 838, 837, 816,
745); Seabrook (Ordinance Nos. 92-26); Shoreacres
(Ordinance Nos. 99-05, 98-16, 97-17, 92-15); South
Houston (Ordinance No. 95-006, 942-4-92); Southside
Place (Ordinance No.160-A, 160); Spring Valley
(Ordinance Nos. 99-20, 99-19, 98-24, 97-35, 97-05, 9632, 95-16, 94-17, 44); Tomball (Ordinance Nos. 99-13,
99-11, 99-15, 99-03, 98-25, 98-16, 97-13, 96-16, 95-07A,
92-10); Webster
(Ordinance
No. 95-21); West
University Place (Ordinance No. 1446). Throughout
Texas, over 400 Texas municipalities adopted SAP
ordinances from 1991 to 1995.
Generally, in addition to the requirement that a
municipal charge billed to a customer must be
according to tariff, all of the following conditions must
also be satisfied before a “municipal charge” may be
applied to a SWBT customer’s service charge:
(1) The customer service charge must be billed
through CRIS;
(2) The customer service charge must be a
recurring charge;
(3) The customer service charge must be a local
exchange access element;
(4) The customer service charge must be provided
within the city; and

276a
(5) The customer service charge must be subject
to a EUCL charge as imposed by the FCC.
In addition to its claim that there was no tariff upon
which SAP ordinance municipal charges to customers
could be based, HCHD also alleges that SWBT applied
“municipal charges” to certain customer service
charges relating to Digital Loop Service and
SmartTrunk service to which HCHD subscribed,
although Digital Loop Service and SmartTrunk
service did not satisfy all of the required conditions
described above under the applicable municipal
ordinances, including, without limitation, City of
Houston Ordinance No. 91-1169.
22. In 1997, Texas municipalities began adopting a
“fee per line” ordinance, in place of the SAP ordinance.
The “fee per line” ordinance did not base the municipal
charge on any reference to “gross receipts,” or a
specified annual payment. The municipal charge was
based upon a set fee per each access line in each
municipality. For example, the City of Houston’s fee
per line Ordinance No. 98-593, adopted in 1998, the
initial monthly rate for a residential access line was
$1.34, and $4.55 for a non-residential access line.
23. SWBT did not file a new tariff with the PUC, or
amend the existing tariff, to enable it to collect a
municipal charge from its customers pursuant to a
“SAP” ordinance, “flat-fee” ordinance, or “fee per line”
ordinance. SAP ordinances, “flat-fee” ordinances and
“fee per line” ordinances are not ordinances that state
the franchise fee as a percentage of SWBT’s gross
receipts or revenues. The above-described tariff
approved in Docket 1704 does not apply to SAP

277a
ordinances, “flat-fee” ordinances or “fee per line”
ordinances. Without authorization, SWBT based the
“municipal charges” upon the franchise fees paid to
municipalities having SAP ordinances or “fee per line”
ordinances. SWBT collected the “municipal charge”
from its customers without authorization. Further, it
collected more in so-called “municipal charges” from
its customers, than it paid to municipalities as
franchise fees.
24 HCHD subscribed to SWBT services in the State
of Texas, during the period from 1991 through
February 2000. 9 SWBT sent HCHD statements for
service. One mandatory component of the statement
is a billing for the “municipal charge.” Another
component of the statement is a line item described on
the statement as “state and local taxes.” HCHD
cannot independently verify, or independently
determine, the customer service charges on which the
“municipal charge” is being applied and the rate
applied to such customer service charges, nor can
HCHD independently verify, or independently
determine, whether state and local taxes were applied
thereto. SWBT has concealed certain details and facts
relating to the Unauthorized Charges.
Effective on or about March 1, 2000, all SAP ordinances, flat-fee
and “fee per line” ordinances were terminated by SWBT,
pursuant to Tex. Loc. Gov’t. Code §283.054. In its notice letter to
municipalities, SWBT acknowledged that from and after that
date, SWBT would operate under Chapter 283 of the Texas Local
Government
Code,
Public
Utility
Commission
rules
implementing Chapter 283, and other state and federal laws, as
applicable. SWBT submitted, and the PUC approved, a new tariff
provision for municipal fees, effective June 1, 2000, in order to
comply with the “fee per line” structure of Chapter 283.

9

278a
25. HCHD relied on SWBT’s billing statements as
being true and correct. From 1991 through February
2000, HCHD was charged “municipal charges” and
paid to SWBT “municipal charges” that were
purportedly based upon franchise fees paid to
municipalities having SAP ordinances, “flat-fee” or
“fee per line” ordinances, although (a) there was no
tariff authorizing all or part of those charges to
SWBT’s customers, and (b) all or part of those charges
did not satisfy the terms and conditions of the
ordinances. As mentioned above, HCHD may have
also been charged and paid the state and local taxes
that SWBT applies to “municipal charges,” which also
would have been unauthorized.
26. In addition to HCHD, other federal, state and
local political subdivisions, departments and
governmental agencies, which were SWBT customers,
were also charged the unlawful fees, including,
without limitation, those listed on Exhibit 1 attached
hereto.
27. SWBT’s act or omissions as stated in this
petition are a violation of certain laws, tariffs, rules
and/or regulations governing SWBT, including, but
not limited to, §§ 53.002, 53.004(a) and (b) of the Public
Utility Regulatory Act (“PURA”), and 16 TAC
§26.27(a)(3)(B) (formerly 16 TAC §26.27(d), formerly
16 TAC §23.45(h), formerly 16 TAC §23.45(g)). SWBT
has a duty to comply with the PURA, the PUC’s rules
and regulations, and the tariffs. PURA prohibits
SWBT from charging, demanding or receiving
compensation from a person that is unjust,
unreasonable, or other than the compensation

279a
prescribed by applicable tariff. See PURA sections
52.251, 53.002, 53.003, and 53.004(a).
28. SWBT’s failure to pay its obligations to HCHD
for collecting the “municipal charges” as described
above, is a violation of 16 TAC §26.27(a)(3)(B)
(formerly 16 TAC §26.27(d), formerly 16 TAC
§23.45(h), formerly 16 TAC §23.45(g)).
These
obligations accrue interest as set forth in the
substantive rules of the Public Utility Commission of
Texas (“PUC”) including, but not limited to, 16 TAC
§26.27(a)(3)(B) (formerly 16 TAC §26.27(d), formerly
16 TAC §23.45(h), formerly 16 TAC §23.45(g)). SWBT
has failed and refused to pay the obligations in
accordance with the laws, rules and regulations
governing SWBT, and continues to fail and refuse to
pay the obligations.
F. Causes of action
Count 1 – Breach of Contract
29. Plaintiff realleges and incorporates by reference
the allegations made in Paragraphs 1-28 of this
petition. This Count is pleaded in the alternative.
30. Plaintiff’s application for service became a
contract when accepted by SWBT. The relevant terms
of each contract are uniform and are governed by the
Texas Public Utility Regulatory Act, the terms of
SWBT’s tariffs approved by the Texas Public Utility
Commission (“PUC”) and the substantive rules
relating thereto. SWBT’s acts or omissions described
above constitute a material breach of such contracts.
Pursuant to 16 TAC §26.27(a)(3)(B) (formerly 16 TAC
§26.27(d), formerly 16 TAC §23.45(h), formerly 16 TAC

280a
§23.45(g)), SWBT was to refund the amount of any
Unauthorized Charges for the entire period of the
overcharge. SWBT’s failure or refusal to refund the
Unauthorized Charges constitutes a material breach
of contract.
SWBT’s breach of contract caused
damages to HCHD. HCHD is entitled to recover
damages in an amount equal to the Unauthorized
Charges, plus any state and local taxes that may have
been applied to such Unauthorized Charges, plus
accrued interest.
Count 2 - Breach of Express Warranty for Services
31. Plaintiff realleges and incorporates by reference
the allegations made in Paragraphs 1-28 of this
petition. This Count is pleaded in the alternative.
32. SWBT expressly represented to its customers
by and through their monthly billing statements for
telecommunications services that the charges for those
services were true and correct and/or legally
authorized.
The service charge representations
formed the basis of bargain for each of the monthly
transactions for telecommunications services with
SWBT’s customers. SWBT breached the warranty
created by its monthly representations because the
service charges were not true and correct and/or
legally authorized.
SWBT’s breach of express
warranty for services caused damages to HCHD.
Accordingly, HCHD is entitled to recover damages in
an amount equal to the Unauthorized Charges, plus
any state and local taxes that may have been applied
to such Unauthorized Charges, plus accrued interest.
Count 3 - Negligence Per Se

281a
33. Plaintiff realleges and incorporates by reference
the allegations made in Paragraphs 1-28 of this
petition. This Count is pleaded in the alternative.
34. Plaintiff would show that SWBT breached its
statutory and regulatory duties. SWBT’s breach
constitutes negligence per se. As the direct and
proximate result of SWBT’s breach of these duties,
SWBT foreseeably and proximately caused damages to
HCHD as described herein. Accordingly, HCHD is
entitled to recover damages in an amount equal to the
Unauthorized Charges, plus any the state and local
taxes that may have been applied to such
Unauthorized Charges, plus accrued interest.
Count 4 - Fraud
35. Plaintiff realleges and incorporates by reference
the allegations made in Paragraphs 1-28 of this
petition. This Count is pleaded in the alternative.
36. Through the acts described above, defendant
and its agents and employees knowingly presented
and caused to be presented to HCHD false and
fraudulent claims, records, and statements in order to
obtain payment of unlawful telephone services
charges.
37. Through the acts described above and
otherwise, defendant and its agents and employees
knowingly made, used, and/or caused to be made or
used false records and statements in order to get such
false and fraudulent claims paid and approved by
HCHD.
38. Through the acts described above and
otherwise, defendant and its agents and employees

282a
knowingly made, used, and caused to be made or used
false records and statements to conceal, avoid, and/or
decrease defendant’s obligation to repay money to
HCHD that defendant improperly and/or fraudulently
received. Defendant also failed to disclose to HCHD
material facts that would have resulted in substantial
repayments by them to HCHD.
39. HCHD, unaware of the falsity of the records,
statements, and claims made or submitted by
defendant and its agents and employees, paid
defendant for claims that would not be paid if the truth
were known.
40. HCHD, unaware of the falsity of the records,
statements, and claims submitted by defendant--or of
its failure to disclose material facts which would have
reduced HCHD’s obligations--has not received funds
that would have been recovered otherwise.
41. By reason of defendant’s false records,
statements, claims, and omissions, HCHD has been
damaged and is entitled to recover the unlawful
municipal fees that SWBT charged it.
42. Defendant’s acts and/or omissions as alleged
above were grossly negligent, intentional, and
aggravated by that kind of willfulness and wantonness
for which the law allows the imposition of exemplary
damages. Defendant’s acts were intentional, willful,
wanton, and without justification or excuse and were
done with gross indifference to the rights of Plaintiff,
and the intention of doing substantial injury or harm
to Plaintiff. These act and/or omissions by Defendant
appear to be a pattern, practice and/or scheme to
defraud customers. At the time the causes of action

283a
described herein accrued, (1) certain employees of
Defendant were responsible for the acts and omissions
described herein and these employees were in a
managerial capacity for said Defendant and were acting
within the course and scope of their employment, as a
manager of said Defendant; or (2) Defendant authorized
the doing and the manner of the act or omission; or (3)
Defendant or a manager of Defendant ratified or
approved the act or omission. Defendant’s acts or
omissions described herein are such an entire want of
care as to establish that the acts or omissions were the
result of actual conscious indifference to the rights,
safety and welfare of Plaintiff. In this connection,
Plaintiff will show that as a result of Defendant’s
conduct, Plaintiff has suffered damages in an amount
equal to the Unauthorized Charges, plus any the state
and local taxes that may have been applied to such
Unauthorized Charges, plus accrued interest. Plaintiff
has also suffered, among other things, losses of time and
other expenses, including attorneys’ fees incurred in the
investigation and prosecution of this action.
Accordingly, Plaintiff seeks the recovery of its damages
and exemplary damages.
43. Plaintiff further alleges that because Defendant
knew that the representations described above were
false at the time they were made, and were intended to
cause substantial injury and harm to Plaintiff, the
representations were fraudulent and malicious and
constitute conduct for which the law allows the
imposition of exemplary damages. In this connection,
Plaintiff will show that he has incurred significant
expenses, including attorney’s fees, in the investigation
and prosecution of this action. By reason of which

284a
Plaintiff is entitled to recover exemplary damages and
attorney’s fees, as a measure of same for which
Plaintiff now sues. Accordingly, Plaintiff requests that
exemplary damages be awarded against Defendant in a
sum within the jurisdictional limits of the Court.
Attorneys’ Fees, Costs & Expenses
44. HCHD is also entitled to recover reasonable
attorneys’ fees, costs and expenses pursuant to TEX.
CIV. P. & REM. C. §38.001.
G. Jury Demand
45. Plaintiff demands a trial by jury on all issues.
PRAYER

WHEREFORE, plaintiff HCHD prays that
defendant Southwestern Bell Telephone Company
d/b/a AT&T Texas be cited to appear and answer
herein, and that upon final trial of this cause,
judgment be entered in favor of Harris County
Hospital District against Southwestern Bell
Telephone Company d/b/a AT&T Texas as
requested above, for actual, consequential,
incidental, direct, special, general, out-of-pocket,
economic, and compensatory damages as
described above, punitive/exemplary damages,
statutory damages, attorney=s fees and costs, costs
of court, prejudgment interest at the highest
lawful rate, post judgment interest at the highest
lawful rate, and all other relief, at law and in
equity, to which it may show itself justly entitled.
Respectfully submitted,
VINCE RYAN, Harris County Attorney

285a
By: /s/ Randall Raymond Smidt
RANDALL RAYMOND SMIDT
Assistant County Attorney
State Bar No. 00798509
TERENCE O’OROURKE
First Assistant County Attorney
State Bar No. 15311000
1310 Prairie Suite 880
Houston, TX 77002
Telephone (713) 755-5585
Telecopier (713) 755-8848
ATTORNEYS FOR PLAINTIFF

286a
APPENDIX V (286a-313a)
NO. 98-07-3003-E
JOSE MIRELES, ET AL.
Plaintiffs,
vs.

SOUTHWESTERN BELL
TELEPHONE COMPANY,
Defendant.

§ IN THE DISTRICT COURT
§
§
§
§ CAMERON COUNTY TEXAS
§
§
§
§
§
§ 357TH JUDICIAL DISTRICT

CLASS ACTION SETTLEMENT AGREEENT

Filed: 10:20 a.m.
December 16, 1999
District Court of Cameron
County, Texas

287a
TABLE OF CONTENTS
II.

DEFINED TERMS

III.

RECITALS

IV.

TERMS AND CONDITIONS OF SETTLEMENT

A.

Preliminary Nature of this Agreement
B.
Parties’ Agreement to Proceed as a
Class Action
Submission of Preliminary Order
Agreed Order and Final Judgment
Costs of Notice and Administration
Joint Press Statement
Discharge, Settlement and Release
Attorneys’ Fees
I.
Timely
Objections
to
be
Considered at Settlement Hearing.
Exclusion from the Class
SWBT’s Power to Terminate
L.
Expiration of SWBT’s Agreement
to Provide Benefits
Return of Documents
Effect of Termination, Cancellation or
Substantial Modification
Confidentiality
Miscellaneous Provisions

C.
D.
E.
F.
G.
H.
J.
K.
M.
N.
O.
P.

288a
EXHIBITS
TO
CLASS ACTION SETTLEMENT AGREEMENT
EXHIBIT A — Motion for Preliminary Approval of
Proposed Class Action Settlement
EXHIBIT B — Order Granting Preliminary Approval
of Settlement
EXHIBIT C — Notice of Conditional Class
Certification, Proposed Settlement and
Hearing [Mailed]
EXHIBIT D — Notice of Conditional Class
Certification, Proposed Settlement and
Hearing [Published]
EXHIBIT E — Order and Final Judgment
EXHIBIT F — Joint Press Statement
EXHIBIT G — Form of Release for Plaintiffs
EXHIBIT H — Plan for Funding of Texas
Internet Collaborative Community
Networks
EXHIBIT I — Agreement for Return of Documents
EXHIBIT J — Certification of Compliance with
Agreement for Return of Documents

289a
This Class Action Settlement Agreement (the
“Agreement”) is made and entered into as of December
15, 1999, by and among: (I) Southwestern Bell
Telephone Company (“SWBT”), on behalf of itself and
its present and former parents, subsidiaries, affiliates,
officers, directors, employees, attorneys, agents,
representatives, predecessors, successors and assigns;
and (2) Jose Mireles, and Patricia Genuchi, on behalf
of their heirs, successors, and assigns (“Plaintiffs”) and
on behalf of a class of persons and entities known as
the “Settlement Class” as defined below. SWBT,
Plaintiffs, Plaintiffs’ Counsel, and Settlement Class
members may be referred to individually as a “Party”
and collectively as the “Parties.” The Agreement is
intended by the Parties hereto to fully, finally, and
forever resolve, discharge, and settle the Released
Claims, as defined herein, upon and subject to the
terms and conditions hereof.
I.
DEFINED TERMS
The terms in this Agreement shall be defined as
follows:
Administrator. “Administrator” means the thirdparty administrator(s) who may be hired to handle all
or part of the settlement administration.
Agreement. “Agreement” means this Class Action
Settlement Agreement setting forth the settlement
agreement between the Plaintiffs, the Settlement
Class, and the Released Parties.
Court. “Court” means the 357th Judicial District
Court of Cameron County, Texas.

290a
Current Customers. “Current Customers” means all
Texas residents who are customers of SWBT on the
Effective Date.
Effective Date. “Effective Date” means the date on
which the Court signs the Preliminary Order.
Final Approval. “Final Approval” means the date of
occurrence of the last to occur of each of the following:
(a) entry of an Order and Final Judgment
substantially in the form attached hereto as Exhibit
“E” finally approving this Agreement; and (b) either
expiration of all direct appeal periods or the final
affirmance of the Final Judgment by the highest court
having jurisdiction of the appeal of such Final
Judgment, or the final dismissal or denial of any and
all appeals from the Final Judgment.
Final Judgment. “Final Judgment” means the Order
and Final Judgment attached hereto as Exhibit “E.”
Former Customers. “Former Customers” means
members of the Settlement Class who are not current
Customers on the Effective Date.
Lawsuit. The litigation filed by Plaintiffs on July 30,
1998, in the 357th Judicial District Court of Cameron
County, Texas, as Cause No. 98-07-3003-E.
Maximum Fees and Expenses. “Maximum Fees and
Expenses” means the fees and expenses sought by
Plaintiffs’ Counsel in an amount not to exceed two
million dollars ($2,000,000).
Maximum Notice Cost Amount. “Maximum Notice
Cost Amount” means the costs and expenses incurred
in the mailing and publication of Notice in an amount
not to exceed One Million Two Hundred and Fifty
Thousand Dollars ($1,250,000).

291a
Notice. “Notice” means the notice that will be
provided in accordance with the Preliminary Order,
including collectively the version to be included in
telephone bills of SWBT customers (the “Mailed
Notice”), attached hereto as Exhibit “C,” and the notice
to be published in the Dallas Morning News, the
Houston Chronicle, the Austin American-Statesman,
the Lubbock Avalanche Journal, the El Paso Times,
the Corpus Christi Caller Times, the Brownsville
Herald, and the San Antonio Express News (the
“Published Notice”), attached hereto as Exhibit “D,”
for the purpose of informing members of the
Settlement Class of the conditional certification of the
Settlement Class and the terms of the settlement
reflected in this Agreement.
Petition. “Petition” means Plaintiffs’ Third Amended
Petition filed herein on November, 1998 as Cause No.
98-07-3003-E.
Plaintiffs. “Plaintiffs” means Jose Mireles and
Patricia Genuchi.
Plaintiffs’ Counsel. “Plaintiffs’ Counsel” means
Michael R. Cowen of Cowen & Livesay and Jeffrey M.
Tillotson, P.C., Michael P. Lynn, P.C., Thomas M.
Melsheimer, P.C. and John T. Cox, III of Lynn
Stodghill Melsheimer & Tillotson, L.L.P.
Preliminary Order. “Preliminary Order” means an
Order entered by the Court, substantially in the form
attached hereto as Exhibit “B,” that preliminarily
approves this Agreement, orders notification of the
Settlement Class, enjoins further litigation, and sets
the date for the Settlement Hearing.
Released Claims. “Released Claims” means any and
claims, rights, causes of action, suits, matters, issues,
controversies, or other bases for liability, whether

292a
known or unknown, that have been, could have been,
or that might be asserted hereafter in the Lawsuit or
in any other court or administrative or regulatory
proceeding (including but not limited to any claims
arising under federal or state law) by or on behalf of
Plaintiffs or any members of the Settlement Class,
whether individual, derivative, representative, legal,
equitable or any other type or in any other capacity
against the Released Parties which have arisen, arise
now, or hereafter may arise out of or relate in any way
to the pass-through or collection of municipal fees in
Texas, including all causes of action that are or could
be raised under Plaintiffs’ pleadings on file herein or
that consumers or customers could raise in relation to
SWBT’s pass-through of municipal fees under tariff as
filed with the Public Utility Commission of Texas,
under the Public Utility Regulatory Act (as amended
from time to time), the Texas Utilities Code (as
amended from time to time), or otherwise, in those
cities having a “specified annual payment,” “flat-fee”
or “fee per line” ordinance, as is more particularly set
forth in Exhibit “O” hereto.
Released Parties. “Released Parties” means SWBT
and its present and former parents, subsidiaries,
affiliates, officers, directors, employees, attorneys,
agents, representatives, predecessors, successors and
assigns.
Settlement Benefits Fund. “Settlement Benefits
Fund” means the benefits SWBT will provide to the
Settlement Class pursuant to this Agreement. The
Settlement Benefits Fund shall not exceed the sum
total of Ten Million Dollars ($10,000,000) (the “Total
Settlement Value”), and shall be provided as described
in Sections 111.D.2-6.

293a
Service Credits. “Service Credits” means credits for
services to be provided by SWBT (or its affiliates, in
SWBT’s sole discretion)(the “Services”) at applicable
tariffed or generally available rates.
Settlement Class. “Settlement Class” means all
persons and entities who currently reside in the State
of Texas who subscribe, or formerly subscribed, to
telephone service provided by SWBT, and pay, or paid,
to SWBT a municipal fee imposed pursuant to a
municipal ordinance, other than an ordinance based
upon a percentage of gross receipts, and collected
pursuant to tariff or statute.
Excluded from the Class are: (a) SWBT and the
directors and officers thereof; (b) the subsidiaries,
parents, and affiliates of SWBT, and the directors and
officers thereof; (c) any person or entity in which any
excluded person has controlling interest; (d) members
of the immediate family of any of the foregoing, if a
natural person; (e) the members, employees, and
agents of the 357th Judicial District Court of Cameron
County, Texas, including any trial or presiding judge;
and (f) the legal representatives, heirs, successors-ininterest, and assigns of any excluded person.
Settlement Hearing. “Settlement Hearing” means
a hearing before the Court to consider and determine
whether this Agreement is fair, reasonable, and
adequate, whether the Judgment should be entered,
and to determine the amount of fees and expenses to
be awarded to Plaintiffs’ Counsel.
SWBT. “SWBT” means Southwestern Bell Telephone
Company.
Texas Internet Collaborative Community
Network Plan. “Texas Internet Collaborative
Community Network Plan” means the Plan developed

294a
by the Texas Telecommunications Infrastructure
Fund Board (“TIFB”) to provide online Internet-based
community information and resource networks for
Texas communities and surrounding areas, as it is
implemented under the authority of the TIFB. The
Plan is generally described in Exhibit “H,” attached
hereto.
TIFB. “TIFB” means the Texas Telecommunications
Infrastructure Fund Board.
II.
RECITALS
WHEREAS, Plaintiffs, on behalf of themselves and all
others similarly situated, filed the Lawsuit against
SWBT; and
WHEREAS, Plaintiffs allege in their Petition that,
among other things, SWBT wrongfully charged or
overcharged certain individuals and entities for
municipal fees and further that such charges were not
permitted by any tariff, written agreement or
applicable law; and
WHEREAS, Plaintiffs maintain that they have valid
claims against SWBT and a valid basis for class
certification; and
WHEREAS, SWBT is a telecommunications company
that provides and has provided local and long-distance
telephone service in the State of Texas; and
WHEREAS, SWBT has denied the material
allegations of the Petition; has denied and continues to
deny any wrongdoing and any liability to Plaintiffs or
any member of the Settlement Class, in any amount,
in connection with the claims asserted in the Petition
and contends that it would prevail in the Lawsuit; and

295a
WHEREAS, Plaintiffs, through Plaintiffs’ Counsel,
have conducted and continue to conduct a thorough
investigation and evaluation of the facts and law
relating to the matters set forth in the Lawsuit,
including, but not limited to, the review of numerous
non-public documents produced by SWBT and
depositions of SWBT employees knowledgeable about
the matters herein; and
WHEREAS, Plaintiffs and SWBT have had full and
ample opportunity to evaluate their respective
positions on the merits of the Lawsuit; and
WHEREAS, the issues before the Court are complex
and, if fully litigated, will likely result in protracted
litigation and appeals; and
WHEREAS, the Parties to the Lawsuit desire to avoid
the additional cost, time, effort, and uncertainties that
would result from the continuation of the Lawsuit,
regardless of the outcome, and desire to enter into a
settlement; and
WHEREAS, discovery in this case has indicated that
it would virtually be impossible as well as
prohibitively expensive to attempt to identify
individual claimants and the amounts they might be
owed if Plaintiffs were to prevail in the Lawsuit; and
WHEREAS, Plaintiffs and Counsel for Plaintiffs have
concluded that this Agreement provides substantial
benefits to Plaintiffs and to the members of the
Settlement Class, resolves the substantial issues of
the Lawsuit without prolonged litigation and the risks
and uncertainties involved in litigation, and provides
the members of the Settlement Class with significant
individual benefits as well as benefits in the aggregate,
and have concluded that this Agreement is fair to and

296a
in the best interest of Plaintiffs and the Settlement
Class; and
WHEREAS, although SWBT denies any wrongdoing
and any liability whatsoever, SWBT believes that it is
in its best interest to settle the Lawsuit on the terms
set forth in this Agreement in order to avoid further
expense and inconvenience;
WHEREAS, settlement of the Lawsuit at this stage
will relieve the significant burden that otherwise will
be imposed on the Court and the Parties; and
WHEREAS, the Parties reached agreement on all of
the terms of this Agreement through extensive armslength negotiations between Counsel for Plaintiffs and
Counsel for SWBT; and
WHEREAS, Counsel for Plaintiffs and Counsel for
SWBT believe that the terms set forth in this
Agreement are fair, reasonable, and adequate.
NOW, THEREFORE, in consideration of these
premises and the mutual covenants, promises,
agreements, and obligations undertaken herein and
other good and valuable consideration, the Parties
agree as follows:
III.
TERMS AND CONDITIONS OF SETTLEMENT
A. Preliminary Nature of This Agreement.
1.
This Agreement represents the Parties’
preliminary
agreement
to
settle
the
Lawsuit. The Agreement is subject to and conditioned
upon: (i) the Parties’ further negotiation and execution
of any necessary settlement documents; (ii) reasonable
confirmatory discovery between the Parties; and (iii)

297a
Preliminary and Final Judicial Approval of the
Agreement.
2.
In the event that any of the above events do not
occur for any reason or Preliminary or Final Approval
is not obtained for any reason, then: (i) this Agreement
shall become null and void; (ii) the Parties shall be
restored to their respective positions prior to the
execution of this Agreement; (iii) the Parties hereby
agree to jointly move the Court to vacate any and all
orders entered pursuant to this Agreement; (iv)
litigation of the Lawsuit shall continue; and (v) the
settlement, this Agreement, and all negotiations
related thereto shall be inadmissible in future
proceedings.
B.
Parties’ Agreement to Proceed as a Class
Action.
1.
For purposes of this Agreement only, the
Parties hereby agree that the Lawsuit may proceed as
a class action pursuant to Tex. R. Civ. P. 42. In
connection therewith, the Parties stipulate to the
conditional certification of the Lawsuit as requested in
Plaintiffs’ Petition and stipulate to the certification of
a class of individuals as defined in the Settlement
Class.
2.
For purposes of this Agreement only, the
Parties further stipulate that Jose Mireles and
Patricia Genuchi are adequate class representatives
for the Settlement Class, as provided for by Tex. R.
Civ. P. 42(a)(4), and stipulate to their appointment as
class representatives.
3. The Parties further stipulate to the designation of
Jeffrey M. Tillotson, P.C., Michael P. Lynn, P.C.,
Thomas M. Melsheimer, P.C., John T. Cox III, Esq.
and Michael R. Cowen, Esq., as Class Counsel for the

298a
Settlement Class for purposes of this Agreement, as
provided for by Tex. R. Civ. P. 42.
C. Submission of Preliminary Order
Within three (3) days after the execution of this
Agreement, the Parties shall submit this Agreement
and the respective exhibits to the Court together with
a Motion for Preliminary Approval of Proposed Class
Action Settlement substantially in the form attached
hereto as Exhibit “A.” Plaintiffs shall request, and
Defendants will not oppose, entry of the Preliminary
Order in the form attached hereto as Exhibit “B.” The
Preliminary Order shall:
1.

Preliminarily approve this Agreement;

2.
Direct that Notice be provided to the Settlement
Class in two forms: (1) the Mailed Notice in a form
substantially similar to the notice attached as Exhibit
“C,” which will be mailed by SWBT to Settlement Class
members who are Current Customers in SWBT’s
monthly billing envelope during one regular billing
cycle; and (2) the Published Notice substantially in the
form attached as Exhibit “D” to be published in the
Dallas Morning News, the Houston Chronicle, the
Austin American-Statesman, the Lubbock Avalanche
Journal, the El Paso Times, the Corpus Christi Caller
Tunes, the Brownsville Herald, and the San Antonio
Express News, once a week for two consecutive weeks.
SWBT shall make all reasonable efforts to send the
Mailed Notice within the billing cycle beginning on
January 21, 2000. Both Mailed and Published Notice
will advise customers of their right to opt-out of the
settlement and will provide an address for recipients
to apply in writing to opt-out. Both Mailed and
Published Notice will specify a deadline for the return
mailing of election by a member of the Settlement

299a
Class who wants to opt-out and advise that all
Settlement Class members who want to opt-out must
notify Plaintiff’s counsel on or before the deadline for
opt-outs. The deadline for opt-outs shall be April 1,
2000, provided Notice is mailed in the SWBT billing
cycle beginning January 21, 2000. Otherwise, the
deadline for opt-outs shall be forty-five (45) days after
the last date on which the Notice is published or
mailed. SWBT will notify the Court and Plaintiffs’
Counsel when the process of sending and publishing
the Notice has been completed. All expenses of the
Notice shall be borne by SWBT, which shall be entitled
to deduct such expenses from the Settlement Benefits
Fund up to the Maximum Notice Cost Amount
Preliminarily bar and enjoin Plaintiffs and all
members of the Settlement Class, or any of them, front
commencing or prosecuting any actions asserting any
of
the
Released
Claims,
either
directly,
representatively, derivatively or in any other capacity,
against the Released Parties, pending the final
determination of whether the Settlement provided for
in this Agreement should be approved. The parties
agree that a reasonable bond for this injunction is
$500. The preliminary injunction shall be dissolved at
the time of the Settlement Hearing.
3.
Set the Settlement Hearing on or about April
10, 2000, and not later than sixty (60) days after the
last date on which the Notice may be mailed or
published. The Settlement Hearing will be held to:
(a)
review and determine the merits of any
objections to the Settlement
(b)
determine whether to approve the Agreement
as fair, adequate and reasonable;

300a
(c)
authorize all further acts necessary to
consummate and effectuate the terms and conditions
of the Settlement;
(d)
determine whether the Court should enter Final
Judgment;
(e)
make a final determination relating to the
payment of attorneys’ fees and expenses to Plaintiffs’
Counsel;
(f)
determine
whether
the
Court
should
permanently bar and enjoin Plaintiffs and all
members of the Settlement Class, or any of them, from
commencing or prosecuting any actions asserting any
of
the
Released
Claims,
either
directly,
representatively, derivatively or in any other capacity,
against the Released Parties; and
(g)
determine such other matters as the Court may
deem necessary and appropriate.
D. Agreed Order and Final Judgment
1.
Before the Settlement Hearing, the Parties
shall submit to the Court an agreed Order and Final
Judgment substantially in the form attached hereto as
Exhibit “E,” which shall provide for
(a)
Approval of this Agreement and a finding that
the Settlement proposed herein is, in all respects,
adequate and reasonable and in the best interests of
the Settlement Class;
(b)
A specific approval of the Texas Internet
Collaborative Community Network Plan;
(c) Effectuation of this Agreement in accordance with
the terms contained herein;
(d)
A Settlement Class, as defined above, but with
the additional exclusion of those persons who have

301a
submitted valid and timely requests for exclusion
pursuant to the Notice sent to members of the
Settlement Class;
(e)
The dismissal with prejudice of the claims filed
in the Lawsuit, as amended, and each and every
Released Claim of each and every Settlement Class
member and Plaintiff against each and all of the
Released Parties; and
(f)
The payment of attorneys’ fees and expenses in
such amount as the Court approves, with the total
amount not to exceed the Maximum Fees and
Expenses.
2.
Upon Final Approval and in exchange for the
consideration provided in this Agreement, SWBT will
pay the sum of Ten Million Dollars ($10,000,000) into
the Settlement Benefits Fund in the manner
prescribed below:
(a)
Three Million Dollars ($3,000,000) shall be paid
in cash; and
(b)
Seven Million Dollars ($7,000,000) shall be paid
in Service Credits.
3.
SWBT may offset the Service Credits portions of
section 111.D.2.c above by any or all of the following:
(a)
Notice costs incurred by SWBT pursuant to
section III.E of this Agreement, up to a maximum
amount of One Million Two Hundred and Fifty
Thousand Dollars ($1,250,000).
(b)
Costs incurred by SWBT for payment of the
Administrator pursuant to paragraph III.E of this
Agreement.

302a
(c)
Any attorneys’ fee award paid by SWBT
pursuant to paragraph 111.H of this Agreement up to
the Maximum Fees and Expenses.
4. The Three Million Dollars ($3,000,000) cash
component of the Settlement Benefits Fund shall be
paid in its entirety to the TIFB in the form of two
separate grants as follows:
(a)
A grant to the TIFB in the amount of Two
Million Dollars ($2,000,000) to be used or distributed
by the TIFB for salaries of regional Web Librarians for
the Texas Internet Collaborative Community
Networks (“CCNs”) for the two-year life of the
program.
(b)
A grant to the TIFB in the amount of up to One
Million Dollars ($1,000,000) to be used or distributed
by the TIFB for local advertising of websites or for
training of users or Web Librarians for the CCNs.
5.
SWBT shall provide the cash grants specified
above in sections IlI.D.2.(a) and III.D.4(a)-(b) to the
TIFB within ninety (90) days of Final Approval.
6.
Upon Final Approval and in exchange for the
consideration provided in this Agreement, SWBT will
use all measures reasonably necessary to implement
the Plan. SWBT shall begin the implementation of the
Plan no less than ninety (90) days after the Final
Approval. Within this ninety-day period, SWBT shall
pay the cash portion of the Settlement Benefits Fund,
as defined above. SWBT will notify the Court when the
implementation of the Plan is completed.
7.
Plaintiffs’ counsel retains the right to conduct
discovery sufficient to establish the accuracy and
reasonableness of any amount SWBT seeks to include
as an offset of the service credits portion of Section

303a
8.
The parties agree that all Settlement Benefit
Funds paid under this Settlement Agreement shall not
in any way modify, reduce, or mitigate SWBT’s preexisting obligations to TIFB, if any.
E. Costs of Notice and Administration
SWBT shall pay all Notice Costs associated with this
Agreement as specified in paragraph III.C.2. herein.
SWBT shall be responsible for the administration of
the notice process, with oversight by Plaintiffs’ counsel
SWBT will have the sole option to choose and hire, at
its expense, the Administrator. SWBT may deduct the
Administrator’s fees and expenses from the
Settlement Benefits Fund. Plaintiffs’ counsel shall
handle questions and any opt-out responses from
putative class members, with oversight by SWBT.
SWBT shall be responsible for the administration and
funding of the Settlement Benefits Fund, with
oversight by Plaintiffs’ counsel.
F. Joint Press Statement
Plaintiffs’ counsel and counsel for SWBT shall issue a
joint press statement in the form of Exhibit “F”
attached hereto, contemporaneously with the first
published Notice. Thereafter, the joint press
statement shall be provided in response to any press
or media inquiry. If subsequent press or media
inquiries are directed to counsel for either party,
counsel shall so advise the counsel for opposing party,
and provide an opportunity for the parties to deliver a
joint response.
G. Discharge, Settlement and Release
1.
The parties agree and intend that entry of Final
Judgment in this proceeding shall effect the complete
discharge, settlement and release of the Released

304a
Claims against the Released Parties. Immediately
after the entry of Final Judgment, Plaintiffs, on behalf
of themselves, their successors, heirs and assigns, and
on behalf of the Settlement Class members, shall
execute general releases in the form attached as
Exhibit “G.”
2.
The Parties expressly acknowledge and agree
that, by this Agreement, Plaintiffs and the Settlement
Class forever release and discharge the Released
Claims. It is understood and agreed that if SWBT
provides the Settlement Benefits Fund in accordance
with this Agreement and the Exhibits hereto, then
neither Plaintiffs nor any member of the Settlement
Class shall hereafter challenge, and they shall be
estopped from challenging, the pass-through by SWBT
of municipal fees in Texas through the date of Final
Judgment.
H. Attorneys’ Fees
In connection with the Settlement, Plaintiffs’ counsel
will apply to the Court for an aggregate award of
attorneys’ fees and expenses. SWBT agrees that it will
not oppose such application that conforms to the
Maximum Fees and Expenses. SWBT agrees to pay
such attorneys’ fees and expenses as are awarded by
the Court, up to an amount not to exceed the
Maximum Fees and Expenses, which amount shall be
deducted from the Settlement Benefits Fund. The
Maximum Fees and Expenses shall include all fees
and expenses awarded by the Court in connection with
this settlement to any Settlement Class member or
their counsel; the Released Parties and their
attorneys, agents, predecessors, and affiliates shall
not be liable for any further claims, costs, damages or
attorneys’ fees or any other matter of liability

305a
regarding the allegations forming the basis of the
Lawsuit, and shall not be obligated to pay more than
such amount. Subject to the terms and conditions of
this Agreement, payment of such fees and expenses as
may be awarded by the Court, up to the Maximum
Fees and Expenses, shall be made within five (5)
business days from the date of Final Approval.
I. Timely Objections
Settlement Hearing

to

be

Considered

at

Any objections to the settlement contained in this
Agreement or to any application for an award of
attorneys’ fees and expenses shall be heard and any
papers submitted in support of said objections shall be
received and considered by the Court at the
Settlement Hearing only on or before a date to be
specified in the Notice, persons making objections
shall file notice of their intention to appear (which
shall set forth each objection and the basis therefor),
with any papers in support of their position, and serve
copies of all such materials upon a representative of
Plaintiffs’ Counsel and a representative of SWBT as
set forth in Paragraph P.13 herein and the Notice.
J. Exclusion from the Class
Any member of the Settlement Class who has
properly and timely requested exclusion from
Settlement Class shall be bound by any and
judgments, settlements or releases entered
approved by the Court whether favorable
unfavorable to the Settlement Class.

not
the
all
or
or

K. SWBT’s Power to Terminate
SWBT shall be entitled to terminate this Agreement
in its sole discretion if any of the following occur: (a) at
least 200,000 potential members of the Settlement

306a
Class timely elect to be excluded from the Settlement
Class; (b) additional notice to the Settlement Class is
required beyond that provided in this Agreement; (c)
this Agreement cannot reasonably be expected to be
completed in accordance with its terms; or (d)
substantial delay, not contemplated by this
Agreement, is reasonably anticipated prior to Final
Approval (excluding delay caused by any appeal of this
Settlement Agreement).
L. Expiration of SWBT’s Agreement to Provide
Benefits
All obligations of SWBT to provide benefits or to take
other actions pursuant to this Agreement shall cease
not later than four years after Final Approval, whether
or not the Service Credits portion of the Settlement
Benefit Fund has been used. If any cash funds remain
in the Settlement Benefit Fund at expiration of this
Agreement, then such funds shall be provided as a
contribution to the Texas Telecommunications
Infrastructure Fund. If any Service Credits remain,
then any entitlement to such Service Credits shall
expire.
M. Return of Documents
Plaintiffs’ Counsel agree that, no later than sixty (60)
days after Final Approval (the “Document Return
Date”); Plaintiffs’ Counsel will return to SWBT or
destroy all copies of documents provided or obtained
during discovery (including confirmatory discovery),
all summaries of SWBT documents examined during
discovery, and all copies of interviews or testimony of
SWBT witnesses prepared during discovery, all in
accordance with the Agreement for Return of
Documents, attached hereto as Exhibit “I.” Plaintiffs’
counsel agrees to file with the Court a certificate, in

307a
the form attached hereto as Exhibit “J,” that such
return or destruction has been accomplished. SWBT
agrees to retain such documents as are returned to its
possession by the Document Return Date for four (4)
years and provide such copies to Plaintiffs’ counsel as
may be necessary to respond to an inquiry, claim or
dispute raised by a member of the Settlement Class.
N. Effect of Termination,
Substantial Modification

Cancellation

or

If this Agreement is terminated for any reason prior to
Final Approval, or if any of the orders set out in the
Exhibits to this Agreement are not entered
substantially as reflected in those Exhibits, or if the
settlement contemplated by this Agreement is not
concluded substantially as described in this
Agreement with an order of the Court approving the
settlement, the Agreement and all other acts taken to
effect a proposed settlement will be void and of no
effect and will not be admissible by or against any
Party to this Agreement. The Parties will use their
best efforts to obtain approval of this Agreement by the
Court and to obtain conclusion of the Lawsuit that is
now pending in accordance with the terms of the
Agreement.
If Final Approval does not occur, or if this Agreement
is terminated or canceled pursuant to its terms,
Plaintiffs and SWBT shall be deemed to have reverted
to their respective status as of the date and time
immediately prior to the execution of this Agreement,
and they shall proceed in all respects as if this
Agreement and related orders had not been executed.
In such event, the terms and provisions of this
Agreement shall have no further force and effect with
respect to Plaintiffs and the Released Parties and shall

308a
not be used in this or any other litigation or any other
proceeding for any purpose, and any orders or
judgment entered by the Court in accordance with the
terms of this Agreement shall be treated as vacated,
nunc pro tunc.
O.

Confidentiality

Plaintiffs’ counsel agrees to take reasonable efforts to
keep confidential the terms and conditions of this
Agreement except as is necessary to discharge their
duties as Settlement Class counsel, represent the
Settlement Class, and handle inquiries from opt-outs
or their counsel. Plaintiffs’ counsel agrees not to solicit
publicity or publication in the press or other media
regarding this matter, this Settlement, or the
Agreement Plaintiffs’ counsel agrees to respond to any
press or media inquiries in accordance with.
Paragraph “F” above. The parties agree that this
provision is not intended to impair or violate
Settlement Class counsels’ duties or Plaintiffs’ duties
as Settlement Class representatives.
P. Miscellaneous Provisions
1. All aspects of this Agreement and the settlement
contemplated by it shall be governed by and construed
in accordance with Texas law, without regard to the
application of conflict-of-law principles.
2. Plaintiffs and Plaintiffs’ Counsel represent and
warrant that none of the Plaintiffs’ alleged claims or
causes of action against the Released Parties have
been assigned, encumbered or in any manner
transferred in whole or in part
3. Except as otherwise provided in this Agreement, the
Released Parties shall not be liable for any further
claims, costs, damages, attorneys’ fees or other thing

309a
of value regarding the settlement reflected in this
Agreement, regardless of the response or lack thereof
by members of the Settlement Class.
4. Upon Final Approval, this Agreement shall be
binding upon and inure to the benefit of the Parties,
the Settlement Class, and their respective agents,
executors, heirs, successors and assigns. The Parties
agree to do all things reasonably necessary to obtain
Court approval promptly and to implement the
Agreement if granted such approval.
5. Each and every clause in this Agreement, including
those clauses beginning with the phrase “WHEREAS,”
and all Exhibits hereto are specifically incorporated as
binding and enforceable parts of this Agreement.
6. All headings in this Agreement are included for ease
of reference only and shall not alter, amend or have
any effect on the interpretation of this Agreement.
7. The Parties jointly participated in the drafting of
this Agreement. If its terms must be construed, no
inferences can be made against any one Party by
virtue of draftsmanship.
8. This Agreement and the exhibits attached hereto
constitute the entire agreement among the Parties
hereto and supersede and amend any and all prior
negotiations, understandings, and agreements with
respect to the settlement of the issues and actions set
forth herein. No representations, warranties or
inducements have been made to any Party concerning
the Agreement or its exhibits other than the
representations, warranties and covenants contained
and memorialized in such documents. This Agreement
may not be amended orally, and any amendment or
modification thereof must be in writing duly executed
by an authorized representative of the Party to be

310a
bound thereby. Except as otherwise provided herein,
each party shall bear its own costs.
9. This Agreement shall neither be used as evidence
nor construed in any way whatsoever as an admission
by any Party as to any issue of law or fact in the
Lawsuit, or any other litigation.
10. Until such time as the Parties file a joint motion
seeking preliminary approval of this Agreement, the
terms and conditions shall remain confidential
between the Parties and their counsel.
11. This Agreement may be executed in one or more
counterparts, each of which shall be deemed to be an
original, but all of which together shall constitute one
and the same instrument.
12. Should the settlement reflected in this Agreement,
or any portion thereof, be challenged or alleged to
create rights in non-members of the Settlement Class
under federal or state regulatory law, SWBT shall
have the option to toll implementation of this
Agreement pending resolution of the issue. Should the
settlement reflected in this Agreement, or any portion
thereof, be found improper under federal or state
regulatory law, or should SWBT be required to provide
benefits materially different from those provided in
this Agreement, SWBT shall be entitled to terminate
this Agreement, or so much of it as is the subject of
challenge, and negotiate settlement terms as to such
terminated portion.
13. All notices, requests, demands, or other
communications required, permitted, or desired to be
given hereunder shall be deemed to have been duly
given if delivered in writing by hand delivery or mailed
by certified mail, addressed as follows:

311a
For SWBT:
David Brown
Southwestern Bell Telephone Company
1616 Guadalupe, Room 600
Austin, Dallas, Texas 78701-1298
with copies to:
Robert Edwin Davis Hughes & Luce, L.L.P.
1717 Main Street, Suite 2800
Dallas, Texas 75201
For Plaintiffs and Settlement Class:
Jeffrey M. Tillotson, P.C.
Lynn Stodghill Melsheimer & Tillotson, L.L.P.
750 North St. Paul Street, Suite 1400
Dallas, Texas 75201
14. Plaintiffs’ Counsel represent that they are
authorized on behalf of Plaintiffs and the Settlement
Class to take all appropriate action required or
permitted to be taken pursuant to this Agreement to
effectuate its terms and are also authorized to enter
into any modifications or amendments to this
Agreement on behalf of the Settlement Class that they
deem appropriate.
IN WITNESS WHEREOF, the parties hereto have
caused this Agreement to be executed, by their duly
authorized attorneys, as of the day and year first above
written.
Respectfully submitted,
LYNN
STODOHILL
TILLOTSON, L.L.P.
Jeffrey M. Tillotson, P.C.
State Bar No. 20039200

MELSHEIMER

&

312a
John T. Cox
State Bar No. 24003722
750 North St. Paul Street, Suite 1400
Dallas, Texas 75201
(214) 981-3800 - Telephone
(214) 981-3839 – Telecopy
Michael R. Cowen
State Bar No. 00795306
1325 Palm Boulevard
Brownsville, Texas 78520
(956) 541-4981 – Telephone
(956) 504-3674 – Telecopy
ATTORNEYS FOR PLAINTIFFS JOSE
MIRELES and PATRICIA GENUCHI, on
Behalf of Themselves and All Others Similarly
Situated
Robert E. Davis
State Bar No. 05542000
of HUGHES & LUCE, L.L.P.
1717 Main Street, Suite 2800
Dallas, Texas 75201
(214) 939-5500
(214) 939-6100 - FAX
Ruben R. Pena, P.C.
State Bar No. 15740900
Law Offices of Ruben R. Pena, P.C.
222 West Harrison Street
P.O. Box 530160
Harlingen, Texas 78550
Telephone: (956) 412-8200
Facsimile: (956) 412-8282

313a
Juan Hinojosa
State Bar No. 09701400
612 Nolana
Suite 410
McAllen, Texas 78504
Telephone: (956) 686-2143
Facsimile: (956) 686-8462
David Brown
State Bar No. 03108700
Southwestern Bell Telephone Company
1616 Guadalupe, Room 600
Austin, Texas 78701-1298
(512) 870-5718
(512) 870-3420 - Telecopier
ATTORNEYS FOR DEFENDANT
SOUTHWESTERN
BELL
COMPANY

TELEPHONE

314a
APPENDIX W (314a-328a)
NO. 98-07-3003-E
JOSE MIRELES AND
PATRICIA GENUCHI,
On behalf of
Themselves And All
Others Similarly
Situated,
Plaintiffs,

§ IN THE DISTRICT COURT
§
§
§
§
§
§
§
vs.
§ CAMERON COUNTY EXAS
§
SOUTHWESTERN BELL §
TELEPHONE COMPANY, §
Defendant.
§ 357TH JUDICIAL DISTRICT
NOTICE OF CLASS ACTION,
PROPOSED SETTLEMENT, AND HEARING

THIS IS AN IMPORTANT NOTICE TO YOU
ABOUT A LAWSUIT IN WHICH YOUR LEGAL
RIGHTS MAY BE AFFECTED.
NOTE: THIS IS NOT A LAWSUIT AGAINST YOU.
You are not being sued. This Notice contains
information regarding the proposed settlement of a
lawsuit called Jose Mireles and Patricia Genuchi, on
behalf of themselves and all others similarly situated,
vs. Southwestern Bell Telephone Company, in the
District Court of Cameron County, Texas, 357th
Judicial District (the “Lawsuit”). You may be in the
class of people defined below (the “Settlement Class”)
covered by a proposed settlement (the “Settlement”) of

315a
the Lawsuit, and you and your community may be
entitled to receive certain benefits in accordance with
the proposed Settlement of the Lawsuit. This notice
tells you if you are part of the Settlement Class,
describes the Lawsuit and the benefits of the proposed
Settlement, and tells you that the Judge who has
jurisdiction over this case will hold a hearing to decide
whether to approve the Settlement. This Notice
describes your legal rights in connection with the
hearing and the Lawsuit. All Settlement Class
members who choose not to timely exclude themselves
from the Settlement Class will receive the benefits of
this Settlement and will be bound by the resulting
Judgment in the Lawsuit.
I. DESCRIPTION OF THE LAWSUIT
Plaintiffs filed this Lawsuit against Defendant
Southwestern Bell Telephone Company (“SWBT”) on
behalf of all Texas residents (which may include you)
who were similarly situated to the Plaintiffs. In the
Lawsuit, Plaintiffs allege that SWBT wrongfully
overcharged certain individuals a “municipal fee” on
their telephone bills. “Municipal fees” are fees
municipalities
charge
to
telecommunications
providers, including SWBT, to recover the cost of
administering the use of the public rights-of-way. For
example, if you live in Dallas, your phone line runs
from your house, apartment or place of business over
the public rights-of-way, such as a street, to SWBT.
The City of Dallas then charges SWBT a fee to recover
the cost of administering the public rights-of-way.
SWBT pays the fee that is charged by the
municipality, and then, under Public Utility
Commission-approved tariff or state law, SWBT
passes the fee along to customers such as you. The

316a
amount of the fee you pay varies greatly, depending
upon where you live and the amount of your phone bill,
but the amount is only a small portion of your total bill
amount. SWBT does not keep any of the municipal fees it collects – all of the money goes to the
municipalities. Typically, municipalities then use
the fees for a variety of civic purposes.
Generally speaking, Texas law allows SWBT to pass
through to its customers the municipal fees that
municipalities charge SWBT. This lawsuit, however,
alleges that SWBT was not permitted to pass to its
customers the full amount of all municipal fees in
certain circumstances. The lawsuit alleges that SWBT
should have filed a new or amended tariff with the
Public Utility Commission in order to obtain approval
to pass through all of the municipal fees to its
customers. SWBT has not filed such a new or amended
tariff addressing municipal fees. The lawsuit contends
that while SWBT can make class members (possibly
such as you) pay portions of any municipal fees
assessed, it cannot make customers pay the entire
Municipal Fee, unless SWBT filed an appropriate
tariff amendment.
SWBT vigorously denies the allegations in this
Lawsuit. SWBT maintains that a 1978 tariff, filed with
and approved by the Texas Public Utility Commission
authorizes the collection of municipal fees in the
manner SWBT used. Moreover, in 1995, the Texas
Legislature passed amendments to the Public Utility
Regulatory Act, which SWBT maintains expressly
approved SWBT’s municipal fee collection practices.
Additionally, SWBT asserts other defenses that call
into question the various legal theories upon which
Plaintiffs seek to base their claims.

317a
Class Counsel has conducted sufficient discovery so as
to investigate the facts and applicable law regarding
the matters raised in the Lawsuit. Class Counsel
believes that the issues before the Court are extremely
complex and there is great uncertainty as to the
outcome of the litigation. More importantly, discovery
in the Lawsuit revealed that it would be
extraordinarily difficult, if not impossible, to identify
the specific amounts that individual class members
might recover even if the Lawsuit were successful. In
addition, Class Counsel has determined that the
amounts that might be recovered by individual class
members if the Lawsuit were successful would be
quickly consumed by the overall notice and
administration
costs
necessary
to
facilitate
settlement, because the Settlement Class is
exceptionally large (it is estimated at more than six
million members), and because the amount of possible
recovery varies greatly but generally is a small sum of
money. For these and other reasons (See Section II of
this Notice), Class Counsel has entered into a
Settlement Agreement with Defendants dated
December 15, 1999 (the “Settlement Agreement”). If
the Settlement Agreement is approved by the Court, it
will fully and finally resolve the claims asserted by
Plaintiffs, on behalf of themselves and the Settlement
Class.
II. REASONS FOR ENTERING INTO
SETTLEMENT AGREEMENT
Plaintiffs and Defendant have agreed on all of the
terms of the proposed Settlement through extensive,
arms-length negotiations between Class Counsel and
Counsel for Defendant. Class Counsel has entered into
the proposed Settlement only after weighing the
benefits of the Settlement against the probabilities of

318a
success or failure in the Lawsuit and the delays that
would be likely if the Lawsuit proceeded to trial.
In deciding to enter into the Settlement Agreement,
Plaintiffs considered all aspects of the Lawsuit. Some
of the specific concerns included:
●
The risk that they may not prevail in
the Lawsuit. Plaintiffs evaluated the very real
possibility that they may not prevail in the
Lawsuit because SWBT has on file a tariff that
potentially covers the municipal fees in issue
and has statutory authority to pass along
municipal fee charges to its subscribers. As a
result, the Court may have concluded that
SWBT was well within its rights to pass along
all municipal fees. Further, there is a specific
statute that may absolve SWBT of any liability.
●
The risk that Plaintiffs may not be
able to demonstrate any legal theory for
any recovery.
●
The risk that even if Plaintiffs can
demonstrate a general right of recovery,
one or more of Defendant’s defenses may
be meritorious.
●
The risk that any recovery might be
insufficient given the size of the Class to
afford any real relief. Plaintiff considered
that given the size of the Class and the
time and expense required to determine
the exact amount owed to each class
member (which may well be impossible to
determine in any event), virtually all class
members may receive only a nominal
recovery.

319a
Although Defendant denies any wrongdoing and any
liability whatsoever, Defendant believes that it is in its
best interests to settle this Lawsuit on the terms set
forth in the Settlement Agreement in order to avoid
further expense and inconvenience in connection with
the Lawsuit.
III. HOW THE SETTLEMENT WORKS
A. Proceeding as a Class Action. For purposes of the
Settlement only, the Parties have agreed that the
Lawsuit may proceed as a class action and have
stipulated to the conditional certification of a class of
individuals as defined below (known as the
“Settlement Class”):
All persons or entities who currently reside in the
State of Texas and who subscribe, or have
subscribed, to telephone service provided by SWBT
and pay, or paid, to SWBT a municipal fee,
imposed pursuant to a municipal ordinance, other
than an ordinance based upon a percentage of
gross receipts, and collected pursuant to tariff or
statute.
This means that if you are part of the Settlement
Class, then this Lawsuit will affect your legal rights
unless you decide to opt out. Furthermore, as a part of
the settlement, the parties agreed to stipulate that
Jose Mireles and Patricia Genuchi will serve as class
representatives for the Settlement Class and that
Jeffrey M. Tillotson, P.C., Michael P. Lynn, P.C.,
Thomas M. Melsheimer, P.C., John T. Cox HI, and
Michael R. Cowen are to serve as Class Counsel for the
Settlement Class.
B. Benefits of the Settlement. In deciding to enter
into this Settlement, Plaintiffs considered all of the

320a
benefits this Settlement provided to the Class. Some of
these benefits include:
1.
A total settlement value of ten million
dollars;
2.
Facilitation of the establishment of
communication and information networks
designed to enhance the community and enrich
lives;
3.
Provision of funding necessary for the
establishment of an initiative to involve Texas
residents with local public schools, libraries,
not-for-profit health care facilities and
institutions of higher education to create and
operate a multi-purpose, community-based
telecommunications network; and
4.
Provision of funding to enable equitable
access to information, a broad range of enriched
local
content
development,
and
local
telecommunications planning and training.
Information regarding the settlement benefits is
more particularly described in the Settlement
Agreement.
Class Counsel determined that a settlement that
provides benefits to various Texas communities in
which Class Members reside rather than one that
makes nominal, random payments to individuals that
may or may not correspond to actual injuries suffered
is preferable. The decision was based in part on the
following:
●
Individual Relief May Not Be
Possible Or Practical – Discovery determined
that SWBT cannot independently identify
which Class Members suffered what damages.

321a
The administrative costs associated with trying
to identify and then confirm individual
recoveries on a case-by-case basis would
exhaust any recovery.
●
The Damages May Have Been
Payable To The Municipalities In Any
Event – If the lawsuit prevailed on the merits
in this lawsuit, the funds recovered would
largely have been earmarked for municipal
collection. Accordingly, the settlement provides
those funds back to the communities in the form
of grants to the TIFB so that Class members will
receive the benefit of the Settlement Fund.
●
Providing Money To TIFB Provides
Real Benefit – The Settlement Funds will be
disbursed to TIFB, a government agency which
is constituted for the purpose of benefiting
persons like the Class Members. Furthermore,
certain restrictions and limitations have been
placed on the use of the Settlement Funds to
insure that the Settlement Funds inure
primarily to the benefit of the Settlement Class.
The TIFB will control the distribution of the
Settlement Funds.
●
Providing The Money To The TIFB
Maximizes Benefits – Disbursement through
the TIFB will utilize its pre-existing experience
and infrastructure to administer the Settlement
Funds effectively and efficiently. For example,
by selectively combining the Settlement Funds
with other TIFB monies, TIFB will multiply the
benefits of the Settlement Funds and maximize
benefits realization to the Class Members.
IV. NO FINDING ON THE MERITS

322a
This Notice does not indicate any expression or opinion
by the Court concerning the merits of the respective
claims or defenses asserted by or against SWBT in the
Lawsuit. This Notice is sent merely to advise you of
the proposed settlement and dismissal of claims
against SWBT and of your rights in connection
therewith.
V. COUNSEL FOR THE SETTLEMENT CLASS
The Court has appointed, for purposes of the proposed
Settlement only, the following counsel as Counsel for
the Settlement Class: Jeffrey M. Tillotson, P.C.,
Michael P. Lynn, P.C., Thomas M. Melsheimer, P.C.,
John T. Cox III, Lynn Stodghill Melsheimer &
Tillotson, L.L.P., 750 North St. Paul Street, Suite
1400, Dallas, Texas 75201; Michael R. Cowen, Cowen
& Livesay, 1325 Palm Boulevard, Brownsville, Texas
78250.
Class Counsel will seek an award of fees for their
services to the Class. Class Counsel undertook this
case on a contingent fee basis, meaning that they 1)
have not been paid for any services performed to date
and 2) assumed the risk that they might receive no fee
whatsoever if the Plaintiffs did not prevail. Over time,
as many as ten different lawyers from four different
firms have contributed to this case. Class Counsel
intends to petition the Court for an award of fees and
expenses of twenty percent (20%) of the total benefit
provided to the Class. This amount equals two million
dollars. In no event shall the award of fees and
expenses be greater than this number. The Court will
make the final determination with respect to
attorneys’ fees and may award less than this request,
but in no event shall the award of fees be greater than
this number. SWBT has agreed that it will not oppose

323a
the fee request. Class Counsel will be filing prior to the
Settlement Hearing a detailed legal briefing
supporting its fee request.
VI. COUNSEL FOR SWBT
Counsel representing Defendant SWBT are:
David F. Brown
Southwestern Bell
Telephone Company
1616 Guadalupe, Room 600
Austin, Texas 78701-1298
Robert Edwin Davis
Hughes & Luce, L.L.P.
1717 Main Street, Suite 2800
Dallas, Texas 75201
VII. CLERK OF THE COURT
Aurora de la Garza
Cameron County District Clerk
974 E. Harrison Street
Brownsville, Texas 78520
VIII. RIGHTS AND OPTIONS
OF CLASS MEMBERS
If you are a Settlement Class Member, you have the
following options:
1. You may remain a Settlement Class Member. If
you choose to remain a Settlement Class Member then
you need take no action to receive the benefits of the
settlement. Your interests as a member of the
Settlement Class will be represented by the Class
Representatives and the above-listed Counsel for the
Settlement Class. You will not be charged for their
services. You will be bound by any judgment or other

324a
final disposition of this case and may participate as a
member of the Settlement Class in any settlement.
2. You may retain your own attorney to represent
you at your own cost. If you select this option, you
must retain your own attorney and should
immediately discuss your options with the attorney.
You will be responsible for paying your own attorneys’
fees.
3. You may request exclusion from the Settlement
Class. If you choose to be excluded from the
Settlement Class, you will not be bound by any
judgment, disposition, or settlement of the class
actions. You will retain, and will be free to pursue, any
claims you may have on your own behalf. If you wish
to exclude yourself from the Settlement Class, you
must mail a written Request for Exclusion to Counsel
for the Settlement Class listed above and Counsel for
Defendant listed above. Requests for Exclusion must
contain the full name, current address, and telephone
number of the person requesting exclusion. The
written request for exclusion must be sent by U.S.
Mail, first-class postage prepaid, on or before _______,
2000.
4. You may object to the Settlement. If you object to
the Settlement, you must comply with Paragraph X
below.
IX. FINAL SETTLEMENT HEARING
A final Settlement Hearing will be held on [__________
at ___________ __.m.] before the Presiding Judge of the
357th District Court, Cameron County, Texas,
Cameron County, Courthouse, Brownsville, Texas, for
the purpose of determining whether the proposed
Settlement is fair, reasonable, and adequate and
should be finally approved and a final judgment

325a
entered in the Lawsuit. The hearing may be continued
or adjourned without further notice other than
announcement at the Final Settlement Hearing or at
any adjournment or continuance thereof. The
Settlement may be approved with modifications, if
any, consented to by Plaintiffs and Defendant without
further notice.
X. RIGHT TO OBJECT TO SETTLEMENT AND
APPEAR AT FINAL SETTLEMENT HEARING
If you do not exclude yourself from the Settlement
Class, you may object to the Settlement. Any
Settlement Class Member who does not elect timely
and valid exclusion from the Settlement Class and who
objects to the proposed Settlement must file such
objection and any supporting papers with the Clerk of
the Court. Such objections must be postmarked on or
before _____________, 2000. The objection must set
forth the full name; current address, and telephone
number of the person making the objection. In
addition, the objection must include: (a) a written
statement of the position the objector wishes to assert;
(b) a written statement of the grounds therefor; and (c)
copies of any papers, briefs, or other documents the
objector wishes to submit in support of his/her
position. Copies of the objection and supporting papers
must be mailed to Counsel for Plaintiffs and the
Settlement Class and Counsel for Defendant identified
above. Any member of the Settlement Class who
intends to appear personally (or through separate
counsel) to object to the Settlement on any grounds
whatsoever must file with the Court a Notice of
Intention to Appear. This notice must be filed with the
Clerk of the Court, postmarked on or before
___________, 2000, at the address listed above. Copies
of the Notice of Intention to Appear also must be

326a
mailed to Counsel for Plaintiffs and the Settlement
Class and Counsel for Defendant identified above.
Any Settlement Class Member who does not properly
file and serve a Notice of Intention to Appear at the
Settlement Hearing will be prohibited from appearing
at any hearing concerning this Settlement. Any
Settlement Class Member who does not file objections
in the time and manner described above is forever
foreclosed from raising any objection to such matters.
XI. EFFECT OF SETTLEMENT APPROVAL
If the Settlement is approved, Plaintiffs and each
member of the Settlement Class who has not
requested proper and timely exclusion from the
Settlement Class, and their respective heirs,
executors, administrators, representatives, agents,
partners, successors, assigns, parents, affiliates,
subsidiaries, officers, directors, employees, agents,
and attorneys agree to fully release and forever
discharge SWBT and any predecessor in interest,
predecessor servicer, successor servicer, or assignee of
SWBT from any and all claims, actions, causes of
action, rights or liabilities which existed before
December 16, 1999, and are based on, arising out of, or
in any way relating to or pertaining to:
a.
Collection of Municipal Fees from
subscribers who reside or have resided in a
Texas Municipality with a Municipal Fee
Ordinance other than a Gross Receipts
Ordinance;
b.
SWBT’s
practices,
policies,
and
procedures, as well as all actions taken by
SWBT in connection with the same, regarding
the collection, accumulation, handling, custody,
control, distribution or use of Municipal Fees

327a
collected, assessed or attempted to be charged
by SWBT to subscribers who reside or resided in
a Texas Municipality with a Municipal Fee
Ordinance other than a Gross Receipt
Ordinance.
c.
and

Any of the claims stated in the Lawsuit;

d.
All claims arising out of, relating to, or in
connection with the institution, prosecution,
assertion, settlement or resolution of the
Lawsuit.
XII. INFORMATION YOU MUST INCLUDE
IN ANY DOCUMENT YOU
SEND REGARDING THIS CASE
In sending any document to the Court or to Counsel
for Plaintiffs and the Settlement Class and Counsel for
Defendant, it is important that both your envelope and
any documents inside contain the following case name
and identifying numbers:
Jose Mireles and Patricia Genuchi, on behalf of
themselves and all others similarly situated, vs.
Southwestern Bell Telephone Company, Cause No:
98-07-3003-E, in the District Court of Cameron
County, Texas, 357th Judicial District.
In addition, you must include your full name, address,
and
telephone
number.
DO
NOT
CALL
SOUTHWESTERN BELL REGARDING THIS
SETTLEMENT OR NOTICE.
XIII. FOR MORE INFORMATION
THIS NOTICE IS ONLY A SUMMARY. The full
Settlement Agreement, the Lawsuit, Orders, and other
documents on file in this case, may be inspected and

328a
copies made thereof at the Court Clerk’s office at the
address listed above. DO NOT WRITE OR
TELEPHONE THE CLERK’S OFFICE if you have any
questions about this Notice or the Settlement. Address
any questions regarding this Notice or the proposed
Settlement IN WRITING to Counsel for the
Settlement Class identified above.
DO NOT TELEPHONE THE CLERK OF COURT
OR SOUTHWESTERN BELL TELEPHONE
COMPANY REGARDING THIS NOTICE.
DIRECT TELEPHONE INQUIRIES TO:
1-800-__________.
Dated: ____________, 1999.

BY ORDER OF THE COURT.

329a
APPENDIX X (329a-344a)
Filed 11:55 O’CLOCK AM
AURORA DE LA GARZA
DIST. CLERK
JUL 30 1998
DISTRICT COURT OF
CAMERON COUNTY, TEXAS
/s/ Rosie Sotelo DEPUTY
CAUSE NO. 98-07-3003-E
JOSE MIRELES AND
PATRICIA GENUCHI,
On behalf of
Themselves And All
Others Similarly
Situated,
Plaintiffs,

§ IN THE DISTRICT COURT
§
§
§
§
§
§
§
vs.
§ CAMERON COUNTY EXAS
§
SOUTHWESTERN BELL §
TELEPHONE COMPANY, §
Defendant.
§ 357TH JUDICIAL DISTRICT
PLAINTIFF’S ORIGINAL PETITION AND JURY
DEMAND

Plaintiffs Jose Mireles and Harry Noble (“Plaintiffs”),
on behalf of themselves and all others similarly
situated (collectively referred to as the “Class”), by
their attorneys, file this Original Petition and Jury

330a
Demand and make the following class action
allegations against Defendant Southwestern Bell
Telephone Company (“SWBT” or “Defendant”).
I.
NATURE OF ACTION
1. Plaintiffs in this cause of action are consumers of
telecommunications
services
provided
by
Southwestern Bell Telephone Company (“SWBT”). As
one condition of receiving and continuing to receive
telephone service from SWBT, Plaintiffs pay, or paid,
to SWBT an amount that SWBT describes on their
statements as a “municipal charge.” To the best of
Plaintiffs’ knowledge, SWBT determines the
“municipal charge” based on the payments SWBT
makes, or made, to a city, pursuant to a franchise fee
ordinance.
2. Plaintiffs are suing SWBT for a refund of the
“municipal charge” which SWBT determined,
pursuant to an ordinance, in which a city imposes an
“Annual Charge” upon the Gross Receipts of SWBT.
The “Annual Charge” is a stated minimum annual
dollar amount. Specifically SWBT collects, or collected,
the “municipal charge” without authorization and/or
over collects, or collected, the “municipal charge.”
II.
JURISDICTION AND VENUE
3. The amount in controversy, exclusive of interest and
costs, exceeds the minimum jurisdictional limits of
this Court. Venue is proper under TEX. CIV. PRAC. &
REM. CODE § 15.002(a).
III.
THE PARTIES

331a
4. Plaintiffs Jose Mireles and Harry Noble on their
own behalf and on behalf of the Class, as further
defined below, bring this class action against SWBT to
secure redress for Defendant’ pattern and practice of
unauthorized collection and/or over collection of the
“municipal charge” which SWBT determined pursuant
to an ordinance, in which a city imposes an “Annual
Charge” upon the Gross Receipts of SWBT.
5. Plaintiff Jose Mireles is a resident of Cameron
County, Texas.
6. Plaintiff Harry Noble is a resident of Cameron
County, Texas.
7. Defendant SWBT is a Missouri corporation
providing telecommunication services within the
States of Texas, Oklahoma, Arkansas, Kansas and
Missouri. SWBT provides a broad variety of services to
the public in cities in Texas pursuant to franchises
granted by the various cities to SWBT and pursuant to
certificates of convenience and necessity issued by the
Public Utility Commission of Texas (“PUCT”), as well
as non-regulated services. SWBT’ s principle place of
business is St. Louis, Missouri. Pursuant to Section 17
.023(b) of the Texas Civil Practice Code, Defendant
SWBT has appointed a service agent, and may be
served with citation by serving:
Southwestern Bell Telephone Company
Durwood D. Dupre, Registered Agent
208 S. Akard, Room 3706
Dallas, TX 75202
IV.
CLASS ALLEGATIONS
8. This action is brought as a class action under Tex.
R. Civ. P. 42. Plaintiffs seek certification on behalf of a

332a
class of consumers of SWBT who are, or were, victims
of Defendant’s unauthorized collection and/or over
collection of the “municipal charge” based on payments
SWBT makes, or made, to cities pursuant to an
ordinance, in which a city imposes an “Annual Charge”
(a stated minimum annual dollar amount) upon the
Gross Receipts of SWBT.
9. Upon information and belief. Defendant is the entity
which established the policies and procedures to be
followed by its employees, agents, and representatives
to facilitate the unauthorized collection and/or over
collection of the “municipal charge” based on payments
SWBT pays, or paid, to a city pursuant to an
ordinance, in which a city imposes an “Annual Charge”
(a stated minimum annual dollar amount) upon the
Gross Receipts of SWBT.
l0. This action is properly brought as a class action for
the following reasons:
(a) The Class consists of hundreds of thousands of
persons and is thus so numerous that joinder of all
members, whether otherwise required or permitted, is
impracticable;
(b) There is a well-defined community of interest in the
questions of law or fact affecting the Class, which
predominate over any questions affecting only
individual members, including:
(i) Whether SWBT has a pattern or practice of
collecting the “municipal charge” without
authorization;
(ii) Whether SWBT has a pattern or practice of
over collecting the “municipal charge;”

333a
(iii) Whether SWBT’s pattern and practice of over
collecting the “municipal charge” constitutes
fraud;
(iv) Whether SWBT has overcollected
“municipal charge” from consumers;

the

(v) Whether SWBT has been unjustly enriched by
over collecting the “municipal charge” from
consumers;
(vi) Whether SWBT has collected the “municipal
charge” without authorization;
(vii) Whether SWBT’ s pattern and practice of over
collecting the “municipal charge” constitutes
unjust enrichment; and
(viii) Whether SWBT’s pattern and practice of
collecting the “municipal charge” without
authorization constitutes unjust enrichment;
(ix) Whether SWBT has breached its service
contract with its consumers by collecting the
municipal charge; and
(x) Whether SWBT has breached its service
contract with its consumers by over collecting the
“municipal charge.”
(c) The claims asserted by Plaintiffs are typical of the
claims of members of the Class;
(d) Plaintiffs will fairly and adequately protect the
interests of the Class in that among other things, they
have no interests antagonistic to those of the other
members of the Class, and Plaintiffs have retained
attorneys experienced in class and complex litigation
as counsel; and

334a
(e) A class action is superior to other available methods
for the fair and efficient adjudication of this
controversy for at least the following reasons:
(i) Given the size of individual Class Members’
claims, few, if any, Class Members could afford to
seek legal redress individually for the wrongs
SWBT committed against them;
(ii) When the liability of SWBT has been
adjudicated, claims of all members of the Class can
be determined by the Court;
(iii) This action will cause an orderly and
expeditious administration of the Class claims,
promote economies of time, effort and expense, and
insure uniformity of decisions;
(iv) Without a class action, the Class Members will
continue to suffer damages, and SWBT violations
of law will proceed without remedy while SWBT
continues to reap and retain the proceeds of their
wrongful conduct; and
(v) This action presents no difficulties that would
impede its management by the Court as a class
action.
(f) SWBT has acted or refused to act on grounds
generally applicable to the Class, thereby making
appropriate final injunctive and declaratory relief with
respect to the class as a whole.
11. Accordingly, Plaintiffs bring this action on behalf
of themselves and all members of the class defined as
follows:
All persons and entities (“consumers”) located in
the State of Texas who subscribe, or subscribed, to
telephone service provided by Southwestern Bell

335a
Telephone Co. AND pay, or paid, to Southwestern
Bell Telephone Co. a “municipal charge” which
Southwestern Bell Telephone Co. determined,
pursuant to an ordinance, in which a city imposes
an “Annual Charge” (a stated minimum annual
dollar amount) upon the Gross Receipts of
Southwestern Bell Telephone Co.
Excluded from the Class are: (a) the Defendant herein,
and the directors and officers thereof (b) the
subsidiaries, parents, and affiliates of Defendant. and
the directors and officers thereof; (c) any person or
entity in which any excluded person has a controlling
interest; (d) members of the immediate family of any
of the foregoing, if a natural person; and (e) the legal
representatives, heirs, successors-in-interest, and
assigns of any excluded person.
V.
STATEMENT OF FACTS
12. SWBT has the right to use public property to
provide telephone service. However, each municipality
may charge SWBT for the use of the municipality’s
right of way. SWBT’s payments to municipalities for
the use of the right-of-way are generally referred to as
a “franchise fee.” The terms are recited in an ordinance
enacted by a city. Normally, for the ordinance to
become effective, it is “accepted” by SWBT.
13. Beginning by at least 1991 and continuing
thereafter, Texas cities enacted ordinances that
impose an “Annual Charge” (a stated minimum
annual dollar amount) upon the Gross Receipts of
SWBT. The ordinances became effective upon”
acceptance” by SWBT.

336a
14. The “Annual Charge” ordinance contains the
following language or language similar thereto.
The TELEPHONE COMPANY will, according
to tariff, bill such charge to the customers billed
the customer service charges included within
the term “Gross Receipts” for the purpose of the
Annual Charge, shall include only customer
service charges billed through the Telephone
Company’s Customer Records Information
System (‘CRIS”) for the following which are
provided within the City:
(1) the recurring charges for the local
exchange access rate specified in the
Telephone Company’s tariff filed with the
P.U.C. for any Telephone Company services
which are also subject to an interstate end
user common line (“E.U.C.L.”) charge as
imposed by the Federal Communications
Commission” (“F.C.C.”); and,
(2) the recurring charges for intra exchange
private line services offered by Telephone
Company.
15. For example, each of the following municipalities
has the above quoted language or language similar
thereto as part of the ordinance that imposes an
“Annual Charge” (a stated minimum annual dollar
amount) upon the Gross receipts of SWBT:
Abilene
Amarillo
Arlington
Austin
Brownsville

(Ordinance No. 34-1991)
(Ordinance No. 6045)
(Ordinance No. 88-141)
(Ordinance No. 91-0801-A)
(Ordinance No. 95-1296)

337a
Corpus Christi
Dallas
El Paso
Fort Worth
Grand Prairie
Harlingen
Houston
Laredo
Longview
Lubbock
Midland
Odessa
Pasadena
Richardson
San Antonio
Tyler
Waco
Wichita Falls

(Ordinance No. 021373)
(Ordinance No. 20929)
(Ordinance No. 10966)
(Ordinance No. 11163)
(Ordinance No. 5007)
(Ordinance No. 95-40)
(Ordinance No. 91-1169)
(Ordinance No. 92-0-113)
(Ordinance No. 2249)
(Ordinance No. 9452)
(Ordinance No. 715 7)
(Ordinance No. 92-30)
(Ordinance No. 93-82)
(Ordinance No. 2884-A)
(Ordinance No. 75437)
(Ordinance No. 93-74)
(Ordinance No. 1995-18)
(Ordinance No. 13-92)

16. Each city imposes a unique payment on SWBT. For
example, Dallas imposes a minimum “Annual Charge”
of $15,400,000 upon the “gross receipts” of the
Telephone Company; the Dallas ordinance is identical
to that quoted in paragraph fifteen (15). Other cities
impose a distinct “Annual Charge” upon the “gross
receipts” of the Telephone Company; their ordinance is
identical or similar to that quoted in paragraph fifteen
(15).
17. SWBT collects all of the “municipal charge” from
current residential, business and private line
customers billed through Customer Records
Information System.
18. SWBT calculates the “municipal charge” billed to
current residential, business and private line

338a
customers based on the most basic charge for
telephone service.
19. A SWBT subscriber within a city that enacted an
ordinance that imposes an “Annual Charge” (a stated
minimum annual dollar amount) upon the Gross
Receipts of SWBT cannot independently verify, or
independently determine, the “municipal charge’’ on
his statement using SWBT’s tariff, the ordinance and
the line item charges on the statement.
20. SWBT charges rates, which are designed to recover
costs, based on tariffs filed with, and approved by, the
Public Utility Commission of Texas (“PUCT”). SWBT’s
current tariffs were filed with, and approved by the
PUCT, effective August 14, 1978, permits SWBT to
collect a “municipal charge” pursuant to an ordinance
which bases the compensation to the city on a
“percentage” of “gross receipts from the rendition of
local exchange telephone transmissions service” (or
similar language). The tariffs are based on a formula
which includes a “Tax%” and a “Service Charges
Subject to Tax.”
The ordinances which impose an “Annual Charge” (a
stated minimum annual dollar amount) upon the
Gross Receipts of SWBT do not state a ‘‘Tax
percentage.” They do not state a “Service Charges
Subject to Tax.”
21. In Texas, SWBT did not file a tariff with the PUCT
to collect the “municipal charge” pursuant to an
ordinance which imposes an “Annual Charge” (a
stated minimum annual dollar amount) upon the
Gross Receipts of SWBT; SWBT did not amend its
existing tariffs to collect the “municipal charge”
pursuant to an ordinance which imposes an “Annual
Charge” (a stated minimum annual dollar amount

339a
upon the Gross Receipts of SWBT. However, SWBT
has filed or amended its tariffs in almost every other
state in which it does business.
22. SWBT’s prior payment to the city was based on a
“percentage” of “gross receipts from the rendition of
local exchange telephone transmissions service” (or
similar language). As a result of the calculation, there
was a possibility that the city received more
compensation than the value of their facilities. This
resulted in a subsidization issue.
SWBT’s current payment to the city is based on an
“Annual Charge” (a stated minimum annual dollar
amount) upon the Gross Receipts of SWBT.
Presumably, the payment represents the reasonable
value of SWBT’s use of the city’s facilities. This would
not result in a subsidization issue.
23. Under SWBT’s method of calculating the
“municipal charge,” SWBT collects, or collected, the
“municipal charge” without authorization and/or over
collects, or collected, the “municipal charge.”
24. SWBT sends Plaintiffs and class members
statements for service. One mandatory component of
the statement is a billing for the “municipal charge.”
SWBT calculates, or calculated, this item pursuant to
an ordinance in which a city imposes an “Annual
Charge” (a stated minimum annual dollar amount)
upon the Gross Receipts of SWBT.
25. Plaintiffs and class members rely and have relied
on SWBT’s billing statements as being true and
correct. Plaintiffs and class members pay, and paid, to
SWBT a “municipal charge” relating to SWBT’s
unlawful “Annual Charge” collection formula.
CLAIMS AGAINST SWBT

340a
26. Whenever it is alleged in this Petition that SWBT’s
agents or representatives performed any unlawful,
discriminatory, or tortious acts, it is meant that such
acts are also the acts of SWBT. Moreover, SWBT, in
many ways, instigated, aided, abetted, or ratified the
wrongful acts of its agents and representatives against
Plaintiff.
27. All conditions precedent to Plaintiffs’ pursuit of
their legal rights alleged herein have been performed
or have occurred.
28. SWBT ratified any tortious acts by employees
alleged herein because they: (1) knew about the acts,
or in the exercise of reasonable diligence should have
known about the acts; (2) recognized that the acts
would continue if the offending person, agent, or
representative was retained, not penalized, or was not
further supervised; (3) did nothing to prevent these ongoing tortious acts; and/or (4) chose to retain and not
supervise nor penalize the offender.
FIRST CAUSE OF ACTION:
BREACH OF CONTRACT
29. Paragraphs 1 through 29 are incorporated herein
as alleged.
30. The conduct of SWBT in collecting the “municipal
charge” without authorization and/or over collecting
the “municipal charge,” constitutes a breach of
contract. Plaintiffs and class members are entitled to
recover an amount that represents the unauthorized
collection and/or the over collection of the “municipal
charge.”
SECOND CAUSE OF ACTION: FRAUD

341a
31. Paragraphs 1 through 31 are incorporated herein
as alleged.
32. SWBT concealed from Plaintiffs the correct
amount of “municipal charge” Plaintiffs should have
paid to SWBT. SWBT represented to Plaintiffs that
the “municipal charge”, which appeared on the
monthly billing statements were owed by the
Plaintiffs. In this regard, Defendant made false
representations of material facts and/or knowingly
concealed material information regarding the
“municipal charge;” such false representations or
concealments were known by Defendant to be false
and misleading; were made by Defendant with the
intention that Plaintiffs rely on said representations
and concealments; and plaintiffs did justifiably rely
thereon due to Defendant’s suppression of knowledge
to Plaintiffs’ detriment and damage; and was damaged
within the minimum jurisdictional limits of the court,
for which Plaintiffs now sue for actual and exemplary
damages.
THIRD CAUSE OF ACTION:
UNJUST ENRICHMENT
33. Paragraphs 1 through 33 are incorporated herein
as alleged.
34. SWBT, by and through its employees, agents, and
representatives, collects, or collected, without
authorization and/or over collects, or collected, the
“municipal charge.”
35. SWBT unauthorized collection and/or the over
collection of the “municipal charge” from Plaintiffs and
class members is offensive, unfair, and contrary to
public policy.

342a
36. SWBT unauthorized collection and/or the over
collection of the “municipal charge” is commercially
unreasonable, oppressive, unfair, and unconscionable.
37. As a result of the above, Defendant have had and
received and continues to receive money from
Plaintiffs and the members of the class, as payments
for the “municipal charge” that, in justice and fairness,
should be refunded and paid to Plaintiffs and class
members.
VII.
JURY DEMAND
38. Plaintiffs and the other Members of the Class,
demand a trial by jury on each and every issue of fact
raised by this Petition.
VIII.
PRAYER
WHEREFORE, Plaintiffs, on behalf of themselves and
on behalf of the members of the Class defined herein,
pray for judgment and relief as follows:
1. An order certifying that this action may be
maintained as a class action;
2. Compensatory damages in excess of the minimum
jurisdictional limits of this Court, including any
damages as may be ·provided for by statute;
3. A permanent injunction, enjoining SWBT from
collecting and/or over collecting the “municipal charge”
from consumers.
4. Punitive damages in an amount to be determined by
the trier of fact;
5. Pre- and post-judgment interest; and

343a
6. Such other and further relief, at law or in equity, to
which Plaintiffs and the other Members of the Class
may be justly entitled to receive.
Respectfully submitted,
STAPLETON, LIVESAY & COWEN
By: /s/ Ed Stapleton
State Bar No. 19058400
Michael R. Cowen
State Bar No. 00795306
1325 Palm Boulevard
Brownsville, Texas 75209
(956) 541-4981 - Telephone
(956) 504-3674 - Telecopy
STODGHILL
MELSHEIMER
LYNN
TILLOTSON, L.L.P.
Jeffrey M. Tillotson, P.C.
State Bar No. 20039200
John T. Cox III
State Bar No. 24003722
750 North St. Paul Street,
Suite 1400
Dallas, Texas 75201
(214) 981-3800 - Telephone
(214) 981-3839 – Telecopy
LAW OFFICES OF RANDALL S. BOYD
Randall S. Boyd
State Bar No. 02776500
P.O. Box 189
Denton, Texas 76202
(940) 382-2585 - Telephone
(940) 565-0645 - Telecopy

&

344a
ATTORNEYS FOR
PLAINTIFFS JOSE
MIRELES and HARRY
NOBLE On Behalf of
Themselves and All Others
Similarly Situated

